<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-245]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-245

         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on

                           H.R. 2771/S. 1686

AN ACT MAKING APPROPRIATIONS FOR THE LEGISLATIVE BRANCH FOR THE FISCAL 
         YEAR ENDING SEPTEMBER 30, 2008, AND FOR OTHER PURPOSES

                               __________

             Architect of the Capitol (except House items)
                      Congressional Budget Office
                    Government Accountability Office
                       Government Printing Office
                          Library of Congress
                          Office of Compliance
                      United States Capitol Police
                              U.S. Senate

                               __________

         Printed for the use of the Committee on Appropriations


   Available via the World Wide Web: http://www.gpoaccess.gov/
                          congress/index.html

                               __________





                     U.S. GOVERNMENT PRINTING OFFICE

33-929 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001















                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee

                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

                 Subcommittee on the Legislative Branch

                 MARY L. LANDRIEU, Louisiana, Chairman
RICHARD J. DURBIN, Illinois          WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
ROBERT C. BYRD, West Virginia        THAD COCHRAN, Mississippi
  (ex officio)                         (ex officio)
                           Professional Staff
                             Nancy Olkewicz
                    Carolyn E. Apostolou (Minority)
                        Sarah Wilson (Minority)

                         Administrative Support

                              Teri Curtin






























                            C O N T E N T S

                              ----------                              
                                                                   Page

                          Friday March 2, 2007

Architect of the Capitol.........................................     1

                         Friday, March 16, 2007

Government Accountability Office.................................    27
Government Printing Office.......................................    43
Congressional Budget Office......................................    49
Office of Compliance.............................................    52

                         Friday, March 30, 2007

U.S. Senate: Sergeant at Arms and Doorkeeper.....................    79
United States Capitol Police.....................................   105

                         Thursday, May 3, 2007

U.S. Senate: Office of the Secretary.............................   129
Library of Congress..............................................   203





























 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         FRIDAY, MARCH 2, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Allard.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF STEPHEN AYERS, ACTING ARCHITECT OF THE 
            CAPITOL


             opening statement of senator mary l. landrieu


    Senator Landrieu. Good morning. Thank you all for attending 
this morning's hearing. I'm pleased to be chairing my first 
Legislative Branch Subcommittee meeting and happy to have the 
good support of the staff behind me to prepare for the meeting 
and to, hopefully, get us off on the right foot.
    I look forward to working with Senator Allard, who will be 
here in just a minute. As you all know, we had two votes this 
morning, which is why the meeting had to be delayed.
    We meet today to take testimony on the fiscal year 2008 
budget request for the Architect of the Capitol (AOC). I want 
to welcome Stephen Ayers, Acting Architect of the Capitol.
    Mr. Ayers. Good morning.
    Senator Landrieu. Thank you for the great tour that you 
provided for me, my staff and members of my family last week at 
the new visitor center, which is still under construction. As 
we all know, there are many decisions still pending on this 
project but it is really a magnificent space.


                      capitol visitor center tour


    I appreciate your commitment to this organization and wish 
you good luck in this endeavor, as the members of the selection 
commission search for a candidate to serve as the next 
Architect of the Capitol.
    I want to start again by also thanking Tom Fontana and 
Shalley Kim of your staff for joining us on that tour. It was 
my first time down to the visitor center and I must say, I was 
more than impressed. I had heard a lot of wonderful things 
about the project and some critical things, of course, but I 
for one was not prepared for the grandeur and magnificence of 
the center. I think it will be an excellent addition to this 
historical Capitol Building, a symbol of democracy and an 
expression of the importance that we put on the work of the 
people, which is what this Capitol is about, not just for those 
of us that work here every day, but this Capitol expresses both 
in its architecture and in the work that goes on in this 
Capitol and its surrounding buildings, the great aspirations of 
the greatest democracy in the world.
    I'm looking forward to sharing this building with my other 
colleagues. I have no doubt that once this facility opens, it 
will be a tremendous source of pride to all who visit here and 
will increase the numbers of people who visit here and more 
importantly than the numbers, the quality of the visits of the 
people, both adults and children, who tromp through this 
Capitol regularly in all 12 months.


                  budget increases and project delays


    The Architect's budget request is $482 million, an increase 
of $82 million or 20 percent. There are a number of rather 
large items in your request, such as an additional $20 million 
for the visitor center, $25 million for repairs of the utility 
tunnels, and $87 million for various repairs to the Senate 
Office Building.
    When you testified last month, you announced that the 
schedule had slipped again so I hope you will let this 
subcommittee know how this might affect, either positively or 
negatively, your budget submission.
    Finally, before you begin your statement, I want to thank 
your entire staff for their hard work in maintaining the 
Capitol complex on a daily basis. It's a job larger than most 
people understand and I particularly want to thank Marvin 
Simpson of your staff for the assistance he has provided to me 
over many years since I came to Capitol Hill. He and the others 
on your staff are true professionals and I really appreciate 
their help.
    When Senator Allard gets here, I will ask him for his 
opening statement but why don't you go ahead and proceed, 
Stephen.


                   opening statement of stephen ayers


    Mr. Ayers. Thank you, Madame Chairman and thank you for 
this opportunity to testify today regarding our fiscal year 
2008 budget request.
    Since 1793, the AOC has been responsible for construction, 
maintenance, and preservation of the Capitol Building and the 
growing and evolving Capitol complex. The AOC has evolved as 
well. We have become more strategic in our thinking, more 
transparent in our processes, and more accountable to our 
clients.


                         performance management


    As you know, I recently assumed the duties of Acting 
Architect of the Capitol following the retirement of Alan 
Hantman. I've been working closely with the AOC team to ensure 
a smooth transition over the past few months. We have a new 
senior leadership team in place, made up of experienced, 
senior-level managers. We also have a number of new tools at 
our disposal to help set goals, manage projects, and plan for 
the long-term needs of the Capitol complex.
    Our most important tool is our strategic plan. In January, 
we launched our strategic plan for fiscal years 2007 through 
2011, a performance-based plan, which will help us continually 
enhance the effectiveness in carrying out our mission.
    As a result of these tools, we've had a number of successes 
in recent years. For example, we recently closed out 67 percent 
of the Government Accountability Office's (GAO) general 
management recommendations. We've improved our cost accounting 
procedures and internal controls and we received our third 
annual clean financial audit opinion from an independent 
auditing firm.
    Last year, we reduced energy consumption by nearly 6 
percent over the 2003 baseline, representing a 3.8-percent 
increase over our goal. Most importantly, we've improved our 
delivery of services to our clients, as demonstrated by our 
annual building services customer satisfaction survey. Since 
our 2002 baseline survey was conducted, we've steadily received 
high marks from our clients in areas such as maintenance, 
services provided by our AOC shops, and overall responsiveness.


                    annual operating budget request


    Madam Chairman, we've developed this budget through a 
deliberate planning process. We've reviewed many operating and 
capital project requests and made some difficult choices in our 
effort to be good stewards of the Capitol complex and to 
practice fiscal responsibility.
    Our 2008 annual operating budget request for $341 million 
is in support of our ongoing efforts to be more strategic and 
accountable, as well as other necessary support programs 
including implementation of an emergency preparedness program, 
purchasing utilities, procuring, operating and maintaining 
relevant information technology systems to support them, 
continuing to provide advanced training opportunities for our 
employees, and anticipating the operating costs of the Capitol 
Visitor Center (CVC).
    The second component of our budget for fiscal year 2008 is 
$131 million for capital projects. Chief among our 
responsibilities is maintaining, preserving, and upgrading the 
national treasures entrusted to our care. These include the 
facilities, grounds, artwork, and other assets, determining 
which work is done first and where our limited resources are 
best used involves a deliberate and multiyear planning 
approach.
    A vital tool we rely on during this process is our facility 
condition assessments. They help us prioritize our projects 
based on an objective set of criteria that allow us to evaluate 
the relative merits of each of these projects. Once a condition 
assessment is complete, this information is rolled into a 5-
year capital improvement plan. This plan is used to evaluate 
projects based on a set of pre-established criteria, including 
fire and life safety, code compliance, historic preservation, 
economics, life cycle cost considerations, physical security, 
and energy efficiency.
    These projects are further evaluated based on the condition 
of the facilities and their components and the urgency in 
correcting the identified deficiencies.


                      capitol complex master plan


    Looking further down the road, we're also developing a 
Capitol complex master plan, which requires executing necessary 
deferred maintenance and renewal work to keep existing 
facilities functioning while planning for major building 
renewals in the future. The master plan and individual 
jurisdiction plans seek to address these growing problems 
through a flexible investment strategy incorporating re-
investment and new construction.
    Key capital projects in our 2008 request include utility 
tunnel repairs, a Dirksen infrastructure project, and smoke 
detector upgrades in the John Adams Building. In addition to 
these new capital projects, we are committed to completing some 
long-term projects, specifically the Capitol Visitor Center and 
the utility tunnel repairs.
    Madam Chairman, we appreciate the interest you've taken in 
the CVC project and we appreciate your participation on the 
tour we conducted last week. Our 2008 request includes $20 
million for the CVC to cover potential sequence 2 to delay 
costs, CVC administration costs, construction management fees, 
and potential change order funding. The latest billing 
statements show that we are now 91 percent complete and major 
construction activities will begin to wind down in the next few 
months. The tasks left to do largely involve aesthetics and 
functionality of the space.


                          schedule adjustments


    Although we are continuing to make progress, the contractor 
continues to miss milestones developed by the contractor to 
prioritize the work needing to be done. The fact that a 
significant number of milestones were missed, in my mind, 
indicates that the overall schedule is not realistic, given the 
risks and uncertainties associated with the integration of fire 
and security systems and the building systems in general. The 
project team has been working aggressively to mitigate risks 
but it would be prudent to factor these risks and contingencies 
into the schedule.
    Specifically, these risks include commissioning of building 
systems and the overall acceptance and testing of the fire and 
life safety systems. After carefully evaluating past contractor 
performance schedules and the nature of the issues that remain, 
I have directed the project team to evaluate these potential 
risks into the current schedule to determine an adjusted 
completion date, since these risks are not in the current 
schedule.
    When we finish that assessment, we will notify the 
subcommittee as to our conclusions and recommendations. At this 
time, due to these outstanding factors, in my opinion, a 
certificate of occupancy for the Capitol Visitor Center will 
likely occur in the spring of 2008.


                   capitol visitor center operations


    Madam Chairman, at this time, I would like to briefly 
update you and the subcommittee on the CVC construction 
progress made over the last few months. Finishes are now being 
put in place in both the visitor center and House and Senate 
expansion spaces. In the great hall, all of the floor and wall 
stone is complete. Masons are finishing their last remaining 
stonework on the water features at the base of the two grand 
staircases. In the two orientation theatres, carpet and chair 
installation is complete. Workers are now completing the 
detailing on the millwork and fabric wall panels.


                            exhibition hall


    Work continues in the exhibition hall as workers continue 
to install glass floor panels around the wall of aspirations. 
All four escalator units have been set in place in the east 
front transition zone. With the escalators now in place, masons 
have resumed floor stone installation in the upper level lobby.


                        east front rotunda level


    At the Rotunda level of the east front, in the past week, 
the contractor has tasked five crews with setting sandstone 
blocks to the interior walls. These teams are now setting 80 
stones per day, exceeding our daily goal of 70 stones per day 
on the east front.
    Outside, all of the stone is complete along the curving 
walls, along the main entrance ramps and the foundations for 
light poles are now being installed. As the weather gets 
warmer, landscaping activities will begin in earnest, to 
include the planting of 53 new trees.


                 capitol visitor center management team


    In conclusion, Madam Chairman, the AOC has a rich history 
since the cornerstone of the Capitol was laid in 1793. We have 
become more strategic, transparent, and accountable. We've 
developed our 2008 budget request through a deliberate planning 
process. We've reviewed our priority list and made some 
difficult choices to be good stewards. We've accomplished much 
and experienced numerous successes in the last year, and these 
achievements are directly attributed to the dedicated, 
professional individuals that make up the AOC team.


                           prepared statement


    In my role as Acting Architect, I'm honored and privileged 
to work along side them. Because of their efforts and 
commitment to excellence, we will continue to provide 
exceptional service to the Congress and the visiting public. We 
greatly appreciate the subcommittee's support and will 
continually work to achieve our goals to transform the agency 
to be more strategic and accountable.
    That concludes my statement. I'm happy to answer any 
questions you may have.
    [The statement follows:]

                 Prepared Statement of Stephen T. Ayers

    Madam Chairman, Senator Allard, and members of the subcommittee, 
thank you for this opportunity to testify today regarding the fiscal 
year 2008 budget request for the Office of the Architect of the Capitol 
(AOC).
    Since 1793, the Office of the Architect of the Capitol has been 
responsible for the construction, maintenance, and preservation of the 
Capitol Building and the growing and evolving Capitol complex. The AOC 
has grown and evolved as well, particularly over the past several 
years. We have become more strategic in our thinking, more transparent 
in our processes, and more accountable to our clients.
    As you know, I recently assumed the duties of Acting Architect of 
the Capitol following the retirement of Alan Hantman on February 4. I 
have been working closely with Mr. Hantman and the rest of the AOC team 
to ensure a smooth transition over the past few months.
    In addition to my taking on the role of Acting Architect, we have a 
new senior leadership team in place made up of experienced, senior-
level managers with diverse skill sets, including the Chief 
Administrative Officer; Chief Financial Officer; Director of 
Congressional and External Relations; the Director of Planning and 
Project Management; and several others. They have brought new ideas and 
practices to the table and are committed to the continued 
transformation of the agency. In addition to these new ideas, we have a 
number of new tools at our disposal to use to help set goals, manage 
projects, and plan for the long-term needs of the Capitol complex and 
our clients.
    Our first and most important tool is our Strategic and Performance 
Plan. In 2003, we implemented our first Strategic Plan to become more 
strategic, transparent, and accountable. It was the blueprint we used 
in our efforts to deliver exceptional services to Congress and the 
visiting public. Throughout 2006, as one of my responsibilities as 
chief operating officer, our team worked to revise our Strategic Plan 
to reflect our priorities and goals for the next 5 years. In January, 
we launched our second, updated Strategic Plan for fiscal years 2007-
2011--a performance-based plan--which will help us to continually 
enhance our effectiveness in carrying out our mission. By setting 
goals, objectives, and measurable milestones we can better focus our 
efforts, set priorities, allocate resources, and facilitate 
decisionmaking throughout our organization.
    As a result of these new tools and processes, we have achieved a 
number of successes over the past year. For example, we recently closed 
out 67 percent of the Government Accountability Office's general 
management recommendations and we are on our way to closing out others 
over the next few months. We have improved our cost accounting 
procedures and internal controls and have seen our efforts pay off when 
we recently received our third-consecutive clean financial audit 
opinion from independent auditors. Last winter, we increased our 
efforts to improve energy efficiency Capitol Hill-wide. Following the 
passage of the Energy Policy Act of 2005, and thanks to the continued 
cooperation of congressional offices and hard work of AOC staff, last 
year we reduced energy consumption by nearly 6 percent over the 2003 
baseline, exceeding the fiscal year 2006 goal by 3.8 percent.
    Internally, we have been working to foster a results-oriented 
workplace and encourage communication and teamwork throughout the 
agency. This involves holding regular staff or shop meetings, 
conducting annual town hall meetings with all AOC employees to 
encourage open dialogues and feedback, and providing a variety of 
training opportunities. These efforts have also borne fruit, for 
example, our injury and illness rate decreased for the sixth year in a 
row. We dropped to 4.88 cases per 100 employees in fiscal year 2006 
from a high of 17.9 in fiscal year 2000.
    To establish greater accountability throughout the organization, we 
created a ``dashboard'' that summarizes AOC's performance. It contains 
a series of tactical or operational indicators that are tracked on a 
monthly basis and are for use by the chief operating officer and 
architect as well as superintendents and division heads to monitor the 
AOC's performance in several key areas. The dashboard also includes 
performance measures for each strategic goal area.
    In addition, 2 years ago we re-organized and established the 
Planning and Project Management Division to align project management 
staff and resources with our mission-critical goals and to consolidate 
project and construction management functions. This created a single 
point of responsibility for every project and provides ``cradle-to-
grave'' oversight. We implemented new processes designed to improve 
project tracking and reporting, including developing written procedures 
and manuals to follow throughout every step of the design, engineering, 
and construction stages of a project. We have modeled our work on 
industry's best practices and have joined a variety of professional 
organizations to keep up to date on the latest information and 
practices. Today, our design and construction teams interact daily by 
holding a variety of briefings and meetings to share experiences and 
increase communication to ensure that projects are done well, are done 
on time, and done within budget.
    Most importantly, we have improved our delivery of services to our 
clients as demonstrated by our annual Building Services Customer 
Satisfaction surveys. Since our baseline survey was conducted in 2002, 
we have steadily received high marks from our clients on areas such as 
maintenance, services provided by AOC shops, and overall responsiveness 
to their needs.
    We have developed this budget through a deliberate planning 
process. We reviewed many operating and capital project requests and 
made some difficult choices in our efforts to be good stewards of the 
Capitol complex and practice fiscal responsibility.
    The AOC's total budget request for fiscal year 2008 is $481.7 
million ($431 million without items specific to the House). A good 
portion of the fiscal year 2008 increase is the result of using fiscal 
year 2006 levels as the baseline in this budget request. For example, 2 
years worth of pay raises for our employees are included, as well as 2 
years of inflation on the other goods and services we procure. In 
addition, most of the increase in utilities is the result of using the 
fiscal year 2006 appropriation value for the Capitol Power Plant, 
before the impact of the 2006 reprogramming and the adjustment made by 
the House and Senate appropriators in our fiscal year 2007 continuing 
resolution levels.
Annual Operating Budget Request
    Our fiscal year 2008 annual operating budget request for $341.6 
million is to support our on-going efforts to be a strategic and 
accountable organization as well as support other necessary programs 
including the implementation of a new emergency preparedness program; 
purchasing utilities; procuring, operating, and maintaining relevant 
information technologies and the systems to support them; continuing to 
provide advanced training opportunities for employees, and anticipating 
operating costs of the Capitol Visitor Center (CVC) until the 
governance issue is determined.
    Specifically, the annual operating request would provide funding 
for minimal operational start-up costs, exhibits, gift shops, 
telecommunications, and information technology infrastructure support. 
It also covers the increased payroll costs resulting from the opening 
of the CVC and the need to hire additional full-time staff to support 
operations and maintenance functions.
    This request also would provide funding for the purchasing of 
supplies required for installation, conservation, and maintenance of 
the exhibits, rotation and preparation of documents, and conservation 
and artifact insurance required for those exhibits on loan to the CVC.
    We are also looking to increase our investment in information 
technology (IT) in fiscal year 2008 to re-establish base resources that 
have been reallocated to cover other budget shortfalls in past years. 
With today's ever-changing technologies, we are looking to protect our 
IT systems by installing the latest technology security programs, 
prepare for future technological needs, and install automated systems 
to include the Financial Management System, Human Resources Management 
System, and Computer-Aided Facility Management System.
Capital Project Budget Request
    The second component of our fiscal year 2008 budget request is 
$131.1 million for capital projects. Chief among our responsibilities 
is maintaining, preserving, and upgrading the national treasures 
entrusted to our care by Congress. This includes the facilities, 
grounds, art work, and other assets. Determining which work is done 
first and where our limited resources are best used involves a 
deliberate approach and multi-year project planning.
    A vital tool that we rely on during this process is our Facility 
Condition Assessments (FCAs). An independent contractor, using common 
industry standards, has been conducting FCAs throughout the Capitol 
complex since 2004. The FCAs help us to prioritize our projects based 
on a set of objective criteria that allow us to evaluate the relative 
merits of each of these projects. FCAs provide us with a method for 
measuring the current condition of all facilities in a uniform way to 
assess how much work is necessary to maintain or upgrade their 
conditions to acceptable levels to support organizational missions and 
help to determine when this work should occur.
    It is important to try to meet the infrastructure needs for these 
facilities within appropriate timeframes in order to prevent their 
conditions from deteriorating further, resulting in the costs to 
correct these deficiencies to rise. Therefore, it is key to look at a 
multi-year, fiscally-responsible, holistic plan to attend to these 
issues. Once an FCA is completed on all the facilities, this 
information is rolled into a 5-year Capital Improvement Plan (CIP). The 
CIP is used to evaluate projects based on a set of pre-established 
criteria. These criteria include whether the work addresses fire and 
life-safety issues; code compliance; preservation of historic or legacy 
elements; economics and life cycle cost considerations, physical 
security and other considerations, such as environmental and energy 
efficiency. The projects are further evaluated based on the conditions 
of the facilities and their components, and the urgency in correcting 
the deficiencies.
    Looking even farther down the road, we are also developing the 
Capitol Complex Master Plan (CCMP) which requires executing necessary 
deferred maintenance and renewal work to keep existing facilities 
functioning while planning for major renewal projects. The CCMP and 
individual Jurisdiction Plans seek to address these growing problems 
through a flexible investment strategy incorporating reinvestment and 
new construction. Each Jurisdiction Plan is being evaluated to ensure 
sequencing of short- and long-term priority work is properly expedited 
and aligned to ensure successful execution and avoid duplication of 
efforts. Ultimately, the CCMP will establish a framework that will help 
the AOC to prioritize the maintenance, renovation, and construction of 
facilities over the next 5, 10, and 20 years while allowing for prudent 
budgeting of the costs for necessary upkeep and construction.
    Using the CIP process, we are able to comparatively vet the 
projects to ensure that the most urgent get addressed most quickly. 
Setting these priorities and setting limits resulted in some projects 
not rising to the top of the list based on the objective criteria used 
as part of the CIP process. It is not that these projects are not 
important. They are all needed and are mission critical, but the 
fiscally responsible thing to do is address the urgent needs first. 
This multi-step methodology was used to produce the project priority 
list included in our fiscal year 2008 budget request submitted for the 
subcommittee's consideration.
    As in previous budgets, our focus is on ensuring that fire and 
life-safety deficiencies are corrected and that significant resources 
are devoted to protecting the people who work and visit the Capitol 
complex. Safety is one of the AOC's top priorities.
    Key capital projects included in the AOC's fiscal year 2008 budget 
request are:
  --utility tunnel repairs and improvements ($24.8 million). The multi-
        year project addresses safety issues in the utility tunnels and 
        improves conditions relating to egress, ventilation, 
        communications, and asbestos.
  --Infrastructure improvements in the Dirksen Senate Office Building 
        ($8 million). Second phase of a three-phase project to replace 
        aged and deteriorated air handling units to maintain 
        ventilation and occupant comfort.
  --Emergency lighting upgrades ($4.4 million). Correct emergency 
        lighting deficiencies in the Rayburn House Office Building by 
        modernizing existing systems.
  --Smoke detector upgrades ($6.5 million). Upgrade the LOC's John 
        Adams Building to current code requirements for smoke detection 
        systems.
    In addition to these new capital projects, we are committed to 
completing some long-term projects, specifically the Capitol Visitor 
Center (CVC) and repairing the utility tunnels.
Capitol Visitor Center Budget Request and Project Update
    Our fiscal year 2008 budget request for the CVC includes $20 
million to cover potential Sequence 2 delay costs, CVC administration 
costs, construction management fees, and potential additional change 
orders.
    The latest billing statements and schedule show that the project is 
91 percent complete. Major construction activities will begin to wind 
down over the next few months. The tasks now left to do largely involve 
the aesthetics and functionality of the space such as painting and 
installation of carpet, lighting fixtures, hand railings, decorative 
woodwork, as well as the tie-in of building systems.
    Although we are continuing to make progress, the contractor 
continues to miss scheduled activities or ``milestones''--interim 
target dates from the schedule developed by the contractor to 
prioritize work needing to be done to complete the project. The fact 
that a significant number of milestones were missed, in my mind, serves 
as an indicator that the overall schedule is not realistic given the 
risks and uncertainty associated with the integration of the fire and 
security systems and the building systems. The project team has been 
working aggressively to mitigate several risks, but it would be prudent 
to factor these risks and contingencies into the schedule. 
Specifically, they are (1) commissioning of building systems, and (2) 
acceptance testing of fire, security, and life-safety systems to 
include testing to ensure the building systems and fire and life-safety 
systems are integrated and work together properly.
    After carefully evaluating past contractor performance, schedules, 
and the nature of issues that remain, I directed the project team to 
evaluate the potential risks to the current schedule to determine an 
adjusted completion date since the two risks I discussed were not built 
into the current schedule or into the fire and life-safety acceptance 
testing plan. When we finish this assessment, we will notify the 
subcommittee as to our conclusions and our recommendations. At this 
time, due to the outstanding factors we are dealing with, in my opinion 
the certificate of occupancy will likely occur in spring 2008.
    Madam Chairman, at this time, I would like to briefly update the 
subcommittee on the construction progress that we have made over the 
past few months on the CVC.
    Work is ongoing to put the finishes in place in both the Visitor 
Center and House and Senate expansion spaces. In the Great Hall, all of 
the floor and wall stone is complete. Masons are finishing the last 
remaining stonework in the water fountains at the base of the 
staircases.
    In the two orientation theaters, carpet and chair installation is 
complete. Workers are completing the detailing on the millwork and 
fabric wall panels. Many of the wall lighting and speaker elements have 
been installed and crews are now putting in the bronze railings. Work 
continues in the Exhibition Hall as workers continue to install glass 
floor panels around the Wall of Aspirations.
    In the East Front transition zone, all four escalator units have 
been set into place alongside the central stair connecting the CVC to 
the Capitol. The escalators had occupied floor space in the upper level 
lobby between the two orientation theaters. With this space now clear, 
masons have resumed floor stone installation at this location and will 
soon complete this last remaining major block of floor space in the 
CVC.
    At the Rotunda level of the East Front, in the past week, the 
contractor has tasked five crews with setting the sandstone blocks to 
the interior walls. The teams are setting approximately 80 stones per 
day, exceeding the daily goal of setting 70 stones in the East Front.
    Outside, almost all of the stone is complete along the curving 
walls along the main entrance ramps and the foundations for light poles 
are being installed. As the weather gets warmer, landscaping activities 
will begin in earnest, including the planting of 53 new trees.
    Madam Chairman, the Office of the Architect has had a rich history 
since the cornerstone of the Capitol was laid in 1793. Over the years, 
the AOC has grown and evolved much like the complex which we maintain 
and preserve. As I noted previously, we have become more strategic in 
our thinking, more transparent in our processes, and more accountable 
to our clients.
    We have developed our fiscal year 2008 budget request through a 
deliberate planning process. We reviewed our priority list and made 
some difficult choices in our efforts to be good stewards of the 
Capitol complex and practice fiscal responsibility. Using tools we 
developed based on industry's best practices, we have determined which 
projects are done first and where our resources are best used.
    As I discussed earlier, as a result of putting plans into place, 
creating new and innovative tools and processes, and setting 
priorities, we have accomplished much and experienced numerous 
successes. These achievements can be directly attributed to the 
dedicated, professional individuals that make up the AOC team. In my 
role as Acting Architect, I am honored and privileged to work along 
side them. Because of their efforts and commitment to excellence, we 
continue to provide exceptional service to Congress and the visiting 
public.
    We greatly appreciate this subcommittee's support as we continually 
work to achieve our goals and transform our Agency into a results-
oriented workplace. Madam Chairman, once again, thank you for this 
opportunity to testify today. I'd be happy to answer any questions you 
might have.

                           ADDITIONAL FUNDING

    Senator Landrieu. Thank you for that excellent although 
brief statement. Can you be as specific as possible about any 
additional funding that your office may need in 2007 or 2008, 
based on the completion estimates of the visitor center? Have 
you submitted that in your testimony this morning any 
additional funding that might be necessary?
    Mr. Ayers. We don't believe that additional funding is 
necessary in 2007. I think the continuing resolution, the way 
it was structured, gave us the necessary flexibility to carry 
us through 2007. In addition, we've requested $20 million in 
our 2008 request. We believe that's sufficient to carry us 
through 2008.

                   CAPITOL VISITOR CENTER GOVERNANCE

    Senator Landrieu. Thank you. I understand that Bob Hixon, 
the Project Executive, is planning to retire at the end of the 
month. Do you have plans to provide comparable leadership at 
this critical stage or could you talk for a moment about that?
    Mr. Ayers. Yes, ma'am. Mr. Hixon is retiring. We do 
continue to twist his arm but he is holding steady at the 
moment. We developed a transition plan several months ago and 
we'll be moving Doug Jacobs, our current Project Design 
Manager, into the Project Executive role. Doug has been on the 
project for nearly 7 years and is well respected throughout the 
Congress and is well versed in the in's and out's of the 
project. We're comfortable and confident that his leadership 
skills will bring it to conclusion.

                      FIRE ALARMS AND HVAC SYSTEMS

    Senator Landrieu. I understand that GAO has expressed 
concerns about the fire alarms and heating, ventilation and 
air-conditioning systems and I understand there will be several 
months of actually testing these systems, which is contributing 
to the extension of the opening. And you mentioned it briefly 
in your opening statement but could you add a few thoughts 
about where we are in terms of the progress we are making on 
this particular aspect of the building?
    Mr. Ayers. Yes, ma'am. We believe most of the delay for the 
fire alarm systems are behind us now, with essentially all of 
our submittals for the fire alarm system approved or in the 
approval process. So work is ongoing on the installation of the 
fire alarm system in earnest. It has contributed to significant 
delay thus far. There is risk that remains as, once it's 
installed, we have to pretest it and then go through an 
extensive acceptance testing process to ensure it works as it 
is designed. There is risk remaining in that and we're working 
now to accommodate that risk in the construction schedule.

                   FIRE ALARMS SYSTEM DIFFERENTIATION

    Senator Landrieu. For the lay people among us, can you 
explain the difference between the fire alarm system in the 
visitor center and the current fire alarm system in the Capitol 
Building itself? Are we trying to have the same system or is 
this one far superior to what is in the current building?
    Mr. Ayers. This system is far more superior and more 
sophisticated than the current system in the Capitol Building, 
absolutely, because the CVC is a below-ground, assembly 
facility. It involves a significant matrix that includes the 
control of doors and operating equipment and various other 
security features are all tied into the fire alarm system that 
makes it a little more unique than the system we currently have 
in the Capitol Building.
    Senator Landrieu. And there will be ways, as we're testing 
this, to make sure that at the end, it will actually work? So 
you can see, stage by stage, if something needs to be fixed? 
Because I've seen these design systems in other aspects of our 
Government and the theory of the design is terrific but when 
you get down to actually making it work, you end up producing 
something that actually fails to work appropriately. We would 
not want that to happen in this center.
    Mr. Ayers. Yes, ma'am, you're absolutely right. The 
critical phase of that is the final acceptance testing of all 
of these fire alarm systems. That is where it is put through 
its paces and all of these individual systems are tested 
together in that final stage, to be sure that it does work. We 
expect that process to take at least 6 months, so it's a very 
extensive testing program to validate that it works as 
designed.

                       LIBRARY OF CONGRESS TUNNEL

    Senator Landrieu. Okay. So while we're anxious to get 
things done, we don't want to short circuit this testing 
period, which I think is important for the complexity of the 
system. The Library of Congress--the status of the work on the 
Library of Congress tunnel and the associated connection of the 
Jefferson Building--have delays been encountered? If so, why 
and what steps have been taken to ensure the cost of all the 
work will not exceed the statutory $10 million limit?
    Mr. Ayers. We're comfortable with that at the moment. We 
believe we'll be $200,000 or $300,000 below that requirement. I 
think the work is now 65 or 68 percent complete, so the 
unforeseen site conditions are out of the way. We have a clear 
understanding of the work that remains and that work is behind 
schedule by a number of months. We do believe it will be 
finished in the May or early June timeframe. We're watching 
that very closely. You may have heard us talk about our action 
plan. The work that is going on in the tunnel as well as the 
space in the Jefferson Building are all part of the action 
plan. We look at that schedule very carefully in a separate 
schedule meeting on that particular piece of the work alone so 
we understand that there is some risk there, but we're steadily 
focused on it and we're comfortable that we'll be able to 
complete it under the $10 million cap.

                          VISITOR TRAFFIC FLOW

    Senator Landrieu. Well, one of the exciting things about 
the expansion, when I made the tour, was thinking about the 
improvement in the quality of the tour for our visitors and our 
citizens. To be able to move freely between the Capitol and the 
Library of Congress, which I think is one of the most beautiful 
buildings in the whole complex and actually under visited 
because there is no system for visitors to access it easily. So 
I'm very excited about this. And, I think the way that you 
indicated how people will flow from one part of the Capitol, 
through the visitor center, and to the Library of Congress, I 
think it will help encourage visitors to the Library of 
Congress. Not that it does not have a very high profile among 
visitors generally, but this will really raise its profile, 
because it's truly an extraordinary building on its own.

                      FORT MEADE LOGISTICS CENTER

    The Library of Congress is requesting $44 million in the 
2008 budget for a logistics center at Fort Meade. I understand 
that that is not included in your priority of requests at this 
time. Could you comment about that? In your view, it is a high, 
medium, or low priority and what are your views about the needs 
for additional storage?
    Mr. Ayers. I am very familiar with that project, as I was 
previously the superintendent for the Library buildings and 
grounds, so I was intimately involved in its development. There 
is no question it is an important project, one that the Library 
of Congress thinks is an immediate need. From our perspective, 
when it shook out in the overall priorities, throughout the 
Capitol complex, it did not make what we thought was a 
reasonable budget request.

                  CAPITOL POLICE CONSTRUCTION REQUEST

    Senator Landrieu. I'm looking forward to hearing a bit more 
from the Capitol Police about this and I understand that you 
have to prioritize and make those decisions. Do you support the 
Capitol Police request for construction that is included in 
this budget? Could you comment about the Capitol Police 
construction request?
    Mr. Ayers. Yes, ma'am. We have a couple of initiatives on 
the capital side for the Capitol Police. One is the vehicle 
barriers on Independence Avenue. They have expressed that 
that's an important matter and we do have that in our budget. 
In addition, we have our standard Capitol buildings and grounds 
request, including a minor construction component that we 
believe will meet the needs of the Capitol Police. We do work 
and partner with them very closely in our budget development.

               CAPITOL COMPLEX MASTER PLAN REVIEW PROCESS

    Senator Landrieu. Who approves the Architect's master plan 
and could you review, from your perspective, the role of this 
subcommittee and the Senate Rules Committee, relative to your 
master planning process?
    Mr. Ayers. Yes, ma'am. We believe ultimately that the 
Capitol complex master plan should be approved by the 
leadership of the Congress. Certainly this subcommittee and the 
Rules Committee need to play an integral part in the 
development of that plan but from our perspective, the plan 
will be much more significant once it is finally approved by 
the leadership of the Congress.
    Senator Landrieu. I have been joined by Senator Allard, who 
served as chair of this committee for many years. So I would 
like to turn to him right now and I will come back to my 
questions. I'll ask Senator Allard if he has an opening 
statement and I thank you for your leadership and your guidance 
through the expansion of--one of the largest expansions of the 
Capitol in the Capitol's history, if not the largest.

               OPENING STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Well, thank you, Senator Landrieu and I 
look forward to working with you over the next couple years. 
We're going to continue to have some challenges, I can see that 
already and I think you'll be a very able chairperson.
    Also, before we make an opening statement, I would like to 
recognize Bob Hixon. You know, Bob Hixon has graciously been 
showing up at my hearings for 2 years. We've kept him busy. He 
has testified many times before this subcommittee and it's my 
understanding that this could be his last Senate subcommittee 
hearing. I hear a sigh of relief when I mention that.
    I understand Bob is retiring March 31 and so I wanted to 
recognize him in a public way. He has been a driving force on 
the CVC project. As Project Executive, he has tackled many of 
the challenges in making it a reality. Bob has regularly 
juggled thousands of tasks associated with the project and he's 
done it very well and he has provided exceptional service, I 
think, to the Architect of the Capitol and to the Congress. 
He's had a long, successful Government career with the majority 
of his career spent at the General Services Administration, 
where he served for several years as Director for the Center 
for Construction Project Management. So we appreciate Bob's 
commitment to the CVC project and his leadership. He's been a 
consummate professional, in my view, through his service. So 
thank you, Bob.
    Senator Landrieu. Bob, why don't you stand up and we'll 
give you a round of applause?
    Senator Allard. Well, thank you, Madam Chairman and 
congratulations again on your chairmanship for this 
subcommittee. Some members of our committee view this as the 
least desirable post but I believe it is one of the most 
important, frankly and I think we need to take care of our 
backyard. You and I have that responsibility, ensuring that the 
legislative branch is positioned, through adequate funding, to 
fulfill its constitutional duties. I think it is very critical 
and I look forward to working with you.
    Mr. Ayers, it's good to see you here. This is your first 
hearing before this subcommittee as the Acting Architect. 
You're wearing two hats, I understand, right now and I don't 
know how you keep up with that kind of a schedule because those 
two positions are demanding.
    Last year, you came before us as the Acting Chief Operating 
Officer. You've held many positions at AOC just within the past 
several years. Superintendent of the Library buildings and 
grounds, Deputy Superintendent of the Senate office buildings, 
before becoming the Chief Operating Officer. I believe you've 
done a good job and I wish you the best as the Acting 
Architect.
    Mr. Ayers. Thank you, sir.

                     LEGISLATIVE BRANCH COMPLIANCE

    Senator Allard. Madam Chairman, one of the initiatives I 
pursued as chairman of this subcommittee was to bring the 
legislative branch into compliance with the spirit and intent 
of the Government Performance and Result Act. This act 
encourages greater effectiveness, efficiency, and 
accountability in the Federal Government. It requires agencies 
to set goals and use meaningful measures for management and 
budgeting. While the legislative branch is not statutorily 
required to do so, we require that of all other branches 
outside the legislative branch. I believe the legislative 
branch should be held to the same standards. We shouldn't have 
two sets of standards. I feel strongly about that so you can 
expect me to bring up how it is that we're managing and are we 
setting goals and objectives and are we meeting those, to be 
held accountable for our actions.
    And I will lend my support to programs that have proven to 
be effective by meeting or exceeding those performance goals.

                         OPERATIONS MANAGEMENT

    I was pleased to see in your written testimony, Mr. Ayers, 
the discussion about the importance of setting goals, 
objectives, and measurable milestones and the need to establish 
greater accountability within the agency. There is more work 
that needs to be done in this area. The AOC has made progress 
over the past several years in using performance measures and 
developing budgets based on objective criteria, particularly 
through the capital improvement plan.
    Finally, I'd like to thank the AOC and GAO for providing 
the Lessons Learned report on the Capitol Visitor Center 
construction project on time and with jointly agreed upon 
recommendations from the two agencies. I believe this was a 
very useful exercise. It should keep the Architect of the 
Capitol from repeating problems it has experienced on the 
Capitol Visitor Center project in future construction projects. 
From what I saw from the wish list that came out of the House 
side, there is going to be major construction going on around 
here for some time and I hope we can implement those lessons 
learned.
    This report points out the need for better methods for 
incentives for contractor performance, improved coordination 
and communication, maintaining a solid project schedule, and 
clarifying the role of the construction management contractor.
    Madam Chairman, this concludes my statement. What time 
would you like to wind up? I have a lot of questions. We may 
not have time to address of all them and I would submit some of 
those but I have them prioritized and I'll ask them in their 
order, depending on how much time I may have.
    Senator Landrieu. I think we have sufficient time, you may 
take 15 minutes for questions if that is good. If not, I will 
be happy to have you submit those for the record.
    Senator Allard. Very good.
    Senator Landrieu. Would you like to ask a few now? Go right 
ahead.
    Senator Allard. Let me take a few. I will, Madam Chairman, 
if you don't mind.

                            UTILITY TUNNELS

    I want to first discuss the utility tunnels. It has been 
over 1 year since the Office of Compliance filed a complaint 
for the AOC's failure to remedy safety concerns in the utility 
tunnels. Congress approved $27.6 million in emergency 
supplemental funding last year to begin to remediate these 
problems. What has been accomplished in the last year on the 
remediation of the tunnel problems? I believe some of the 
tunnels that we thought were the greatest risk perhaps aren't 
as great as a risk and some of the tunnels we thought were 
relatively safe aren't as safe as we assumed. So I think there 
has been some readjustment on priorities and I wish you would 
address that.
    Mr. Ayers. Yes, sir. Thank you. In terms of the emergency 
supplemental that the subcommittee was able to provide, we have 
now obligated nearly $25 million to make headway on the repairs 
to the utility tunnels. We have completed, as of the end of 
December, I think, December 29, the comprehensive facility 
condition assessment of all of the walkable tunnels. That's the 
document that outlines exactly what the problems are and 
exactly what needs to be completed. As the result of that, we 
were able to award much of that emergency supplemental money.

                      TUNNEL CONDITION ASSESSMENT

    There are some things that have changed since our initial 
look in April 2006. Chief among them are the condition of the 
``Y'' tunnel versus the condition of the ``R'' tunnel. Clearly, 
the condition assessment noted that the ``R'' tunnel is in 
worse structural condition than the ``Y'' tunnel. In addition, 
one of the things we learned recently in the ``R'' tunnel is 
that not only does the roof of the ``R'' tunnel need to be 
replaced, much of the walls along that tunnel also need to be 
replaced. That's something that we had not anticipated.
    Similarly, the condition assessment noted some 
deterioration in the ``G'' tunnel that we had not anticipated 
as well.
    In terms of what has been accomplished, we have abated 
asbestos in the ``B'' tunnel and in the ``V'' tunnel. We've 
found the presence of mold in the ``B'' tunnel and we have 
abated that. Currently under construction is one new egress 
point in the ``Y'' tunnel and we have recently awarded a 
contract for a second egress portion on the ``Y'' tunnel. As I 
noted, we completed the condition assessments and we're 
currently in the ``Y'' tunnel, cleaning the dust and debris out 
of that tunnel.

                           SCHEDULING DELAYS

    Senator Allard. Thank you, Mr. Ayers. I'd like to move to 
the CVC.
    I understand that you are reassessing the schedule and plan 
to get that done by early April. Is the project continuing to 
miss 2 weeks in the project schedule every month and is this a 
problem we're going to continue to see under your leadership?
    Mr. Ayers. Well, there's no question if you look back at 
the history of the project, in the last year, we've lost 2 
weeks in every month. Clearly to me, that indicates that our 
schedule is not realistic. So what we're doing now is we're 
going back and re-evaluating that schedule to ensure it is 
realistic and re-baseline that so that we don't continue to 
slip 2 weeks every month.

               GOVERNMENT ACCOUNTABILITY OFFICE TESTIMONY

    Senator Allard. Well, Madam Chairman, I've had the 
Government Accountability Office sitting here in prior 
hearings, giving us a report and how they feel about CVC 
progress. They have been our eyes and ears and I'm not saying 
that we necessarily have to have them at this particular point 
in time but it does bring to my attention our tunnel problem. I 
might suggest to you, in considering on the tunnel issue, where 
I think we're going to perhaps run into similar delay problems 
that we ran into with the CVC that we have the GAO to monitor 
the project. They act as our watchdog.
    Senator Landrieu. I most certainly will consider that 
because I know this tunnel issue has been something that has 
taken a great deal of time of Senator Allard in the past and we 
want to make sure the issues, from health issues to 
construction issues to safety issues are properly addressed. So 
I'll consider that.

                           PROJECT MANAGEMENT

    Senator Allard. Mr. Ayers, will the recent slip in schedule 
require you to amend your budget request for CVC operations 
since opening will be 6 months later than was assumed in your 
budget?
    Mr. Ayers. Yes, sir. We are doing that re-evaluation now. 
We have a team that is looking at all of the operational costs 
that we had projected, based upon a February completion date. 
We are re-evaluating those costs now to determine if there are 
impacts to that.
    Senator Allard. Now, what will you do to institutionalize 
the lessons learned from the CVC project so as to improve 
project management in future construction projects because I 
can see us using those lessons learned when we get to the 
tunnel construction.
    Mr. Ayers. Yes, sir. That's a great point and in order to 
institutionalize them, we will take them and we will hold a 
series of training seminars with all of our project managers. 
We have to communicate what those lessons were. We've already 
begun that process. In recent months, we've started an 
Architect's briefing, where we pull out one of our independent 
or one of our ongoing construction projects, and brief that to 
our senior leadership team. We've had people like Bob Hixon 
come as well and offer some advice on current projects, lessons 
learned on projects, and how this issue on the CVC has been 
handled and how we could better handle the issue on a different 
project. So that cross pollerization is already underway.
    Senator Allard. I appreciate you keeping that in the 
forefront because there definitely are lessons to be learned 
there, things that we can correct in future projects.

                        PERFORMANCE-BASED BUDGET

    Last year, we were told that the fiscal year 2008 budget 
would be the Architect of the Capitol's first performance-based 
budget. Could you tell us how the 2008 budget is different from 
previous budgets in this regard?
    Mr. Ayers. Well, our 2008 budget is not necessarily a 
performance-based budget. I think that is planned for fiscal 
year 2009. In 2008, our budget is currently based on our 
strategic plan but it doesn't ultimately get to a complete 
performance-based budget yet. We have to roll out and complete 
our cost accounting system before we are able to achieve that 
goal. We've had some slowdowns in that process over the last 
year. The continuing resolution is affecting us right now with 
our ability to retain consultants to help us with that, but we 
have developed a strategic plan. The budget does follow the 
strategic plan but ultimately, the costs that are associated 
with each of the individual elements in the strategic plan are 
not quite in our budget yet. So we anticipate that will happen 
in the 2009 budget request.
    Senator Allard. I felt all along that we've been more than 
agreeable as far as meeting your budget needs that you've 
requested and so you're saying that you need more money for 
this? Or is it the cost accounting problem that is delaying 
this?
    Mr. Ayers. No, I don't think we need more money for the 
cost accounting system. It's the fact that we have a continuing 
resolution this year that affects our ability to spend that 
money this year. So it is--I guess it is a money problem this 
year, which is slowing down the implementation of our cost 
accounting system.
    Senator Allard. All along, we've made sure you had the 
money and kept the project going. We didn't want any money tied 
up that wasn't available so I do hope that we can get the cost 
accounting lined up quickly so that we can begin to apply some 
logical approach to your budget. So I'd encourage you to get 
that put together without delay. If you can do this in the next 
budgeting cycle, that would be good. I'd be very pleased.

                          CAPITOL POWER PLANT

    Madam Chairman, let me go to one other issue that's been a 
problem we've had to deal with, again on meeting timelines and 
budget, and that's the west refrigeration plant project. Last 
year, we were told that the $100 million west refrigeration 
plant expansion would be finished by last summer. I understand 
you are now projecting completion for this summer. Why do we 
have continued delays there?
    Mr. Ayers. Yes, sir. The west refrigeration plant--it's 
really two projects in one. First is the west refrigeration 
plant that we are expecting completion in June of this year. We 
have taken beneficial occupancy of the chillers. They've been 
running for several weeks now effectively, so we're comfortable 
with the construction. We're going through the final checks and 
balances and the closeout process over the next month. It has 
been delayed through significant problems found during the 
commissioning process. Contractors have had to go back and redo 
some work and retune the systems.
    Similarly, we found significant differing site conditions 
and underground utilities. An 8-inch gas line has caused 
several months delay in that project so similarly, it's delayed 
until June.
    The second portion of that is the digital control system on 
our boilers. That project we expected, similarly, to have done 
this fall. But, an outage on one of our boilers through most of 
last year, from January through October, delayed the 
implementation of the control system on those boilers. So as 
soon as the winter months are past us, we'll begin the 
implementation of that control system on the boilers and expect 
that to be done in December.

            GOVERNMENT ACCOUNTABILITY OFFICE RECOMMENDATIONS

    Senator Allard. The GAO recommended the Architect of the 
Capitol develop a staffing plan for significantly reducing and 
then retooling the staffing at the Power Plant. What has been 
done to meet those recommendations?
    Mr. Ayers. We do have a staffing plan in place. With the 
delays that are present in the west refrigeration plant as well 
as the digital control system of the boilers, we believe it's 
important not to implement those staffing reductions until 
those automated control systems are in place and employees are 
ready to use them. Doing so now, we think would be premature. 
It's unfortunate we faced the delays and the breakdown in one 
of our major boilers but we think it would be premature to do 
it now until we have those automated controls. I think those 
staffing reductions were based on the automated controls.

                         PERFORMANCE STANDARDS

    Senator Allard. Madam Chairman, as you can tell from our 
line of questioning, we've got three major projects out here: 
the tunnels, the Capitol Visitor Center and the Power Plant 
that have been plagued with delays. I don't envy you in the 
position that you're in right now because I think you have some 
real challenges. I think this subcommittee has some real 
challenges ahead of us to oversee these, to make sure we can 
keep these delays to a minimum at the very least. So thank you, 
Madam Chairman.
    Senator Landrieu. Thank you, Senator Allard, for your 
knowledge and interest in this subject and I really appreciate 
your assistance as I get started on this subcommittee.

                    POWER PLANT OPERATIONS EXPENSES

    Let me follow up on the Capitol Power Plant for a minute. 
What is the estimate for the reduction of operating expenses 
when the new Power Plant is operational as opposed to the last 
Power Plant? Are we going to reduce the workforce, be able to 
reduce the workforce by 40 percent or 50 percent or more, in 
terms of operating staff?
    Mr. Ayers. Madam Chairman, I'll have to respond to that for 
the record. We do expect to be able to achieve some reductions 
in staff. The new chiller plant is significantly more energy 
efficient than the old plant so there will be some operating 
reductions there as well. I'll have to research those and pull 
those percentages together for you.

                     COMMUNITY GROUP RELATIONSHIPS

    Senator Landrieu. Okay, if you would. And as a resident of 
Capitol Hill myself, as some of you may know, I understand that 
there are several civic organizations on Capitol Hill, 
including Moms on the Hill, CHAMPS, which is the Capitol Hill 
Association of Merchants and Professionals, that are concerned 
about the environmental impacts of the Power Plant and also the 
aesthetics of the plant, relative to the neighbors and 
neighborhood. Can you comment about what your relationship is 
with those community groups? How do you interface with them and 
would you define that relationship as open and cordial or in 
another way?
    Mr. Ayers. Yes, ma'am. I do believe the relationship with 
the Moms group is open and cordial. We have met with them as 
recently as this December and understand their concerns and we 
are responsive to their concerns. Unfortunately, I'm not 
familiar with the CHAMPS group. I don't know if we've met with 
them or not--I'll have to research that and let you know that 
for the record.
    We've communicated to these groups that the Power Plant is 
in compliance with its title 5 permit. So we do maintain open 
relationships, we do occasionally get phone calls that we 
respond to immediately and we do think that relationship is 
open and communicative.
    Senator Landrieu. I just think it is very important. 
Sometimes I think that it's overlooked that this complex has 
major impacts on the neighborhoods surrounding the Capitol. 
While the neighbors are generally more than pleased and honored 
to live in proximity to the Capitol, we have to realize that it 
does impact these neighborhoods. We are a big player in a 
relatively small sized city. Not that Washington, DC, is by any 
means a small town, but it is less than 600,000 people and the 
Federal Government has a huge impact on the residents of the 
city. So I would urge you all to be as sensitive as you can be 
to the neighborhood groups.

                   CAPITOL IMPROVEMENT PRIORITIZATION

    Senator Allard talked about the tunnels, which is 
important. I am interested to know, Mr. Ayers, are you directed 
by any particular law that is on the books as to prioritizing 
the improvements of the Capitol or are you asked to give your 
professional judgment about the improvements at the Capitol 
that are necessary? I'm not talking about operation and 
maintenance. I'm talking about improvements. Or is it a 
combination of that or is it requests from Members of Congress 
to consider major improvements? Could you describe that for the 
record, the process of beginning to consider major improvements 
to the complex?
    Mr. Ayers. Yes, ma'am, we certainly do have a series of 
building codes and laws and regulations which with we comply. 
That certainly is part of our project planning process and our 
long-term process is to be in compliance with those laws. 
Similarly, as we've developed the Capitol complex master plan, 
it's been a deliberative process that we've gone out and 
reached out to Members and committees to get input of what the 
long-term vision of the Capitol complex is. So we do get input 
from Members and committee staff as to what the needs are.
    Senator Landrieu. And it's all wrapped up into the 5-year 
planning process or a 5-year master plan?
    Mr. Ayers. It's wrapped up into the 20-year master plan 
that we are working to budget in 5-year increments.
    Senator Allard. Madam Chairman, may I?
    Senator Landrieu. Yes, please. Go ahead.

                 CAPITOL COMPLEX MASTER PLAN FOLLOW UP

    Senator Allard. I'd just like to follow up on that question 
a little bit, if I might. I just want to point to one specific 
example. I'm not questioning your priority setting. I just want 
to understand your process, like the chairman does here. This 
has to do with the warehouse of the Library of Congress. Last 
year, your budget included funds for a new warehouse at Fort 
Meade for the Library of Congress and I noticed that this 
project did not make the cut in your budget request for 2008 
and I'd like to know why. I'm not questioning your decision. 
I'd just like to know your process on that.
    Mr. Ayers. Certainly. Last year, our project prioritization 
included importance, project importance, and we evaluated every 
project against these five pre-established criteria that noted 
project importance, including historic preservation and mission 
and economics and life safety and security elements and each 
project was given a relative score and that's how we 
prioritized the project in our budget.
    We've enhanced that process in the last year to not only 
look at project importance but we also look at project type, 
such as deferred maintenance, capital renewal, capital 
investment, and capital construction. We generally will put 
deferred maintenance and capital renewal projects toward the 
top of our list and capital construction to the bottom, as we 
want to take care of what we have before we build new. That's 
the second element.
    And the third element, project urgency, is now part of our 
evaluation process. As we go through with condition assessments 
from our independent vendor, looking at all of our buildings 
and systems, each of those is given an urgency rating. We 
determine whether it needs to be done this year, or in 5 years, 
or in 7 years. So those two layers of project type and project 
urgency had been overlaid on our budget process and 
prioritization process this year, which puts that particular 
project further down the list.
    Senator Allard. That's because that is a new construction 
project and based on that, it got moved down some and it was 
less urgent than some of the other things that you had, is that 
basically what you said?
    Mr. Ayers. That's exactly correct.

                     FORT MEADE LOGISTICS WAREHOUSE

    Senator Allard. The Librarian has gone and requested that 
the warehouse be in his own budget. Do you support that 
approach?
    Mr. Ayers. I think there may be some merit to that. In my 
judgment, the Architect is often placed in a very tenuous 
position of passing judgment on the Librarian of Congress' 
projects and the Chief of Police's projects and the Senate 
Sergeant at Arms and the Chief Administration Officer of the 
House, among others. We have tried to develop an objective 
process but certainly, we think the logistics center at Fort 
Meade for the Library of Congress is a very important project. 
I know the Librarian believes that it is absolutely critical 
and it needs to be done this year. So from my perspective, I 
think if those things were in their own individual budgets, 
there would be a more collaborative approach to those projects. 
I think those individual organizations may be more accountable 
for the projects that they submit and they can even do 
tradeoffs in their own budgets about what they may prioritize 
and what they push off to a different year in order to get a 
particular project.
    Senator Allard. Thank you, Madam Chairman.
    Senator Landrieu. Thank you. Senator Allard, I have 
completed my line of questioning. Did you have anything else 
that you would like to get onto the record before we close the 
meeting?
    Senator Allard. Madam Chairman, I have one more issue.
    Senator Landrieu. Go right ahead.

                    INFORMATION TECHNOLOGY PROJECTS

    Senator Allard. I hope it doesn't take too long. It has to 
do with information technology. Your budget includes $22 
million for information technology. Now, that's a 60-percent 
jump in resources over fiscal year 2006. It kind of catches our 
attention. This includes $3.7 million for your financial 
management system and then $1.7 million for an inventory 
control system. Can you explain the need for a large increase 
in IT projects?
    Mr. Ayers. Yes, sir. We believe that increase is absolutely 
vital to our success, vital to our ability to close out the 
remaining GAO recommendations that are from our general 
management review. Similarly, our ability to sustain and 
institutionalize our financial management practices and 
continue our clean audit opinions, we think are based on this 
financial management request we've made.
    Similarly, in the last 3 years, we've been underfunded in 
our information technology systems. It is a significant 
request. We understand that. But we think it is vitally 
important to our continued success.
    Senator Allard. As a result of not keeping up your IT, has 
there been any degradation in agency services?
    Mr. Ayers. Absolutely, sir. This year, for example, we 
planned to do our Project Information Center. It's our ability 
to track all of our ongoing projects in one comprehensive 
electronic information system. We don't have such a system now. 
It's a recommendation by GAO that we produce one. We have that 
money in our 2007 budget. We're not able to do it because of 
the continuing resolution and you'll now find that in our 2008 
budget. So similarly, in our ability to achieve project success 
and manage schedules, we think it is an important part of that 
request.
    Senator Allard. The GAO in their management review state 
that AOC made progress in improving your IT management controls 
and accountability but they say that work remains to fully 
implement an effective agencywide approach to IT management. In 
light of GAO's findings, are any of your 2008 budget requests 
for information technology projects premature?
    Mr. Ayers. No, sir, I don't think so. I think the money 
that is in our 2008 request will enable us to achieve those 
recommendations.
    Senator Allard. You haven't prioritized all your IT 
investments as the GAO recommended, have you? Or did you 
prioritize those?
    Mr. Ayers. I'd have to answer that for the record.
    Senator Allard. Would you get us a written response on 
that?
    Mr. Ayers. Yes, sir.
    [The information follows:]

                 Management Controls and Accountability

    Yes, the AOC is working with the GAO to reach a resolution 
on the IT investment management recommendations. The AOC has 
made significant progress and continues to work with the GAO to 
resolve remaining issues. The GAO recommended that the AOC 
develop and implement IT investment management processes. The 
AOC has implemented processes and assigned specific roles and 
responsibilities to senior-level review boards. The AOC has 
begun to implement portfolio-based investment decision-making 
processes, including developing criteria to select investments 
that best support AOC goals, objectives and mission. The AOC is 
continuing to work towards prioritizing all of the necessary IT 
investments.

    Senator Allard. Madam Chairman, thank you.

                           DIVERSE MANAGEMENT

    Senator Landrieu. Thank you. This has been an excellent 
hearing. I will close with a comment and a thank you on a 
lighter but important note. I understand that over one-half of 
your positions have been filled by women, your senior positions 
and I want to commend you for that. Many of our agencies within 
the legislative branch are trying to make sure that they are 
seeking diverse and professional talent in their hiring 
practices. And I hope that might be reflective of the tour that 
I took of the Capitol Visitor Center, where I was told and 
happy to hear that the lavatory space is doubled or tripled for 
the women visitors to the Capitol center. So since this is an 
issue in public buildings everywhere, let me say as a new 
chairman, I thank you for that consideration.
    Mr. Ayers. You're not the only one to be concerned about 
that.
    Senator Landrieu. That is correct because a lot of men do a 
lot of waiting as well.

                     ADDITIONAL COMMITTEE QUESTIONS

    If there are any additional questions, they will be 
submitted to your Office for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Mary L. Landrieu
                       operation and maintenance
    Question. Please provide a graph of the percentage of AOC funds 
spent on operation and maintenance relative to new construction over 
the last 20 years.
    Answer. The attached chart (Attachment 1) outlines funds for 
operations and maintenance relative to projects for the past 15 years 
and our fiscal year 2008 budget request. Over the last 20 years, the 
AOC's financial systems and budget process have changed several times. 
The information gathered from fiscal year 1993 to present provides the 
most concise budget numbers related to maintenance relative to new 
construction.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                        west refrigeration plant
    Question. Please provide a detailed explanation for the West 
Refrigeration Plant Expansion delays, and a schedule for completing all 
elements including the Digital Control System.
    Answer. There are three major items that adversely affected the 
construction schedule of the West Refrigeration Plant Expansion 
Project; differing site conditions, contractor technical complications 
and Government delays.
    Differing Site Conditions.--The two most significant differing site 
conditions that were discovered on this project were the 8 inch high 
pressure Washington Gas main and the WASA sewer reconstruction.
  --The 8 inch high pressure gas main was not detailed on the 
        construction documents. Once the gas main, which exclusively 
        serves the U.S. Capitol Power Plant boilers, was discovered, it 
        had to be relocated so that the new WASA sewer could be 
        constructed. The relocation of the gas line took place from 
        May-September 2003, an approximate 5 month project delay. 
        Washington Gas insisted that the gas line be relocated, and it 
        had to be executed while maintaining service to the boiler 
        house, as the U.S. Capitol Power Plant could not operate the 
        boilers reliably without natural gas service.
  --The 100 year old WASA sewer as-built details did not accurately 
        depict all of the conditions. This differing site condition 
        necessitated the need to redesign the sewer tie-in points. 
        Different soil conditions in this area also caused delays.
    Contractor Technical Complications.--The contractor experienced 
delays due to the WASA sewer work. This contributed to the contractor's 
inability to complete the fire sprinkler system installation and the 
functional testing of the mechanical equipment.
  --The WASA sewer tie-in was more difficult to construct than the 
        contractor had anticipated, resulting in an execution of a by-
        pass pumping solution. The by-pass pumping solution took place 
        from March-August 2004, an approximate 6 month delay.
  --The contractor did not complete the project's life safety systems; 
        fire sprinkler, fire alarm and elevator in accordance with the 
        negotiated milestones, which resulted in concurrent delays.
  --The contractor had to repeatedly perform control function testing 
        to document reliable chilled water systems.
    Government Delays.--The delays that were caused by the Government 
were related to project redesigns, the inability to isolate old 
equipment because of faulty valves, control integration between the new 
and old refrigeration plants, and additional AOC operational 
coordination and training.
  --Fire sprinkler/fire alarm redesign issues.--In March 2006, the 
        contract scope increased to install the revised sprinkler 
        system. Several new sprinkler design criteria were added to the 
        West Refrigeration Plant Expansion Project, resulting in 
        additional pipe risers, changes to branch piping layouts, 
        reclassification of the sprinkler zones, adding side wall 
        sprinklers at the east face of the new cooling towers and 
        increasing the pipe thickness to schedule 40 pipe for sprinkler 
        piping inside the cooling towers.
  --Water chemical treatment system.--The water chemical treatment 
        system was revised to allow for compatibility with the type and 
        quantity of chemicals for the treatment of both the existing 
        West Refrigeration Plant and the new condenser water systems. 
        The objective was to reconfigure the size and type of chemical 
        storage tanks that are being provided under the West 
        Refrigeration Plant Expansion Project. As part of this 
        revision, the pump skids, controllers and associated fill 
        piping for the system were revised for safety and operational 
        reasons.
  --Control integration.--The distributed control system control logic 
        and sequence changes were revised in the contract, providing 
        controls to reconfigure and automate the existing West 
        Refrigeration Plant and tie into the new West Refrigeration 
        Plant Expansion project.
  --AOC operational coordination.--Piping connections between the new 
        and existing refrigeration plants were reconfigured to ensure a 
        reliable means of sending chilled water out to the U.S. Capitol 
        campus. The scope of work involved short outages to the 
        existing West Plant, and could only be performed during winter 
        months. During the first two initial short outages, the Capitol 
        Power Plant was unable to isolate the systems due to faulty 
        valves, causing some of the outages to be delayed until the 
        2006-2007 winter period when the valves and piping could be 
        replaced.
    Boiler Plant Distributed Controls System.--This scope of work in 
the boiler plant is part of the base contract under bid option 1, and 
was originally contracted to be completed by September 1, 2005. In 
January 2005, the distributed control system project was significantly 
changed from control logic and data collection spread throughout the 
boiler plant to two centralized data collection and processing rooms, 
also called rack rooms. The distributed control system data, via hard 
wire control points, was also redesigned in such a way that loss of 
either rack room would still enable the plant to be functional and meet 
the heating and cooling requirements of the U.S. Capitol complex.
    The complete redesign was further amended in May 2006 to match the 
existing burner management systems that remained in place. The redesign 
also integrated the existing boiler plant master control systems. 
Follow-on coordination between the Capitol Power Plant operations staff 
and the contractor to maintain operations was more difficult than 
anticipated and impacted the overall contract schedule. In addition, 
boiler repairs, boiler maintenance schedules and operational 
reliability limited the time frame that the boilers could be taken off-
line for control integration.
    Schedule.--We are currently negotiating a revised contract 
completion date with the contractor. The projected schedule for 
completing the remaining elements of the contract is depicted on the 
attached time line (Attachment 2). The new West Refrigeration Plant 
Expansion chiller systems were turned over on January 26, 2007. Between 
now and April 16th, the contractor will be working on piping and 
controls integration between the new and old refrigeration plants. The 
existing West Refrigeration Plant is currently off line while the 
contractor connects the large bore piping between the two plants. The 
remainder of the time will be used to complete other work such as: 
Transfer electric panel loads to new load centers; Commission the new 
fuel oil system; Correct deficiencies and; Close-out the West 
Refrigeration Plant Expansion Project.
    We have experienced a number of design and operation delays that 
have impacted the completion of the distributed control system for the 
new boilers. To ensure Capitol Power Plant boiler plant reliability to 
the U.S. Capitol campus we will begin the integration of the boilers to 
the new Distributed Control System in July 2007, during the summer 
months. This integration is scheduled to be completed not later than 
spring 2008.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. The meeting is recessed. Thank you.
    [Whereupon, at 11:30 a.m., Friday, March 2, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         FRIDAY, MARCH 16, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senator Landrieu.

                    GOVERNMENT ACCOUNTABILITY OFFICE

STATEMENT OF HON. DAVID M. WALKER, COMPTROLLER GENERAL 
            OF THE UNITED STATES
    Senator Landrieu. The subcommittee will come to order. Good 
morning, and welcome to everyone.
    Regrettably, Senator Allard is attending a family funeral 
in Colorado this morning and will not be able to join us. So, 
our thoughts, prayers, and condolences are with him and his 
family this morning.

               PREPARED STATEMENT OF SENATOR WAYNE ALLARD

    But I do understand that he's prepared a statement for the 
record, and, at this time, I will submit it on his behalf.
    [The statement follows:]
               Prepared Statement of Senator Wayne Allard
    Madam Chairman, I regret that I cannot attend this morning's 
hearing with the Government Accountability Office, the Government 
Printing Office, the Congressional Budget Office and the Office of 
Compliance.
    There are many important issues before these agencies, not the 
least of which is the large percentage increase being requested by 
each--especially the Government Printing Office with a 49 percent 
increase over the fiscal year 2007 continuing resolution level.
    The Government Accountability Office is requesting $523.8 million 
for fiscal year 2008, which will return GAO to the fiscal year 2006 
operating level. Thanks to Comptroller General David Walker and his 
staff, our subcommittee has received excellent assistance in overseeing 
legislative branch agencies, particularly the Architect of the Capitol 
and the Capitol Visitor Center, as well as the Capitol Police 
management issues.
    An issue I would like GAO to address is its capacity to continue to 
undertake technology assessment work. I understand there is interest in 
starting up the old Office of Technology Assessment, and frankly I'm 
very concerned about that idea. GAO had a pilot project to do 
technology assessment projects several years ago, which was very 
successful. GAO subsequently completed three additional projects on 
technology assessment which were requested on a bi-partisan and 
bicameral basis, and were well-received as I understand it. I would 
like to know whether GAO can continue to perform such work, on a bi-
partisan, bicameral basis, with appropriate peer review, and whether 
this is consistent with GAO's mission. The notion of starting up a new 
agency at a time when we have extraordinary budget constraints does not 
make sense.
    With respect to the Government Printing Office, I would note that 
Bruce James retired at the end of last year and the Acting Public 
Printer, Bill Turri, has been ably filling his shoes. GPO's request of 
roughly $182 million is a 49 percent increase, as I mentioned earlier. 
I understand that this increase is in part due to the need to re-pay 
the revolving fund for shortfalls in Congressional printing and binding 
costs, and the 2006 updating of the U.S. Code. GPO is able to use the 
revolving fund for these shortfalls, but we must pay those funds back.
    In addition, GPO has numerous information technology improvements 
which have been deferred or are nearing completion and need the final 
infusion of funds to complete. Having said that, we know your full 
request likely will be difficult to fully accommodate, so we look 
forward to seeing a prioritization of your request.
    The Congressional Budget Office has a new director, Dr. Peter 
Orszag, who comes to CBO with excellent credentials and I look forward 
to working with him. CBO is requesting a steady-state budget of almost 
$38 million and 235 employees, but is now asking for additional funds 
for health-care related work. I look forward to getting more 
information on the need for that additional work.
    Finally, the Office of Compliance, represented by Ms. Tamara 
Chrisler, is requesting just over $4 million. The office is in the 
midst of completing a settlement with the Architect of the Capitol on 
the complaint OOC filed over a year ago on the utility tunnels. That is 
a precedent-setting case and that has taken tremendous resources. We 
look forward to that coming to conclusion shortly so that AOC can move 
ahead expeditiously with its repairs and improvements in the tunnels.
    Madam Chairman, this concludes my statement.

             OPENING STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Today, we meet to take testimony on the 
fiscal year 2008 budgets for the Government Accountability 
Office (GAO), the Government Printing Office (GPO), the 
Congressional Budget Office (CBO), and the Office of Compliance 
(OOC). Since we have four agencies testifying this morning, I 
ask that each of you just present your remarks in summary form. 
I've read all of your statements, and they will be included for 
the record.
    We're looking at some pretty substantial increases in your 
steady budget requests. While I realize the continuing 
resolution held you to 2006 dollars in fiscal year 2007, we 
really need you to think about the priorities that you have as 
we move forward in this process. Priorities in this context may 
mean overall lower dollars that we have to work with, but we 
will explore this as the subcommittee moves forward.
    I want to welcome today's witnesses: David Walker, Bill 
Turri, Peter Orszag, and Tamara Chrisler. Thank you all for 
attending, this morning.
    The Government Accountability Office budget request totals 
$523 million, which is an increase of 8 percent over the 
current year and would fund an increase of 104 full-time 
employees. I appreciate the oversight your agency has provided 
to this subcommittee, on both the Capitol Visitor Center and 
the utility tunnel repair work. I want to particularly thank 
Bernie Ungar, Terry Dorn, and Gloria Jarmon, of your staff, for 
their hard work and assistance to me and to my staff on these 
complicated and time consuming projects.
    I hope to have a detailed conversation with you today, Mr. 
Walker, about a number of workforce issues, including the 
implementation of the GAO Human Capital Act of 2004, 
legislation you requested from Congress. Some of the promises 
that you made have not yet been completely fulfilled, and we'll 
talk about where we are in that process a little later.
    The Government Printing Office budget request totals $182 
million, a 49-percent increase over fiscal year 2007 and would 
include 86 additional employees.
    Mr. Turri, I hope you're prepared to defend this request, 
which is literally doubling your current budget. I understand 
that there are some expansions and changes in technology, and 
we'd like to hear more about that today.
    The Congressional Budget Office budget request totals $38 
million, which is an 8-percent increase over current year, and 
would support the current level of 235 employees. I understand 
the CBO is looking into expanding the scope of their work to 
include identifying and analyzing ways to control healthcare 
spending. I look forward to hearing more about that proposal 
this morning.
    And, finally, the Office of Compliance is requesting $4.1 
million, which is an increase of $1 million, or 32 percent, 
over the current year, and would fund four additional 
employees.
    Ms. Chrisler, I appreciate the fact that your organization 
has had an increased workload over the last year because of the 
problems in the utility tunnels, and I look forward to hearing 
an update on the progress being made by the Architect of the 
Capitol (AOC) in addressing the issues in the complaint filed 
by your agency.

 <greek-l>GAO deg.GOVERNMENT ACCOUNTABILITY OFFICES' FISCAL YEAR 2008 
                             BUDGET REQUEST

    Now, Mr. Walker, if you would begin. And let me thank you 
for your visit to my office. I found it extremely enlightening 
and insightful. I want to begin by commending you on what I 
consider to be an excellent job that you're doing. I want to 
help you to continue to achieve more of the goals that you 
outlined to me. But I'd like to allow you to make your 
statement. We will then question some of the increases in your 
budget.
    Mr. Walker. Sure.
    Senator Landrieu. Thank you.
    Mr. Walker. Thank you, Madam Chair. It's a pleasure to be 
here today to talk about GAO's fiscal year 2008 budget request.
    I would like to thank you and the subcommittee for your 
past support of GAO. I'm especially appreciative of your 
efforts to try to provide us some additional funding above 
fiscal year 2006 levels, rather than just a flat-line 
continuing resolution, which we had been under. That helped us 
to avoid unpaid furloughs, but, as you know, because we still 
had a shortfall, we could only make our pay raises retroactive 
to February 18, 2007, rather than January 7.
    I'm particularly pleased with the results that GAO achieved 
for the Congress and the American people. For fiscal year 2006, 
we returned $105 for every $1 invested in GAO--number one in 
the world. Second place in the world is 24 to 1. I think it's 
important--and I know you believe this--to consider results, 
not just resources, because the U.S. Government needs to do a 
better job, I believe, in linking resources to results.
    While 2006 was a record year for us in many regards, we've 
had to delay and cancel a number of items, because we're 
operating under constrained resource levels. As you undoubtedly 
know, since 2003 GAO's budget has not kept pace with inflation. 
Our purchasing power is down 3 percent since 2003, which 
concerns me because about 80 percent of our budget is for 
payroll costs, and, needless to say, you have to pay people 
more than inflation, especially top performers. The other 20 
percent of our budget is primarily nondiscretionary costs which 
are subject to inflationary increases. So, that's a real 
concern.
    Candidly, Madam Chair, my concern is we've done a lot of 
things to improve our economy, our efficiency, and our 
effectiveness, but they're about played out. I'm very concerned 
that unless we receive a more reasonable resource allocation 
that's better aligned with our results, it's going to start to 
have an adverse effect on employee morale, on our ability to 
serve the Congress, and on our ability to generate the type of 
unparalleled return on investment that we've delivered to the 
Congress and the country in recent years.
    We have, and will continue to take steps to try to deal 
with constrained resource levels. We are asking for about an 8-
percent increase for next year, which is designed to try to 
help deal with some of the deterioration in our purchasing 
power in recent years, and to be able to fund some of the 
projects that we've had to defer for quite a number of years.

 <greek-l>GAO deg.REBUILDING GOVERNMENT ACCOUNTABILITY OFFICE OVER THE 
                              NEXT 6 YEARS

    Looking beyond fiscal 2008 I promised the Congress, when I 
came in, in 1998, that I would do everything that I could to 
improve the economy, efficiency, and effectiveness of GAO. 
Nonetheless I was asked virtually every year, ``What's the 
optimum staffing level for GAO?'' I've always said, ``I'm not 
going to ask for any more, at this point in time, until I 
believe that we've accomplished the first objective.'' I 
believe we've accomplished that objective now. I have 6\1/2\ 
years left until the end of my 15-year term. Based upon 
preliminary estimates, and based upon the many challenges that 
the Congress and the country face, I believe we and the 
Congress need to think about taking GAO, over the next 6 years, 
from about 3,200 personnel to potentially up to about 3,750, 
for a number of reasons, which I will provide in detail as a 
supplement for you to consider in the future. This does not 
relate to our fiscal 2008 budget request. It is an attempt to 
try to look longer-range and to try to help begin the 
discussion over our longer-range role and resources, because I 
think it's important to do so.

                           PREPARED STATEMENT

    Thank you very much, Madam Chair, and I'm happy to answer 
any questions that you may have.
    Senator Landrieu. Thank you very much.
    [The statement follows:]
                 Prepared Statement of David M. Walker
    Mrs. Chairwoman and members of the subcommittee: I am pleased to 
appear before the subcommittee today in support of the fiscal year 2008 
budget request for the U.S. Government Accountability Office (GAO). The 
requested funding will help us continue our support of the Congress in 
meeting its constitutional responsibilities and will help improve the 
performance and ensure the accountability of the Federal Government for 
the benefit of the American people. An overview of GAO's strategic plan 
for serving the Congress and our core values is included as appendix I.
    I would also like to thank you and your subcommittee for your past 
support of GAO. I am especially appreciative of your efforts to help us 
avoid a furlough of our staff during fiscal year 2007. Had we not 
received additional funds this year and not taken other cost 
minimization actions, GAO would have likely been forced to furlough 
most staff for up to 5 days without pay. At the same time, due to 
funding shortfalls, we were not able to make pay adjustments 
retroactive to January 7, 2007.
    It is through the efforts of our dedicated and capable staff that 
we were able to provide the Congress with the professional, objective, 
fact-based, nonpartisan, non-ideological, fair, and balanced 
information it needs to meet the full range of its constitutional 
responsibilities. I am extremely pleased and proud to say that we 
helped the Federal Government achieve a total of $51 billion in 
financial benefits in fiscal year 2006--a record high that represents a 
return on investment of $105 for every dollar the Congress invested in 
us. As a result of our work, we also documented 1,342 nonfinancial 
benefits that helped to improve service to the public, change laws, and 
transform government operations. The funding we received in fiscal year 
2006 allowed us to conduct work that addressed many difficult issues 
confronting the Nation, including U.S. border security, Iraq and 
Hurricane Katrina activities, the tax gap and tax reform, and issues 
affecting the health and pay of military service members. Our client-
focused performance measures indicate that the Congress valued and was 
very pleased with our work overall.
    While fiscal year 2006 was a record year, we will be required to 
constrain vital support to our staff and engagements in fiscal year 
2007 in order to manage within available funds. Although the additional 
funding provided by the subcommittee allows us to avoid a furlough of 
our staff, we must implement a number of actions to cancel, reduce, or 
defer costs in order to manage within fiscal year 2007 funding 
constraints. In fact, our fiscal year 2007 budget for most programs and 
line items retains funding levels at or near fiscal year 2006 funding 
levels--requiring that we absorb inflationary increases, which in turn 
reduce our purchasing power, erode progress toward our strategic goals, 
and ultimately affect our client service and employee support. For 
example, in our travel account--a critical element in our ability to 
conduct firsthand evaluation of federal funding and program 
activities--we expect transportation costs and per diem rates to rise 
(as they do annually). Also, our ability to hire staff to replace 
departing staff, address key succession planning challenges and skill 
gaps, and maintain a skilled workforce will be adversely affected. 
While we must hold some critical employee benefits at last year's 
funding level, such as transit benefits and student loan repayments, 
our pool of employees eligible to retire has increased since last year. 
Also, some other agencies may be offering increased benefits that will 
be attractive to our employees and potential recruits. In addition, we 
have reduced or deferred needed targeted investments and initiatives 
geared to further increasing productivity and effectiveness, achieving 
cost savings, and addressing identified management challenges.
    Unfortunately, we expect that these actions will adversely affect 
our ability to respond to congressional requests, making it even more 
difficult to address supply and demand imbalances in areas such as 
health care, disaster assistance, homeland security, the global ``war 
on terrorism,'' energy and natural resources, and forensic auditing. 
Our diminished capacity will likely, in turn, ultimately result in 
reduced annual financial benefits, findings, and recommendations to the 
Congress and the Nation and necessitate reductions in our
  --ability to provide timely and responsive information to support 
        congressional deliberations;
  --testimonies on the Congress's legislative and oversight agenda;
  --products containing recommendations for improvements in government 
        operations;
  --analyses of executive branch agencies budget justifications to 
        support appropriations decisions;
  --support on reauthorization activities for pending programs, such as 
        the farm bill, Head Start, the Children's Health Insurance 
        Program, and the No Child Left Behind Act; and
  --oversight of legislative branch programs, including the Capitol 
        Visitor Center.
    In an effort to identify areas for potential improvement and help 
ensure accountability, we plan to contract with a public accounting 
firm in fiscal year 2008 to conduct a peer review of our financial 
audit practice and have an international team of auditors conduct an 
external peer review of our performance audit practices. GAO has 
received clean opinions on its previous external peer reviews. 
Consistent with generally accepted governmental auditing standards, 
external peer reviews are conducted on a 3-year cycle and serve to 
validate that the Congress and the American people can rely on our work 
and products.
    In recent years, GAO has worked cooperatively with the 
appropriation committees to submit modest budget requests. During this 
period, and for a variety of reasons, GAO has gone from the largest 
legislative branch agency to the third largest in terms of total 
budgetary resources. Adjusting for inflation, GAO's budget authority 
has declined by 3 percent in constant fiscal year 2006 dollars since 
fiscal year 2003, as shown in figure 1. These modest budget results do 
not adequately recognize the return on investment that GAO has been 
able to generate. In fact, these increases have hampered our progress 
in rebuilding from the downsizing (40 percent reduction in staffing 
levels) and mandated funding reductions that occurred in the 1990s. 
Although GAO's fiscal year 2008 budget request represents a 7 percent 
increase in constant dollar terms over our fiscal year 2007 operating 
plan, it is one of the smallest increases requested in the legislative 
branch.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Figure 1.--Budget Authority and Full-Time Equivalent (FTE) Usage, 
                         Fiscal Years 1992-2006

    Shortly after I was appointed Comptroller General in November 1998, 
I determined that the agency should undertake a major transformation 
effort. As a result, GAO has become more results-oriented, partnerial, 
and client focused. With your support, we have made strategic 
investments; realigned the organization; streamlined our business 
processes; modernized our performance classification, compensation, and 
reward systems; enhanced our ability to attract, retain and reward top 
talent; enhanced the technology and infrastructure supporting our staff 
and systems; and made other key investments. These transformational 
efforts have allowed GAO to model best practices, lead by example, and 
provide significant support to congressional hearings, while achieving 
record results and very high client satisfaction ratings without 
significant increases in funding.
    We have taken a number of steps to deal with funding shortfalls in 
the past few years; however, we cannot continue to employ the same 
approaches. Our staff has become increasingly stretched and we are 
experiencing backlogs in several areas of critical importance to the 
Congress (e.g., health care, homeland security, energy and natural 
resources). In addition, we have deferred key initiatives and 
technology upgrades (e.g., engagement and administrative process 
upgrades) for several years and it would not be prudent to continue to 
do so. These actions are having an adverse effect on employee morale, 
our ability to produce results, and the return on investment that we 
can generate.
    There is a need for fundamental and dramatic reform to address what 
the government does, how it does business, and who will do the 
government's business. Our support to the Congress will likely prove 
even more critical because of the pressures created by our Nation's 
current and projected budget deficit and growing long-term fiscal 
imbalance. Also, as we face current and projected supply and demand 
imbalance issues and a growing workload over the coming years across a 
wide spectrum of issues, GAO will be unable to respond to congressional 
demands without a significant investment in our future. We have 
exhausted the results that we can achieve based on prior investments. 
Our ability to continue to produce record results and assist the 
Congress in discharging its Constitutional responsibilities relating to 
authorization, appropriations, oversight, and other matters will be 
adversely impacted unless we take action now.
    Therefore, our fiscal year 2008 budget request is designed to 
restore GAO's funding to more reasonable operating levels. 
Specifically, we are requesting fiscal year 2008 budget authority of 
$530 million, an 8.5 percent increase over our fiscal year 2007 funding 
level. The additional funds provided in fiscal year 2007 have helped 
reduce our requested increase for fiscal year 2008 from 9.4 percent to 
8.5 percent. This funding level also represents a reduction below the 
request we submitted to the Office of Management and Budget (OMB) in 
January as a result of targeted adjustments to our planned fiscal year 
2008 hiring plan. Our fiscal year 2008 budget request will allow us to 
achieve our performance goals to support the Congress as outlined in 
our strategic plan \1\ and rebuild our workforce capacity to allow us 
to better respond to supply and demand imbalances in responding to 
congressional requests. This funding will also help us address our 
caseload for bid protest filings, which have increased by more than 10 
percent from fiscal years 2002 through 2006. Our workload for the first 
quarter of fiscal year 2007 suggests a continuation of this upward 
trend in bid protest fillings.
---------------------------------------------------------------------------
    \1\ In the spring of 2007, we plan to issue our updated strategic 
plan covering fiscal years 2007-2012 to reflect the agenda for the 
110th Congress.
---------------------------------------------------------------------------
    We will be seeking your commitment and support to provide the 
funding needed to increase GAO's staffing level to 3,750 over the next 
6 years in order to address critical needs including supply and demand 
imbalances, high-risk areas, 21st century challenges questions, 
technology assessments, and other areas in need of fundamental reform. 
In addition, as we get closer to when GAO may be able to render our 
opinion on the consolidated financial statements of the U.S. government 
and the Department of Defense's financial and related systems, we will 
need to increase our workforce capacity. We will be providing the 
Congress additional information on the basis for and nature of this 
target later this year.
    Importantly, as I noted last year, we also plan to request 
legislation that will assist GAO in performing its mission work, and 
enhance our human capital policies, including addressing certain 
compensation and benefits issues of interest to our employees. We plan 
to submit our proposal to our Senate and House authorization and 
oversight committees in the near future.
    My testimony today will focus on key efforts that GAO has 
undertaken to support the Congress, our fiscal year 2006 performance 
results, our budget request for fiscal year 2008 to support the 
Congress and serve the American people, and proposed legislative 
changes.
                  key efforts to support the congress
    As is the case with each new Congress, we are beginning to have 
discussions with regard to many new requests for GAO's professional, 
objective, fact-based, nonpartisan, and non-ideological information, 
analysis, and recommendations. On November 17, 2006, I was pleased to 
offer three sets of recommendations for your consideration as part of 
the agenda of the 110th Congress. The first recommendation suggests 
targets for near-term oversight; the second proposes policies and 
programs in need of fundamental reform and re-engineering; the third 
lists governing issues. The proposals represent an effort to synthesize 
GAO's institutional knowledge and special expertise and suggest both 
the breadth and the depth of the issues facing the new Congress. We at 
GAO stand ready to assist the 110th Congress in meeting its 
constitutional responsibilities. To be effective, congressional 
hearings and other activities should offer opportunities to share best 
practices, facilitate governmentwide transformation, and promote 
accountability for delivering positive results.
    On January 9, 2007, we presented GAO's assessment of the key 
oversight issues related to Iraq for consideration in developing the 
oversight agenda of the 110th Congress and in analyzing the President's 
revised strategy for Iraq. This assessment was based on our ongoing 
work and the 67 Iraq-related reports and testimonies we have provided 
to the Congress since May 2003. Our work spans the security, political, 
economic, and reconstruction prongs of the U.S. national strategy in 
Iraq. The broad, crosscutting nature of this work helps minimize the 
possibility of overlap and duplication by any individual inspector 
general. Our work has focused on the U.S. strategy and costs of 
operating in Iraq, training and equipping the Iraqi security forces, 
governance and reconstruction issues, the readiness of U.S. military 
forces, and achieving desired acquisition outcomes. Our current work 
draws on our past work and regular site visits to Iraq and the 
surrounding region, such as Jordan and Kuwait. We plan to establish a 
presence in Iraq beginning later this fiscal year to provide additional 
oversight of issues deemed important to the Congress; subject to 
approval by the U.S. Department of State and adequate funding. We have 
requested supplemental fiscal year 2007 funds of $374,000 to support 
this effort.
    In January of this year, we also issued our high-risk series: An 
Update, which identifies federal areas and programs at risk of fraud, 
waste, abuse, and mismanagement and those in need of broad-based 
transformations. The issues affecting many of these areas and programs 
may take years to address, and the report will serve as a useful guide 
for the Congress's future programmatic deliberations and oversight 
activities. Issued to coincide with the start of each new Congress, our 
high-risk update, first issued in 1993, has helped members of the 
Congress who are responsible for oversight and executive branch 
officials who are accountable for performance. Our high-risk program 
focuses on major government programs and operations that need urgent 
attention or transformation to ensure that our government functions in 
the most economical, efficient, and effective manner possible. Overall, 
our high-risk program has served to identify and help resolve a range 
of serious weaknesses that involve substantial resources and provide 
critical services to the public. Table 1 details our 2007 high-risk 
list.

                   TABLE 1.--GAO'S 2007 HIGH-RISK LIST
------------------------------------------------------------------------
                                                               Year
                   2007 High-Risk Area                      Designated
                                                             High Risk
------------------------------------------------------------------------
Addressing challenges in broad-based transformations:
    Strategic Human Capital Management \1\..............            2001
    Managing Federal Real Property \1\..................            2003
    Protecting the Federal Government's Information                 1997
     Systems and the Nation's Critical Infrastructures..
    Implementing and Transforming the Department of                 2003
     Homeland Security..................................
    Establishing Appropriate and Effective Information-             2005
     Sharing Mechanisms to Improve Homeland Security....
    Department of Defense (DOD) Approach to Business                2005
     Transformation \1\.................................
        DOD Business Systems Modernization..............            1995
        DOD Personnel Security Clearance Program........            2005
        DOD Support Infrastructure Management...........            1997
        DOD Financial Management........................            1995
        DOD Supply Chain Management (formerly Inventory             1990
         Management)....................................
        DOD Weapon Systems Acquisition..................            1990
    Federal Aviation Administration Air Traffic Control             1995
     Modernization......................................
    Financing the Nation's Transportation System \1\                2007
     (New)..............................................
    Ensuring the Effective Protection of Technologies               2007
     Critical to U.S. National Security Interests \1\
     (New)..............................................
    Transforming Federal Oversight of Food Safety \1\               2007
     (New)..............................................
Managing Federal Contracting More Effectively:
    DOD Contract Management.............................            1992
    Department of Energy Contract Management............            1990
    National Aeronautics and Space Administration                   1990
     Contract Management................................
    Management of Interagency Contracting...............            2005
Assessing the Efficiency and Effectiveness of Tax Law
 Administration:
    Enforcement of Tax Laws \1\.........................            1990
    Internal Revenue Service (IRS) Business Systems                 1995
     Modernization......................................
Modernizing and Safeguarding Insurance and Benefit
 Programs:
    Modernizing Federal Disability Programs \1\.........            2003
    Pension Benefit Guaranty Corporation Single-Employer            2003
     Insurance Program \1\..............................
    Medicare Program \1\................................            1990
    Medicaid Program \1\................................            2003
    National Flood Insurance Program....................            2006
------------------------------------------------------------------------
\1\ Legislation is likely to be necessary, as a supplement to actions by
  the executive branch, in order to effectively address this high-risk
  area.

Source: GAO.

    In February of this year, we issued a new publication entitled 
Fiscal Stewardship: A Critical Challenge Facing Our Nation that is 
designed to provide the Congress and the American public, in a 
relatively brief and understandable form, selected budget and financial 
information regarding our Nation's current financial condition, long-
term fiscal outlook, and possible ways forward. In the years ahead, our 
support to the Congress will likely prove even more critical because of 
the pressures created by our Nation's current and projected budget 
deficit and growing long-term fiscal imbalance. Indeed, as the Congress 
considers those fiscal pressures, it will be grappling with tough 
choices about what government does, how it does business, and who will 
do the government's business. GAO is an invaluable tool for helping the 
Congress review, reprioritize, and revise existing mandatory and 
discretionary spending programs and tax policies.
    In addition, I have participated in a series of town hall forums 
around the Nation to discuss the Federal Government's current financial 
condition and deteriorating long-term fiscal outlook, including the 
challenges posed by known long-term demographic trends and rising 
health care costs. These forums, popularly referred to as the ``Fiscal 
Wake-up Tour,'' are led by the Concord Coalition and also include the 
Heritage Foundation, the Brookings Institution, and a range of ``good 
government'' groups. The fiscal wake-up tour states the facts regarding 
the Nation's current financial condition and long-term fiscal outlook 
in order to increase public awareness and accelerate actions by 
appropriate Federal, State, and local officials.
                    performance, results, and plans
    We anticipate that the funds requested for fiscal year 2008 will 
support efforts similar to those just completed in fiscal year 2006. 
The following discussions summarize that work.
    In fiscal year 2006, major events like the Nation's recovery from 
natural disasters, ongoing military conflicts abroad, terrorist 
threats, and potential pandemics repeatedly focused the public eye on 
the Federal Government's ability to operate effectively and efficiently 
and provide services to Americans when needed. Our work during the year 
helped the Congress and the public judge how well the Federal 
Government performed its functions and consider alternative approaches 
for improving operations and laws when performance was less than 
adequate. For example, teams supporting all three of our external 
strategic goals performed work related to every facet of the Hurricane 
Katrina and Rita disasters-preparedness, response, recovery, long-term 
recovery, and mitigation. We developed a coordinated and integrated 
approach to ensure that the Congress's need for factual information 
about disaster preparedness, response, recovery, and reconstruction 
activities along the Gulf Coast was met. We examined how federal funds 
were used during and after the disaster and identified the disaster 
rescue, relief, and rebuilding processes that worked well and not so 
well throughout the effort. To do this, staff drawn from across the 
agency spent time in the hardest hit areas of Louisiana, Mississippi, 
Alabama, and Texas, collecting information from government officials at 
the Federal, State, and local levels as well as from private 
organizations assisting with this emergency management effort. We 
briefed congressional staff on our preliminary observations early in 
fiscal year 2006 and subsequently issued over 30 reports and 
testimonies on Hurricanes Katrina and Rita by fiscal year end, focusing 
on, among other issues, minimizing fraud, waste, and abuse in disaster 
assistance and rebuilding the New Orleans hospital care system.
    The following tables provide summary information on GAO's fiscal 
year 2006 performance and the results achieved in support of the 
Congress and the American people. Additional information on our 
performance results can be found in performance and accountability 
highlights fiscal year 2006 at www.gao.gov.
    Table 2 provides examples of how GAO assisted the Nation in fiscal 
year 2006.

  TABLE 2.--EXAMPLES OF HOW GAO ASSISTED THE NATION IN FISCAL YEAR 2006
------------------------------------------------------------------------
                                          GAO Providing Information That
 Goal             Description                      Helped To--
------------------------------------------------------------------------
     1 Provide timely, quality         Protect Social Security numbers
        service to the Congress and     from abuse; ensure the
        the Federal Government to       effectiveness of federal
        address current and emerging    investments in science,
        challenges to the wellbeing     technology, engineering, and
        and financial security of the   mathematics education
        American people                 programs; identify actions
                                        needed to improve Federal
                                        Emergency Management Agency
                                        and Red Cross coordination for
                                        the 2006 hurricane season;
                                        highlight weaknesses in the
                                        Department of Health and Human
                                        Services' communications with
                                        beneficiaries about the new
                                        Medicare prescription drug
                                        benefit; identify funding and
                                        drug pricing disparities in
                                        the federal AIDS/HIV program;
                                        strengthen the oversight
                                        clinical laboratories;
                                        identify challenges the
                                        Department of Homeland
                                        Security faces in controlling
                                        illegal immigration into the
                                        United States; assess the
                                        thoroughness of the federal
                                        fair housing complaint and
                                        investigation processes;
                                        improve the management of
                                        federal oil and natural gas
                                        royalty revenue; develop a
                                        strategy for managing
                                        wildfires; focus on the short-
                                        and long-term challenges of
                                        financing the Nation's
                                        transportation infrastructure;
                                        and identify outdated mail
                                        delivery performance standards
                                        used by the U.S. Postal
                                        Service.
     2 Provide timely, quality         Identify current and future
        service to the Congress and     funding and cost issues
        the Federal Government to       related to DOD operations in
        respond to changing security    Iraq and Afghanistan;
        threats and the challenges of   highlight inefficiencies that
        global interdependence          could hinder DOD's efforts to
                                        reform its business
                                        operations; improve controls
                                        over the issuance of passports
                                        and vias and increase fraud
                                        prevention; improve
                                        catastrophic disaster
                                        preparedness, response, and
                                        recovery; improve the ability
                                        of federal agencies to cost
                                        effectively acquire goods and
                                        services; improve the
                                        management of payments to U.S.
                                        producers injured financially
                                        by unfairly traded imports;
                                        alert the Congress to
                                        companies that are marketing
                                        costly mutual fund products
                                        with low returns to military
                                        service members; identify
                                        steps needed to overhaul
                                        investment and management
                                        processes supporting major DOD
                                        acquisitions; improve security
                                        at nuclear power plants;
                                        improve the Department of
                                        Homeland Security's ability to
                                        detect nuclear smuggling at
                                        U.S. ports; promote government
                                        efforts to secure sensitive
                                        systems and information; and
                                        highlight the cost concerns of
                                        small public companies that
                                        must comply with internal
                                        control and auditing
                                        provisions of the Sarbanes-
                                        Oxley Act.
     3 Help transform the Federal      Improve congressional oversight
        Government's role and how it    of the process for reviewing
        does business to meet 21st      foreign direct investment;
        century challenges              strengthen DOD's information
                                        systems modernization efforts;
                                        highlight serious technical
                                        and cost challenges affecting
                                        the purchase of a critical
                                        weather satellite; highlight
                                        key practices federal agencies
                                        should adopt to prevent data
                                        breaches and better protect
                                        the personal information of
                                        U.S. citizens; monitor the
                                        development of the 2010
                                        decennial census; identify
                                        strategies to reduce the gap
                                        between the taxes citizens pay
                                        and the taxes actually owed;
                                        focus attention on the revenue
                                        consequences of tax
                                        expenditures; identify fraud,
                                        waste, and abuse in a
                                        component of the Federal
                                        Emergency Management Agency's
                                        disaster assistance program;
                                        emphasize the importance of
                                        reliable cost information for
                                        improving governmentwide cost
                                        efficiency; and expose
                                        government contractors who
                                        used for personal gain federal
                                        payroll taxes withheld from
                                        their employees.
     4 Maximize the value of GAO by    Foster among other federal
        being a model federal agency    agencies GAO's innovative
        and a world-class               human capital practices, such
        professional services           as broad pay bands;
        organization                    performance-based
                                        compensation; workforce
                                        planning and staffing
                                        strategies, policies, and
                                        processes; and share GAO's
                                        model business and management
                                        processes with counterpart
                                        organizations in the United
                                        States and abroad.
------------------------------------------------------------------------
       Source: GAO.

                outcomes of our work and the road ahead
    During fiscal year 2006, we used 16 annual performance measures 
that capture the results of our work; the assistance we provided to the 
Congress; our ability to attract, retain, develop, and lead a highly 
professional workforce; and how well our internal administrative 
services help employees get their jobs done and improve their work life 
(see table 3). We generally exceeded the targets we set for all of our 
performance measures, which indicate our ability to produce results for 
the Nation and serve the Congress.

                           TABLE 3.--AGENCYWIDE SUMMARY OF ANNUAL MEASURES AND TARGETS
----------------------------------------------------------------------------------------------------------------
                                                     2002     2003     2004     2005     2006     2007     2008
               Performance Measures                 Actual   Actual   Actual   Actual   Actual   Target   Target
----------------------------------------------------------------------------------------------------------------
Results:
    Financial benefits (dollars in billions).....    $37.7    $35.4    $44.0    $39.6    $51.0    $40.0    $41.5
    Nonfinancial benefits........................     $906   $1,043   $1,197   $1,409   $1,342   $1,100   $1,150
    Past recommendations implemented (in percent)       79       82       83       85       82       80       80
    New products with recommendations (in               53       55       63       63       65       60       60
     percent)....................................
Client:
    Testimonies..................................      216      189      217      179      240      185      220
    Timeliness (in percent)......................       96       97       97       97       92       95       95
People:
    New hire rate (in percent)...................       96       98       98       94       94       95       95
    Acceptance rate (in percent).................       81       72       72       71       70       72       72
    Retention rate with retirements (in percent).       91       92       90       90       90       90       90
    Retention rate without retirements (in              97       96       95       94       94       94       94
     percent)....................................
    Staff development (in percent)...............       71       67       70       72       76       75       76
    Staff utilization (in percent)...............       67       71       72       75       75       78       78
    Leadership (in percent)......................       75       78       79       80       79       80       80
    Organizational climate (in percent)..........       67       71       74       76       73       76       76
Internal operations:
    Help get job done............................      N/A     3.98     4.01     4.10      4.1      4.0      4.0
    Quality of work life.........................      N/A     3.86     3.96     3.98      4.0      4.0      4.0
----------------------------------------------------------------------------------------------------------------
Source: GAO.

Note: N/A indicates the information is not available.

    In fiscal year 2006, our work generated $51 billion in financial 
benefits, primarily from actions agencies and the Congress took in 
response to our recommendations. Of this amount, about $27 billion 
resulted from changes to laws or regulations, $10 billion resulted from 
agency actions based on our recommendations to improve services to the 
public, and $14 billion resulted from improvements to core business 
processes. See figure 2 for examples of our fiscal year 2006 financial 
benefits.

  FIGURE 2.--GAO'S SELECTED MAJOR FINANCIAL BENEFITS REPORTED IN FISCAL
                                YEAR 2006
                        [In billions of dollars]
------------------------------------------------------------------------
                         Description                             Amount
------------------------------------------------------------------------
Ensured continued monetary benefits from federal spectrum            6.1
 auctions....................................................
Encouraged DOD to identify and reduce unobligated funds in           3.9
 the military services' operations and maintenance budget....
Recommended payment methods that cut Medicare costs for              2.9
 durable medical equipment, orthotics, and prosthetics.......
Helped to ensure that certain U.S. Postal Service retirement-        2.2
 related benefits would be funded............................
Identified recoverable costs for the Tennessee Valley                1.8
 Authority...................................................
Helped to increase collections of civil debt.................        1.6
Encouraged the Department of Housing and Urban Development to        1.4
 take actions to reduce improper payments....................
Supported the Department of Energy's efforts to reduce its           1.2
 carryover funds.............................................
------------------------------------------------------------------------
Source: GAO.

    Many of the benefits that result from our work cannot be measured 
in dollar terms. During fiscal year 2006, we recorded a total of 1,342 
nonfinancial benefits. For example, we documented 61 instances where 
information we provided to the Congress resulted in statutory or 
regulatory changes, 667 instances where federal agencies improved 
services to the public, and 614 instances where agencies improved core 
business processes or governmentwide reforms were advanced. These 
actions spanned the full spectrum of national issues, from identifying 
the adverse tax impact of combat pay and certain tax credits on low-
income military families to improving the Department of State's process 
for developing staffing projections for new embassies. See figure 3 for 
additional examples of GAO's nonfinancial benefits in fiscal year 2006.

    ----------------------------------------------------------------

Nonfinancial benefits that helped to change laws
    Deficit Reduction Act of 2005, Public Law No. 109-171. Our work is 
reflected in this law in different ways.
  --Strengthened Medicaid program integrity.
  --Improved oversight of the States' performance under the Temporary 
        Assistance for Needy Families program.
  --Addressed domestic violence.
  --Improved oversight of schools that are lenders.
    Safe and Timely Interstate Placement of Foster Children Act of 
2006, Public Law No. 109-239.
Nonfinancial Benefits That Helped To Improve Services to the Public
    Strengthened passport and visa issuance processes.
    Identified vulnerabilities in the process to verify personal 
information about new drivers.
    Contributed to the increased visibility of a transportation 
information sharing program for seniors.
    Identified a problem with untimely pay allowances to deployed 
soldiers.
Nonfinancial Benefits That Helped To Promote Sound Agency and 
        Governmentwide Management
    Improved the quality of federal voluntary voting system standards.
    Highlighted weaknesses in the Federal Aviation Administration's 
control over computers and other assets.
    Strengthened oversight of federal personnel actions.
    Encouraged federal agencies to seek savings on purchase cards.
    Identified improper payments in DOD's travel accounts.

    Source: GAO.
Figure 3.--GAO's Selected Nonfinancial Benefits Reported in Fiscal Year 
                                  2006

    ----------------------------------------------------------------

    During fiscal year 2006, experts from our staff testified at 240 
congressional hearings covering a wide range of complex issues (see 
table 4). For example, our senior executives testified on a variety of 
issues, including freight rail rates, AIDS assistance programs, and 
federal contracting. Over 100 of the hearings at which we testified 
were related to areas and programs we designated as high risk.
  Table 4.--GAO's Selected Testimony Issues by Strategic Goal, Fiscal 
                               Year 2006
Goal 1--Address Challenges to the Well-Being and Financial Security of 
        the American People
Health savings accounts
Guardianships that protect incapacitated seniors
Lake Pontchartrain hurricane protection project
Funds to first responders for 9/11 health problems
Immigration enforcement at work sites
Future air transportation system
Nursing home care for veterans
Passenger rail security issues
Freight railroad rates
AIDS drug assistance programs
Federal Housing Administration reforms
Improving intermodal transportation
Hartford nuclear waste treatment plant
Evaluations of supplemental educational services
Factors affecting gasoline prices
Telecommunication spectrum reform
H-1B visa program
Federal crop insurance program
Goal 2--Respond to Changing Security Threats and the Challenges of 
        Globalization
A comprehensive strategy to rebuild Iraq
Deploying radiation detection equipment in other countries
Protecting military personnel from unscrupulous financial products
Sensitive information at DOD and the Department of Energy
Hurricane Katrina preparedness, response, and recovery
Alternative mortgage products
Global war on terrorism costs
Transportation Security Administration's Secure Flight program
DOD's business systems modernization
U.S. tactical aircraft
National Capital Region Homeland Security Strategic Plan
Polar-orbiting operational environmental satellites
Worldwide AIDS relief plan
Financial stability and management of the National Flood Insurance 
Program
Information security laws
Procurement controls at the United Nations
Goal 3--Help Transform the Federal Government's Role and How It Does 
        Business
Contract management challenges in rebuilding Iraq
DOD's financial and business management transformation
Business tax reform
Astronaut exploration vehicle risks
Improving federal financial management governmentwide
Long-term fiscal challenges
Federal contracting during disasters
Improving tax compliance to reduce the tax gap
Protecting the privacy of personal information
DOD acquisition incentives
Decennial Census costs
Information security weaknesses at the Department of Veterans Affairs
Improper federal payments for Hurricane Katrina relief
Strengthening the Office of Personnel Management's ability to lead 
human capital reform
Public/private recovery plan for the Internet
Tax system abuses by General Services Administration contractors
Compensation for federal executives and judges
         gao's fiscal year 2008 request to support the congress
    Our fiscal year 2008 budget request seeks the resources necessary 
to allow GAO to rebuild and enhance its workforce, knowledge capacity, 
employee programs, and infrastructure. These items are critical to 
ensure that GAO can continue to provide congressional clients with 
timely, objective, and reliable information on how well government 
programs and policies are working and, when needed, recommendations for 
improvement. In the years ahead, our support to the Congress will 
likely prove even more critical because of the pressures created by our 
Nation's current and projected budget deficit and growing long-term 
fiscal imbalance. GAO is an invaluable tool for helping the Congress 
review, reprioritize, and revise existing mandatory and discretionary 
spending programs and tax policies.
    Consistent with our strategic goal to be a model agency, we 
continuously assess our operations to ensure that GAO remains an 
effective, high-performing organization, providing timely, critical 
support to the Congress while being fiscally responsive. Our objective 
is to be an employer of choice; maintain skills/knowledge, performance-
based, and market-oriented compensation systems; adopt best practices; 
benchmark service levels and costs against comparable entities; 
streamline our operations to achieve efficiencies; assess opportunities 
for cross-servicing, outsourcing, or business process re-engineering; 
and leverage technology to increase efficiency, productivity, and 
results. We also continue to partner within and across the legislative 
branch through the legislative branch chief administrative officers, 
financial management, and procurement councils.
    Transformational change and innovation is essential for progress. 
Our fiscal year 2008 budget request includes funds to regain the 
momentum needed to achieve these goals. Our fiscal year 2008 budget 
request will allow GAO to
  --address supply and demand imbalances in responding to congressional 
        requests for studies in areas such as health care, disaster 
        assistance, homeland security, the global ``war on terrorism,'' 
        energy and natural resources, and forensic auditing;
  --address our increasing bid protest workload;
  --be more competitive in the labor markets where GAO competes for 
        talent;
  --address critical human capital components, such as knowledge 
        capacity building, succession planning, and staff skills and 
        competencies;
  --enhance employee recruitment, retention, and development programs;
  --restore program funding levels and regain our purchasing power;
  --undertake critical initiatives necessary to continuously re-
        engineer processes geared to increasing our productivity and 
        effectiveness and addressing identified management challenges; 
        and
  --pursue critical structural and infrastructure maintenance and 
        improvements.
    Our fiscal year 2008 budget request represents an increase of $41.7 
million (or 8.5 percent) over our fiscal year 2007 funding level and 
includes about $523 million in direct appropriations and authority to 
use about $7.5 million in offsetting collections as illustrated in 
table 5. This request reflects a reduction of nearly $5.4 million in 
nonrecurring fiscal year 2007 costs used to offset the fiscal year 2008 
increase.

 TABLE 5.--FISCAL YEAR 2008 BUDGET REQUEST, SUMMARY OF REQUESTED CHANGES
                         [Dollars in thousands]
------------------------------------------------------------------------
                                                             Cumulative
        Budget Category              FTEs        Amount      Percentage
                                                              of Change
------------------------------------------------------------------------
Fiscal year 2007 enacted budget        3,159     $488,627   ............
 authority.....................
Fiscal year 2008 requested       ...........  ............  ............
 changes.......................
    Nonrecurring fiscal year     ...........       (5,374)         (1.1)
     2007 costs................
    Mandatory pay costs........  ...........       19,841           3.0
    Uncontrollable cost          ...........        5,079           4.0
     increases.................
    Rebuild our capacity.......           58       14,826           7.0
    Critical investments in      ...........        7,314           8.5
     technology improvements
     and other transformation
     areas.....................
Net fiscal year 2008 increase..           58       41,686           8.5
Fiscal year 2008 budget                3,217      530,313   ............
 authority.....................
------------------------------------------------------------------------
Source: GAO.

    Mandatory pay and uncontrollable cost increases.--We are requesting 
$24.9 million to cover anticipated mandatory performance-based pay and 
uncontrollable inflationary increases resulting primarily from annual 
across-the-board and performance-based increases, annualization of 
prior fiscal year costs, and an increase in the number of compensable 
days in fiscal year 2008. These costs also include uncontrollable 
inflationary increases imposed by vendors as the cost of doing 
business.
    Rebuilding our capacity.--Our fiscal year 2007 budget request 
sought funds to support an increase of 50 FTEs from 3,217 to 3,267. 
However, in order to manage within expected funding levels in fiscal 
year 2007, we will significantly curtail hiring by about 50 percent 
below the previous year, resulting in a projected FTE utilization of 
3,159--well below our planned level. In fiscal years 2007 and 2008, we 
anticipate attrition of over 600 staff that will result in a 
significant drain on GAO's knowledge capacity or institutional memory. 
Further, almost 20 percent of all GAO staff will be eligible for 
retirement by the end of fiscal year 2008, including almost 45 percent 
of our senior executive service.
    Thus, in fiscal year 2008, we are seeking funds to rebuild our 
staff and knowledge capacity. In fiscal year 2008, we plan to hire 
about 490 staff--the maximum that we could reasonably absorb--
increasing our FTE utilization to 3,217. While we are tempering our 
immediate FTE request, increasingly higher demands are being placed on 
GAO. We are experiencing supply and demand imbalances in several areas 
of critical importance to the Congress (e.g., health care, homeland 
security, and energy and natural resources). We have also seen an 
increase in the number of bid protest filings.
    Also, to remain competitive in the labor markets, we need to 
increase employee benefits in areas such as student loan repayments and 
transit subsidies where funding constraints in fiscal year 2007 limit 
our flexibility. For example, effective in January 2007, the IRS 
increased the monthly benefit for transit subsidies for eligible 
employees who commute using public transportation. GAO, however, is 
unable to extend this increased benefit to staff.
    In addition, we need to ensure that staff have the appropriate 
tools and resources to perform effectively, including training and 
development, travel funds, and technology. And when our staff perform 
well, they should be appropriately rewarded.
    Undertake critical investments.--We are requesting funds to 
undertake critical investments that would allow us to implement 
technology improvements and streamline and re-engineer work processes 
to enhance the productivity and effectiveness of our staff, conduct 
essential investments that have been deferred as the result of funding 
constraints and cannot continue to be deferred, and implement responses 
to changing federal conditions, such as smart card technology. Also, 
during recent years, we reduced, deferred, and slowed the pace of 
critical upgrades (e.g., engagement and administrative process 
upgrades) and deferred nonessential administrative activities. In 
fiscal year 2008, we would like to have sufficient funding to take 
action to protect our current investments and continue to be a model 
agency and lead by example.
    Legislative authority.--We are requesting legislation to establish 
a board of contract appeals at GAO to adjudicate contract claims 
involving contracts awarded by legislative branch agencies. GAO has 
performed this function on an ad hoc basis over the years for appeals 
of claims from decisions of the Architect of the Capitol on contracts 
that it awards. Recently we have agreed to handle claims arising under 
Government Printing Office contracts. The legislative proposal would 
promote efficiency and predictability in the resolution of contractor 
and agency claims by consolidating such work in an established and 
experienced adjudicative component of GAO and would permit GAO to 
recover its costs of providing such adjudicative services from 
legislative branch users of such services.
    We also plan to request legislation that will assist GAO in 
performing its mission work and enhance our human capital policies, 
including addressing certain compensation and benefits issues of 
interest to our employees. While there are a number of important 
provisions, today I will only discuss several of the significant ones. 
Regarding provisions concerned with mission work, we have identified a 
number of legislative mandates that are either no longer meeting the 
purpose intended or should be performed by an entity other than GAO. We 
are working with the cognizant entities and the appropriate 
authorization and oversight committees to discuss the potential impact 
of legislative relief for these issues. Another provision would 
modernize the authority of the Comptroller General to administer oaths 
in performance of the work of the office. To keep the Congress apprized 
of difficulties we have interviewing agency personnel and obtaining 
agency views on matters related to ongoing mission work, we will 
suggest new reporting requirements. When agencies or other entities 
ignore a request by the Comptroller General to have personnel provide 
information under oath, make personnel available for interviews, or 
provide written answers to questions, the Comptroller General would 
report to the Congress as soon as practicable and also include such 
information in the annual report to the Congress.
    In regard to GAO's human capital flexibilities, among other 
provisions, we are proposing a flexibility that allows us to better 
approximate market rates for professional positions by increasing our 
maximum pay for other than the senior executive service and senior 
level from GS-15, step 10, to executive level III. Additionally, under 
our revised and contemporary merit pay system, certain portions of an 
employee's merit increase, below applicable market-based pay caps, are 
not permanent. Since this may impact an employee's high three for 
retirement purposes, another key provision of the bill would enable 
these nonpermanent payments to be included in the retirement 
calculation for all GAO employees, except senior executives and senior 
level personnel.
                           concluding remarks
    In summary, I believe that you will find our budget request 
reasonable, responsible, and well-justified given the important role 
that GAO plays and the unparalleled return on investment that GAO 
generates. We are grateful for the Congress's continued support of our 
mutual effort to improve government and for providing the resources 
that allow us to be a world-class professional services organization. 
We are proud of our record performance and the positive impact we have 
been able to effect in government over the past year and believe an 
investment in GAO will continue to yield substantial returns for the 
Congress and the American people. Our Nation will continue to face 
significant challenges in the years ahead. GAO's expertise and 
involvement in virtually every facet of government positions us to 
provide the Congress with the timely, objective, and reliable 
information it needs to discharge its constitutional responsibilities.
    Mrs. Chairwoman and members of the subcommittee, this concludes my 
prepared statement. At this time, I would be pleased to answer any 
questions that you or other members of the subcommittee may have.
    appendix i: serving the congress--gao's strategic plan framework
    This is a work of the U.S. Government and is not subject to 
copyright protection in the United States. It may be reproduced and 
distributed in its entirety without further permission from GAO. 
However, because this work may contain copyrighted images or other 
material, permission from the copyright holder may be necessary if you 
wish to reproduce this material separately.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       GOVERNMENT PRINTING OFFICE

STATEMENT OF WILLIAM H. TURRI, ACTING PUBLIC PRINTER
    Senator Landrieu. Mr. Turri.
    Mr. Turri. Good morning. Thank you, Madam Chair.
    It's clear that you have a busy schedule ahead of you 
today, so I'll submit my full remarks for the record and make 
only a few brief comments now.

                    <greek-l>GPO deg.RESULTS OF 2006

    GPO had a successful year in 2006, the second full year 
operating under our strategic vision for the future. We 
increased net income, and we're on the verge of completing 
GPO's transition to a full-service digital information 
provider. We're committed to providing a full range of digital 
and legacy information services to Congress and Federal 
agencies. And last year we made real progress toward that goal.
    With Congress' support, we awarded the key contracts for 
development of our future digital system. This system provides 
the essential technologies that tie input of analog and digital 
materials to output in print and electronic formats. We are on 
schedule for a startup later this year.
    We began production of the e-Passport for the State 
Department, and, following their schedule, we have ramped up 
production to meet the demands of travelers in North America 
and the Caribbean.
    We conducted a pilot project to demonstrate our 
capabilities in digitizing Government documents, taking the 
opportunity to begin digitizing some of the Government's 
considerable retrospective collection. We hope to make this a 
standing operation in the current fiscal year.
    We inaugurated the GPO Express card, which allows 
Government agencies to take their short run printing needs 
directly to local quick-print shops without concern that the 
publication produced will fail to be included in the Depository 
Library Program.
    I know that Senator Allard is not present today, but I am 
aware of his interest in the Government Performance and Results 
Act (GPRA), so I'm pleased to report to you that the GPO has 
begun the process of implementing Government Performance and 
Results Act-like practices into our operations.
    Building on our strategic vision, GPO is implementing a 
balanced scorecard methodology. Not only will the balanced 
scorecard dovetail with our GPRA practices, but will also link 
our strategic goals with our annual performance reviews and 
measure our organization's success with data and outcome.

                <greek-l>GPO deg.APPROPRIATIONS REQUEST

    Fully two-thirds of the funds we are requesting for the 
coming fiscal year is for work we're required to provide, such 
as producing and distributing a new edition of the U.S. Code, 
handling the estimated workload of Congress, including the 
Congressional Record, bills, calendars, and committee reports 
and prints, and distributing Government publications to the 
1,200 congressionally designated libraries in the Federal 
Depository Library Program.
    The balance we're requesting is to recover the shortfall we 
are projected to experience, due to the continuing resolution 
this year, and for investment in projects to continue moving 
the strategic vision of GPO forward. Some of the shortfall 
requirement can be offset with the use of approximately $5 
million in unexpended prior-year funds for that purpose, with 
the approval of the appropriations committees. Our request for 
this authority will be sent to you soon.
    Since 2003, Congress has strongly supported our digital 
transformation, and the benefits have been dramatic: net 
income, instead of losses; increased access to digital and 
other information products, with nearly a 25-percent decrease 
in our workforce; and a strategic vision of the future that is 
not only attainable and sustainable, but which addresses 
longstanding GPO needs, corrects system deficiencies, and 
unlocks this venerable agency's potential for the future.
    I'm asking that you continue to support our forward 
advance. The goal is in sight. As our record demonstrates, 
investment in the GPO results in real and measurable gains for 
Congress, Federal agencies, and the public as a whole.
    Finally, Madam Chair, I would like to thank you for your 
support in providing an additional $1.9 million, in the 
February 15 continuing resolution, to help us with mandatory 
pay increases and retraining.
    In accordance with past practice, we will be sending an 
operating plan to the subcommittee soon.

                           PREPARED STATEMENT

    Madam Chair, this concludes my opening remarks, and I will 
be happy to respond to any questions you may have.
    Senator Landrieu. Thank you, Mr. Turri.
    [The statement follows:]
                 Prepared Statement of William H. Turri
    Madam Chair and members of the subcommittee on Legislative Branch 
Appropriations: It is an honor to be here today to present the 
appropriations request of the U.S. Government Printing Office (GPO) for 
fiscal year 2008.
                       government printing office
    As the Nation's printer and disseminator of official Federal 
documents, GPO has a long and rich history as the official producer of 
every great American state paper--and an uncounted number of other 
Government publications--since President Lincoln's time. Where once our 
products and services were confined to ink on paper, today we provide 
capabilities for the production of Federal documents in both electronic 
and conventional formats, utilizing a broad range of information 
technologies.
    By law, GPO is responsible for the production and distribution of 
information products and services for all three branches of the Federal 
Government. Many of the Nation's most important information products, 
such as the Congressional Record and other documents used by the U.S. 
Senate and House of Representatives, are produced at GPO's main plant 
in Washington, DC.
    Working under a longstanding partnership with the printing 
industry, GPO also maintains a pool of private sector vendors 
nationwide to produce the vast range of publications ordered annually 
by Federal agencies.
    GPO's primary responsibility for the dissemination of Federal 
publications traces its roots to an act of the 13th Congress, which 
provided for the distribution of congressional and other government 
documents on a regular basis to libraries and other institutions in 
each State for that Congress and ``every future Congress.'' This 
farsighted act established the antecedent for the Federal Depository 
Library Program, a program funded through GPO's appropriations, which 
today serves millions of Americans through a network of some 1,250 
public, academic, law, and other libraries located in virtually every 
congressional district across the Nation.
    Along with that program, we also provide public access to the 
wealth of official Federal information through public sales, through 
various statutory and reimbursable distribution programs, and--most 
prominently--by posting more than a quarter of a million Federal titles 
online on GPO Access (www.gpo.gov/gpoaccess), our award-winning Web 
site that is used by the public to retrieve more than 40 million 
documents free of charge every month.
                     preparing for a digital future
    Continuing advances in information technologies have transformed 
the ways that Congress, Federal agencies, and the public obtain and 
make use of government publications. As a result, printing is now 
secondary to our broader task of producing and providing access to the 
information products and services produced by the Federal Government, a 
task that today is rooted in digital rather than analog technologies. 
While printing remains an important information technology that 
continues to be required, it has become just one of a range of 
information product and service capabilities that GPO must transform 
itself to support in order to fulfill our mission requirements 
effectively in the digital era.
    This development was confirmed by a June 2004 report of the 
Government Accountability Office (GAO), Actions to Strengthen and 
Sustain GPO's Transformation. The GAO recommended that GPO develop a 
plan to focus our mission on information dissemination as our primary 
goal; demonstrate to our customers the value we can provide; improve 
and extend partnerships with agencies to help establish the GPO as an 
information disseminator; and ensure that our internal operations--
including technology, how we conduct business, information systems, and 
training--are adequate for the efficient and effective management of 
our core business functions and services.
    To that end, in December 2004 we published our strategic vision for 
the 21st century. This document provides a framework for how our 
transformation goals--including the development of a digital content 
system to anchor all future operations, reorganization of the agency 
into new product- and service-oriented business lines along with 
investment in the necessary technologies, adoption of management best 
practices agency-wide including retraining to provide needed skills, 
and the relocation and/or reconfiguration of GPO facilities--will be 
carried out, and since then GPO's operations and programs have been 
conducted in accordance with it.
                            results of 2006
    During the past year we made significant progress in carrying out 
the elements of our strategic vision:
  --The core of our future operations will revolve around a GPO-
        developed Future Digital System--currently called FDsys--which 
        is being designed to organize, manage, and output authenticated 
        content of authenticated Federal documents--in text, audio, and 
        even video formats--for any purpose. In 2006 we awarded 
        contracts for master integrator services and equipment 
        acquisition, and this project is on track to begin operations 
        in summer 2007.
  --GPO's own production capabilities are focused in support of what we 
        call the ``Official Journals of Government,'' including the 
        Congressional Record and Federal Register, Congress's 
        requirements, and security and intelligent documents. To 
        improve production efficiency and broaden the range of product 
        and service options for Congress and Federal agencies, we've 
        invested in a variety of new technologies.
  --We continue to work closely with the library community to move the 
        Federal Depository Library Program (FDLP) toward a 
        predominately electronic basis as required by Congress, and 
        today more than 90 percent of all new titles entering the 
        program are electronic. In managing this transition we have 
        taken care to ensure that documents in print formats that are 
        required at this time by some libraries, particularly law 
        libraries, continue to be supplied.
  --We're now working with our customers in Federal agencies more 
        cooperatively, offering them more flexibility in choosing and 
        working directly with vendors, especially with small value 
        purchases and complex purchases involving multiple functions 
        such as data preparation, personalization, and distribution. In 
        2006 we augmented our expert printing procurement services by 
        offering a new capability that provides Federal agencies with 
        innovative, digitally linked convenience duplicating and 
        printing services across the country.
  --Security and intelligent documents--including passports, Federal 
        identification cards, and potentially other documents--today 
        are an increasingly important business line for GPO, and could 
        constitute as much as 50 percent of GPO's business in the 
        future. The major product of this unit is U.S. passports, and 
        in 2006 we began the successful production of the new e-
        passport for the State Department.
  --We've established a Digital Conversion Services Branch within 
        Customer Services to test document scanning services for the 
        FDLP and Federal agencies. In 2006, we began a pilot project to 
        demonstrate our retrospective digitization capabilities and 
        have recently completed that work. We look forward to sharing 
        our results of this pilot project at your earliest convenience.
    In addition to these strategic directions, over the past 4 years we 
have become a more efficient operation, our organizational structure 
has been streamlined for faster decisionmaking, we have implemented 
enterprise-wide planning for our information technology systems, 
redundant facilities across the country have been consolidated or 
closed, and staffing levels have been significantly reduced utilizing 
early retirement authority authorized through Legislative Branch 
Appropriations Acts. We also initiated planning and discussions with 
our oversight and appropriations committees on the future of GPO's 
current buildings on North Capitol Street in Washington, DC.
    Perhaps most important, our finances have been restored to a 
positive basis, reversing a pattern of financial losses that reached 
$100 million in previous years. For fiscal year 2006, we generated a 
net income of $9.8 million from operations, compared with a $6.1 
million gain the year before, the third straight year of positive 
financial results. We also recorded another reduction to our long-term 
liability for the Federal workers' compensation program, freeing 
additional funds for future investment. GPO is now on a solid financial 
footing.
                fiscal year 2008 appropriations request
    For fiscal year 2008, we are requesting a total of $181,979,000, to 
enable us to:
  --Meet projected requirements for GPO's congressional printing and 
        binding and information dissemination operations during fiscal 
        year 2008;
  --recover from the impact of restricted funding for fiscal year 2007 
        under the current continuing resolution;
  --complete the development of our Future Digital System project and 
        implement other improvements to GPO's information technology 
        infrastructure;
  --perform essential maintenance and repairs to our aging buildings; 
        and
  --continue retraining and restructuring GPO's workforce to meet 
        changing technology demands.
    Congressional Printing and Binding Appropriation.--This account 
covers the cost of printing and other information services supporting 
the legislative process in the House of Representatives and the Senate. 
These services include production--in both print and online formats--of 
the daily and permanent Congressional Record, bills, resolutions, and 
amendments, hearings, committee prints and documents, miscellaneous 
printing and binding including stationery and document franks, and 
related products, as authorized by the public printing provisions of 
Title 44, U.S. Code.
    We are requesting $109,541,000 for this account, representing an 
increase of $21,587,000 over the level provided by the current 
continuing resolution. The increase contains two primary components: 
$9,251,000 to adjust this account to projected operating requirements 
for fiscal year 2008, and an extraordinary requirement of $12,336,000 
to fund a projected shortfall for fiscal year 2007 under the current 
continuing resolution.
    For fiscal year 2008, we project the need for $96,460,000 to meet 
anticipated congressional printing and binding requirements known to 
typically occur in a second-session year. The current level of funding, 
or $87,954,000, has remained essentially unchanged since fiscal year 
2005 in spite of increasing costs and changes in workload.
    Under the continuing resolution for fiscal year 2007, we anticipate 
incurring a significant shortfall in congressional printing and binding 
due to the unchanged level of funding since fiscal year 2005, the 
requirement to produce the 2006 edition of the U.S. Code, the need to 
fully fund contractual pay raises, and a projected increase in workload 
consistent with a first-session year, including an anticipated increase 
in days in session under the new congressional leadership. We will be 
able to meet these requirements without disrupting service to Congress 
by temporarily financing the shortfall through GPO's revolving fund. As 
GPO has done in the past (most recently in fiscal year 2001), however, 
we are seeking the restoration of the shortfall through subsequent 
appropriations.
    Under our appropriations bill language, GPO has the authority--with 
the approval of the Committees on Appropriations--to transfer forward 
the unexpended balances of prior year appropriations. This remains an 
option to transfer to GPO's revolving fund up to approximately 
$4,000,000 from the unexpended balance of the Congressional Printing 
and Binding Appropriation remaining from fiscal year 2004 and an 
estimated $1,000,000 remaining from fiscal year 2003. These funds could 
be used to offset part of the anticipated shortfall and if this option 
is exercised it would reduce our requirement for new funding for that 
purpose.

                   CONGRESSIONAL PRINTING AND BINDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal Year 2007 Approved...............................            88.0
Fiscal Year 2007 Request................................           109.5
Change \1\..............................................           21.6
------------------------------------------------------------------------
\1\ Change includes: Mandatory requirements and continuing operations
  and investment requirements.

    Salaries and Expenses Appropriation of the Superintendent of 
Documents.--The largest single component of this appropriation is for 
the Federal Depository Library Program (FDLP). This account also 
provides for the cataloging and indexing of government publications as 
well as the distribution of government publications to international 
exchange libraries and other recipients as authorized by the documents 
provisions of Title 44, U.S. Code.
    We are requesting $45,613,000 for this account, representing an 
increase of $12,517,000 over the level provided by the current 
continuing resolution. The increase is required to cover mandatory pay 
and price level increases, recover from the impact of restricted 
funding for fiscal year 2007 under the current continuing resolution, 
and continue improving public access to government information in 
electronic formats. Of the total increase, $1,885,000 is for mandatory 
pay and price level costs.
    Our requested increase provides $3,250,000 to recover the cost 
impacts of restricted funding under the continuing resolution, 
principally the requirement to distribute the 2006 edition of the U.S. 
Code to depository libraries and cover increased overhead costs--
primarily for information technology services--while striving to 
maintain our responsibility to distribute information products to 
libraries in the formats needed by their users.
    As GPO continues to perform information dissemination through the 
FDLP on a predominately electronic basis, as mandated in the conference 
report accompanying the Legislative Branch Appropriations Act for 
Fiscal Year 1996, we also need to make continuing investments in 
technology infrastructure and supporting systems. Our requested 
increase provides $7,382,000 to cover projects for data migration and 
processing, FDLP program outreach, Web harvesting, data storage, 
authentication, and other modernization.

                          SALARIES AND EXPENSES
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal Year 2007 Approved...............................            33.1
Fiscal Year 2008 Requested..............................            45.6
Change \1\..............................................           12.5
------------------------------------------------------------------------
\1\ Change includes: Mandatory requirements and continuing operations
  and investment requirements.

    Revolving Fund.--We are requesting $26,825,000 for this account, to 
remain available until expended, to fund essential investments in 
information technology infrastructure and systems development, 
workforce retraining and restructuring, and facilities maintenance and 
repairs.
    The key projects covered by this request include $10,500,000 to 
complete the development of GPO's Future Digital System, which is 
scheduled to go live later this year; $9,375,000 to cover the 
replacement of GPO's 30-year old automated composition system, upgrade 
our Oracle enterprise business systems, and implement other 
improvements to our information technology infrastructure; $3,000,000 
to continue our program for workforce retraining and restructuring; and 
$3,950,000 for maintenance and repairs to GPO's aging buildings.

                             REVOLVING FUND
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Fiscal Year 2007 Approved...............................             1.0
Fiscal Year 2007 Request................................            26.8
Change \1\..............................................           25.8
------------------------------------------------------------------------
\1\ Change includes: Mandatory requirements and continuing operations
  and investment requirements.

    Madam Chair and members of the subcommittee, with your support we 
can continue GPO's record of achievement. We look forward to working 
with you in your review and consideration of our request.

                      CONGRESSIONAL BUDGET OFFICE

STATEMENT OF PETER R. ORSZAG, DIRECTOR
    Senator Landrieu. Peter.
    Dr. Orszag. Thank you very much, Madam Chair.
    As you know, CBO provides the Congress with timely, 
nonpartisan, and objective information about budget and 
economic issues. And I just want to note that I assumed my 
position in January, and look forward to working with you and 
your colleagues throughout the rest of my 4-year term.
    CBO's proposed budget for fiscal year 2008 totals $38 
million, which is a $2.8 million, or 7.9 percent, increase over 
our fiscal year 2007 funding level. After taking into account 
increases in prices and costs, the budget restores CBO to its 
fiscal year 2006 operating level.
    As you may know, our budget is overwhelmingly for people. 
Ninety-one percent of CBO's appropriation is devoted to 
personnel costs, and the bulk of our requested increase, $2.1 
million, is devoted to staff salaries and benefits.
    On that note, I would point out that our staff is 
overwhelmingly very highly skilled. More than three-quarters of 
our professional and management staff have a Ph.D. or master's 
degree, and obviously the market for those kinds of personnel 
has become increasingly competitive, which puts pressure on 
agencies like CBO.
    The remaining 9 percent of our budget is devoted to IT 
equipment, supplies, and small purchases of other items and 
services. The funding for CBO's IT resources increases by a 
little under $500,000. The reason is the rapid increase in IT 
costs necessary to fulfill our various requirements. That IT 
funding would restore CBO's fiscal year--restore IT funding to 
CBO's fiscal year 2006 operating level.

                      <greek-l>CBO deg.HEALTHCARE

    I would also like to mention that various members and 
subcommittee chairmen of the House and Senate have asked CBO to 
expand our ability to assist the Congress in identifying and 
analyzing potential ways to address projected growth in 
healthcare spending. This is perhaps the central long-term 
fiscal challenge facing the Federal Government, and there is no 
other agency that is providing options on what could bend the 
curve on healthcare spending over the long term. Given the 
central importance of this issue to the budget, and given the 
potential role that CBO could play in providing such options, I 
support the initiative to expand CBO's work in this area, and 
we have put together staffing and other resources request that 
would allow us to better meet the needs of the Congress in this 
area. Totaling a little over $500,000, it includes funding for 
an additional health position, visiting fellow, consulting 
support, and the purchase of data that would allow us to 
undertake more analysis.
    Thank you very much.
    Senator Landrieu. Thank you.
    [The statement follows:]
                 Prepared Statement of Peter R. Orszag
    Madam Chair and members of the subcommittee, I am pleased to 
present the fiscal year 2008 budget request for the Congressional 
Budget Office (CBO).
    CBO's mission is to provide the Congress with timely, objective, 
nonpartisan analyses of the budget and the economy and to furnish the 
information and cost estimates required for the congressional budget 
process. That mission is its single ``program.'' Approximately 91 
percent of CBO's appropriation is devoted to personnel, and the 
remaining 9 percent to information technology (IT), equipment, 
supplies, and small purchases of other items.
    CBO's proposed budget for fiscal year 2008 totals $37,972,000, a 
$2.8 million or 7.9 percent increase over the fiscal year 2007 funding 
level. After taking into account increases in prices and costs, this 
budget request restores CBO to its fiscal year 2006 operating level. 
(The continuing resolution for fiscal year 2007 provided funding at 
less than the 2006 current services level for the agency.)
    The requested increase is largely accounted for by $2.1 million for 
increases in staff salaries and benefits, which are estimated to grow 
by 6.3 percent in 2008.
    In the request, funding for CBO's IT resources increases by almost 
40 percent, or $458,200. The reason is the rapid increase in IT costs 
necessary to fulfill CBO's IT requirements; the request does not entail 
any significant increase in those requirements. In other words, the 
increase restores IT funding to CBO's fiscal year 2006 operating level.
    The remainder of CBO's nonpersonnel budget will increase by 18 
percent, or $258,400, which restores funding to normal levels for CBO's 
share of support for the Federal Accounting Standards Advisory Board 
(FASAB), as well as providing for expert consultants, subscription 
services, printing, miscellaneous support by contractors, and travel 
and training requirements.
    CBO assists the Congress in exercising its responsibilities for the 
budget of the U.S. government and other legislation. Under the 1974 
Congressional Budget Act, the primary duty of CBO is to support the 
committees on the Budget of both Houses. Further, the agency supports 
the congressional budget process by providing analyses requested by the 
committees on the Budget; the committees on Appropriations; the 
committee on Ways and Means; the committee on Finance; other 
committees; and, to the extent that resources permit, individual 
members. Contributing in various forms, CBO:
  --Reports on the outlook for the budget and the economy to help the 
        Congress prepare for the legislative year;
  --constructs baseline budget projections to serve as neutral 
        benchmarks for gauging the effects of spending and revenue 
        proposals;
  --assists the committees on the Budget in developing the 
        congressional budget resolution by providing alternative 
        spending and revenue paths and the estimated effects of a 
        variety of policy options;
  --analyzes the likely direct effects that the President's budgetary 
        proposals will have on outlays and revenues; their economic 
        implications, and any budgetary feedback;
  --provides estimates of the cost of all appropriation bills at each 
        stage of the legislative process, including estimates for 
        numerous amendments considered during that annual process;
  --reports on all programs and activities for which authorizations for 
        appropriations were not enacted or are scheduled to expire;
  --estimates the cost of many legislative proposals, including formal 
        cost estimates for all bills reported by committees of the 
        House and Senate and detailed explanations of the components of 
        cost estimates and the estimating methodologies used;
  --estimates the cost of intergovernmental and private-sector mandates 
        in reported bills and other legislative proposals;
  --conducts policy studies of governmental activities having major 
        economic and budgetary impacts;
  --provides testimonies on a broad range of budget and economic issues 
        addressing the agency's own budget projections as well as 
        specific issues related to national security, health care 
        policy, alternative means of financing infrastructure spending, 
        and numerous other program areas;
  --helps the Congress make budgetary choices by providing policy 
        options, but not policy recommendations, for how it might alter 
        federal outlays and receipts in the near term and over the 
        longer term; and
  --constructs statistical, behavioral, and computational models to 
        project short- and long-term costs and revenues of government 
        programs.
    In fiscal year 2008, CBO's request will allow the agency to build 
on current efforts. Specifically, the request:
  --Supports a heavy workload of formal and informal estimates of the 
        costs of proposed or enacted legislation and of mandates 
        included in legislation, analytical reports, other publications 
        and updates, and congressional testimony;
  --supports 235 FTEs (full-time-equivalent positions), including an 
        across-the-board pay adjustment of 3 percent for staff earning 
        a salary of $100,000 or less, which is consistent with the pay 
        adjustment requested by other legislative branch agencies;
  --funds a projected 5.2 percent increase in the cost of benefits and 
        funds a combination of promotions and merit increases for 
        staff;
  --funds CBO's share ($460,575) of FASAB's budget requirement;
  --provides expert consultant and subscription services necessary to 
        fulfilling CBO's mission ($340,100);
  --provides management and professional training at the funding level 
        in fiscal year 2006 ($125,000);
  --provides travel funding at the fiscal year 2006 funding level 
        ($140,000);
  --supports the current level of maintenance and restores software 
        development funding for CBO's financial management system to 
        the 2006 funding level ($102,800);
  --improves disaster recovery capabilities at the Alternate Computing 
        Facility ($70,000);
  --allows for acquiring commercial data necessary for CBO's analyses 
        and studies ($193,000);
  --maintains essential operations for desktop software ($83,000); and
  --provides for replacing obsolete desktop computers and network 
        servers ($130,000).
    CBO has been asked by various members and committee chairmen of the 
House and Senate to expand its ability to assist the Congress in 
identifying and analyzing potential ways to address projected growth in 
health care spending. Continued rapid growth in such spending poses a 
major long-term threat to the Nation's fiscal stability. Responding to 
that request, CBO has identified staffing and other resources that 
would enable the agency to better meet the needs of the Congress in 
this area. Some additional funding would be necessary to augment CBO's 
fiscal year 2008 budget request. Totaling $538,400, it includes funding 
for an additional health position, visiting fellow, consulting support, 
and the purchase of prescription drug and health insurance data, as 
well as minor funding for related IT, office space reconfiguration, 
travel, and training. CBO hopes that the subcommittee will consider 
adding funding to CBO's fiscal year 2008 budget request to cover this 
additional requirement.
    Before I close, I would like to report that CBO received its third 
consecutive clean opinion on the latest audit of its financial 
statements. The agency's fourth audit (of fiscal year 2006 financial 
statements) is ongoing.
    The agency is committed to applying the principles of the 
Government Performance Results Act, as discussed in the Senate's fiscal 
year 2006 report. This past year, the agency developed its first formal 
strategic plan and performance plan. On the basis of those documents, 
CBO will prepare its first performance accountability report, using 
fiscal year 2007 as the baseline.
    Finally, I would like to thank the committee for the funding 
provided this year, including the allowance for a cost-of-living 
adjustment that supplemented the agency's payroll under the continuing 
resolution.

                          OFFICE OF COMPLIANCE

STATEMENT OF TAMARA E. CHRISLER, ACTING EXECUTIVE 
            DIRECTOR
ACCOMPANIED BY:
    PETER A. EVELETH, GENERAL COUNSEL
    BARBARA CAMENS, MEMBER, BOARD OF DIRECTORS

    Senator Landrieu. Ms. Chrisler.
    Ms. Chrisler. Thank you. Good morning, Madam Chair. I'm 
honored to appear before this subcommittee today as the Acting 
Executive Director of the Office of Compliance (OOC).

  <greek-l>OOC deg.OFFICE OF COMPLIANCE STRATEGIC PLAN GUIDES BUDGET 
                                REQUEST

    Our fiscal year 2008 budget request is guided by our newly 
developed strategic plan, which focuses on collaboration and 
communication and increasing our efforts at being a resource to 
the legislative branch.
    The first goal of our strategic plan involves our safety 
and health program, and it's through that program that our 
Office has been heavily engaged in collaborative and 
communication efforts with the Office of Architect of the 
Capitol, in negotiating a mutually acceptable resolution to the 
complaint that was filed in the utility tunnels case.
    It is anticipated that this resolution will involve a 
written settlement agreement, whereby the abatement plan for 
the hazards in the utility tunnels is outlined. We're 
requesting your assistance, and the assistance of the 
subcommittee today, to fund $280,000 approximate for our 
efforts in meeting our obligations under the settlement 
agreement; $120,000 to secure the services of a safety and 
health expert to act as a liaison between our Office and the 
Office of the AOC's liaison, to ensure that the terms of the 
agreement are met. We're also seeking an additional $152,000 to 
secure the expert services of consultants in heat issues and 
egress issues, asbestos, and mold issues. We currently have, on 
staff, contractors who are experts in some of these areas, but 
these contractors' time and attention are devoted to other 
matters, and, in order to meet our obligation under the 
settlement agreement, we're requesting your support.

<greek-l>OOC deg.OFFICE OF COMPLIANCE AS RESOURCE TO LEGISLATIVE BRANCH

    In developing our strategic plan, our office thought, and 
considered, how we can be of help to the legislative branch, 
how we can be a resource in ensuring that work environments are 
safe and healthy environments from the beginning, before 
conditions become hazardous. We recognize that it's education, 
and it's knowledge, and it's preventive measures that are key. 
To this end, we would like to work with Member offices, we 
would like to work with employing offices, and review their 
safety and health plans, and evaluate their safety and health 
programs. We'd like to work with Congress to develop safety 
checklists for State offices, so staff there know how to 
recognize conditions before they become hazardous. It's 
preventive, it's proactive, and it's a cost-efficient way of 
providing services.
    Now, we know we can't act as a resource in a bubble. We 
can't sit in our Office and make determinations as to how to 
provide assistance to the covered community. We know that it 
takes collaboration with stakeholders so that we--our efforts 
are targeted to the areas where our efforts are needed. We know 
that it takes communication with safety and health officers and 
managers so that our office understands the particular needs of 
certain offices. We know that it takes financial resources. And 
that's why we're here today, to ask for your support in this 
endeavor.

     <greek-l>OOC deg.MONITORING ABATEMENT OF MOST SERIOUS HAZARDS

    Last year, I had the privilege of testifying before this 
subcommittee in support of the fiscal year 2007 budget request 
of the Office. In asking our general counsel about abatement of 
specific identified hazards, Senator Allard shared with us his 
experience, his prior experience, as an inspector. And the 
Senator focused on the importance of follow-up in monitoring 
abatement. And we heard the Senator, and we took those comments 
very seriously. We recognize that the fundamental success of 
any safety and health inspection program requires the ability 
to facilitate abatement of identified hazards. And a major 
factor of that facilitation is follow up. It's ensuring that 
steps were taken, and it's making sure everything that was 
supposed to be done has been done. Our Office has never had the 
funding or the staffing to monitor abatement as it should.
    With the large number of violations that were found in the 
109th Congress alone, we know that it's going to take a 
dedicated position to monitor the abatement of the identified 
hazards in the 109th Congress and the other existing hazards. 
And we're asking your support in funding an additional position 
for our Office. That would be a compliance officer, who would 
be dedicated to monitoring the abatement of identified hazards, 
who would be responsible for that follow up and ensuring that 
everything that's supposed to be done has been done.

               ADDITIONAL FULL-TIME EQUIVALENT POSITIONS

    Our Office is requesting three additional--outside of the 
compliance officer--three additional full-time equivalent 
positions, as well, two of which were requested in fiscal year 
2007 budget request; those two being the accounts payable 
position, which would bring on staff our accounts payable 
function and allow for separation of duties, as well as a 
management analyst, who would assist in monitoring the projects 
that our Office is involved in, so that our program managers 
can focus on managing their programs.
    The fourth position that we're requesting is an 
administrative position that would be shared between the half-
time receptionist that we currently have, bringing that 
position to full time, and the administrative support of the 
safety and health program that we anticipate--that we 
anticipate with the increased workload.
    Madam Chair, our office is energized about our new 
strategic plan, and we are very excited about further servicing 
the legislative branch as a resource. We want to be a part of 
the preventative measures, and we want to be a part of 
collaborative efforts, and we want to be a part of the 
solution.
    Joining me today is a member of our board of directors, 
Barbara Camens, and, if time permits, I would ask that she be 
allowed to make a brief statement, as well.

                          PREPARED STATEMENTS

    Senator Landrieu. Okay, that may be possible, and thank you 
for your testimony.
    Ms. Chrisler. Thank you.
    [The statements follow:]
                Prepared Statement of Tamara E. Chrisler
    Madam Chair and members of the committee, thank you for the 
opportunity to appear before you today in support of the fiscal year 
2008 budget request of the Office of Compliance.
    Board member Barbara Camens is in attendance with me today to 
express the support of the board of directors for the Office's fiscal 
year 2008 budget request. Also with me today are General Counsel Peter 
Ames Eveleth, Deputy Executive Director Alma Candelaria, and 
Administrative and Budget Officer Beth Hughes Brown.
    As we have in the past, we present our budget request as a 
completely zero based budget, in an effort to provide transparency of 
the office's operations, and to assist the committee in understanding 
from the ground up how the office operates its mandated programs in 
employment dispute resolution, in occupational safety and health and 
ADA public access inspections and enforcement, and in education and 
outreach programs. This year, we have requested a total of $4,106,000 
for fiscal year 2008 operations. A large portion of this request, 
$280,200 (28 percent of the requested increase), is attributed to the 
required abatement monitoring of the utility tunnels case.
    The Office of Compliance (OOC or Office) approaches fiscal year 
2008 with a new strategic plan. Although our plan was implemented at 
the beginning of fiscal year 2007, 2008 will be the first fiscal year 
in which the Office has requested funding in support of this plan. 
Prior to the end of our first 3-year strategic plan in fiscal year 
2006, the Office began preparation for the drafting of our current 
plan. We incorporated input from our entire staff, outlining our major 
goal of focusing on meeting the workplace needs of the legislative 
branch, and positioning ourselves to act as a resource to the covered 
community. Shortly after the beginning of fiscal year 2007, the Office 
finalized a plan which covers fiscal years 2007-2009, with focused 
efforts on communication and collaboration with agencies and employing 
offices, and providing technical guidance as needed. As we strive to 
meet the goals and performance measures of our current strategic plan, 
we face new operational challenges of funding and staffing. We request 
your assistance in overcoming these challenges.
                     occupational safety and health
    The Congressional Accountability Act's (CAA) statutory mandate 
requires that our office conduct a workplace safety and health 
inspection program. The monitoring of remediation of hazards found 
through the Office's inspection program remains a vital part of the 
safety and health program. During fiscal year 2006, the General Counsel 
increased his efforts to remedy two serious violations which posed 
imminent danger to workers, one of which was unabated safety violations 
which existed in the Capitol Power Plant utility tunnels since before 
1999. The Office's filing of our first ever formal complaint led the 
Office of the Architect of the Capitol (AOC) to implement immediate 
interim abatement measures to protect workers in the tunnels from 
imminent harm.
    With that protection in place, the AOC and the Office engaged in 
settlement negotiations to resolve the formal complaint by devising a 
plan which requires abatement of the identified hazards, continued 
interim protection for affected AOC employees until full abatement is 
achieved, and monitoring of the abatement progress by the Office of 
Compliance. In order to ensure the safety and health of workers, this 
monitoring may require the procurement of expertise that the Office 
does not have available on staff. The current staff complement of the 
OOC has been stretched in both FTE resources and contractor funding, 
and we currently do not have available the expertise to address many of 
the specifics involved in the abatement of the tunnels hazards. Our 
fiscal year 2008 budget request includes $120,000 for funding to cover 
the costs of an OOC liaison (a safety and health expert) who will help 
us continuously interface with the AOC's liaison to facilitate 
abatement pursuant to the tunnels settlement agreement. An additional 
$152,000 is requested so that our office may obtain the expertise of 
other expert consultants who can address structural, heat, egress, 
mold, and asbestos issues.
    The monitoring of the utility tunnels as well as the monitoring of 
the nearly 13,000 findings our inspectors detected in our 109th 
Congress biennial inspection will require substantial time and 
resources. Our multi-year plan considers this time and resource 
requirement and will allow for comprehensive abatement. One portion of 
our plan to monitor abatement of the approximate 13,000 findings is the 
acceleration and increase of our follow-up inspections of the most 
critical of those findings. With the number of findings before us, we 
recognize--and the fiscal year 2006 Senate Appropriations Subcommittee 
Chairman reminded us--that it is essential that the Office incorporate 
mechanisms and personnel to better assure efficiency and timeliness in 
its monitoring program. As such, the need for a compliance officer, who 
would be dedicated to monitoring the abatement schedules of employing 
offices and ensure that employing offices have taken appropriate steps 
towards resolution of identified hazards and violations, is most 
critical. We request one FTE to serve as a compliance officer, to 
provide consistent monitoring of abatement of hazards, assure timely 
abatement of OSH hazards identified in the OSH biennial inspections and 
requestor-initiated inspections, and ensure compliance with OSH-related 
citations.
    In our fiscal year 2007 budget request, the Office explained its 
need for a management analyst to perform the administrative tasks that 
our inspectors once performed at a much higher cost. This need became 
so apparent that, while we awaited congressional consideration of our 
request, the Office engaged in a reorganization. Sacrificing the 
support of administrative staff, we reorganized positions and 
reprogrammed contractor funds to allow the duties of the management 
analyst to be performed immediately. As a result of the reorganization, 
inspector efficiency has increased; however, the Office still suffers 
from a lack of clerical/administrative support. We are requesting 
funding to add a 0.5 FTE position to ensure that the attorneys and 
inspectors are able to focus on the substantive nature of their work, 
as opposed to performing accompanying administrative tasks. The 
function of the remaining half of this position is addressed below.
    The large number of findings in our 109th biennial inspections 
contemplates the notion that there may exist deficiencies in the safety 
and health plans and programs of the legislative branch. In an effort 
to be a resource to our covered community, the Office seeks to provide 
technical assistance to member offices as well as employing offices. As 
mentioned in our strategic plan, the Office is prepared to review and 
analyze the covered community's safety plans to determine whether the 
plans meet OSHA requirements. We are requesting funds in support of 
this initiative with the hope that our early technical assistance might 
prevent the occurrence of future hazards.
    Similarly, the Office is committed to providing early assistance to 
State offices as well. The lack of funding has prevented the Office 
from conducting in-person inspections of covered facilities in State 
offices, as mandated by the CAA. However, we are developing a plan by 
which we can assist Congress in assuring worker safety in State 
offices. Through collaboration with stakeholders, we plan to develop 
and pilot self-certification check lists to provide to State offices in 
an effort to educate them on OSHA requirements, and to better equip 
them in assuring that the responsible party (e.g., GSA, private 
landlords) corrects any identified hazards.
    In addition, the anticipated opening of the Capitol Visitor Center 
during fiscal year 2008 has impacted our office as well. The Office 
stands ready to provide preliminary assistance in assessing the safety 
of the CVC prior to its occupancy. Once the CVC is occupied and it is 
added to the Office's inspection cycle, it will add approximately .7 
million square feet to the Office's area of inspection. Thus, we are 
seeking funding to sustain the increased workload.
                         education and outreach
    The Office is mandated by Congress to ``carry out a program of 
education for members of Congress and other employing authorities of 
the legislative branch of the Federal Government respecting the laws 
made applicable to them and a program to inform individuals of their 
rights under laws made applicable to the legislative branch of the 
Federal Government. . . .'' 2 U.S.C. 1381(h)(1). The Office continues 
to carry out this core mandate of the act through various educational 
and outreach activities.
    In line with the Office's initiative to act as a resource to 
legislative branch employees and employers, the Office has begun major 
efforts to disseminate a baseline survey to its constituents. We have 
devised a survey instrument to apply initially to House and Senate 
offices, with the intent of applying the same instrument to another 
large group of our constituents in the current fiscal year. The survey 
has been designed to gauge the community's general knowledge of the 
Office, their rights and responsibilities under the CAA, and their 
general satisfaction with the Office. This initiative ultimately will 
result in the first comprehensive evaluation of the Office's education 
efforts and services. The Office anticipates that this initial survey, 
followed by focus groups and additional surveys, will result in 
feedback and pointed data to allow the Office to perform a concentrated 
effort to improve and streamline and more precisely target services to 
fit the needs of the community. With your assistance, we have been able 
to fund phases I and II in the past 2 fiscal years. We are seeking 
additional funding for phase III of our survey activities to establish 
the baseline against which we will measure our success in achieving our 
educational statutory mandate.
                           dispute resolution
    The Office's employment dispute resolution program provides a 
mechanism for employing offices and employees to address issues 
involving ten different laws of the CAA, ranging from alleged 
discrimination to the alleged failure to pay required overtime. The 
successes of the dispute resolution program remain largely unnoticed 
because of the confidential nature of its administrative phases: 
counseling, mediation, and hearing processes conducted by the Office. 
Hundreds of disputes in nearly all legislative branch agencies, as well 
as in offices of members and committees of both chambers have quietly 
been addressed through our administrative dispute resolution system 
since the Office's inception in 1996. The assistance to employing 
offices and employees provided by this confidential service is 
reinforced through well-trained staff who provide exemplary services to 
employees and through the expertise of contract mediators and hearing 
officers who remain accomplished in their field.
    The need for contracted legal expertise is anticipated to continue 
in fiscal year 2008. Currently, the Office has received a large number 
of complaints which have proceeded to hearing and may proceed to the 
administrative appellate stage before the Office's board of directors. 
During the first quarter of fiscal year 2007, there were pending before 
the board five cases for appellate review. The preparation of these 
decisions, to include legal research, legal writing, and legal 
analysis, requires expert assistance in order to render sound board 
decisions in a timely fashion. The Office currently has staff dedicated 
to this program requirement; however, because complaints continue to be 
filed at a steady pace, and because the Office does not foresee a 
decrease in the number of appeals of hearing officers' decisions, 
assistance from a contract attorney will aid the office in providing 
timely board decisions.
                           management support
    As mentioned above, the Office of Compliance makes extensive use of 
service vendors and personal services contractors to provide many of 
our vital functions, including employment dispute resolution and OSH 
inspections. In general, this practice provides significant cost 
savings and allows this small agency to maintain capacities on an ``as-
needed'' basis. However, some core internal control functions are 
currently also under-served or contracted out due to our limited FTE 
authorization, which at 17 is two less than the agency was authorized 
in fiscal year 1998.
    The Office has just two FTE's dedicated to all IT, HR, general 
administrative support and fiscal management functions. This situation 
has resulted in inefficiencies, work load overages, and the necessity 
to contract out core functions, such as accounts payable. Accounting 
staff is necessary to ensure that a separation of functions can be 
maintained in our fiscal management. HR/project management staff is 
necessary to further the Office's commitment to best practices, 
allowing program managers to concentrate on their areas of expertise. 
General administrative staff is necessary to address workload issues of 
staff who have to perform administrative duties instead of duties in 
their own subject matter areas. As mentioned in our fiscal year 2007 
budget request, we are requesting one analyst FTE to address our HR and 
project management deficit, and an accounting technician FTE to bring 
our basic accounting and other fiscal responsibilities on staff. The 
cost of these FTE's will be partially offset by a reduction in 
contractor expenses. In addition, we are requesting a half-time FTE to 
complete the part-time receptionist position, so that our remaining 
staff can concentrate on performing the duties of their respective 
substantive areas.
                               conclusion
    There are a number of other requests in our budget submission which 
we commend for your consideration. The ones referenced herein are 
presented to highlight a portion of the endeavors which our office 
hopes to undertake with your assistance. On behalf of the board of 
directors, the appointees and the entire staff of the Office of 
Compliance, I thank you for the committee's support of the efforts of 
this agency. I assure you that the Office is committed to the most 
efficient and prudent use of taxpayer money. I respectfully request 
that the committee respond favorably to the Office's fiscal year 2008 
budget request. We will be happy to respond to any questions which you 
may have.
                                 ______
                                 
                  Prepared Statement of Barbara Camens
    Madam Chair and members of the subcommittee, good morning. I am 
Barbara Camens, and I represent the Board of Directors of the Office of 
Compliance. I am honored to be here today to join Acting Executive 
Director Tamara Chrisler in testifying on behalf of the Office's fiscal 
year 2008 budget request.
    Madam Chair, the Board would first like to commend the work of Ms. 
Chrisler, Peter Eveleth, and the entire staff in achieving so many 
goals in the past few years. We now have a new strategic plan for 
fiscal year 2007-2009, with a line of sight to individual work plans. 
We have established and continue to develop protocols to enable us 
better to partner with the agencies for which we have employment law 
and safety and health jurisdiction. We are negotiating a settlement 
agreement of our first safety and health complaint, involving the 
utility tunnels which, if approved, will prevent the matter from 
reaching federal court, will conserve substantial resources, and will 
ensure the immediate and ongoing abatement of the underlying safety 
hazards.
    This record of improvement is the result of the hard work and 
dedication of the four statutory officers who are appointed by the 
Board, and the dedicated staff they have assembled. While the Board 
wholeheartedly supports the entire budget request, we wish to 
underscore the need which the agency has to increase its FTE complement 
to 21. Right now the FTE complement of 17 is two less than the 19 the 
Office was afforded in fiscal year 1998. Over the past several years, 
the agency has concentrated its available resources on enhancing its 
service delivery, particularly in the OSH area. Consequently, there is 
a compelling need for basic operational support staff. I can assure you 
that the Office of Compliance will continue to make the most efficient 
use of every dollar which is appropriated by this committee.
    I would like to call your attention to two statutory changes that 
are of significant interest to Susan Robfogel, the Chair of the Board 
of Directors, as well as the entire Board. The first has to do with 
internal promotion within the Office of Compliance. The Congressional 
Accountability Act requires the Office's statutory appointees to be 
individuals who have not worked within the legislative branch during 
the previous 4 years. This provision makes it impossible to promote 
from within; for example, from Deputy Executive Director to Executive 
Director. Since the Board could be actively contemplating such a 
promotion, we have an immediate interest in changing the prohibitive 
section of the CAA. We have contacted, and plan to work with the 
appropriate oversight committees of both Chambers to expedite this 
change, and would greatly appreciate the support of this subcommittee 
in this effort.
    In addition, the Office has recently contracted with a human 
resources consulting firm that has begun assessing our human capital 
needs. The contractor's report makes recommendations for how various 
office functions could be more efficiently and effectively performed. 
One of the contractor's preliminary recommendations is for ``the Board 
of Directors (to) consider the feasibility of seeking legislative 
change to allow the establishment of senior executive positions in the 
Office of Compliance where these responsibilities warrant.'' We are 
requesting your assistance in enacting this change for the positions of 
Executive Director and General Counsel of the Office of Compliance, and 
if you consider it appropriate for each of the five members of the 
Board of Directors. Please provide us any guidance you deem advisable 
to effect this change in compensation levels.
    I am available to address any questions.

    Senator Landrieu. Let me just begin with questions, if I 
could, to Mr. Walker. Let me say that, although my experience 
on this subcommittee is rather brief, my experience in 
Government is not, and I've been in public office for, now, 
almost 30 years, having started in my own legislature, and then 
working up as State treasurer, and then, of course, being 10 
years in the Senate. I realize, while there are a lot of people 
who spend a lot of time bashing Government, I believe 
Government can do a lot of good, does a lot of good every day. 
I am proud of the fact that this is the finest Government, 
democracy, in the world. It's what many of the issues that 
we're dealing with here and abroad are all about. And, while 
some of your agencies don't get the time and attention they 
need, because they're sort of the mechanical part of making it 
work, it does not go without my notice of the importance of 
what you do every day to just keep the trains running on time 
and to keep this Government operating efficiently, 
transparently, and professionally, which is so rare in the 
world today.
    So, I would think, particularly for the Comptroller's 
office and the Congressional Budget Office, Peter, that you all 
really are the muscle that makes possible a trim and fit 
Government, and we want to run a trim and fit Government to 
meet all the goals and objectives, from the Constitution to 
every law that's written, to fulfill the dreams and hopes of 
the country. So, I hope that people in the room understand that 
this is not just a mechanical accounting exercise for me. I 
really look forward to learning more about your offices. My 
background is not in auditing or investigation. But I would say 
that I really am a true believer in Government working well. 
And--as much as I can help you do your jobs well--I think our 
subcommittee will be making a significant contribution.

<greek-l>GAO deg.JUSTIFICATION FOR INCREASED FUNDING IN THE GOVERNMENT 
                         ACCOUNTABILITY OFFICE

    Mr. Walker, Some in Congress are going to be quite suspect 
and hesitant--as you know, about fighting for extra money. It 
is not going to be easy----
    Mr. Walker. No, I realize that.
    Senator Landrieu [continuing]. Currently, we've got a 
tremendous amount of extremely important calls on funding, both 
domestically and internationally. So, would you spend another 
minute or two, giving your three or four best arguments to the 
skeptics that say, ``What you do is not that important, and we 
don't need to increase your budget.'' Seeing this graph that 
you submitted sort of tells the story. But if you'd add 
something to that.
    Mr. Walker. I'll be happy to provide something for the 
record. And thank you for the opportunity, Madam Chair.
    [The information follows:]

                       Need for Increased Funding

    In recent years, GAO has worked cooperatively with the 
Appropriations Committees to submit modest budget requests. 
Adjusting for inflation, GAO's budget authority has declined by 
3 percent in constant fiscal year 2006 dollars since fiscal 
year 2003. These modest budget results do not adequately 
recognize the return on investment that GAO has been able to 
generate. In fact, these modest increases have hampered our 
progress in rebuilding from the downsizing (40 percent 
reduction in staffing levels) and mandated funding reductions 
that occurred in the 1990s.
    With your support, GAO has become more results-oriented, 
partnerial, and client focused. We have made strategic 
investments; realigned the organization; streamlined our 
business processes; modernized our performance classification, 
compensation, and reward systems; enhanced our ability to 
attract, retain and reward top talent; enhanced the technology 
and infrastructure supporting our staff and systems; and made 
other key investments. These transformational efforts have 
allowed GAO to model best practices, lead by example, and 
provide significant support to Congressional hearings, while 
achieving record results and very high client satisfaction 
ratings without significant increases in funding.
    We have taken a number of steps to deal with funding 
shortfalls in the past few years; however, we cannot continue 
to employ the same approaches. Our staff has become 
increasingly stretched and we are experiencing backlogs in 
several areas of critical importance to the Congress (e.g., 
health care, homeland security, energy and natural resources). 
In addition, we have deferred key initiatives and technology 
upgrades (e.g., engagement and administrative process upgrades) 
for several years and it would not be prudent to continue to do 
so. These actions are having an adverse effect on employee 
morale, our ability to produce results, and the return on 
investment that we can generate.
    There is a need for fundamental and dramatic reform to 
address what the government does, how it does business, and who 
will do the government's business. Our support to the Congress 
will likely prove even more critical because of the pressures 
created by our nation's current and projected budget deficit 
and growing long-term fiscal imbalance. Also, as we face 
current and projected supply and demand imbalance issues and a 
growing workload over the coming years across a wide spectrum 
of issues, GAO will be unable to respond to congressional 
demands without a significant investment in our future. We have 
exhausted the results that we can achieve based on prior 
investments. Our ability to continue to produce record results 
and assist the Congress in discharging its Constitutional 
responsibilities relating to authorization, appropriations, 
oversight, and other matters will be adversely impacted unless 
we take action now.

             <greek-l>GAO deg.LINKING RESOURCES TO RESULTS

    Mr. Walker. We're in the business of improving the 
performance of the Federal Government and ensuring its 
accountability for the benefit of the American people. We 
provide oversight, insight, and foresight work. We help the 
Congress discharge its constitutional responsibilities with 
regard to appropriations, authorization, reauthorization, 
oversight, et cetera.
    The best case I would give you, Madam Chair, is, I think 
the U.S. Government does not do a very good job of linking 
resources to results. We are a shining exception to that 
general rule. We generated, last year, a $105 return in 
financial benefits for every dollar invested in our agency. 
Number two in the world is around 24 to 1. The Congress needs 
to do a better job, in my view, of recognizing that the 
baselines of all budgets are not equal. I'm talking in general, 
not about the legislative branch, but throughout Government. 
The Government needs to start doing a better job of analyzing 
what makes sense and what doesn't make sense for tomorrow, and 
are we targeting our resources to where we're getting results.
    If the Congress does that, our case is clear and 
compelling, and I have no concerns. But if the Congress doesn't 
do that, and if the Congress takes a baseline approach to say, 
``Well, this is where we were last year, and this is how much 
money we have this year,'' and, if it doesn't delve in, get the 
facts, and differentiate, then I'm very concerned, because what 
happens is, agencies like ours, who try to ask for very modest 
budget requests, and to lead by example----
    Senator Landrieu. Get penalized.
    Mr. Walker [continuing]. Get penalized. There are very 
perverse incentives in that. I know you believe, as I do, that 
we need to transform what Government does and how Government 
does business. We are an ally to this Congress in getting that 
done. But we need to have a reasonable level of resources in 
order to be able to do our job.
    Senator Landrieu. Thank you.

          <greek-l>GAO deg.HIRING IN A COMPETITIVE JOB MARKET

    Let me just ask you to comment about the tensions that 
you're finding, or the difficulties, in hiring based on the 
competitiveness of the private market. I'm going to ask you the 
same, Mr. Turri, and also Peter. Because the region that we're 
in here is very competitive. Are you seeing it scale up pretty 
substantially, or has it been this way for several years?
    Mr. Walker. It varies, Madam Chair. Basically, for GAO, 
we're deemed to be an employer of choice. We're deemed to be 
one of the best places to work in the Federal Government. We're 
deemed to be a preferred professional services organization. 
So, in general, we have a lot more people who want to work for 
GAO than we have positions. There are, however, exceptions. We 
experience real supply and demand imbalances in hiring Ph.D. 
economists, healthcare professionals, and information 
technology professionals. Even in areas such as financial 
management and auditing, because of Sarbanes-Oxley and a 
variety of other issues, there are selected areas in which we 
are increasingly competing for talent and having difficulties 
in being able to attract the number of people with the type of 
education and experience that we want. But, in general, we're 
okay. Those areas where we have challenges, but we need to meet 
those challenges, because some of these areas are the ones that 
represent the greatest challenges for Government--healthcare, 
for example.
    Senator Landrieu. And do you think you have the 
flexibility, based on the current authorization laws, to allow 
you to make those differentials in pay that are required to 
attract and retain that kind of talent?
    Mr. Walker. We have more flexibility than most agencies in 
Government, thanks to the actions of the Congress. On three 
different occasions--1980, 2001, and 2003--the Congress has 
given us initial authorities, which we have aggressively used. 
I can assure you that I will not hesitate to let you know if we 
think we need more authorities. I would like to note for the 
record, as is included in my statement, we are planning to 
submit a legislative proposal to our oversight and authorizing 
committees, this year, that does deal with certain human 
capital issues.

     <greek-l>GAO deg.MARKET-BASED COMPENSATION AT THE GOVERNMENT 
                         ACCOUNTABILITY OFFICE

    Senator Landrieu. As I understand, there was a hearing in 
the House on this, last week, that had a couple of questions 
about complaints that they had received about people feeling 
that they might not have been treated fairly. And, of course, I 
wasn't able to read all the testimony of that hearing. Would 
you like to comment, for the record----
    Mr. Walker. Sure.
    Senator Landrieu [continuing]. About some of those----
    Mr. Walker. Yes.
    Senator Landrieu [continuing]. Issues?
    Mr. Walker. Thank you Madam Chair for the opportunity. Let 
me try to provide some contextual sophistication for this, 
because you just get pieces of things that are reported.
    In July 2003, I testified before the Congress, and I asked 
for additional legislative authorities in order to make GAO a 
more market-based, skills-, knowledge-, and performance-
oriented organization with regard to classification and 
compensation systems. Congress granted us that authority in 
July 2004.
    Later in 2004, we received the results of our first-ever 
competitive compensation study for GAO personnel. It was good 
news and bad news. The good news was, the vast majority of our 
people were either compensated fairly, or for a material 
percentage of individuals--Ph.D. economists, attorneys, 
information technology specialists, and a few others--the study 
found that we should raise their pay potential, raise their pay 
ranges; and, in fact, we did do that. There were many more 
positives than negatives. There was, however, one area that it 
was not good news for some of our employees. That study said 
that we had roughly 300 employees that were overpaid, as 
compared to the market. As a result, one had to decide, ``What 
would you do with those individuals?''
    I made the determination that, while I had the authority to 
freeze their pay under the law, I didn't want to do that; I 
wanted to give them some performance incentives. And, in fact, 
we did, and we are still giving them performance incentives, 
even greater performance incentives. But I made the decision 
not to provide them an automatic across-the-board pay increase, 
because, in my view, doing so would be inconsistent with the 
concept of equal pay for work of equal value, and inconsistent 
with the concept of providing competitive compensation levels 
for our people. Candidly, I never promised to give across-the-
board increases to people paid above market, nor have I ever 
been asked to promise to give across-the-board increases to 
people paid above market. To put this in context, in 2007 we're 
talking about roughly 150 people out of 3,200, down from over 
300 in 2006.
    Senator Landrieu. Thank you, Mr. Walker. I think that was 
very well stated. I guess I should say, for the record, that 
I've done the exact same thing in my office. And I have the 
flexibility to do that. And I believe in that kind of approach 
for the 45 people that work for me. So, I don't know all the 
details of this, and I'm not going to prejudge, but I most 
certainly find no fault with the thought and the 
professionalism in which you have addressed this. That is 
exactly what I try to do within the tight budgets that we have, 
to retain the very best staff that I can retain, with the 
skills necessary to do the job I need to do as a Senator.

<greek-l>GAO deg.IMPLEMENTING A TECHNOLOGY ASSESSMENT AT THE GOVERNMENT 
                         ACCOUNTABILITY OFFICE

    Mr. Walker, what are the critical factors in implementing a 
technology assessment function at GAO? Do you see merit in 
creating permanent capability within GAO to study technology 
assessments?
    Mr. Walker. Thank you for that question, Madam Chair.
    The Congress, as you know, for several years, has been 
debating whether, and to what extent, to reestablish a 
technology assessment capability. We have conducted some 
technology assessments, at the request of the Congress, in part 
to serve as a beta to determine whether or not we might be an 
appropriate agency to do that work. In my opinion, the Congress 
does need some additional capability with regard to technology 
assessments. Second, I think we have proven that we've got the 
ability to do that work. Third, I would question whether or not 
it makes sense to create a new legislative branch entity with 
all the different overhead and infrastructure that would have 
to come with that.
    Should the Congress decide to create this capability, and 
to place it at GAO, we would need a few more FTEs, and we would 
need some additional funding, because we're already stretched. 
But I can assure you, it would be a lot more cost beneficial to 
do it at GAO than it would be to start something from scratch, 
a whole new entity, with its own support structure and all the 
other things that would have to come with it.

            <greek-l>GAO deg.RELEVANCE OF EXISTING MANDATES

    Senator Landrieu. And one more question. You've approached 
the subcommittee regarding a number of mandates involving your 
work that you believe should be repealed. Could you reiterate 
those, for the record, and why you think they should be 
repealed?
    Mr. Walker. I'll be happy to provide a list for the record.
    [The information follows:]
  <greek-l>GAO deg.Proposed Repeal and Modification of GAO Reporting 
                              Requirements
    GAO has proposed language that would repeal or modify a number of 
mandates for GAO audits and reports. Most of the mandates impose 
recurring requirements on GAO. While the circumstances of each vary, 
the common theme is that continued audits and reports would provide 
little or no value and consume resources that could be applied to GAO 
work of higher priority to the Congress. Eliminating these mandates 
would conserve resources while preserving the option for congressional 
committees to request GAO work in areas covered by the specific 
mandates.
    (a) Annual Report by GAO on Consistency of IMF Practices With 
Statutory Policies.--Section 504(e) of title V of the Consolidated 
Appropriations Act, 2000 (Public Law 106-113--Appendix E) is repealed.
    (b) Review of Proposed Changes to Export Thresholds for 
Computers.--Section 314 of title III of the Consolidated Appropriations 
Act, 2001 (Public Law 106-554--App. B) is repealed.
    (c) Annual Reports on Waiting Times for Appointments for Specialty 
Care.--Section 604(c) of the Veterans Health Programs Improvement Act 
of 2004 (Public Law 108-422) is amended by striking ``the Comptroller 
General of the United States'' and inserting ``the Inspector General of 
the Department of Veterans Affairs''.
    (d) Audit by GAO.--Paragraph (4)(A) of subsection (f) of section 
4404 of Public Law 107-171 (2 U.S.C. Sec.  1161(f)(4)(A) is amended--
            (1) by striking ``shall'' and inserting ``may''; and
            (2) by striking ``annual''.
    (e) Section 902(k) of the Haitian Refugee Immigration Fairness Act 
of 1998 (Public Law 105-277; 8 U.S.C. 1255 note) is repealed.
    (f) Local Educational Agency Spending Audits.--Section 1904 of the 
Elementary and Secondary Education Act of 1965 (20 U.S.C. 6574) is 
repealed.
    (g) Audit of Financial Transactions.--Section 11 of the National 
Moment of Remembrance Act (Public Law 106-579; 36 U.S.C. 116 note) is 
repealed.
    (h) Loss Ratios and Refund of Premiums.--Section 1882(r)(5) of the 
Social Security Act (42 U.S.C. 1395ss(r)(5)) is amended--
            (1) in subparagraph (A)--
                    (A) by striking ``(A) The Comptroller General shall 
                periodically, not less than once every 3 years,'' and 
                inserting ``The Secretary may''; and
                    (B) by striking ``and to the Secretary''; and
            (2) by striking subparagraph (B).
    (i) GAO Reports.--Section 14 of the Radiation Exposure Compensation 
Act (Public Law 101-426; 42 U.S.C. 2210 note) is repealed.
          proposed transfer of comptroller general authorities
    The proposed language would transfer certain functions currently 
performed by GAO to the Department of Labor. GAO performs purely 
ministerial functions under the Davis-Bacon Act and the Contract Work 
Hours and Safety Standards Act. These functions include payment to 
employees and others pursuant to determinations of the Department of 
Labor, and certain ministerial reporting functions. These functions are 
more appropriately performed by the Department of Labor.
    (a) Authority of Comptroller General to Pay Wages and List 
Contractors Violating Contracts.--Section 3144 of title 40, United 
States Code, is amended--
            (1) in the title, by striking ``of Comptroller General'';
            (2) in subsection (a)(1), by striking ``The Comptroller 
        General'' and inserting ``The Secretary of Labor''; and
            (3) in subsection (b)(1), by striking, in both places, 
        ``Comptroller General'' and inserting ``Secretary of Labor''.
    (b) Reports of Violations and Withholding of Amounts for Unpaid 
Wages and Liquidated Damages.--Section 3703 of title 40, United States 
Code, is amended in subsection (b)(3), by
            (1) striking ``The Comptroller General'' in the first 
        sentence and inserting ``The Secretary of Labor'' and
            (2) striking ``the Comptroller General'' in the second 
        sentence and inserting ``The Secretary of Labor''.
    (c) Health and Safety Standards in Building Trades and Construction 
Industry.--Section 3704 of title 40, United States Code, is amended--
            (1) in subsection (c)(1), by
                    (A) striking ``Transmittal of names of repeat 
                violators to Comptroller General'' and inserting 
                ``Findings of repeat violations'', and
                    (B) striking all words after ``effect''.
            (2) in subsection (c)(2), by
                    (A) striking the first sentence and inserting ``Not 
                sooner than 30 days after giving notice of the 
                Secretary of Labor's finding under paragraph (1) to all 
                interested persons, the Secretary shall distribute each 
                name to all agencies of the Federal Government.'';
                    (B) striking ``from the date the name is 
                transmitted to the Comptroller General'' in the second 
                sentence;
                    (C) striking ``whose name was submitted to the 
                Comptroller General'' in the third sentence; and
                    (D) striking the fourth sentence and inserting 
                ``The Secretary shall inform all Government agencies of 
                the Secretary's action''.

    Mr. Walker. But here is the key concept. And it's something 
that we talked about earlier. Government tends to be an 
accumulation and amalgamation of various policies, programs, 
functions, and activities over the years; and, in this 
particular case, of mandates that have come up over the years. 
Some of them make sense, some of them don't make sense; some of 
them are outdated, and some of them don't pass a cost-benefit 
test. So, what we've endeavored to do is, we've gone back, and 
we've looked at all the mandates that currently apply to us, 
and we've tried to work with the Congress in understanding 
which ones are still relevant, which ones have merit, and which 
ones are cost beneficial.
    And so, I'll be happy to provide some more for the record, 
but I--it's kind of a spring cleaning, and spring is coming 
soon, and--I think a lot of people, frankly, need to have a 
spring cleaning.
    Senator Landrieu. My husband would most certainly agree 
with you. He threatens to start one any day. I tell the 
children, ``Move out of the way. You, too, will be thrown out 
of this house.''
    Mr. Turri, we will move now to you. The 49-percent increase 
in your budget is quite substantial. Now, I understand the 
whole argument about starting from a baseline that's too low to 
do the mission, and so a 5 percent or 6 percent isn't going to 
make any difference. But, still, that's fairly significant. So, 
would you mind trying to explain a little bit more in detail 
about that?

          <greek-l>GPO deg.GOVERNMENT PRINTING OFFICE FINANCES

    Mr. Turri. Thank you, Madam Chair.
    Just for clarification, GPO is unique in the way it is 
funded. Of all the revenue that we have in our operation, about 
80 percent of it actually is nonappropriated. It's based on a 
revolving fund that receives most of its revenue from procured 
printing, Federal Register printing, the printing of passports, 
and other products. That area actually funds 80 percent of what 
the agency is all about.
    Senator Landrieu. And how much does that generate annually?
    Mr. Turri. We expect, this year, our total revenue to be 
around $880 million. So, the balance of the 20 percent or so is 
appropriated funds. Of that particular amount, congressional 
printing and binding is a significant part of that operation. 
And this year, what we're asking for is about $21 million plus 
to bring that budget up to where it belongs. In 2005, we were 
appropriated about $88 million for congressional printing and 
binding. That particular year, we were very close to that 
appropriation. It kind of bumped right up to it. In 2006, we 
actually exceeded the appropriated number by $3 million. We 
actually had to use transfers to fund that shortfall.
    This year, with a continuing resolution, we project we are 
going to be in excess of $12 million over the appropriation--
the flat funding that we've had for the last couple of years. 
About $5 million of that is for the U.S. Code. The rest of it 
is for the fact that this year Congress will have increased 
days in session, the fact that we have wage increases that are 
mandatory, and materials costs have increased. Those particular 
items all add up to, as I say, an increased amount. And the 
volume of work that Congress is doing each year has increased, 
and those same arguments will apply to the budget of 2008, once 
again looking at probably about a $9 million increase. Just to 
bring us up to where we belong and the amount of money that we 
are mandated to spend by the work that we do every day, will 
bring our congressional printing and binding budget up by $21 
million. That is something we really have no control over. We 
are just obliged, obviously, every day to print that work.
    Senator Landrieu. Can I ask you this? You have been with 
this office for a short period of time?
    Mr. Turri. I actually have been with the GPO approximately 
4 years as the deputy to Mr. James. In January, I took over as 
Acting Public Printer, as the search for a new Public Printer 
continues.
    Senator Landrieu. Has the agency ever gone through a 
comprehensive review--since you're generating about 80 percent 
of your funding--which is very substantial? I know some of that 
are fees set by Congress for what a passport costs, et cetera--
but have you ever had a review--since you are in sort of a 
business that can actually produce revenue? Is there any 
thought that you could actually produce more than you need and 
get your 80 percent up to 100 or 110 or 120?
    Mr. Turri. Are you talking about----
    Senator Landrieu. Like an outside review of what you do to 
suggest additional revenues without driving up the cost of 
these documents for the users to a point where it would be 
counterproductive?
    Mr. Turri. In my tenure, we haven't undertaken anything 
like that, but it's certainly something, Madam Chair, that----
    Senator Landrieu. We might want to----
    Mr. Turri [continuing]. We could possibly consider.

                   <greek-l>GPO deg.SPECIAL DOCUMENTS

    Senator Landrieu [continuing]. Are all of the new documents 
that are being printed, designed, thought of, for homeland 
security weighing on your office at all?
    Mr. Turri. It's really separate and complete. It's----
    Senator Landrieu [continuing]. Just for homeland security?
    Mr. Turri. No. I would say homeland security, on its own, 
is not necessarily having any significant impact on our 
business.
    Senator Landrieu. You're required to update the U.S. Code 
every 6 years, so that's part of this request?
    Mr. Turri. It's part of this, Madam Chair. We were notified 
that it looks like it might be pushing more into 2008. We 
thought we were going to be required to print it this year, but 
currently, we're still printing supplements for the last U.S. 
Code this year. But, as I say, printing it in 2008 won't 
decrease our overall budgetary needs. It just will push the 
funding requirement into 2008.

                       <greek-l>GPO deg.PASSPORTS

    Senator Landrieu. Okay. And can you give us the status of 
the electronic passport?
    Mr. Turri. Yes, Madam Chair, I'd be delighted to do that.
    The new passport had just begun to be designed when I 
arrived there, about 4 years ago. The last few years have been 
spent in the process of designing and building a system that 
would produce a biometric passport. In February, or just about 
1 year ago, we began to get the realization from the State 
Department that this particular quantity of passports that we 
had been producing, which were about 9 million a year, was 
beginning to jump at a fairly rapid rate, to the point of where 
now it looks they're expecting, this year, to get about 17 
million requests for new passports. That number, as you can 
imagine, is a significant increase over what was expected.
    Madam Chair, in the particular area of passports, we went 
from 30 to 80 employees in the passport division just in the 
last 12 months, which obviously, as you can imagine, requires a 
significant amount of ingest and training into that particular 
operation. We have added eight brand new pieces of equipment, 
which are not pieces of equipment that come off assembly lines, 
they're all predesigned specifically to produce the biometric 
passport. I'm happy to say, though, this particular month that 
we're in, as things ramp up and continue, we will be producing 
approximately 1 million e-Passports along with still producing 
the legacy passports of around 500,000. This will give us about 
1\1/2\ million passports this month, which would take care of 
the 17 million passport requests that----
    Senator Landrieu. Requirement.
    Mr. Turri [continuing]. Might be coming this year. And I'm 
very proud of what we have accomplished, because even in a 
ramp-up mode, we are producing four times as many e-Passports 
as any country in the world. And we expect this to continue.

                  <greek-l>GPO deg.PRODUCTION FACILITY

    Senator Landrieu. Now, where is this work being done? What 
physical facility?
    Mr. Turri. Currently it is being done in a building 
separate from our regular GPO offices. It's actually across the 
street from our regular buildings.
    Senator Landrieu. And since I don't know where your regular 
building is, help me.
    Mr. Turri. I'm sorry. It's----
    Senator Landrieu [continuing]. Your regular building?
    Mr. Turri [continuing]. It's actually down the street, 
Madam Chair, at 732 North Capitol, not----
    Senator Landrieu. I know where that is.
    Mr. Turri [continuing]. Far from here. We'd love to have 
you come down and visit our operation sometime.
    Senator Landrieu. I want to come see the main building, on 
North Capitol.
    Mr. Turri. Right.
    Senator Landrieu. I'm reminded now of where that is. And 
this other location is right----
    Mr. Turri. Right across the----
    Senator Landrieu [continuing]. Across the street.
    Mr. Turri. It's in a separate building.
    Senator Landrieu. And do you find your facilities adequate? 
Aren't you trying to do some repairs or restoration?
    Mr. Turri. Well, that particular building is the newest of 
our buildings. The essential repairs and restoration that we're 
requesting money for are really needed across the street in our 
regular buildings. What we're looking for, for passports, is a 
remote site facility for security and increased production 
reasons. The idea of having passports produced in one place is 
not----
    Senator Landrieu. Ideal.
    Mr. Turri [continuing]. Correct. We have been searching. 
And we are getting very close, we hope, to identifying 
someplace that may be very close to your home State.
    Senator Landrieu. That would be good.
    It's close to my home State.
    Mr. Turri. Well, close enough that they can come across the 
line.
    Senator Landrieu. But let me say, I know, from the other 
committees that I serve on, there is great deal of interest, 
from many different angles, about these new passports and how 
people are going to get them.
    Mr. Turri. Yes.
    Senator Landrieu. Who gets them, and--et cetera.
    Mr. Turri. Yes.
    Senator Landrieu. I think I would like to plan a field trip 
to the office and----
    Mr. Turri. Well----
    Senator Landrieu [continuing]. I'll take a couple of 
other--try to bring a few Senators with me that are actually 
either on this committee or the Homeland Security Committee, 
because there's a lot of concern about all of this new 
paperwork and documentation that we're going through to try to 
make our borders more secure without hampering travel, et 
cetera. So, I think this is going to be an issue some of the 
Senators are going to be interested in.
    And----
    Mr. Turri. That would----
    Senator Landrieu [continuing]. Finally----
    Mr. Turri. That would be great, Madam Chair. We'd love to 
have you down there.

          <greek-l>GPO deg.FEDERAL DEPOSITORY LIBRARY PROGRAM

    Senator Landrieu. And the Federal Depository Library 
Program, can you tell me where you see this going, because of 
electronic information?
    Mr. Turri. Yes. Part of our request this year is for the 
Federal Depository Library Program. We are requesting an 
increase of approximately $12 million over last year's funding 
for this program. Two million dollars of that is for mandatory 
pay and price increases. A little over $3 million of it is for 
the U.S. Code, printing and distribution, and IT support.
    The balance of the $7 million, Madam Chair, is for projects 
for data migration, data processing, data storage, 
authentication, cataloging, and indexing, along with web 
harvesting. We also have started a program, which we are 
continuing, of what's called outreach, which basically is a 
review for libraries, to go out and see that they're 
maintaining the level of operation that they need to do for 
user satisfaction.
    But every one of these things that I have mentioned, as far 
as the data migration, data storage, et cetera, are all 
necessary for ingest into the future digital system that we're 
requesting budgets for. Without that particular input into the 
future digital system, it would be like having a home without 
any sinks or furniture. So, the two go hand in hand, quite 
frankly.
    Senator Landrieu. Okay. Thank you very much.
    Mr. Turri. You're welcome. Thank you, Madam Chair.

                   <greek-l>CBO deg.HEALTHCARE COSTS

    Senator Landrieu. Dr. Orszag, I understand that Senator 
Conrad has a lot of confidence in your ability, and we'll be 
looking forward to working closely with you. And I know that 
you've worked with Senator Gregg as part of the Budget 
Committee, as well. Your efforts in honing down on some of 
these healthcare costs is commendable, because it's a serious 
problem in our own general budget and a real issue with 
businesses, large and small. And it's, in my view, something we 
just can't sustain, and we have to change course. And finding 
that course has been elusive, to date. But are you going to, 
and how are you going to, coordinate with your sister agencies? 
Or is there any coordination at all? Are you all just striking 
off on your own with this effort?
    Dr. Orszag. Senator, there's a lot of coordination. 
Clearly, GAO does some work in health. MedPAC offers advice and 
options specifically on Medicare. And what we're going to try 
to do is play a role in broader healthcare issues, because I 
believe, and most analysts believe, that it is not possible, 
over the long term, to slow the growth in Medicare and Medicaid 
unless there is overall slower cost growth in the health 
sector, as a whole. And embedded in that, though, is the 
opportunity--because a variety of evidence suggests that we 
could take costs out of the system without actually harming 
American's health. And I think trying to capture that 
opportunity is the central fiscal challenge facing the Federal 
Government, and we will be working with any agency that is 
motivated and interested in the same thing, to be putting 
forward options for you to consider.
    Senator Landrieu. And I know that your focus is right here 
in the capital, as it should be, with the Federal Government, 
but I know that you're aware that there are counterparts of 
yours in all 50 States, and some exceedingly professional 
people in those States that do for the States what you do for 
the Federal Government. Is there any formal or informal 
exchange of information, at any level, that you all go through 
with State fiscal officers or budget folks at the State levels?
    Dr. Orszag. I'm aware of a variety of informal 
interactions. For example, on the Medicaid and SCHIP programs, 
our analysts are in touch with people at the State level, 
because that's what you need to do in order to fully understand 
those programs. And, also, there are, whenever folks come to 
Washington, opportunities for interactions. We have much less 
time, resources, and ability to go out to the States, but there 
is also a little bit of that.

 <greek-l>GAO deg.COORDINATION OF FEDERAL, STATE, AND LOCAL GOVERNMENTS

    Senator Landrieu. Well, I'm going to think through this a 
little bit. But, you know, as I said, I was a member of the 
Appropriations Committee in the House, where I served for 8 
years, and it occurred to me there, people in Washington don't 
realize that. It reminds me of a slogan that I read once that 
said, ``You don't stop dancing with a gorilla until the gorilla 
stops dancing.'' And the Federal Government is a gorilla out 
there. And where we are 50 percent of State budgets now, 60 
percent of State budgets, it's hard for them to get a handle on 
their budget when they don't control 50 to 60 percent of it. At 
least that was the case in Louisiana when I left to come here.
    And I think that sometimes we don't realize--maybe it's 
because we all get this Beltway mentality sometimes, to a 
certain degree or another. And it might be very interesting for 
you to think through that. And I'm going to talk with some of 
the Senators about this and see. It can be done informally. It 
doesn't have to be done formally. But you might be very 
surprised at the ideas that you might find out there.
    And, Mr. Walker, I don't know if you have anything----
    Mr. Walker. Yes, if I might add--it might be helpful to you 
and to Peter. Obviously, they're a lot smaller operation than 
we are. Obviously, they're based solely in Washington, DC, 
whereas we're in 12 cities. But a couple of thoughts.
    One, I totally agree with Peter that the largest fiscal 
challenge for the Federal Government, State governments, and 
the private sector--is healthcare. He and I get along very 
well. We've already started to coordinate efforts. It's going 
to be critical that we coordinate in this healthcare area. As 
you know, I appoint all the MedPAC members, and we do quite a 
bit of healthcare work, too. But I'm confident we'll work 
together on that.
    With regard to Federal, State, and local, you raise an 
excellent point. I chair something called the Intergovernmental 
Audit Forum, which are all the inspector generals, all the 
State auditors, and all the county and city auditors. We also 
have something on an international basis, the International 
Organization of Supreme Audit Institutions. I didn't pick the 
name.
    Senator Landrieu. Quite fancy.
    Mr. Walker. There's a lot to be learned here, through 
coordinating efforts, and we've, in fact, enhanced that 
significantly during my tenure. So, I think you're onto 
something.
    Senator Landrieu. Well--I appreciate that, because I just 
think that that's a whole area that we--you know, our Governors 
should get together with Senators and the House Members, and, 
of course, we have other exchanges. But I think the more staff 
level exchanges, the better.
    Dr. Orszag. If I could add just one other thing, we also 
have responsibility for identifying mandates that are contained 
in legislation that are imposed on State and local governments. 
So, we have people who are actively scouring legislation for 
Federal changes that impose mandates on State and local 
governments.

       <greek-l>CBO deg.OPERATING UNDER THE CONTINUING RESOLUTION

    Senator Landrieu. Okay. Could you just comment on how your 
agency is coping with the continuing resolution, which was 
funded below the 2006 level?
    Dr. Orszag. We're making do, as we--you know, as you need 
to in such situations. But I would identify two things. One is 
information technology. We have delayed investments in 
computers and the normal cycle of replacing equipment, to a 
degree that's not sustainable over time. And the second thing 
is something that you had asked about earlier--again, with 
regard to recruiting, retaining, and motivating our people--the 
current situation, we can get by with for 1 year or maybe, you 
know, a short period of time, but there is this underlying 
pressure, which is that, out of our roughly 235 people, 218 are 
professional or management, and 39 percent of them are Ph.D.'s, 
and 38 percent have a master's degree. The market for those 
people in academia, at the Federal Reserve, and let alone the 
private sector, has taken off over the past several decades. 
And we're obviously operating under a different structure. So, 
that puts pressure on us. And the more that we have very tight 
funding, the more pressure we're under. And we, therefore, have 
to live off of--you know, we're lucky that we have a really 
great reputation and a lot of people want to come work for us, 
and that--despite my kids calling it the ``Congressional Boring 
Office''--most people in Washington think--seem to think it's a 
very exciting place to work. So, we will continue to try to 
uphold that.
    Senator Landrieu. I wish I could share with you what my 
kids say about my job.
    We won't even go there.
    Senator Landrieu. Ms. Chrisler, I don't have any particular 
questions. Actually, I do, but do you want to add anything 
before I get to them? And your testimony was excellent, but is 
there anything you can think you would like to add?

        <greek-l>OOC deg.WORKLOAD DUE TO CAPITOL VISITOR CENTER

    Ms. Chrisler. Thank you for the opportunity. One thing that 
I did not mention that I appreciate being given the opportunity 
to mention at this point is the Capitol Visitor Center. And our 
Office has been involved in the construction of the Capitol 
Visitor Center, and we're appreciative of the opportunity to 
provide technical assistance and technical advice, at this 
point in the construction, prior to occupancy. Once occupancy 
does take place, the Capitol Visitor Center is going to add 0.7 
million square feet of inspection jurisdiction to our Office, 
and there is a portion in our budget request to respond to that 
increased workload.
    So, I thank you for allowing me to present that.

   <greek-l>OOC deg.FIRE ALARM TESTING IN THE CAPITOL VISITOR CENTER

    Senator Landrieu. Do you believe that the amount of testing 
deemed necessary by the Architect of the Capitol and the fire 
marshal for the CVC is adequate? Have you been looking at that, 
the testing for the fire threat?
    Ms. Chrisler. Thank you for the question. We--our Office 
has been involved in discussions regarding the fire testing and 
the fire issues with respect to the Capitol Visitor Center. Our 
General Counsel, Peter Eveleth, is with me today, and he has 
been directly involved in those conversations. And, if I may 
ask your indulgence, I would ask that he be allowed to 
specifically respond to your question.
    Senator Landrieu. Okay, that would be terrific. And then, 
if your board member wants to come forward and just speak for a 
couple of minutes that would be terrific. You all could just 
pull up two additional chairs, if you'd like, or however. Y'all 
have the smallest budget and most people.
    So, David, if you all will just bear with them just for a 
minute. Give them a minute. Just because they're little doesn't 
mean they're not important.
    Mr. Eveleth. Good morning, Madam Chair. My name is Pete 
Eveleth. I'm the General Counsel of the Office of Compliance.
    With respect to the testing of fire alarms and the other 
systems in the CVC, we've been working closely with the fire 
marshal, and we have been reviewing various regulations that 
impact that. And we support the efforts of the fire marshal in 
that regard, that there should be complete 100-percent 
testing--acceptance testing of those alarm systems, given, 
particularly, the location of the facility, because it is 
underground, and a failure of any kind of systems would--could 
result in a catastrophe, given the number of people----
    Senator Landrieu. And we think that's going to take about 6 
months of complete testing? Is that what I've heard?
    Mr. Eveleth. I couldn't tell you exactly how much that's 
going to be. It may be--it may depend on how much pretesting is 
done in advance of the acceptance testing.
    Senator Landrieu. Okay.
    Ms. Camens. Madam Chair, good morning. I'm Barbara Camens, 
and I appreciate the opportunity to speak on behalf of the 
board of directors of the Office.
    I have two brief comments, both of which have to do with 
statutory changes which are sought by the board of directors.
    The first has to do with the issue of internal promotion 
within the Office. Our statute, the Congressional 
Accountability Act, requires that the four statutory positions 
that are appointed by the board be held by individuals who have 
not previously worked within the legislative branch during the 
previous 4 years. This provision essentially makes it 
impossible for any internal promotion within our Office. Our 
Acting Executive Director, Ms. Chrisler, was originally 
appointed by the board to the Deputy Executive Director 
position, and, given that fact, and given the current statutory 
language, the board is precluded from considering her for 
permanent appointment, notwithstanding the confidence that we 
have in her performance. And the issue is broader. Obviously, 
it has an impact on our entire Office staff. The board of 
directors is seeking a statutory change to give us the ability 
to fully access and utilize and reward, through internal 
promotion, the talent and accumulated experience which has been 
developed within our Office. And we do seek your support.
    Second, we are seeking some additional flexibility, in 
terms of compensation within our Office. Specifically, we're 
seeking an amendment to our statute to permit the establishment 
of two senior Executive Service positions, with regard to the 
Executive Director and the General Counsel. Our Office has 
recently undergone a comprehensive human capital needs study, 
and the conclusion of the outside consultant was that these two 
top manager positions share many attributes of SES positions in 
other agencies, and yet, we have a statute which imposes a 
salary cap. We are seeking a legislative change to allow the 
establishment of these SES positions. And we think it's 
crucial, both to the recruitment and the retention of the 
individuals of the high caliber that we need, the sense of 
leadership, the sense of vision that is necessary for leading 
our Office into the future.
    Thank you.
    Senator Landrieu. Thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    My questions have all been answered.
    Do you all have anything else that you want to add for the 
record? And, of course, the record is open, and you can submit 
anything in writing.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                 Questions Submitted to David M. Walker
            Questions Submitted by Senator Mary L. Landrieu
                                staffing
    Question. I understand you would like to increase GAO staffing to 
3,750 over the next 5 or 6 years. Please explain how you arrived at 
this staffing level as the optimal level for GAO, what specific areas 
additional staff would be deployed to, and the results you would 
anticipate.
    Answer. Our initial estimate of this FTE level has been informed by 
(1) the recent update of our Strategic Plan for serving the Congress 
for fiscal years 2007-2012, (2) what we believe would be sufficient to 
minimize the existing and anticipated backlog in areas where we are 
experiencing supply and demand imbalances, and (3) address other 
critical needs. Our Strategic Plan for serving the Congress is updated 
through continuous consultations with the Congress.
    Our request for FTE's is then based on a systematic assessment of 
the workforce that we will need to achieve the strategic goals and 
objectives outlined in our Strategic Plan in support of the Congress 
and the American people. Annually, we develop a workforce plan that 
results from a detailed analysis of staffing considerations. Our 
workforce needs assessment is an essential element in our strategic 
approach to managing GAO--an approach that links human capital and 
performance management with strategic planning, budgeting, and 
performance accountability.
    Specifically, our FTE request is based on a thorough assessment of 
a number of factors including: Congressional requests and interests, 
statutory mandates, strategic priorities, emerging issues, current 
staffing data (FTE usage, attrition, consultant and contract usage, 
staff distribution by level and type), identified skill shortages, 
succession and knowledge retention issues, results achieved with staff 
resources, and budgetary considerations. As part of our workforce 
planning process, GAO managers identify the types of skills and 
experience and the level and numbers of employees needed to accomplish 
our anticipated workload. Relative to current and projected staffing 
data, our managers assess whether GAO has too few or too many staff 
working in each strategic area. Having received this input from our 
managers, the GAO leadership team makes fact-based decisions about our 
FTE needs and the optimal deployment of our staff resources to most 
efficiently accomplish our work.
    The 3,750 represents a preliminary estimate and a not to exceed 
number based on existing and expected workloads. It also assumes an 
increasing role for GAO in a range of areas addressed in our strategic 
plan and our 21st Century Challenges report of February 2005. For 
example, an increase in GAO's staffing level over the next 6 years is 
needed to allow us to address critical needs including supply and 
demand imbalances in areas such as health care, homeland security, the 
global ``war on terrorism,'' energy and natural resources, and forensic 
auditing, technology assessments, and other areas in need of 
fundamental reform. Also, additional staff are needed to support GAO 
efforts to be able to render our opinion on the consolidated financial 
statements of the U.S. government and the Department of Defense's 
financial management and related systems.
                          human capital issues
    Question. Over the past few Congresses, you have received 
additional human capital flexibilities through two pieces of targeted 
legislation. How have these pieces of legislation helped GAO to become 
a model federal agency? Given some of the challenges you have faced 
within your agency over the past few years, what else do you believe 
needs to be done in order to improve upon your human capital situation?
    Answer. The GAO Personnel Flexibilities Act of 2000 (Public Law 
106-303), and the GAO Human Capital Reform Act of 2004 (Public Law 108-
271), are the two recent pieces of legislation that were enacted by 
Congress on behalf of GAO. GAO sought this legislation in order to help 
to reshape its workforce and recruit and retain staff with needed 
technical skills. The Comptroller General was granted permanent 
authority to offer voluntary early retirement and separation incentive 
payments to realign the workforce to meet budgetary constraints while 
reducing high-grade, managerial or supervisory positions and correcting 
skill imbalances. In fiscal years 2001 through 2006, GAO has granted 
voluntary early retirement to a total of 177 employees. These early 
retirements helped GAO reshape its workforce by providing retirement to 
mostly high-graded staff and allowed GAO to address succession planning 
and skill imbalance issues in addition to increasing the numbers of 
entry-level staff who can be hired. GAO was also able to establish 
senior level scientific, technical and professional positions with the 
same pay and benefits applicable to the Senior Executive Service. This 
authority has been used to employ GAO's Chief Actuary, Chief 
Statistician and Chief Economist. Another authority in the law allowed 
GAO to provide certain key employees with less than 3 years' service to 
earn 160 hours of annual leave each year rather than 104 hours. This 
has given GAO the ability to recruit individuals with significant work 
experience who might not have otherwise considered joining the federal 
workforce. GAO has just recently recruited 2 individuals under the 
Executive Exchange Program provided for in section 7 of Public Law 108-
371. This partnership will assist us in drawing on the expertise of 
individuals from accounting firms, information technology firms, 
consulting groups and other organizations to develop solutions to 
current and emerging issues. These innovative human capital management 
flexibilities have been instrumental in enabling GAO to become a world-
class professional services organization.
    We have other human capital challenges for which we may seek 
additional assistance from Congress to address:
  --Ensure that the bonus portion of our annual performance based 
        compensation counts for retirement as long as employee's total 
        basic pay plus performance based compensation is below the 
        maximum for his or her position. GAO has implemented a 
        performance-based compensation system that is designed to 
        enhance performance and accountability while helping the agency 
        maintain a competitive advantage in attracting, motivating, 
        retaining, and rewarding a high performing and quality 
        workforce. As part of this modern system, an employee's 
        performance-based compensation is distributed between a base 
        pay increase and a bonus. This latter payment is currently not 
        considered in calculating an employee's basic pay for purposes 
        of his/her annuity.
  --Eliminate GS-15, step 10, cap to allow the Comptroller General to 
        pay employees up to the rate for Executive Level III based on 
        the results of our periodic market pay studies. GAO has a 
        highly diversified and skilled workforce that performs work of 
        the highest level and importance. Presently, employees other 
        than those in the Senior Level or Senior Executive Service are 
        limited by statute to a pay rate that cannot exceed GS-15, step 
        10. According to recent market surveys commissioned by GAO, 
        some of GAO's professionals, such as economists and attorneys, 
        cannot be compensated commensurate with market rates because of 
        this statutory limitation. This is problematic, since GAO must 
        compete for its staff with the private sector and other public 
        agencies that can pay more. For example, the Departments of 
        Defense and Homeland Security, and the Federal Deposit 
        Insurance Corporation and other agencies concerned with 
        financial matters are not subject to the GS-15 limit.
  --Eliminate the prohibitive cost associated with buyouts by amending 
        Public Law 106-303 to remove the requirement, consistent with 
        the rest of the federal government, that GAO make additional 
        contributions to retirement funds in the case of voluntary 
        separation incentive payments (VSIP) to GAO employees. This 
        payment renders this flexibility virtually unusable, especially 
        in these times of budget constraint.
    Question. In 2005 and 2006, GAO conducted a restructuring of Band 
II staff and placed employees in one of two pay levels. What was the 
impetus for this effort? What are you doing to address the concerns 
that have been raised?
    Answer. As part of our overall human capital transformation 
efforts, GAO has developed and implemented a validated competency-based 
appraisal system and modern market-based and skills, knowledge, and 
performance-oriented compensation system. When developing the Analysts' 
competency-based performance system, some Band II staff responded that 
certain activities associated with staff leadership were critical to 
their jobs and others did not. This bimodal response indicated that 
different roles and responsibilities were being performed by staff 
within the band. As a next step in its human capital transformation, 
GAO proceeded to develop a compensation system that would:
  --Enable GAO to attract and retain top talent;
  --Result in equal pay for work of equal value over time;
  --Reflect the roles and responsibilities that staff are expected to 
        perform;
  --Be reasonable, competitive, performance-oriented; and based on 
        skills, knowledge and roles;
  --Be affordable and sustainable based on current and expected 
        resource levels; and
  --Conform to applicable statutory limits.
    The purpose of restructuring the Band II position was to clearly 
distinguish between the roles and responsibilities of those analysts 
who are generally individual contributors and/or sometimes provide 
overall leadership on selected engagements and those who are expected 
to consistently take on a leadership role for a broad range of 
engagements over time. When comparing Band II roles, responsibilities 
and pay to the market, a Watson Wyatt market based compensation study 
supported the CG decision that these two roles should have different 
pay ranges. By better linking roles and responsibilities to the 
appropriate market-based pay ranges, senior analysts will be more 
equitably compensated.
    Since the initial restructuring and placement of staff into the 
Band IIA and IIB pay levels, GAO has conducted 2 competitive placement 
opportunities resulting in the placement of additional staff into Band 
IIB. To address concerns regarding compensation for Band IIA employees, 
we decided for 2007 pay decisions to provide 100 percent of the 
performance based compensation amount to those Band IIA staff whose 
salaries were above the Band IIA maximum rate (i.e., ``transition 
staff''). In 2006, Band IIA transition staff received only 50 percent 
of their performance based compensation.
    Question. It is our understanding that you relied upon the results 
of a market based pay study to establish pay ranges for GAO staff and 
to limit the compensation of those employees who were paid in excess of 
these ranges. CRS has stated that these limitations have had the impact 
of significantly reducing the salary and future pension benefits of 
affected GAO staff. Can you share with the committee the data that GAO 
relied upon to conclude that GAO's Analyst Band II staff were overpaid 
and that such actions were therefore justified?
    Answer. GAO has established market based compensation ranges for 
major occupational groups. These ranges are based on salary surveys 
conducted by Watson Wyatt Worldwide, a leading human capital consulting 
firm. Watson Wyatt's process for developing the ranges entailed meeting 
with GAO occupational experts to develop an understanding of GAO's 
positions, linking these positions to comparable jobs in comparator 
organizations, and collecting salary data from various sources for such 
positions. Among the sources of salary data used by Watson Wyatt were 
the following surveys: Abbot Langer Consulting and Legal, Altman Weil 
Legal, Cordom Not-for-Profit, Mercer IT and Watson Wyatt Data for 
Professional positions and others. We would be happy to brief the 
Committee on the extensive data, if requested, and provide further 
details.
    Question. Federal employees in the Washington, DC area received 
across-the-board and locality adjustments resulting in base pay 
increases of 2.64 percent in January 2007. What increase was provided 
to GAO staff? What was the basis for GAO's increase and why does it 
differ from other federal employees?
    Answer. In 2007, the Comptroller General authorized a 3 percent 
increase in the salary ranges applicable for GAO employees within the 
ranges. A 2.4 percent increase in the annual salary for all employees 
performing at a satisfactory level who were within competitive 
compensation limits was provided. This percentage was based on the 
annual update of competitive compensation trends conducted by Watson 
Wyatt. In addition, GAO employees were also eligible for performance-
based compensation (PBC) adjustments. PBC is based on individual 
performance and is calculated as a percentage of the ``competitive'' or 
market rate for the employee's band and location. An employee with an 
average appraisal would receive a PBC amount equal to 2.15 percent of 
the competitive rate for his or her position as base pay and/or as 
bonus. Except for Band IIB staff subject to the speed bump who received 
their entire PBC amount in the form of a bonus, 100 percent of the 2007 
PBC amount was provided to all other staff as an increase to base pay 
not to exceed the maximum rate applicable to the employee's position.
    The Comptroller General's determination regarding the amount of the 
annual adjustment was based on a consideration of the criteria set 
forth in 31 U.S.C. 732(c)(3). Among the data considered by the 
Comptroller General was salary survey information indicating that 
consulting, professional, scientific and technical services 
organizations actually adjusted ranges by an average of 2.7 percent in 
2006 and projected an adjustment of 3 percent in 2007. Prior to the 
passage of Public Law 108-371, GAO employees' salaries were given the 
same base and locality increase as the General Schedule. As provided in 
31 U.S.C. 732(c)(3), GAO employees' increases were decoupled from the 
General Schedule and the authority to determine the amount of the 
increase was granted to the Comptroller General.
    The average across-the-board increase provided to executive branch 
employees was 2.2 percent nation-wide. In addition, most executive 
branch employees receive within grade increases on a regular basis and 
the annual value of such an increase is approximately 1.6 percent. GAO 
employees received a 2.4 percent across-the-board increase and were 
eligible for additional performance based pay. An employee with an 
average appraisal would receive a performance based pay amount equal to 
2.15 percent of the competitive rate for his or her position.
    Question. Each year, federal employees' pay adjustments are 
effective the first pay period beginning on or after January 1. Our 
understanding is that GAO employees did not receive their pay 
adjustments in January. When did GAO provide its across the board 
increase? Why is the date different than and later than other 
legislative agencies, given that the entire government was subject to 
the same budget uncertainties?
    Answer. The effective date of GAO employees' pay adjustment was 
February 18, 2007. Under 31 U.S.C. 732(c)(3), the Comptroller General 
is authorized to set the date of GAO employees' pay adjustments as well 
as the amount. GAO delayed the annual pay adjustment because we did not 
receive the funding requested, to ensure that we would not negatively 
impact our ability to operate effectively, and to avoid unpaid 
furloughs of our employees.
                       gao technology assessment
    Question. Mr. Walker, there is interest once again in re-funding 
the old Office of Technology Assessment. In response to such interest 
back in 2002, our Committee established a pilot program for GAO to 
conduct technology assessment. How successful was that effort, and do 
you believe GAO can continue to effectively conduct non-partisan 
forward-looking technology assessment work? GAO has completed 4 
technology assessment jobs in the past couple of years, which were 
requested in a bi-cameral, bi-partisan fashion. Were those work-
products well-received and are the findings being utilized? Can you 
describe GAO's in-house capacity for technology assessment?
    Answer. In response to the committee's direction to establish a 
technology assessment pilot program at GAO, we have completed four 
technology assessment reports.\1\ Our products have been relevant, 
timely, and well-received. For example, we testified before three 
different congressional committees on our findings in our biometrics 
report. As a result of one of these hearings, and using information 
from our biometrics report, a bill was introduced in the House in July 
2004, directing the Transportation Security Administration to establish 
system requirements and performance standards for using biometrics, and 
to establish processes (1) to prevent individuals from using assumed 
identities to enroll in a biometric system and (2) to resolve errors. 
These provisions were later included in an overall aviation security 
bill and were eventually included in the Intelligence Reform and 
Terrorism Prevention Act of 2004, enacted in December 2004. The 
biometrics report is still relevant, even after 4 years, in examining 
the numerous biometrics programs being developed in the federal 
government.
---------------------------------------------------------------------------
    \1\ Technology Assessment: Using Biometrics for Border Security, 
GAO-03-174 (November 15, 2002); Technology Assessment: Cybersecurity 
for Critical Infrastructure Protection, GAO-04-321 (May 28, 2004); 
Technology Assessment: Protecting Structures and Improving 
Communications during Wildland Fires, GAO-05-380 (April 26, 2005); and 
Technology Assessment: Securing the Transport of Cargo Containers, GAO-
06-68SU (January 25, 2006).
---------------------------------------------------------------------------
    GAO has designated cybersecurity as a high-risk area since 1997 and 
the technologies discussed in our technology assessment report on 
cybersecurity play a key role in addressing this area.\2\ In 2005, we 
testified on the findings of our report on technologies that can be 
used to protect structures and improve communications during wildland 
fires. Senator Bingaman sent a letter to the Comptroller General 
thanking us for this report, stating that such studies are important 
tools for understanding the technology implications of policies 
considered by Congress. In March 2006, Senator Bingaman sent another 
letter to the Comptroller General thanking us for our timely, thorough, 
and well-received report on cargo security technologies, which he 
stated will help the Congress perform its oversight functions with 
regard to port and container security.
---------------------------------------------------------------------------
    \2\ High-Risk Series: An Update, GAO-07-310 (January 2007).
---------------------------------------------------------------------------
    A technology assessment function in the legislative branch can be 
beneficial. For congressional decision-makers, an independent 
technology assessment study can make complex scientific and technical 
issues more accessible by analyzing the values and tradeoffs of various 
technologies and presenting them in a public policy context that can be 
applied directly into the legislative process. Should the Congress 
determine the need for this type of analysis and that it would be more 
prudent to place the function in an existing organization rather than 
create a new one, we believe that GAO is qualified to take on this 
function. A GAO line of work on technology assessments would not be a 
departure from its normal mission, but a process of differentiating, 
defining, and implementing new work methods. GAO's focus on producing 
quality reports that are professional, objective, fact-based, fair, 
balanced, nonideological, and nonpartisan is consistent with the needs 
of an independent legislative branch technology assessment function.
    Further, GAO's work already covers virtually every area in which 
the federal government is or may become involved. To accomplish this 
work, GAO maintains a workforce of highly trained professionals with 
degrees in many academic disciplines, including accounting, law, 
engineering, public and business administration, economics, and the 
social and physical sciences. More specifically, GAO's Center for 
Technology and Engineering, which led our pilot program in technology 
assessment, is staffed by engineers and scientists with experience in 
systems engineering, software engineering, real-time systems, computer 
security, cost estimation, and biological technologies. To leverage our 
multidiscipline workforce, we have staffed our technology assessments 
with both staff from the Center for Technology and Engineering and 
analysts in our mission teams, such as Homeland Security and Justice, 
Information Technology, and Natural Resources and Environment.
    While GAO is capable of conducting the work, we believe there are 
critical factors that need to be considered to conduct technology 
assessments on a permanent basis at GAO. First, we would need to define 
an operational concept for this line of work, adapted from current 
tested processes and protocols. At a minimum, this capability would 
require: (1) developing and maintaining relationships with relevant 
congressional committees to facilitate the selection of technology 
assessment topics; (2) keeping congressional committees abreast of the 
results of technology assessments, meeting with members and staff, and 
preparing testimony statements for relevant hearings; (3) developing 
and maintaining relationships with key external experts and 
organizations to remain informed about emerging technologies and 
potential related public policy issues; (4) developing, documenting, 
and refining processes for conducting technology assessments; (5) 
consulting with independent experts and conducting peer review of 
reports; (6) developing standards and procedures for issuing technology 
assessment reports as distinct from our audit products; and (7) 
developing metrics to measure the value of the technology assessment 
capability.
    A second critical factor is the estimation of resources for 
conducting technology assessments. To establish a basic capability to 
conduct one assessment annually, GAO would require four additional 
full-time staff, at an estimated cost of about $723,000 ($573,000 for 
four FTEs and $150,000 to obtain contract assistance or provide 
expertise not readily available within GAO). For higher demands, 
additional technology assessment requests would require--depending on 
economies of scale, timing, and scope of work--incremental additional 
resources.
             gao operations under the continuing resolution
    Question. Mr. Walker, according to your statement, GAO has had to 
operate in a constrained manner this year because of resource 
shortfalls under the continuing resolution. Are there significant 
numbers of Congressional requests GAO is turning down, or is it taking 
longer to get work done? What is your current backlog of Congressional 
requests? How does this compare to previous years?
    Answer. We are only a few months into the new Congress and we see 
several trends which lead us to believe that Congress will be 
requesting much more of GAO. For instance, our current backlog as of 
March 2007 has grown above 2005 and 2006 levels. Also, during our 
outreach for our upcoming strategic plan update, we have been told that 
demand will likely increase. We are seeing this in the recent surge in 
requests for GAO testimonies during the Congress's first few months. We 
have been quite fortunate that much of this early testimony has been 
based on previous work. Constraints on FTEs due to the current funding 
situation for the remainder of fiscal year 2007 will likely prevent us 
from being as responsive in the future as Congress begins to request 
new work for the second session.
    More specifically, we are currently experiencing supply and demand 
imbalances in responding to congressional requests in areas such as 
health care, homeland security, the global ``war on terrorism,'' energy 
and natural resources, and forensic auditing. In fiscal year 2007, we 
will experience a reduction of 35 FTEs--from 3,194 to 3,159--from our 
fiscal year 2006 FTE level, which will exacerbate the problem. In 
fiscal year 2008, we are seeking an FTE increase in teams conducting 
work related to homeland security, defense, natural resources and 
energy, and health care to help address these supply and demand 
imbalances. We will also be seeking your commitment and support to 
provide the funding needed to increase GAO's staffing to a to-be-
determined level not to exceed 3,750 over the next 6 years in order to 
address critical needs, including supply and demand imbalances, high-
risk areas, 21st Century Challenges questions and other areas of the 
federal government in need of fundamental reform, and technology 
assessments. In addition, as we get closer to when GAO may be able to 
render our opinion on the consolidated financial statements of the U.S. 
government and the Department of Defense's financial management and 
related systems, we will need to increase our workforce capacity.
    GAO has made significant progress in reducing the very large 
backlog of Congressional requests over the past several years so that 
we can better support the Congress, but this has been very difficult to 
achieve. We are doubtful that it will continue based on our outreach 
efforts with the new Congress and the constrained resource level we 
will be operating at through fiscal year 2007. As of March 31, 2007, we 
had a workload imbalance of 419 requests--a growing increase over the 
last two years. The general result of GAO's initiative to be more 
responsive to the Congress is seen in the following table showing the 
pending requests at the end of each year.

            PENDING REQUESTS AS OF DECEMBER 31ST OF EACH YEAR
------------------------------------------------------------------------
                                                               Requests
------------------------------------------------------------------------
2002.......................................................          463
2003.......................................................          390
2004.......................................................          492
2005.......................................................          358
2006.......................................................          329
2007 \1\...................................................          419
------------------------------------------------------------------------
\1\ As of March 31, 2007

    Last year (fiscal year 2006), we accepted about 85-88 percent of 
the requests received. Of these, roughly one-fourth (22 percent) were 
delayed. Of those not accepted, some were declined, withdrawn, sent to 
an Executive agency, or were pending a decision by GAO on whether we 
are able to accept the request. We also have done and are doing work, 
on such topics as Iraq and Katrina, under the Comptroller General's 
authority because there is such broad congressional interest in them. 
We believe this has also served to limit the number of requests we 
would have received on these issues. Due to the increasing supply and 
demand imbalances, GAO typically has been unable to accept requests 
from individual members in recent years and has worked to merge 
requests so that we can do related work for several requesters.
    Our requested work has also been taking somewhat longer to start--
almost doubling in some areas--resulting in longer timeframes to 
respond to the requester. The table below shows the average number of 
months that it has taken us to start mandates (priority 1), requests 
from Committee chairs and ranking members (priority 2), and requests 
from members (priority 3).

                AVERAGE DURATION TO INITIATE ENGAGEMENTS
                               [In months]
------------------------------------------------------------------------
                                       2004         2005         2006
------------------------------------------------------------------------
Priority:
    1 \1\........................         1.82         2.49         2.74
    2............................         2.93         2.49         3.91
    3............................         2.74         4.41         6.37
------------------------------------------------------------------------
\1\ Prior to the update of GAO's Congressional Protocols in July 2004,
  priority 1 designation included requests from committee chairs and
  ranking minority members.

                            gao supplemental
    Question. GAO is requesting $374,000 for oversight work in Iraq. 
Why can't GAO absorb this relatively small amount of funding within its 
$500 million budget?
    Answer. Because about 80 percent of our budget provides funds to 
support our staff--our most important asset--and the balance of our 
budget contains many mandatory operating expenses--such as rent, 
utilities, and contracts for ongoing operations--we have very limited 
flexibility to make adjustments. In fiscal year 2007, we received 
significantly less funding than we had requested. In order to operate 
within the constraints of the fiscal year 2007 joint resolution, our 
Operating Plan holds most of our budget accounts at or below fiscal 
year 2006 funding levels, resulting in reduced operating levels, 
deferred hiring to address succession planning challenges and skill 
gaps, and delayed investments geared to further increasing productivity 
and effectiveness. While we have allocated funds to address needed 
oversight work in Iraq, additional funds are needed to allow us to 
maintain a continuing presence in Baghdad.
    Question. GAO has an extensive array of performance targets and 
measures. Your testimony indicates that you met most of your 
performance targets. How often do you reevaluate those measures to see 
whether they are responsive to GAO and the Congress? Do you have them 
evaluated by an independent party, such as during a peer review?
    Answer. GAO's performance measures include those measures 
traditionally used by auditing and professional services firms. 
Annually, GAO reviews its performance targets and continuously 
reevaluates its performance measures. In fact, it is rare for a year to 
pass without some refinements in our performance indicators to help us 
better manage our agency to support the Congress for the benefit of the 
American people. For example, in the past few years, we have added 
measures to better assess how our support units are doing their jobs; 
changed our measure for determining how timely our products are by 
obtaining feedback directly from our congressional clients; and 
eliminated measures, such as the number of recommendations made, that 
we thought were no longer useful. Further, as we continue to gain more 
experience, we anticipate making additional changes so that we can 
better support the Congress.
    In addition to the continuous evaluations by our Office of Quality 
and Continuous Improvement, we routinely receive suggestions from such 
organizations as (1) GAO's Inspector General, who annually reviews some 
of the measures before they are included in the annual Performance and 
Accountability report, (2) an independent Audit Advisory Committee as 
part of their annual review of GAO's financial statements and 
performance data included in our annual Performance and Accountability 
Report, and (3) independent reviewers for the Association of Government 
Accountants (AGA) as part of their annual process to evaluate 
Performance and Accountability Reports submitted by participating 
executive branch agencies and GAO.
    Specifically, staff in our Inspector General's (IG) office test our 
compliance with procedures related to our performance data on a 
rotating basis over a 3-year period. During fiscal year 2006, the IG 
reviewed accomplishment reports totaling 96 percent of the total dollar 
value reported for financial benefits, including most accomplishment 
reports of $100 million or more, and found that GAO had a reasonable 
basis for claiming these benefits. Their suggestions have also resulted 
in policy clarifications or changes in the performance measures 
reported. For example, the IG's review of fiscal year 2005 qualitative 
measures led to GAO discontinuing public reporting of these measures 
and retaining them for internal use. The 3-member Audit Advisory 
Committee is composed of individuals who are independent of GAO and 
have outstanding reputations in public service or business with 
financial or legal expertise. Two members are former IRS Commissioners 
and the other member is a former Controller of the Office of Federal 
Financial Management in OMB. The comments we receive from the committee 
members have, among other things, helped to ensure transparency in our 
Performance and Accountability Report when we describe our performance 
measurement processes and results. Comments that we receive as part of 
the AGA's Certificate of Excellence in Accountability Reporting program 
also help improve the transparency and clarity of our performance 
reporting.
    GAO also recognizes that our performance measures can be 
supplemented by other information. We do this by taking such actions as 
outreaching for feedback on our performance to our congressional 
clients on an annual basis, participating in periodic oversight 
hearings of GAO's performance and operations, using our audits to 
identify best practices and then applying them to GAO's operations, 
listening closely to Congressional clients who provide unsolicited 
comments throughout the year, and seeking continuous feedback from our 
clients as part of our web-based survey to measure satisfaction with 
our most significant written products and testimonies.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. The subcommittee stands in recess. Thank 
you.
    [Whereupon, at 11:10 a.m., Friday, March 16, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]














         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         FRIDAY, MARCH 30, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:10 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Allard.

                              U.S. SENATE

                    Sergeant at Arms and Doorkeeper

STATEMENT OF HON. TERRANCE W. GAINER, SENATE SERGEANT 
            AT ARMS; CHAIRMAN, U.S. CAPITOL POLICE 
            BOARD
ACCOMPANIED BY:
        DREW WILLISON, DEPUTY SERGEANT AT ARMS
        CARL HOECKER, INSPECTOR GENERAL

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning. Our subcommittee will come 
to order. We have a routine but important subcommittee meeting 
this morning to review the budgets for the Senate Sergeant at 
Arms, the U.S. Capitol Police Board and the Capitol Police. We 
welcome our witnesses to the subcommittee and I thank Senator 
Allard for joining us. I look forward to working with Senator 
Allard on this subcommittee, as he chaired it for several 
years, and is very interested in the subjects that we will be 
discussing this morning. So let me welcome you all.
    We meet this morning to take testimony on the fiscal year 
2008 budget request, as I said, for the Sergeant at Arms and 
Doorkeeper of the Senate, which is his official name and the 
United States Capitol Police.
    I would like to welcome Terry Gainer who joins us today to 
testify on behalf of the budget. I'd also like to acknowledge 
and welcome his Deputy Sergeant at Arms, Drew Willison. I had 
the pleasure of working with Drew previously when he was the 
clerk of the Energy and Water Subcommittee and I always found 
him to be direct and efficient and I appreciate his work here.
    Our second witness is Phillip Morse, Chief of the U.S. 
Capitol Police. I welcome you Chief. Thank you for coming to my 
office and visiting with me earlier this week. This is a fairly 
new position for you and I believe you were sworn in 5 months 
ago today. So you're getting your head and hands around the 
challenges before us. I look forward to hearing your vision and 
your priorities for the Department.
    The 2008 budget request for the Sergeant at Arms totals 
$227 million, which is $28 million or 14 percent above the 
current year. This request includes funding for 19 additional 
full-time employees, which appears to be needed largely to fill 
technology-related positions. The increase in your expense 
budget of nearly 17 percent also seems to be technologically 
driven. Several of my questions will address this particular 
increase.
    The Capitol Police budget request for 2008 totals $299 
million, which is $43.5 million or 17 percent above the current 
year. This request includes funding for 20 additional civilian 
employees and supports the current force of 1,671 sworn 
officers, which is quite a large force.
    I hope you will update the subcommittee on the need for 
these extra civilian positions, Chief. While your salary budget 
shows an increase of 9 percent, your expense request has 
increased by over 60 percent. This is a pretty substantial 
increase and I look forward to discussing this with you and the 
priorities you have outlined in this area.
    As I've said in previous hearings and it bears repeating 
that I doubt the subcommittee will have the resources available 
to provide double digit increases for all of our entities. 
Therefore, at some point in the near future we're going to have 
to have some serious discussions with you and your staff about 
what are the most urgent priorities as we try to continue our 
push for safety, additional safety in the Capitol, but 
recognizing there are some budget constraints here.
    In closing, I'd like to acknowledge all the good work by 
the employees of your staffs. I know they are working hard to 
get some of our things in order and I'm sure you're both very 
proud of what they are doing to help you. So I'd like to now 
turn to my friend and ranking member Senator Allard for his 
opening remarks.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman and I look 
forward to working with you on this budget. I thank you for 
convening this hearing. I appreciate that. I am pleased to see 
Sergeant at Arms Terry Gainer and Chief Phil Morse this morning 
and congratulations to both of you on your new positions. I 
look forward to working with both of you. I appreciate the work 
you and the men and women who work for you--the work that they 
do--the officers who protect the Capitol complex, the Sergeant 
at Arms employees who ensure our mail is safe, the folks who 
develop emergency plans, the doorkeepers, the phone operators, 
technology specialists and many others who I haven't mentioned 
who ensure everything runs smoothly in the Senate. I'm one 
Member of the Senate who really appreciates all your efforts.
    This morning I will have a number of questions including 
one about the Sergeant at Arms request for additional staffing. 
Madam Chairman, I've talked about this in the Sergeant at Arms 
hearings in the past 2 years. If this year's request is 
approved, the Sergeant at Arms will have grown by 25 percent 
since 2001.
    With respect to the Capitol Police, I am pleased that we 
now have a permanent Chief on board as well as an inspector 
general. There are many challenges ahead for the Chief 
including the need to get the administrative side of the House 
in order, as well as control overtime spending and ensure that 
officers are deployed effectively and according to a rigorous 
threat assessment.
    Several studies and reviews of Capitol Police officer 
staffing have been undertaken or are underway to ensure 
appropriate protocols for staffing. Unfortunately, there does 
not seem to be a lot of coordination amongst these various 
staffing analyses. Unfortunately, we need to see a firm plan 
for appropriate risk-based staffing of posts and the most 
effective use of additional duty hours. I would like to see 
this brought to closure over the next couple of months.
    Let me also say that we were shocked last September when a 
deranged intruder managed to breach several checkpoints and 
gain access to the Capitol. This was a wake-up call. I look to 
Capitol Police leadership and we want to be confident that such 
an occurrence could never happen again.
    I would note that the Capitol Police are requesting a very 
large increase in civilian staffing, 30 additional employees. 
This would result in more than a 100-percent increase in 
civilian staffing since 2001. With that in mind, there should 
be no reason that very serious management problems identified 
by the Government Accountability Office (GAO) could not be 
resolved.
    I have been working with a lot of the other agencies on the 
executive branch side about bringing accountability to their 
budget process. As you may be aware of, there is a process we 
apply to the executive branch that we do not apply to 
legislative branch agencies. I'm one that feels that what we 
require of the rest of Government, we ought to require of the 
legislative branch.
    So this GAO report that has come out has me concerned. I 
think there are some very serious statements in this GAO report 
about financial management operations and what I see, Madam 
Chairman, is that we need to emphasize particularly to the 
Chief of Police and those that are under him, the importance of 
putting together an accountable budget, one that identifies 
goals and objectives that are measurable and then tie the 
budget into those.
    I noticed in the last several years, I've been authorizing 
a lot of reprogramming of dollars. What that tells me is, we're 
not doing a very good job of programming the money. Chief 
Morse, this is a problem you've inherited. I hope you can begin 
to really focus on what it is going to take and if you have to 
work with GAO or Mr. Gainer with his past experience in the 
Department, to improve accountability and financial management.
    You can expect me to be diligent in asking for 
accountability on some of these issues. I want you to 
understand that it is because I feel we have to do a little 
better job in the legislative branch of holding our own 
agencies accountable. Thank you, Madam Chairman.
    Senator Landrieu. Thank you and let me say to my ranking 
member that I share those goals and objectives and I don't 
think the legislative branch should be held out in any other 
standard than we hold the other agencies that we have 
jurisdiction over. So I look forward to working with you in a 
cooperative way to get to the goals and objectives that we can 
have the best police force and best security for the Capitol, 
not just for those of us that work here and call this our 
workplace, but most importantly, for the millions of people 
that visit here and call this place the People's House. It is 
very important that we keep that in mind. So with that, Mr. 
Gainer would you like to begin your testimony?

                    STATEMENT OF TERRANCE W. GAINER

    Mr. Gainer. Thank you, Madam Chair and members of the 
subcommittee, thank you for allowing me to testify here today, 
and I ask to submit for the record my written testimony. I 
would also like to make a few brief comments about the efforts 
of the men and women of the Sergeant at Arms Office and our 
budget and then quickly segue into my role as Chairman of the 
Police Board.
    This marks the 12th time I have presented a budget for an 
organization for which I have been responsible--seven times as 
the director of the Illinois State Police, four times as the 
Chief of the Capitol Police and now as the new Senate Sergeant 
at Arms.
    Each time increases were requested, each time I struggled 
with my own team to request only what was needed to be 
successful at our core business. While need might be in the eye 
of the beholder I have not employed the tactic where one sets a 
high mark, figuring that the give and take of the budget 
process yields a mutually agreeable number which leaves all 
participants satisfied.
    At the same time, I have never received all that I 
requested, nor have I ever been able to submit a request for a 
flat budget. In all cases, however, in all those organizations, 
the operations of the organization continue to be professional.
    On several occasions, I have begun a budget year knowing 
the organization could not be as cutting edge as possible, for 
projects might take longer, service might not be as perfect as 
professionals expect, yet the organizations always survive.
    This Sergeant at Arms budget regretfully is no different 
than those I have presented for other organizations. We are 
requesting more, as you've indicated, practically 14 percent 
more, to nearly $227 million. The personnel increases, by most 
measures, are modest. We respectfully request 19 additional 
FTEs. In total, a 13.9-percent increase is sizable. I am fully 
aware of this as I sit here today with a Chief who is also 
requesting a considerable increase, and we are not the only 
ones asking you for more. I wish it weren't so.
    Madam Chair and members of this subcommittee, the men and 
women of the Senate Sergeant at Arms Office and the wonderful 
team at the United States Capitol Police are here for one 
single purpose. We keep the doors of this powerful institution 
open for business, facilitating the ability of the people you 
serve to come and go freely.
    If we are not successful, it would be difficult for the 
Senate to be successful. Including telephones, computers, 
pages, doorkeepers, the media galleries, parking, the photo 
studio, technology development, the post office, police 
operations, emergency preparedness, recording studio, EAP, 
environmental services, hair care, nationwide support of your 
State offices, the cabinet shop, information technology, 
education and the training of your staff, services to your 
families, printing and graphics and direct mail, the help desk 
and the wonderful professionals at the appointment desk, I 
think we do it all. The team does it right 24 hours a day, 7 
days a week, and we like our work.
    Our strategic plan, completed by Bill Pickle, my 
predecessor, just months ago is straightforward in its vision: 
exceptional public service. Our mission is straightforward: 
operational, security and protocol support services to the 
United States Senate.
    In concluding this portion of my remarks, let me say thank 
you again for the support of the subcommittee. Working with 
your staff is helpful and productive. Our partnership with the 
Secretary of the Senate and the Architect of the Capitol (AOC) 
are essential to achieving excellence.
    Now if I can just move quickly to the second half of my 
brief remarks, putting on the hat as Chairman of the Police 
Board. Let me share just a few thoughts. The Board works 
closely with Chief Morse and his Department in assessing 
security risks and determining appropriate approaches for 
avoidance or mitigation. The addition of an inspector general 
presents a unique opportunity for the Department and the Board 
to identify the best business and security practices while 
auditing the results. But make no mistake: this Capitol 
continues to be a prime target of terrorists. We need to be 
steps ahead of the offender. One step ahead is not good enough. 
Your United States Capitol Police is a professional 
organization fully capable of balancing freedom of access and 
security, but this is no small task and the challenges are 
many.
    The cost of technology and of its maintenance is high. The 
stress of constant diligence is real. The mission requirements 
are evolving. The United States Capitol Police have prepared a 
budget request that reflects the needs of the Department in 
meeting critical security requirements as they are currently 
understood and I would emphasize as they are currently 
understood. They have been judicious in the initiatives 
included in the budget. Chief Morse and his team have the full 
support of the Capitol Police Board and their efforts, 
especially in determining the number of personnel needed, 
evaluating threats, and maximizing the use of technology.
    Please keep in mind that as the threat environment changes 
or additional mission requirements are added the Department 
will in all probability need additional personnel along with a 
concomitant associated cost. For instance, the opening of the 
Capitol Visitor Center (CVC) is an additional responsibility.
    From the police perspective, this means more doors to cover 
and people to protect. Longer hours of operation for that 
facility, more visitors, or the opening of doors, which are 
currently closed and locked, have the potential to be unfunded 
mandates. We need to weigh carefully the requests as they 
unfold for the year. The mutual efforts of our organizations, 
with the guidance and oversight of the Senate committees, will 
provide the work environment the Senate needs to make the 
important, tough decisions for America. Thank you and I look 
forward to trying to answer your questions.
    Senator Landrieu. Thank you very much.
    [The statements follow:]
         Prepared Statement of the Honorable Terrance W. Gainer
                              introduction
    Madam Chairman and Members of the Subcommittee, thank you for 
inviting me to testify before you today. I am pleased to report on the 
progress the Office of the Sergeant at Arms (SAA) has made over the 
past year and our plans to enhance our contributions to the Senate in 
the coming year.
    For fiscal year 2008, the Sergeant at Arms respectfully requests a 
total budget of $226,893,000, an increase of $27,642,000 (or 13.9 
percent) over the fiscal year 2007 budget. This request will allow us 
to enhance service to the Senate community by supporting and improving 
the Senate's technology infrastructure and to ensure a safe and secure 
environment. Appendix A, accompanying this testimony, elaborates on the 
specific components of our fiscal year 2008 budget request.
    In developing this budget and our operating plans, we are guided by 
three priorities: (1) ensuring the United States Senate is as secure 
and prepared for an emergency as possible; (2) providing the Senate 
outstanding service and support, including the enhanced use of 
technology; and (3) delivering exceptional customer service to the 
Senate.
    This year I am pleased to highlight some of this Office's 
activities including the publication of the ``United States Senate 
Sergeant at Arms Strategic Plan''. Our accomplishments in the areas of 
security and preparedness, information technology, and operations are 
also impressive. We are preparing for next year by planning for the 
major events we know will come and by ensuring that the Office of the 
Sergeant at Arms is an agile organization that can adjust to the 
unexpected.
    An outstanding senior management team leads the efforts of the 
dedicated Sergeant at Arms staff. Drew Willison serves as my Deputy, 
and he and I are joined by Administrative Assistant Rick Edwards, 
Republican Liaison Lynne Halbrooks, General Counsel Dan Strodel, 
Assistant Sergeant at Arms for Security and Emergency Preparedness 
Chuck Kaylor, Assistant Sergeant at Arms for Police Operations Bret 
Swanson, Assistant Sergeant at Arms and Chief Information Officer Greg 
Hanson, and Assistant Sergeant at Arms for Operations Esther Gordon. 
The many accomplishments set forth in this testimony would not have 
been possible without this team's leadership and commitment.
    The Office of the Sergeant at Arms also works with other 
organizations that support the Senate. I would like to take this 
opportunity to mention how important their contributions have been in 
helping us achieve our objectives. In particular, we work regularly 
with the Secretary of the Senate, the Architect of the Capitol, the 
Office of the Attending Physician, and the United States Capitol Police 
(USCP). When appropriate, we coordinate our efforts with the U.S. House 
of Representatives and the agencies of the Executive Branch. I am 
impressed by the people with whom we work, and pleased with the quality 
of the relationships we have built together.
    This is my first year testifying before this Committee as Sergeant 
at Arms and I would be remiss if I did not mention how proud I am of 
the men and women with whom I work. The employees of the Office of the 
Sergeant at Arms are among the most committed and creative in 
government. We hope to build on the success this organization has 
experienced in recent years.
    None of our efforts would be accomplished, though, without the 
guidance of this Committee and the Committee on Rules and 
Administration. Thank you for the support you consistently demonstrate 
as we work to serve the Senate.
Challenges of the Past Year
            Funeral of Former President Ford
    On Saturday, December 30, 2006, the remains of former President 
Gerald R. Ford arrived on the East Front of the Capitol in a formal 
military procession. The United States Capitol was the site of the 
second State Funeral since 1973 and the second in the past two and a 
half years.
    My office coordinated preparations for this national event with 
many internal and external organizations. This event could not have 
been accomplished without the extraordinary efforts of many Sergeant at 
Arms employees who were tireless in their dedication to meeting the 
Senate community's needs. Many of our employees canceled their holiday 
and year-end leave plans to support this historic event.
    Capitol Facilities staff cleaned and set up the holding rooms, the 
Photo and Recording Studios captured the event for viewing and 
historical purposes, and other staff provided behind-the-scenes 
support. Our media galleries worked tirelessly to support the media 
needs.
    We also focused on protocol and security throughout the week. My 
Executive Office staff coordinated attendance at the service in the 
Capitol Rotunda with Senate offices, and they assisted the Senators and 
officials who participated in the program. In addition, we were 
responsible for coordinating the official Senate delegation's 
attendance at the National Funeral Service, held at the Washington 
National Cathedral on January 2, 2007. My security team collaborated 
with the United States Capitol Police, the Secret Service, and other 
Federal agencies to ensure a secure environment, and we were a 
continuous presence in the Capitol Police Command Center. As a result 
of everyone's work, approximately 50,000 mourners were able to pay 
their respects to the former President in the Rotunda of the Capitol.
            Transition
    My Office facilitated the change to the new Congress by equipping, 
staffing, and running the Transition Office for newly elected Senators, 
coordinating the moves and setup of temporary office suites, and 
coordinating the moves and setup for permanent office space both for 
new Senators and Senators who chose to relocate. We installed equipment 
in the transition office space, and provided administrative and mail 
services, as well as Web sites, documents, and placement services to 
assist the newly elected Senators.
 security and preparedness: protecting the senate and planning for the 
                                unknown
    In our security and preparedness programs, we work collaboratively 
with organizations across Capitol Hill to secure the Senate. We also 
rely upon Senate Leadership, this Committee, and the Committee on Rules 
and Administration for guidance and support.
    While nearly six years have passed since 9/11 and the anthrax 
attacks, and although no major attack has occurred against us at home, 
the threat of attack remains. Not all hazards are man made, and our 
contingency plans can be implemented to respond to natural disasters as 
well. Over the past two years, Senate offices in Washington, D.C. and 
in the States have been impacted by local disruptions and natural 
disasters. The security and emergency programs that have been developed 
over the past six years have enabled the Senate and our supporting 
agencies to respond appropriately in each instance, ensuring the safety 
of staff and visitors and recovering operations as rapidly as possible. 
The ongoing improvement and appropriate expansion of our security and 
emergency plans and programs will continue to be a priority for the 
Sergeant at Arms.
    On September 6, 2000, the Bipartisan Leadership for the 106th 
Congress directed the Capitol Police Board to develop and manage a 
program which would enable the Congress to fulfill its constitutional 
obligations in the event of a disaster-related incident. The Capitol 
Police Board was further directed to coordinate with Officers of the 
Senate and House to develop a comprehensive Legislative Branch 
emergency preparedness program. As a member of the Capitol Police Board 
and Chairman for 2007, the Senate Sergeant at Arms will continue to 
build on the accomplishments of previous Boards.
    Our efforts to ensure that we can respond to emergencies and keep 
the Senate functioning under any circumstance have grown over the past 
years. To continue improvements in this area and better manage our 
security and preparedness programs, we have established seven strategic 
priorities to focus our efforts:
  --Emergency Notifications and Communications.--Provide effective 
        communications systems, devices, and capabilities to support 
        the Senate during any emergency.
  --Accountability.--Ensure accurate and timely accounting of Members, 
        Senate staff, and visitors during an emergency.
  --State Office Security and Preparedness.--Develop and implement a 
        comprehensive, all hazards state office security and 
        preparedness program.
  --Emergency Plans, Operations and Facilities.--Continue emergency 
        planning, emphasizing life-safety, continuity of operations, 
        and programs to address the needs of individuals after a 
        disaster.
  --Training and Education.--Continue a strong emergency preparedness 
        training program.
  --Exercises.--Conduct a comprehensive exercise program to validate, 
        rehearse and improve Senate readiness to act in the event of an 
        emergency.
  --Office Support.--Provide responsive security services and customer 
        support to Senate offices, committees, and support 
        organizations.
Emergency Notification and Communications
    Our emergency notification and communications initiatives ensure 
that we have effective communications systems, devices, and 
capabilities in place to support the Senate during an emergency. We 
have continued to improve our notification and communications processes 
over the past year. We expanded the coverage of text alerts to include 
any PDA on any cellular or data service provider. We are currently 
integrating all notification systems into a single Web-based interface, 
allowing the Capitol Police to initiate voice and text messages to 
several thousand individuals in a matter of seconds. We have also 
installed a video-based alert system that will allow the Capitol Police 
to display emergency messages on the Senate cable TV network. Over 
1,300 wireless annunciators are in place across the Senate, and the 
Capitol Police have completed the installation of a public address 
system that can broadcast into public areas throughout the Capitol, 
Senate Office Buildings, and outdoor assembly areas. Further, if the 
Senate is forced to relocate, we have the capability to video 
teleconference and broadcast between an emergency relocation site and 
other Legislative Branch and Executive Branch sites.
    Looking forward, we intend to expand our telephonic and text-based 
notification capabilities to support office and staff requirements 
during emergencies. Additionally, our video teleconferencing 
capabilities will soon provide the ability to create ``Anytime 
Anywhere'' video conferences.
Accountability
    Accountability of Members and staff remains an area of emphasis in 
all our emergency plans and evacuation drills. One of our major 
initiatives this year was to improve procedures for offices to report 
accountability information to the Capitol Police and the Sergeant at 
Arms quickly and accurately. Significant progress was made during 2006 
to better achieve these goals.
    In 2006, a BlackBerry-based accountability application was 
deployed, allowing Office Emergency Coordinators to account for staff 
remotely using their BlackBerry. This builds on the automated check-in 
system that was developed and fielded to Senate offices and committees 
in 2005. Both accountability methods are now operational and used 
during quarterly drills. The backbone for this capability, termed the 
Accountability and Emergency Roster System, or ALERTS, allows each 
office to manage staff rosters as well as to indicate who in the office 
is to receive email and telephonic alerts from the Senate's emergency 
notification system. A comprehensive instruction manual has been 
produced for use by Capitol Police and Office Emergency Coordinators. A 
total of 176 Senate staff members were trained on how to use ALERTS and 
Remote Check-in during in-office or classroom sessions. Our staff has 
also trained personnel in the Capitol Police Senate Division on the use 
of this system.
    Personnel accountability is stressed in the Emergency Action Plan 
template that we have developed for use by all Senate offices. This 
template, offered to all offices, encourages the development of 
internal communications procedures during emergencies through a phone 
tree or emergency contact list. Offices are encouraged to establish and 
periodically practice these internal procedures for accounting for 
staff members, post emergency. To aid in this effort, we conduct 
Emergency Action Plan training classes with a special emphasis on staff 
accountability and stress the initiative during all Office Emergency 
Coordinator training. Once a quarter, our office conducts a remote 
accountability exercise with Senate Office Emergency Coordinators. 
During our most recent exercise, over 125 individuals logged in to 
provide office accountability, and we worked with twenty offices on 
training and configuration issues.
State Office Security and Preparedness
    The Senate's State Office Preparedness Program consists of several 
elements. First is the Physical Security Enhancement Program. This 
program provides a security assessment of each state office, followed 
by physical security enhancements if the office desires to participate 
in the program. We have completed an initial physical security survey 
of all established state offices and the results of these on-site 
reviews were provided to each Member. In addition to the physical 
security enhancements, we have developed and are piloting a program 
that provides additional emergency preparedness and continuity of 
operations support to state offices.
    Since the program's inception in 2002, we have conducted 538 state 
office security surveys and will conduct another 76 surveys of new and 
relocating offices for the 110th Congress over the coming months. We 
have completed security enhancements in 183 state offices of which 75 
were completed in 2006. This past year we finalized an agreement with 
the Federal Protective Service and General Services Administration to 
streamline installation of security enhancements for Senate state 
offices located in federal buildings. We are currently working with 60 
state offices in some stage of planning or approval. To date, members 
of our Office of Security and Emergency Preparedness have visited 
approximately 24 state offices where security enhancements have been 
installed or implemented. Staff from each of these offices has 
expressed tremendous gratitude for the security enhancements and the 
personalized visit. In short, this is a successful program and we will 
continue our emphasis in this area.
    Our State Office Preparedness Program combines our existing 
physical security enhancement program with additional emergency 
preparedness and continuity of operations planning (COOP) support. This 
level of support includes equipment and training and will mirror those 
programs that are currently offered to Member's Washington, D.C. 
offices. We have identified specific requirements to tailor the program 
to the individual state offices based on a needs analysis and risk 
assessment, and are piloting this program with 10 Member state offices 
across the United States starting in the spring of this year. If 
successful, we plan to offer this program to all Member state offices 
in 2008.
Emergency Plans, Operations and Facilities
    Our emergency plans ensure that we attend to the safety of Senate 
Members and staff, as well as to the continuity of the Senate. It is 
the responsibility of each Member office and committee to have the 
requisite plans in place to guide their actions during any emergency 
event. I can report that every Member office completed and filed an 
Emergency Action Plan with our Office of Security and Emergency 
Preparedness during the 109th Congress. These are being updated by 
Member Offices now, and new Members have initiated plans. Every office 
within the SAA and Secretary of the Senate has a completed Continuity 
of Operations (COOP) plan, almost every Member office has a COOP Plan, 
and the SAA is working with every committee to ensure their respective 
continuity of operations plans are developed. Our staff provides 
training, guides, templates, assistance, and in-office consulting 
sessions to any office that requests it. Those offices that have 
updated plans are encouraged to maintain and exercise them.
    We established working groups to identify and address all Senate 
emergency programs, plans, and requirements. Last year, we identified 
the need for post-event care and family assistance. Over the past year, 
we have continued to develop plans that provide critical services to 
affected families following a wide-spread event. In cooperation with 
the Senate's Employee Assistance Program, we have conducted training 
with a core group of employees to establish peer support teams. That 
training will expand this year.
    Recognizing the Sergeant at Arms' responsibility to coordinate the 
actions of internal organizations, inform and support Senate offices, 
and effectively manage the resources within our purview during an 
emergency, the SAA has established an Emergency Operations Center (EOC) 
capability that pulls key functional area representatives together into 
a single operational area during an emergency. The SAA exercised this 
capability twice during 2006, upgraded to a web-based EOC management 
and information tracking application, WebEOC, and conducts quarterly 
training for internal functional representatives.
Training and Education
    Training helps Senate staff know what to expect in an emergency, 
how to use the equipment we provide, and what protective actions they 
may take. We help office staff create continuity and emergency plans. 
We conduct training on all of our equipment including emergency 
equipment, emergency communication devices, and our accountability 
system. Our training program is coordinated through the Joint Office of 
Education and Training.
    Training activities over the past year included 351 escape hood 
training sessions that were delivered to 5,132 staff members; nine 
chemical, biological, radiological, and explosives briefings for 125 
staff; 20 office emergency coordinator basic and advanced training 
sessions reaching 130 staff. CPR and Automated External Defibrillator 
(AED) training is also taught by the Office of the Attending Physician. 
This training for 24 personnel monthly is typically oversubscribed.
    Not everyone is able to attend training classes. To augment our 
training efforts, the SAA creates and distributes topic-specific 
brochures and guidance documents to further enhance Senate 
preparedness. These are distributed throughout the community and 
describe procedures, emergency equipment, and other useful instruction 
for emergencies. A number of the brochures were updated in 2006, and 
Protective Actions for Interns was added to this portfolio. This year 
the SAA developed and provided computer-based training options on our 
emergency equipment and emergency procedures to every office and any 
staff member with access to Webster. Our computer based training 
support to offices will continue to expand as new courses are developed 
and made available on-line.
Exercises
    Exercises ensure the Senate's plans are practiced and validated on 
a regular basis. Our comprehensive exercise program is structured to do 
just that. The Senate Sergeant at Arms' 2006 Exercise Program was 
diverse and productive. During the period, we conducted a series of 
eleven major exercise events in partnership with other Senate and 
Capitol Hill stakeholders to include the Capitol Police, Architect of 
the Capitol, Office of the Attending Physician, and the U.S. House of 
Representatives. Emergency Operations Center capabilities were 
exercised on five occasions, to include first-ever set up of our 
alternate locations. We established procedures for Leadership and 
Members, and conducted relevant training and exercises. Recently, we 
conducted an exercise related to the Senate Chamber that included the 
USCP, all Secretary and Sergeant at Arms Chamber staff, and the Party 
Secretaries' staffs. In February of 2007 we conducted a review of the 
Disaster Family Assistance plans to further identify and develop policy 
issues and operational requirements and procedures for this area. The 
highlight for the year was a two-day concurrent capabilities exercise 
where the setup of four key contingency facilities was accomplished 
nearly simultaneously. In past years, these facilities were exercised 
independently, and this year's exercise tested our Leadership and 
Member locations, an alternate Chamber, and the Sergeant at Arms and 
Secretary's Emergency Operations Center in one event. An interagency 
Joint Legislative Branch communications test for off-campus locations 
and an emergency transportation command and control exercise further 
rounded-out the exercises that were conducted. Our 2007 exercise 
program is equally aggressive and continues to ensure the Senate can 
conduct operations under any circumstance.
Office Support
    The Senate's emergency equipment ensemble for Senate offices 
continues to mature. Each office has received Emergency Supply Kits, 
uniquely tailored for the Senate community. Over 448 have been 
distributed and are being maintained by Senate offices. These kits are 
designed to be used during ``shelter-in-place'' events, but have the 
functionality to be used on a daily basis if needed. Additionally, 72 
kits tailored for the Sergeant at Arms transportation fleet were 
developed and deployed in 2006.
    Over 1,300 wireless emergency annunciators are deployed throughout 
Senate offices. These systems provide the Capitol Police with the 
ability to audibly notify offices and provide instructions during an 
emergency. Our Emergency Preparedness Office provides day-to-day 
troubleshooting support to offices. This has resulted in the 
installation of 90 additional wireless emergency annunciator units in 
various offices throughout the Senate. Our Office of Security and 
Emergency Preparedness responded to 197 annunciator trouble calls in 
2006. In addition to daily troubleshooting support, we installed 
wireless emergency annunciators in the Russell Senate Office Building 
attic to ensure that all staff are alerted of evacuations and emergency 
situations.
    In 2006, the Senate Sergeant at Arms completed lifecycle 
replacement of the Quick 2000 Escape Hoods with the new SCape CBRN30 
Escape Hoods. Our program also added the Baby SCape Escape Hood for 
children under the age of three. We replaced over 20,000 escape hoods 
in Senate offices and in the public caches throughout the Senate. To 
address special locations and our mobility impaired evacuation 
procedures, almost 800 Victim Rescue Units that provide respiratory 
protection in a smoke filled environment have been issued to mobility 
impaired individuals and their buddy teams.
    We will conduct an annual inventory and serviceability inspection 
of all emergency equipment items issued to Senate offices later this 
year.
    We provide other office outreach and support through widely 
distributed publications and monthly informational notices to Office 
Emergency Coordinators. We also make extensive use of the Senate's 
intranet resources to support offices.
Mail Safety
    The anthrax and ricin attacks of past years necessitated new 
security measures, and our Office responded. We have worked 
collaboratively with this Committee, the Committee on Rules and 
Administration, our science advisors, the Capitol Police, United States 
Postal Service, the White House Office of Science and Technology 
Policy, and the Department of Homeland Security in developing safe and 
secure mail protocols.
    All mail and packages addressed to the Senate are tested and 
delivered by Senate Post Office employees whether they come through the 
U.S. Postal Service or from other delivery services. We have 
outstanding processing protocols in place here at the Senate. The 
organizations that know the most about securing mail cite the Senate 
mail facility as among the best. We have been asked to demonstrate our 
procedures and facilities for some of our allies and for other 
government agencies, including the Departments of Defense and Homeland 
Security. When they look for ways to improve their mail security, they 
visit our facility.
    We have been good stewards of taxpayer dollars in the process. We 
processed volumes of mail similar to that of the House of 
Representatives and we accomplished it for approximately 40 percent of 
their cost. Last year, the Senate processed, tested, and delivered over 
13,700,000 safe items to Senate offices, including over 9,600,000 
pieces of U.S. Postal Service mail; over 3,900,000 pieces of internal 
mail that are routed within the Senate or to or from other government 
agencies; almost 70,000 packages; and over 136,000 courier items.
    We continue to seek improvements in mail processing and have worked 
with this Committee in identifying avenues to reduce our costs. In 
April 2007, we will move our Alexandria letter mail processing 
activities into a newly constructed facility that will enhance the 
processing of Senate letters as well as perform the package testing 
that is currently being performed by a vendor. Bringing the processing 
of packages in-house will increase the security of the packages and 
will save the Senate over $200,000 annually. This state-of-the-art 
facility will provide a safer and more secure work environment for our 
employees and is designed to serve the Senate's mail processing needs 
for decades.
    We also worked with this Committee and the Committee on Rules and 
Administration to build one of the best facilities within the 
government to process time sensitive documents that are delivered to 
the Senate. This past August, we opened the Courier Acceptance Site to 
ensure all same day documents are x-rayed, opened, tested, and safe for 
delivery to Senate offices. The number of time sensitive documents 
addressed to Senate offices is significant. We processed over 136,000 
courier items during 2006.
    Since the anthrax attacks of 2001, our office has worked with the 
Department of Homeland Security, the United States Postal Service 
(USPS), and our science advisors in seeking avenues to improve the 
safety of the mail routed to Senate state offices and to Members' home 
addresses. USPS has installed detection units at mail processing plants 
throughout the United States. Virtually every letter is run through 
this equipment which is designed to detect certain contaminants, 
thereby providing a safety screen that did not exist in the past.
    This year our Senate Post Office and our Office of Security and 
Emergency Preparedness worked collaboratively with our science advisors 
to develop and introduce the first device designed to provide Senate 
staff who work in state offices a level of protection when handling 
mail. To date, four Member state offices are participating in this 
program, and the feedback received from Senate staff has been 
favorable. Our plan is to expand this program to all state offices 
within the next six months.
Office of Police Operations and Liaison
            Security and Vulnerability Assessments
    The Senate Sergeant at Arms works closely and on a continuous basis 
with the Capitol Police, the Capitol Police Board, and security and law 
enforcement agencies that support us here on Capitol Hill. 
Collectively, we constantly scrutinize our security posture, searching 
for any vulnerabilities, and determining the most efficient ways to 
remediate any we find. During 2006, the Capitol Police Board requested 
and subsequently received a security assessment of the Capitol Complex 
performed by the United States Secret Service. We are reviewing this 
assessment and will take its recommendation into consideration as we 
fund and execute security enhancements for the Senate.
            Identification Badge Improvements
    In March of 2006, the Capitol Police Board established a task force 
to examine identification badge policies and procedures across the 
Congressional campus. The goal was to increase security, reduce fraud 
and system abuse, and achieve uniformity of identification processes 
and practices by adopting a standard identification system for use 
throughout the campus. As a result of the work performed by the task 
force, several security enhancements were added to the ID badges issued 
for the 110th Congress, including: designations on limitations on hours 
of access; larger photographs; a simpler text field to ease confusion 
experienced by police officers who must examine the cards; and 
standardization of badges issued to personnel of external agencies. The 
Task Force's work also set the foundation for future communication 
across the Congressional campus when implementing new identification 
policies and procedures.
            Foreign CODEL Support Program
    The Foreign CODEL support program was created to ensure that the 
unique needs and security requirements of Senators are met while they 
perform official travel outside the contiguous United States. Through a 
coordinated liaison effort between the SAA, USCP, and the Department of 
State, threat assessments and security reviews are conducted for 
official foreign travel performed by Senators. USCP officers are 
assigned as security liaison agents for CODEL trips that warrant 
security.
  information technology--a strategy for security and customer service
    We continue to place special emphasis on leveraging technology to 
enhance security, emergency preparedness, service, and support for the 
United States Senate. Last year we issued the Senate's updated 
Information Technology Strategic Plan, ``An IT Vision for Security, 
Customer Service and Teamwork at the United States Senate 2006-2008'', 
and this year we are half-way through executing that plan. We have 
already accomplished some impressive results.
  --Replication of all mission-critical systems at the Alternate 
        Computing Facility (ACF) and successful execution of two 
        complete failover tests for continuity of operations and 
        continuity of government (COOP/COG).
  --Raising the CIO's overall customer satisfaction rating to 87 
        percent.
  --Completion and full operational capability of the Senate's first 
        redundant security operations centers (SOC).
  --Successful completion of requirements phase and procurement 
        activity for the Senate Telecommunications Modernization 
        Program (TMP).
  --Completion of the Active Directory and Messaging Architecture 
        (ADMA) project--the largest and most successful infrastructure 
        project ever undertaken in the Senate to provide a state-of-
        the-art messaging infrastructure custom tailored to meet the 
        security and privacy needs of individual offices.
  --Completion of an award-winning wireless infrastructure to support 
        cellular telephone, BlackBerry emergency communication devices, 
        and wireless local area networks (LANs) across the Senate 
        campus.
  --Development of a new emergency communications system based on 
        device-to-device communications and not reliant on any 
        commercial cellular carrier. This system provides robust 
        emergency communications while allowing Member offices to 
        purchase cellular service from the carrier of their choice.
    Our CIO is currently preparing the annual update of the Senate IT 
Strategic Plan which lays out our technology direction for the next two 
years. This new version updates the five strategic goals to enhance our 
customers' service experience and the Senate's security posture 
through:
  --Supporting Senate continuity of operations plans (COOP) and 
        continuity of government (COG) by deploying an information 
        infrastructure that is flexible and agile enough to respond to 
        adverse events.
  --Continuing to reduce paper-based manual processes and moving 
        business on-line.
  --Continuously improving our customer care processes using feedback 
        from our customers through performance metrics, customer 
        satisfaction surveys, and service level achievement 
        measurements.
  --Access to mission-critical information anywhere, anytime, under any 
        circumstances through continued development of alternate 
        computing facilities, remote access technologies, and 
        eliminating bottlenecks and potential failure points in the 
        Senate's information infrastructure.
  --Replacing the Senate's telephone switch with a new state-of-the-art 
        switch and ancillary services based on Voice over Internet 
        Protocol (VoIP) and convergence technologies.
    Five strategic information technology goals, and their supporting 
objectives, drive our information technology programmatic and budgetary 
decisions. There are currently approximately 50 major projects under 
active project management directly tied to the following five strategic 
goals:
  --Secure.--A secure Senate information infrastructure
  --Customer Service Focused.--A ``Customer Service Culture'' top-to-
        bottom
  --Effective.--Information technology solutions driven by business 
        requirements
  --Accessible, Flexible & Reliable.--Access to mission-critical 
        information anywhere, anytime, under any circumstances
  --Modern.--A state-of-the-art information infrastructure built on 
        modern, proven technologies
    Another key aspect of the plan--the CIO organization's Core Values 
and Guiding Principles--defines the organization's culture and ensures 
it is aligned strictly with the Senate's business priorities. These 
values and principles emphasize people, teamwork, leadership, and a 
relentless pursuit of organizational excellence. The goal is to have 
the right sized workforce with the correct talent mix to deliver 
information technology services and solutions quickly and effectively 
to satisfy the Senate's requirements.
Technology for Security, Accessible, Flexible & Reliable Systems, and a 
        Modern Senate Information Security Infrastructure
    We are improving the security of the technology infrastructure that 
protects data, respects privacy, enables continuous Senate operations, 
and supports our emergency and continuity plans. Our efforts over the 
past year have enabled us to support alternate sites and the 
replication of information, as well as emergency and contingency 
communications. We are delivering increased support for remote access 
and are completing the in-building wireless infrastructure. A 
significant commitment to information technology security will 
increasingly protect the Senate from external threats, and the multi-
year telecommunications modernization project will improve the 
reliability of the infrastructure. This work all focuses on improving 
the ability of the Senate to accomplish its mission.
            Alternate Sites and Information Replication
    We continue to develop our ability to relocate information systems 
capability at the alternate computing facility (ACF). All critical 
Senate enterprise information systems are now replicated there, using 
sophisticated storage area network technology. In October, the CIO 
conducted the second comprehensive test of the facility: Senate primary 
computing facilities (including network access) were completely shut 
down and reconstituted at the ACF. Full capability and functionality 
were provided from the ACF for a period of four hours and then systems 
were ``failed-back'' to the primary computing facility on Capitol Hill. 
Like the first comprehensive test, conducted in December 2005, this 
exercise, which encompassed more applications, was a complete success. 
Funds requested in fiscal year 2008 will help us continue to upgrade 
the storage area network to meet expanding data requirements and ensure 
we can continue to replicate Senate enterprise systems successfully at 
the ACF.
    This past year the CIO organization continued helping Member and 
committee offices replicate their data to state offices and to the ACF 
through the remote data replication (RDR) program. As of February 2007, 
there are 41 Member offices and 17 committees taking advantage of this 
program, with 45 percent installed at the ACF and 55 percent installed 
in Members' state offices. RDR will provide the Senate an unprecedented 
ability to access institutional data in the event of an emergency. 
Another system which is integral to emergency planning, particularly in 
the event of a mass telecommuting scenario such as a pandemic, is the 
Senate's video teleconferencing system. This highly-successful project 
now has over 525 units installed supporting offices across the nation 
with usage rates in excess of 30,000 minutes per day when the Senate is 
in session.
    The CIO completed the active directory messaging architecture 
(ADMA) project this past year, offering Member offices three 
architectural options for their messaging infrastructure. Both the 
enterprise and hybrid architectures provide complete replication of the 
Member's electronic mail at the ACF. Eighty-five percent of the offices 
are now taking advantage of the COOP capability inherent in the 
enterprise and hybrid options.
    We recently introduced the Virtual File Server (VFS) system which 
allows offices to store data securely on our large, centrally-hosted, 
enterprise-class storage area network. The VFS system, as designed, 
provides redundancy for disaster recovery and COOP and minimizes the 
environmental and staff burden of in-office data storage. Offices that 
opt for VFS also enjoy enterprise-level data backup and off-site 
storage of backup tapes while retaining control of data recovery. The 
active components are located at the ACF. In the event of a disaster 
that renders the PCF system unavailable, the ACF system will be brought 
on line and will provide users consistent access to their data. The VFS 
system has been available since December, 2006, and already fourteen 
Senate offices have taken advantage of this exciting new technology.
            Emergency and Contingency Communications
    The CIO is providing a comprehensive array of communications 
systems and options with the objective of being able to communicate 
under any circumstance. A new capability, currently being deployed 
Senate-wide, is the Senate Message Alert Client (SMAC). SMAC eliminates 
our dependence on any single commercial carrier for BlackBerry 
emergency communications and provides the flexibility of device-to-
device communications. Through SMAC, emergency notification lists can 
be created, inter- or intra-office, to push emergency messages directly 
to devices on the list in real time. SMAC and the global email alert 
system are two of the primary methods for the USCP and the SAA to issue 
mass emergency communications messages.
    This year we continued upgrading and testing our two Senate 
emergency response communications vehicles according to a monthly 
exercise plan. These assets are available for deployment with LAN, WAN, 
telephone, and satellite connectivity and provide the ability to 
relocate significant information infrastructure virtually anywhere. We 
also continue to train and expand our deployment teams, and work to 
revise and refine our operations procedures for deployment of these 
vehicles in support of the Senate.
    This past year we completed the in-building wireless infrastructure 
in all of the Senate office buildings, including the Capitol, and are 
currently outfitting the Capitol Visitor Center (CVC) in preparation 
for its opening in 2008. This innovative system, which won a Government 
Computing News Best Practices Award, improved signal strengths for the 
major cellular telephone carriers as well as BlackBerry service. This 
infrastructure provides coverage in areas where it was previously poor 
or non-existent and allows Senate staff to connect back to their 
offices via wireless remote computing. The wireless infrastructure also 
supports every carrier, allowing Members to use the carrier of their 
choice with the device of their choice across the Senate campus.
    This year Senate COOP and reconstitution sites have been equipped 
with information technology infrastructure including 
telecommunications, data networks, and video teleconferencing. 
Additionally, mobile and remote computing technologies allow Senate 
staff to access and modify their information and communicate from 
virtually anywhere, anytime. We will continue to enhance and expand 
these capabilities in order to support a potentially dispersed 
workforce with the ability to telecommute. These capabilities are 
crucial to our ability to support the Senate in an emergency situation 
where the workforce must be dispersed and also support the Senate's 
ability to provide employees with flexible work options on a daily 
basis.
    We are dedicated to providing an integrated and highly-reliable 
emergency communications infrastructure through a variety of projects 
including expanding our emergency communications infrastructure, 
integrating and streamlining emergency communications capability, 
liaison with the USCP command center, developing specifications for 
outfitting emergency operations centers (EOC) and leadership 
coordination centers, and conducting monthly comprehensive testing of 
emergency alert notification systems. This past year we successfully 
conducted comprehensive Senate-wide tests of all of our emergency 
communications systems, upgraded the SAA EOC with a web-based 
management system, and began work on a major upgrade of the Senate's 
mass communications system.
            Securing our Information Infrastructure
    As a result of information security activities we described in last 
year's testimony, we have gained a much better understanding of the 
dynamic nature of global cyber threats. This knowledge, combined with 
the flexible technologies used in the security operations center (SOC), 
allows us to understand the overall IT operational risk present in the 
Senate environment. Adjusting our own SAA controls, and making 
recommendations to offices and committees, allows us to help ensure 
continuity of government by increasing availability of the IT 
infrastructure, even under duress.
    In the IT security threat environment, the list of potential 
threats to our information infrastructure is growing in number and 
sophistication. Over the next year, we will meet the challenge of 
managing a volatile security environment by: (1) expanding the role of 
the recently established SOCs; (2) optimizing our current configuration 
of security controls; (3) improving our collaboration with other 
federal agencies in the areas of incident response and situational 
awareness; (4) evaluating, testing, and deploying new security control 
mechanisms; and (5) enhancing communication with IT staff in Member and 
committee offices to give them timely and usable information in order 
to improve the security posture of their local IT systems.
    During a recent four-month period, our most visible IT system, the 
Senate`s website, www.senate.gov, was the target of over 17 million 
discrete unsuccessful security events from almost 200,000 different 
Internet addresses. A recent external security review of the site 
helped us make some adjustments that will secure the site even more, 
but the site itself is a prime target for attacks. We will soon engage 
an outside party to perform another assessment of www.senate.gov, as we 
have made a number of infrastructure improvements over the last year.
    Similar to security in the physical world, security in the 
information technology world requires constant vigilance and the 
ability to deter attacks. The threats to our information infrastructure 
are increasing in frequency and sophistication, and they come from 
spyware, adware, malware, Trojans, keyloggers, spybots, adbots, and 
trackware, all of which continuously search for vulnerabilities in our 
systems. Countering the evolving threat environment means increasing 
our awareness of the situation, improving our processes, and 
continually researching, testing, and deploying new security 
technologies. Because we have very little advance notice of new types 
of attacks, we must and do have flexible security control structures 
and processes that are continually revised and adjusted. Our efforts to 
cultivate external relationships to improve our overall awareness of 
internet-based threats have been effective. As the global threat 
environment has shifted, we have modified our techniques and our 
technologies to improve our awareness and response to better protect 
the Senate's IT infrastructure.
    This last year, we experienced growth in the area of office and 
committee computer security assistance. We are increasingly called upon 
to help offices and committee system administrators properly configure 
desktop and server security controls. We also assist them in evaluating 
our weekly reports on anti-virus controls. Additionally, we are now 
monitoring Internet email ``blacklists'' for potential delivery issues. 
As the Senate continues to employ cutting edge technologies, the IT 
security group's activities will adjust in order to ensure optimal 
product performance and service delivery. We continue to use cutting 
edge technology, not only within our IT security services, but also in 
our IT security infrastructure. For example, we recently upgraded our 
antivirus infrastructure which will allow us greater flexibility, 
better utilization of our computing resources, and will enhance our 
availability and disaster recovery capabilities. This infrastructure is 
very scalable, and we can continue to expand capabilities while 
conserving on costs.
    Protecting the Senate's information is one of our most important 
responsibilities. This year we have taken tremendous strides in this 
area with the development and operation of the Senate`s redundant SOCs, 
one located at Capitol Hill and the other at the ACF. The mission of 
the SOCs is to identify and understand threats, assess vulnerabilities, 
identify failure points and bottlenecks, determine potential impacts, 
and remedy problems before they adversely affect Senate operations. In 
the coming months, an outside party will perform an operations review 
of our current SOC implementation and we will use the results of this 
assessment to procure, as needed, additional cyber security products 
and services which will provide enhanced value to our customers. We 
augment this capability with close liaisons to other federal agencies 
to ensure we have the most up-to-date information and techniques for 
combating cyber threats. Running within the SOCs, a state-of-the-art 
security information management system aggregates and reports on data 
from a variety of sources worldwide to help us track potential 
attackers before they can harm us. The combination of the security 
operations center, our defense-in-depth capability at all levels of our 
network infrastructure, and our enterprise anti-virus/anti-spyware 
programs has proven highly effective.
    The threat environment, as measured by detected security incidents, 
remains very high. For example, every day we detect approximately 
1,121,000 potential security threats targeting the Senate, over 40 
percent of which are characterized as medium to high risk. Other anti-
virus/worms controls detected and countered 2,181 viral events in 310 
computers located in 91 Senate offices in just the three-month period 
between November 1, 2006, and February 1, 2007. To date, 136 Senate 
offices use our managed anti-virus system. This system protects over 
11,000 Senate computers. This is one of the main reasons that recent 
worm outbreaks affected only a relatively small number of Senate 
computers while just three years ago, outbreaks infected several 
thousand machines and caused notable disruption in IT operations. Our 
antivirus products are comprehensive and state-of-the-art.
    IT security is, and will continue to be, a growth area as we work 
to stay ahead of threats and put safeguards in place. We plan to 
increase both our analytical and defensive capabilities. Accordingly, 
this year we are requesting three new full-time employees in our IT 
Security Branch.
            The Senate Telecommunications Modernization Program
    We are currently in the process of modernizing the Senate's entire 
telecommunications infrastructure to provide improved reliability and 
redundancy to support daily operations and continuity of operations and 
government, as well as to take advantage of technological advances to 
provide a more flexible and robust communications infrastructure. We 
are now in the final engineering and design stage of this multi-year 
project to modernize Senate telecommunications systems in the Capitol, 
Hart, Dirksen, Russell, and Postal Square buildings.
    The telecommunications modernization program is being engineered to 
provide redundancy for increased reliability and availability resulting 
in a state-of-the-art system of converged voice, data, and video 
communications technologies built upon Internet telephony protocols or 
voice over IP (VoIP). This approach will allow economies of scale in 
construction and management and, from the user side, the ability to 
synchronize audio and video conferences, share documents, and 
collaborate at their workstations. The telecommunications modernization 
program will replace our twenty-year old telephone technology, 
eliminate single failure points, provide new capability and value to 
the Senate, and benefit from the security of running behind our 
infrastructure's firewalls.
Modern Technology to Enhance Customer Service
            Customer Service, Satisfaction, and Communications
    Our Strategic Plan stresses customer service as a top priority, and 
we actively solicit feedback from all levels and for all types of 
services. The CIO's Fourth Annual Customer Satisfaction Survey revealed 
another improvement with an overall customer satisfaction rating of 87 
percent, up two percent from last year. This comprehensive survey 
measures satisfaction with systems, solutions, service and the quality 
of personnel in our organization. Based on the survey results, our 
customer satisfaction action plan continues to stress developing strong 
communications and customer relationships, introducing modern 
technology faster, and providing offices with options and choices that 
tie the Senate's technology directly to the offices' business 
requirements.
    In addition to the comprehensive Annual CIO Customer Satisfaction 
Survey, we solicit customer feedback for every help desk ticket opened. 
We have very stringent service level agreements (SLAs) in place that 
directly drive the level of compensation our contractors receive. Since 
January 2006, we have exceeded the 95 percent SLA performance metric 
every month in system installation service levels, help desk resolution 
times, and customer satisfaction. In order to ensure we are 
communicating as much as possible and as effectively as possible with 
our customers, the CIO organization continues its comprehensive 
outreach and communication program through the CIO's Blog, information 
technology newsletters, quarterly project status reviews, participation 
in information technology working groups, weekly technology and 
business process review meetings with customers, joint monthly project 
and policy meetings with the Committee on Rules and Administration, the 
Senate Systems Administrators Association, and the Administrative 
Managers' Steering Group.
            Keeping Senators and their Staffs Informed
    The Senate Information Services program continues to deliver 
premium, vital online information services to Senators and Senate 
staff. These services range from the Senate's own ``real-time'' news 
tool, Senate NewsWatch, to enterprise-wide subscriptions to heavily-
used external research services that provide online access to: 
extensive current and archived news and general information including 
ten historical newspapers, federal and state statutes and case law, 
regulatory and judicial developments, congressional news and current 
policy issues analysis, information technology policy developments, and 
daily updated directories of government, business, and professional 
associations. In addition, Senate users accessed nearly 2.7 million 
real-time news stories and almost 1.5 million pages of Congressional 
news and current policy analyses during 2006. The most recent addition 
to the program differs from other online news services because of its 
unique digitally imaged, full-format graphical presentation of more 
than 300 U.S. and international newspapers available each morning on 
the day of publication. These newspapers appear on the screen as they 
would on the reader's desk, complete with photos and other graphics. 
Senate users viewed nearly 24,000 newspapers using this service in 
2006.
            A New Information Technology Support Contract
    The final option year of our current IT support contract ends in 
September 2007. Due to the large size, importance with respect to 
customer service and complexity, we began to develop contract 
requirements in 2005 and issued a request for proposals in 2006. We are 
currently in the process of reviewing proposals with the expectation of 
signing a new contract this summer. The new contract will incorporate 
lessons learned during the current contract and stress a high level of 
customer service and customer satisfaction through stringent SLAs that 
tie compensation to performance.
            A Robust, Reliable, Modern Messaging Architecture
    This past year we completed deployment of a comprehensive active 
directory and messaging architecture (ADMA) providing a spectrum of 
options for data management. A great IT success story, this project 
began in 2003 with the three primary goals: providing a computing 
platform that allows offices to replace servers running the now 
unsupported Windows NT 4 operating system, improving the messaging 
system, and providing offices with choices to meet their varying 
business needs. The design options were presented to Senate offices 
along with the expected impact on each office of migrating all 
computers, user accounts, and email. We committed to and met specific 
time frames for completing each office migration. Today, all Senate 
offices are enjoying the benefits of ADMA which includes a modern, 
robust, reliable, and scalable infrastructure, built-in options for 
continuity of operations, design choices, and a platform for leveraging 
modern technologies including collaboration, mobility, and 
communications.
            Web-Based and Customer-Focused Business Applications
    This year, we completed the first phase of a new Senate services 
portal. Based on the requirements of Senate offices and the Committee 
on Rules and Administration, the portal, called TranSAAct, is 
eliminating paper-based, manual processes and moving them to the web. 
Using TranSAAct, Member offices manage and track invoices for SAA 
services through a modern web interface and also have single sign-on 
access to a host of web-based applications including the ALERTS 
emergency notification database, package tracking, the metro fare 
subsidy system, and garage parking database. Built on an extensible 
modern database framework, TranSAAct allows indefinite expansion as new 
applications are added. We are now actively pursuing Phase II which 
will include many more applications, all available through the 
TranSAAct single sign-on interface.
    This year, we continued support to the Secretary of the Senate 
through improvements and enhancements of the Financial Management 
Information System and Legislative Information System. Reliance on 
special forms and dedicated hardware was eliminated as a new document 
printing application achieved full production usage. We also provided 
essential support on an electronic invoicing initiative with a major 
vendor. Finally, major architectural improvements were realized with 
the release of a new database and the addition of a new, modern 
operating environment on the Senate's mainframe computer.
    To provide more functionality and choices for Senate offices to 
manage correspondence, this past year we awarded new Constituent 
Correspondence Management Systems (CCMS) contracts. Under these 
contracts, we are able to offer offices new capabilities and more 
functionality such as document management, workflow, and improved email 
management. The new contracts also contain strict service level 
standards to provide for improved services and support from the 
vendors.
            Showcasing and Promoting Modern Information Technology in 
                    the Senate
    This past year we continued to highlight new technologies in the 
Information Technology Demonstration Center through a series of well-
attended CIO Demo Days. After products are tested and validated in the 
Technology Assessment Laboratory, they are then available for offices 
to try in the demo center. The Demo Days feature live demonstrations of 
new and emerging technologies. This year, we introduced: SMAC, virtual 
file services, and a variety of new communications devices.
    Also, this past year, we hosted two more highly-successful Senate 
Emerging Technology Conferences and Exhibitions to expose Senate staff 
to new technologies and concepts. These conferences are designed around 
technology themes of immediate interest Senate-wide. The two 
conferences held this past year featured new web technologies and the 
future of desktop computing. Speakers included industry leaders, Senate 
office staff, and CIO staff. The next Senate Emerging Technology 
Conference and Exposition, scheduled for April, will feature mobile 
computing technologies.
    In order to perform technology assessments, feasibility analysis, 
and proof of concept studies, to ensure we are considering technologies 
that will directly support the Senate's mission, we have expanded the 
technology assessment laboratory. Technologies and solutions are vetted 
and tested here prior to being announced for pilot, prototype, or mass 
deployment to the Senate. To ensure that relevant technologies and 
solutions are under consideration, the CIO-led technology assessment 
group, consisting of members of the CIO organization and our customers, 
performs high-level requirements analysis and prioritizes new 
technologies and solutions for consideration for deployment in the 
Senate. Some of the technologies explored in the lab during 2006 
include: advanced video teleconferencing to support distributed 
operations in the event of a pandemic; virtual file systems, as a 
remote data application option; new emergency communication products 
such as new BlackBerry devices; new multi-function machines to 
consolidate printing/scanning/faxing; and the latest office automation 
software. We publish the results of our studies on the emerging 
technology page of the CIO's intranet site on Webster.
   operations and support: consistently delivering excellent service
    The commitment to exceptional customer service is a hallmark of the 
Sergeant at Arms organization and the cornerstone of our support 
functions. The groups that make up our support team continue to provide 
exceptional customer service to the Senate community.
Capitol Facilities
    Our staff works around the clock to ensure that the furniture and 
furnishings are of the highest quality, cabinetry and framing are 
outstanding, and the environment within the Capitol is clean and 
professional.
    Service to the Capitol community was greatly enhanced with the 
implementation of the first phase of the integrated work management 
system that was acquired in April, 2006. This system includes an on-
line furniture catalog, ordering functions, and work order tracking 
capabilities. When fully implemented, the work management system will 
prove invaluable to our efforts to improve customer service and 
response times as we serve our customers in the Capitol.
Printing Graphics and Direct Mail
    We provide photocopying and print design and production services to 
the Senate. The Printing Graphics and Direct Mail (PGDM) department 
continues to provide high level service and customer support to the 
Senate community. In fiscal year 2006, we responded to an increasing 
demand for color publications by using both digital color reproduction 
and traditional full color offset printing. PGDM produced more than 8.1 
million full-color pages utilizing offset presses. Our copy centers 
made over 46 million copies last year. The convenient web-based 
printing ordering service expanded, increasing web-based printing 
requests to more than 3.3 million documents. PGDM staff scanned more 
than 2.4 million Senate office documents for archiving and expanded the 
newest service, CMS Imaging, to scan nearly 350,000 documents, a 207 
percent increase over fiscal year 2005. We saved the Senate 
approximately $800,000, enabled quick turnaround times, and provided 
convenient customer service by producing over 9,000 large format charts 
in-house. In the area of constituent mail, Senate offices saved $1.3 
million in postage expenses as a result of PGDM sorting over 7.2 
million pieces of mail during the first three quarters of fiscal year 
2006. Working with other Senate entities, we also processed 45,000 flag 
requests.
    After years of planning, the new Senate Support Facility in 
Landover, Maryland is fully functional. We manage a storage area for 
other Senate offices including: furniture for Capitol Facilities; 
legislative documents for the Secretary of the Senate; general and 
emergency equipment for SAA IT Support Services; and a book storage 
area that holds publications for distribution to the entire Senate 
community. Substantial increases in efficiency and functionality have 
been realized in this multi-purpose facility, including a cooperative 
arrangement with the United States Capitol Police Off-Site to ensure 
the proper screening of all stored material. This facility has an 
enhanced inventory system for accurate inventory control and 
accountability. A state-of-the-art security system provides controlled 
access to sensitive documents and objects. Other features include 
environmental and climate controls.
Parking Office
    We completed the Senate Transportation Plan for COOP and emergency 
operations and developed a plan to increase the volume of E85/Flex-fuel 
vehicles in the SAA fleet. As part of an ongoing project, we replaced 
gate kiosks on Lots 16 and 19 in cooperation with the AOC. We executed 
the leases for two new 15-passenger shuttle buses that are ADA 
compliant and completed the COOP Driver Emergency Procedures manual and 
all training sessions.
Photo Studio
    The Photo Studio completed the migration of the Photo Browser to 
the latest version of the Asset Manager software. We implemented 
procedures to store Senators' photo images on DVDs for archiving and 
creating index booklets. Additionally, we introduced composite photo 
prints and expanded image retouching and restoration services.
Recording Studio
    We televise the activity on the Senate Floor, as well as Senate 
committee hearings, and we provide a production studio and equipment 
for Senators' use. Last year, we televised all 978 hours of Senate 
Floor proceedings, 907 committee hearings, and broadcast 1,559 radio 
and television productions.
            Committee Hearing Room Upgrade Project
    Demand for additional committee broadcasts has been ever 
increasing. In 2003, we began working with this Committee and the 
Committee on Rules and Administration to upgrade and install multimedia 
equipment in Senate committee hearing rooms. The project includes 
digital signal processing, audio systems, and broadcast-quality robotic 
camera systems.
    To date, we have completed thirteen hearing rooms and have four 
more in the design phase. Room enhancements include improved speech 
intelligibility and software-based systems that we can configure based 
on individual committee needs. The system is networked, allowing 
committee staff to easily and automatically route audio from one 
hearing room to another when there are overflow crowds. Additionally, 
the system's backup will take over quickly if the primary electronics 
fail.
    As part of the upgrades included in our move to the Capitol Visitor 
Center (CVC), we are installing technologies to enhance our ability to 
provide broadcast coverage of more hearings simultaneously without 
adding staff. For example, the Committee Hearing Room Upgrade Project 
will allow us to cover a hearing with one staff member. Before the 
upgrade, three staff members were required to adequately cover a 
hearing. These technology enhancements, coupled with the expansion of 
the number of control rooms for committee broadcasts to twelve, will 
enable us to increase our simultaneous broadcast coverage of committee 
hearings from five to as many as twelve.
            Migration to the Capitol Visitor Center
    The most significant work we anticipate for the Senate Recording 
Studio, over the next year and a half, is its move from the basement of 
the Capitol to the Capitol Visitor Center. This move will enable the 
Recording Studio to complete its upgrade to a full High Definition 
facility, and to implement a number of improvements that have been 
planned to coincide with the opening of the Center. The Studio 
anticipates moving all aspects of its operation, including the 
engineering shops, the Senate Television operation, Studio production 
and post-production facilities, committee broadcast services, and all 
administrative and management offices to the CVC by September 1, 2008.
                               conclusion
    We take our responsibilities to the American people and to their 
elected representatives seriously. The Office of the Sergeant at Arms 
is like dozens of small businesses, each with its own primary mission, 
each with its own measures of success, and each with its own culture. 
It has a fleet of vehicles that serves Senate Leadership, delivers 
goods, and provides emergency transportation. Our Photography Studio 
records historic events, takes official Senate portraits, provides a 
whole range of photography services, and delivers thousands of pictures 
each year. The SAA's printing shop provides layout and design, graphics 
development, and production of everything from newsletters to floor 
charts. The Office of the Sergeant at Arms also operates a page 
dormitory, a hair salon, and parking lots. It provides many other 
services to support the Senate community, including framing, flag 
packaging and mailing, and intranet services. Each of these businesses 
requires personnel with different skills and different abilities. One 
thing that they all have in common, though, is their commitment to 
making the Senate run smoothly.
    Over the past year, the staff of the SAA has kept the Senate safe, 
secure, and operating efficiently. This Committee and the Committee on 
Rules and Administration have provided active, ongoing support to help 
us achieve our goals. We thank you for your support and for the 
opportunity to present this testimony and respond to any questions you 
may have.
              appendix a.--fiscal year 2008 budget request
    attachment i--financial plan for fiscal year 2008 office of the 
                 sergeant at arms--united states senate

                                                EXECUTIVE SUMMARY
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                           Fiscal year      fiscal year 2007
                                                              Fiscal year      2008    -------------------------
                                                              2007 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $60,051      $64,443       $4,392          7.3
    Expenses................................................      $67,219      $81,934      $14,715         21.9
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................     $127,270     $146,377      $19,107         15.0
                                                             ===================================================
Mandated Allowances & Allotments............................      $55,630      $58,072       $2,442          4.4
Capital Investment..........................................      $11,711      $17,165       $5,454         46.6
Nondiscretionary Items......................................       $4,640       $5,279         $639         13.8
                                                             ---------------------------------------------------
      TOTAL.................................................     $199,251     $226,893      $27,642         13.9
                                                             ===================================================
Staffing                                                              927          946           19          2.0
----------------------------------------------------------------------------------------------------------------

    To ensure that we provide the highest levels and quality of 
security, support services and equipment, we submit a fiscal year 2008 
budget request of $226,893,000, an increase of $27,642,000 or 13.9 
percent compared to fiscal year 2007. The salary budget request is 
$64,443,000, an increase of $4,392,000 or 7.3 percent, and the expense 
budget request is $162,450,000, an increase of $23,250,000 or 16.7 
percent. The staffing request is 946, an increase of 19.
    We present our budget in four categories: General Operations and 
Maintenance (Salaries and Expenses), Mandated Allowances and 
Allotments, Capital Investment, and Nondiscretionary Items.
    The general operations and maintenance salaries budget request is 
$64,443,000, an increase of $4,392,000 or 7.3 percent compared to 
fiscal year 2007. The salary budget increase is due to the addition of 
19 FTEs, a COLA, and merit funding. The additional staff will support 
increased demand for services, as well as advancing technologies.
    The general operations and maintenance expenses budget request for 
existing and new services is $81,934,000, an increase of $14,715,000 or 
21.9 percent compared to fiscal year 2007. Major factors contributing 
to the expense budget increase are additional services and locations 
under the IT support contract, $4,054,000; AssetCenter upgrade, 
$1,086,000; maintenance, equipment and supplies for the Alternate 
Computing Facility, $1,057,000; increased bandwidth for Senate internet 
access, $932,000; and maintenance costs related to Enterprise Storage, 
$710,000.
    The mandated allowances and allotments budget request is 
$58,072,000, an increase of $2,442,000 or 4.4 percent compared to 
fiscal year 2007. This variance is primarily due to increases in 
maintenance and procurement of Member and Committee mail systems, 
$1,500,000; and office equipment for Washington D.C. and state offices, 
$683,000.
    The capital investment budget request is $17,165,000, an increase 
of $5,454,000 or 46.6 percent compared to fiscal year 2007. The fiscal 
year 2008 budget request includes funds for hearing room audio/video 
upgrades, $5,000,000; data network engineering and upgrade costs, 
$3,800,000; upgrade of SAN, $2,700,000; modular furniture replacement 
project, $2,000,000; and other smaller projects.
    The nondiscretionary items budget request is $5,279,000, an 
increase of $639,000 or 13.8 percent compared to fiscal year 2007. The 
request funds three projects that support the Secretary of the Senate: 
contract maintenance for the Financial Management Information System, 
$3,958,000; maintenance and necessary enhancements to the Legislative 
Information System, $910,000; and maintenance and enhancements to the 
Senate Payroll System, $411,000.
      attachment ii--fiscal year 2008 budget request by department
    The following is a summary of the SAA fiscal year 2008 budget 
request on an organizational basis.

                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
Capitol Division...........................................      $26,350      $36,780      $10,430          39.6
Operations.................................................      $39,213      $44,372       $5,159          13.2
Technology Development.....................................      $38,679      $52,075      $13,396          34.6
IT Support Services........................................      $79,542      $77,570      ($1,972)         -2.5
Staff Offices..............................................      $15,467      $16,096         $629           4.1
                                                            ----------------------------------------------------
      TOTAL................................................     $199,251     $226,893      $27,642          13.9
----------------------------------------------------------------------------------------------------------------

    Each department's budget is presented and discussed in detail on 
the next pages.

                                                CAPITOL DIVISION
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................      $15,449      $16,457       $1,008           6.5
    Expenses...............................................       $7,101      $10,923       $3,822          53.8
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $22,550      $27,380       $4,830          21.4
                                                            ====================================================
Mandated Allowances & Allotments...........................       $3,800       $3,500        ($300)         -7.9
Capital Investment.........................................  ...........       $5,900       $5,900           N/A
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $26,350      $36,780      $10,430          39.6
                                                            ====================================================
Staffing...................................................          281          283            2           0.7
----------------------------------------------------------------------------------------------------------------
The Capitol Division consists of the Executive Office, the Office of Security and Emergency Preparedness, the
  U.S. Capitol Police Operations Liaison, Post Office, Recording Studio and Media Galleries.

    The general operations and maintenance salaries budget request is 
$16,457,000, an increase of $1,008,000 or 6.5 percent. The salary 
budget increase is due to the addition of two FTEs, a COLA and merit 
increases, and other adjustments. The Recording Studio will add a 
Broadcast Technician to coordinate robotic coverage of the new 
committee hearing control rooms, and a Broadcast Engineer is needed to 
maintain and troubleshoot audio systems in multiple hearing rooms.
    The general operations and maintenance expenses budget request is 
$10,923,000, an increase of $3,822,000 or 53.8 percent. This increase 
will primarily fund consulting and equipment purchases in the Office of 
Security and Emergency Preparedness.
    The mandated allowances and allotments budget request for state 
office security initiatives is $3,500,000.
    The capital investments budget request of $5,900,000 will fund 
hearing room audio/video upgrades, $5,000,000; Recording Studio server 
expansion, $700,000; and chamber lighting upgrade, $200,000.

                                                   OPERATIONS
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                           Fiscal year      fiscal year 2007
                                                              Fiscal year      2008    -------------------------
                                                              2007 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $16,799      $18,230       $1,431          8.5
    Expenses................................................       $5,852       $6,027         $175          3.0
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $22,651      $24,257       $1,606          7.1
                                                             ===================================================
Mandated Allowances & Allotments............................      $16,562      $16,665         $103          0.6
Capital Investment..........................................  ...........       $3,450       $3,450          N/A
Nondiscretionary Items......................................  ...........  ...........  ...........  ...........
                                                             ---------------------------------------------------
      TOTAL.................................................      $39,213      $44,372       $5,159         13.2
                                                             ===================================================
Staffing....................................................          300          306            6          2.0
----------------------------------------------------------------------------------------------------------------
The Operations Division consists of the Central Operations Group (Director/Management, Parking Office, Printing,
  Graphics and Direct Mail, Photo Studio, and Hair Care Services), Facilities, and the Office Support Services
  Group (Director, Customer Support, State Office Liaison, and Administrative Services).

    The general operations and maintenance salaries budget request is 
$18,230,000, an increase of $1,431,000 or 8.5 percent. The salary 
budget increase is due to the addition of six FTEs, an expected COLA, 
and merit increases. Printing, Graphics and Direct Mail plans to add 
five new FTEs, including two Lead Data Production Specialists, a 
Reprographics Supervisor, and two Service Workers. The Photo Studio 
requests one FTE, a Photo Imaging Specialist, to support increases in 
photo service requests.
    The general operations and maintenance expenses budget request is 
$6,027,000, an increase of $175,000 or 3.0 percent.
    The mandated allowances and allotments budget request is 
$16,665,000, an increase of $103,000 or 0.6 percent.
    The capital investment budget request is $3,450,000. This request 
includes funds for modular furniture replacement in SAA office space, 
$2,000,000; a networked color printer and layout and design server 
replacement, $650,000; replacement of the PhotoBrowser database system, 
$500,000; and three production scanners, $300,000.

                                             TECHNOLOGY DEVELOPMENT
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                           Fiscal year      fiscal year 2007
                                                              Fiscal year      2008    -------------------------
                                                              2007 budget    request                   Percent
                                                                                           Amount     Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries................................................      $11,930      $13,357       $1,427         12.0
    Expenses................................................      $21,438      $26,199       $4,761         22.2
                                                             ---------------------------------------------------
      Total General Operations & Maintenance................      $33,368      $39,556       $6,188         18.5
                                                             ===================================================
Mandated Allowances & Allotments............................  ...........  ...........  ...........  ...........
Capital Investment..........................................         $671       $7,240       $6,569        979.0
Nondiscretionary Items......................................       $4,640       $5,279         $639         13.8
                                                             ---------------------------------------------------
      TOTAL.................................................      $38,679      $52,075      $13,396         34.6
                                                             ===================================================
Staffing....................................................          130          140           10         7.7
----------------------------------------------------------------------------------------------------------------
The Technology Development Services includes the Technology Development Director, Network Engineering and
  Management, Enterprise IT Operations, Systems Development Services, Information Systems Security and Internet/
  Intranet Services.

    The general operations and maintenance salaries budget request is 
$13,357,000, an increase of $1,427,000 or 12.0 percent. The salary 
budget increase is due to the addition of ten FTEs, a COLA and merit 
funding for fiscal year 2008. Technology Development requires ten FTEs 
to support the growing demand on IT Security, to meet expanding hours 
and additional requirements for the ACF such as COOP RDR, and to 
eliminate of a backlog of development projects.
    The general operations and maintenance expense budget request is 
$26,199,000, an increase of $4,761,000 or 22.2 percent. This increase 
is due to costs to support increased bandwidth for the Senate Internet 
access, professional services for applications support to AssetCenter 
and TranSAAct, technical support, and maintenance and technical support 
of hardware and software.
    The capital investment budget request is $7,240,000, an increase of 
$6,569,000 or 979.0 percent. Major projects include the SAN Upgrade, 
$2,700,000; data network engineering costs, $2,300,000; data network 
upgrade, $1,500,000; and the centralized back-up system, $680,000.
    The nondiscretionary items budget request is $5,279,000, an 
increase of $639,000 or 13.8 percent. The request consists of three 
projects that support the Secretary of the Senate: contract maintenance 
for the Financial Management Information System, maintenance and 
necessary enhancements to the Legislative Information System, and 
maintenance and enhancements to the Senate Payroll System.

                                               IT SUPPORT SERVICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $6,492       $6,834         $342           5.3
    Expenses...............................................      $27,217      $32,254       $5,037          18.5
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $33,709      $39,088       $5,379          16.0
                                                            ====================================================
Mandated Allowances & Allotments...........................      $35,268      $37,907       $2,639           7.5
Capital Investment.........................................      $10,565         $575      ($9,990)        -94.6
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $79,542      $77,570      ($1,972)         -2.5
                                                            ====================================================
Staffing...................................................          113          113  ............  ...........
----------------------------------------------------------------------------------------------------------------
The IT Support Services Department consists of the Director, Office Equipment Services, Telecom Services and
  Desktop/LAN Support branches.

    The general operations and maintenance salaries budget request is 
$6,834,000, an increase of $342,000 or 5.3 percent. The salary budget 
will increase due to an expected COLA and merit funding for fiscal year 
2008.
    The general operations and maintenance expenses budget request is 
$32,254,000, an increase of $5,037,000 or 18.5 percent. This increase 
is primarily due to increased maintenance costs under the IT Support 
Contract, $4,054,000.
    The mandated allowances and allotments budget request is 
$37,907,000, an increase of $2,639,000 or 7.5 percent. This budget 
supports voice and data communications for Washington D.C. and state 
offices, $17,535,000; computer equipment, $10,915,000; maintenance and 
procurement of Member and Committee mail systems, $6,000,000; 
procurement and maintenance of office equipment for Washington D.C. and 
state offices, $3,940,000; and the Appropriations Analysis and 
Reporting System, $250,000.
    The capital investment budget request is $575,000, a decrease of 
$9,990,000 or 94.6 percent. The current budget request includes funds 
to help manage constituent e-mail traffic and support new CSS 
applications.

                                                  STAFF OFFICES
                                          [Dollar amounts in thousands]
----------------------------------------------------------------------------------------------------------------
                                                                                          Fiscal year 2008 vs.
                                                                          Fiscal year       fiscal year 2007
                                                             Fiscal year      2008    --------------------------
                                                             2007 budget    request                    Percent
                                                                                          Amount      Incr/Decr
----------------------------------------------------------------------------------------------------------------
General Operations & Maintenance:
    Salaries...............................................       $9,381       $9,565         $184           2.0
    Expenses...............................................       $5,611       $6,531         $920          16.4
                                                            ----------------------------------------------------
      Total General Operations & Maintenance...............      $14,992      $16,096       $1,104           7.4
                                                            ====================================================
Mandated Allowances & Allotments...........................  ...........  ...........  ............  ...........
Capital Investment.........................................         $475  ...........        ($475)       -100.0
Nondiscretionary Items.....................................  ...........  ...........  ............  ...........
                                                            ----------------------------------------------------
      TOTAL................................................      $15,467      $16,096         $629           4.1
                                                            ====================================================
Staffing...................................................          103          104            1           1.0
----------------------------------------------------------------------------------------------------------------
The Staff Offices Division consists of Education and Training, Financial Management, Human Resources, Employee
  Assistance Program, Process Management & Innovation, and Special Projects.

    The general operations and maintenance salaries budget request is 
$9,565,000, an increase of $184,000 or 2.0 percent. The salary budget 
increase is due to the addition of one FTE, a COLA, and merit funding. 
Process Management and Innovation requires one Principal IT Specialist 
in System Architecture and Integration to replace an on-site contractor 
providing support and maintenance.
    The general operations and maintenance expenses budget request is 
$6,531,000, an increase of $920,000 or 16.4 percent. This increase will 
fund enhancements of the Senate's Active Directory and Messaging 
Architecture and metro subsidy.
                                 ______
                                 
    Madam Chair and Members of the Committee, I am honored to appear 
before you today to discuss the U.S. Capitol Police fiscal year 2008 
Budget Request. With me today is Phil Morse, Chief of Police.
    Before I begin Madam Chair, I would like to thank the Committee for 
their ongoing support of the men and women of the U.S. Capitol Police. 
Your commitment to their continued and diligent efforts to develop 
better security operations, response forces and law enforcement 
capabilities has significantly contributed to the Capitol Police's 
ability to provide a safe and secure environment for Members of 
Congress, staff, and the general public.
    The Capitol Police Board appreciates this opportunity to appear 
before you. The security challenge confronting the U.S. Capitol Police 
today remains constant and complex. However, it is a challenge that the 
Department successfully manages each day of the year.
    Having been the Chief and now Sergeant at Arms and Capitol Police 
Board Chairman, I am acutely aware of the security challenges that 
confront the men and women of the U.S. Capitol Police. The challenges 
they face are in the magnitude of the mission they perform. The Capitol 
Police stand between those intent on doing harm and those they have 
sworn to protect. The ability of the Congress to perform its mission is 
directly related to the ability of the men and women of the Capitol 
Police to successfully perform their mission.
    The Capitol Police Board works closely with the Department in 
assessing security risks and determining approaches for mitigation. The 
Capitol continues to be foremost symbol of democracy, a prime terrorist 
target. We must always be one step ahead of the terrorist in order to 
be successful. This is a challenge because of cost, balancing freedoms 
and the professional challenge of constant vigilance. Security systems, 
and the infrastructure that supports them, are expensive. The Capitol 
Police have prepared a budget request that reflects the needs of the 
Department in meeting critical security requirements as they are 
currently understood. They have been judicious in the initiatives they 
have included in their request. They have the full support of the 
Capitol Police Board in their efforts, especially in determining the 
number of personnel needed, evaluating threats, maximizing the use of 
technology and working with other agencies.
    The Board will continue supporting the Department in its on-going 
work with the recommendations of the Government Accountability Office 
(GAO) and the new Inspector General.
    As the threat environment changes, or additional mission 
requirements are added the Department will in all probability need 
additional personnel with concomitant costs, space and technology. For 
instance the opening of the CVC is an additional responsibility. Longer 
hours of operation, more visitors or the opening of secured doors have 
the potential to be unfunded mandates.
    Chief Morse and his team are steadfast in their efforts to 
efficiently use their personnel. The men and women of the United States 
Capitol Police (USCP) work hard and often long hours in very difficult 
weather conditions. They have met or exceeded nearly every demand 
placed upon them. There is however a point where we overwork the cadre 
of USCP personnel, sworn and civilian.
    The Capitol Police have done an exemplary job of protecting the 
Congress, its legislative process, Members, employees and visitors from 
crime, disruption or terrorism. I want to offer my thanks to the men 
and women of the U.S. Capitol Police. They coordinate the people, 
organizations, and resources necessary to respond to the variety of 
threats we face today. It is an extremely difficult job to maintain a 
legislative complex that is completely open to the public, while at the 
same time ensuring the safety of the Congress, staff and visitors 
against increased dangers.
    The men and women of the Capitol Police have my greatest respect. I 
know from personal experience that each one considers it an honor to 
protect, serve, and welcome our citizens and people from around the 
world to our Nation's Capitol who come to participate in the 
legislative processes, to witness democracy in action, and partake in 
the history of this unique place. We have a leader in Chief Morse and 
he is assembling a powerful management team.
    Madam Chair, on behalf of the Capitol Police Board, I would like to 
thank you for this opportunity to appear before you today, and for your 
consideration of this budget request.
    I would now like to introduce Chief Morse who will present the 
Capitol Police's fiscal year 2008 Budget in more detail.
                      UNITED STATES CAPITOL POLICE

STATEMENT OF PHILLIP D. MORSE, CHIEF
ACCOMPANIED BY DAN NICHOLS, ASSISTANT CHIEF

    Senator Landrieu. Chief.
    Chief Morse. Good morning Madam Chair, members of the 
subcommittee----
    Senator Landrieu. Can you pull the microphone a little 
closer to you.
    Chief Morse. Good morning, Madam Chair, members of the 
subcommittee. Thank you for the opportunity to appear before 
you today to discuss the United States Capitol Police fiscal 
year 2008 budget request.
    I am honored to have been chosen as the Chief of Police and 
I look forward to continuing the transformation of the Capitol 
Police to a premiere, well managed security law enforcement 
operation that the Congress both deserves and expects.
    After over 21 years in the Department, I have seen 
firsthand how we have changed and grown particularly since 9/11 
and the anthrax incidents. Through all the changes, the United 
States Capitol Police steadfastly maintains our core duty of 
protecting the Congress, its legislative processes, as well as 
staff and visitors, from harm. It is our duty and honor to 
protect and secure Congress so it can fill its constitutional 
responsibilities in a safe and open environment.
    Congressional operations are highly visible targets for 
individuals and organizations intent on causing harm to the 
United States and disrupting the legislative process of our 
Government. It is the men and women of the Capitol Police who 
stand between those intent on causing harm and those who we 
protect.
    Teamwork and leadership are essential qualities of a well-
managed security law enforcement operation and I recognize the 
hard work of all the sworn and civilian staff of the United 
States Capitol Police who exhibit their leadership and 
dedication to teamwork in meeting our mission. It is these 
dedicated individuals, with the support of the Capitol Police 
Board and the Congress, who ensure the safety of members, 
staff, and the millions of visitors each and every hour of the 
day, each and every day of the year--without exception.
    It is the duty of the men and women of the Capitol Police 
to do what is in our power to prevent acts against this body 
and if such acts should occur, to respond appropriately to 
ensure the safety and well being of our stakeholders.
    Madam Chair, I submit the remainder of my testimony for the 
record and I am happy to answer any questions that you may 
have.
    [The statement follows:]
              Prepared Statement of Phillip D. Morse, Sr.
    Madam Chair and Members of the Committee, thank you for the 
opportunity to appear before you today to discuss the United States 
Capitol Police's fiscal year 2008 budget request. I am honored to have 
been chosen as the Chief of Police and look forward to continuing the 
transformation of the Capitol Police into the premiere, well-managed 
security and law enforcement operation the Congress both deserves and 
expects. After over 21 years in the Department, I have seen, firsthand, 
how we have changed and grown, particularly since the 9/11 and Anthrax 
incidents. Through all of the changes, the United States Capitol Police 
steadfastly maintains our core duty of protecting the Congress, its 
legislative process, as well as staff and visitors from harm. It is our 
duty and honor to protect and secure Congress, so it can fulfill its 
Constitutional responsibilities in a safe and open environment. 
Congressional operations are a highly visible target for individuals 
and organizations intent on causing harm to the United States and 
disrupting the legislative processes of our government, and it is the 
men and women of the Capitol Police who stand between those intent on 
causing harm and those we protect.
    Teamwork and leadership are essential qualities of a well-managed 
security and law enforcement operation, and I recognize the hard work 
of all of the sworn and civilian staff of the United States Capitol 
Police who exhibit their leadership and dedication to teamwork in 
meeting our mission. It is these dedicated individuals, with the 
support of the Capitol Police Board and the Congress, who ensure the 
safety of the Members, staff and millions of visitors each and every 
hour of the day, each and every day of the year, without exception. It 
is the duty of the men and women of the Capitol Police to do all in our 
power to prevent acts against this body, and if such acts should occur, 
to respond appropriately to ensure the safety and well-being of our 
stakeholders.
    The employees of the United States Capitol Police are dedicated to 
their work, and thus; we as a team have had significant accomplishments 
in the past year, including:
  --Responding to the Rayburn Active Shooter Incident, the 9/18 armed 
        intruder incident, and the Russell and Dirksen Hazmat 
        incidents;
  --Greeting and screening nearly 7 million staff and visitors, 
        coordinating over 2,600 VIP notifications from visiting 
        dignitaries, screening nearly 76,000 vehicles and 78,000 
        individuals at the Capitol Visitor Center as work proceeded 
        uninterrupted; and responding to and investigating nearly 300 
        suspicious package incidents, investigating over 3,000 threat 
        and direction-of-interest cases against Members of Congress and 
        other congressional officials;
  --Providing incident-free protection to congressional Leadership and 
        visiting officials, which included five visits by the 
        President, 33 visits by the Vice President, and 69 visits from 
        heads of state;
  --Planning, preparing, coordinating and executing police services for 
        multiple National Special Security Events, as well as 
        emergencies affecting the U.S. Capitol complex. These included 
        the lying in state of former President Gerald Ford, the 
        President's State of the Union address, the lying in honor of 
        civil rights activist Rosa Parks, Supreme Court confirmation 
        hearings for Chief Justice John Roberts and Associate Justice 
        Samuel Alito; as well as the Million More Movement, the Peace 
        Officers' Memorial Day Service; the National Memorial Day, 
        Labor Day and 4th of July Concerts;
  --Developing a real-time backup information technology and 
        communications capability, which will provide critical command 
        and control functionality within minutes of a failure at United 
        States Capitol Police Headquarters;
  --Developing and implementing a comprehensive Internal Controls 
        Program within the Department and conducting initial internal 
        controls assessments and enhanced processes to better control 
        and manage the Department; and
  --Implementing a new financial management system to provide better 
        accountability and control over financial operations of the 
        Department as well as implementing the first phase of an asset 
        management system, which will allow better tracking of assets 
        and inventory.
    In this ever-changing threat environment, the U.S. Capitol Police 
accomplishes its mission through varied and complementary functions to 
provide round-the-clock protection to Congress. In an effort to 
maintain the flexibility of Department operations and maintain 
operational readiness, the United States Capitol Police, with the 
support of Congress, has made significant investments in human capital 
and Department infrastructure. We have concentrated our efforts on 
augmenting our intelligence capabilities and coordination among the 
intelligence community; hardening our physical security and counter-
surveillance capabilities; automating antiquated security and 
administrative support systems; enhancing our detection and response 
capabilities for explosive devices, as well as chemical and biological 
agents; and augmenting our incident command and emergency response and 
notification systems. The initial investments in these important areas 
were significant, and these capabilities require substantial resources 
for maintenance in order to ensure that our systems are operational at 
all times. The majority of these infrastructure investments were funded 
with emergency, supplemental funds or reprogrammed prior year funding 
and now require annual, on-going operational maintenance and life cycle 
replacement.
    The United States Capitol Police budget for fiscal year 2008 is 
$299.1 million, which includes personnel costs of $237.1 million and 
non-personnel costs of $62 million. Compared to the fiscal year 2007 CR 
level of $255.6 million, there is an overall increase of $43.5 million 
(17.0 percent).
    Over the past several years, Congress has generously allowed us to 
significantly augment daily operating costs through the reprogramming 
of existing unobligated balances. As a result, our annual appropriation 
for general expenses does not reflect the actual annual operating 
requirements that the Congress has authorized to be spent in a given 
year. It is important to recognize that while Congress has been 
generous in its support of the USCP through creative mechanisms to 
provide critical resources, these one-time financing sources are nearly 
depleted. Our fiscal year 2008 request provides permanent annual 
funding for critical requirements of the Department and reflects our 
anticipated annual requirements to operate the Department in fiscal 
year 2008.
    The Congress has made the commitment through resources and policy 
support to create a formidable Police Department with diverse 
capabilities designed to deter or respond to any threat to the Capitol 
Complex. Over the last five years, the Department has grown in human 
capital, security infrastructure, command and control, and security and 
law enforcement capabilities. The intent of this budget request is to 
address targeted civilian manpower needs and the annual sustainment of 
the Department's capabilities, which have been sourced through a 
variety of means. From a manpower perspective, the Department is 
continually reviewing its operational concept to determine the most 
effective manner in which to conduct operations. The intent of this 
effort is to be as effective and efficient as possible. In an effort to 
maintain and further develop a culture committed to excellence, the 
Department has engaged an outside entity to evaluate our operations as 
they relate to operational staffing and human capital management. This 
year-long study will assess every aspect of USCP operational sworn and 
civilian manpower management and will provide feedback and 
recommendations for operational alternatives for maximizing manpower 
while enhancing congressional security. Final results of the assessment 
are expected in October 2007.
    New initiatives in our fiscal year 2008 budget request include 
additional personnel resources for both sworn and civilian; security 
for the fiscal year 2008 Republican and Democratic Conventions; funding 
for the biennial promotions process; costs of the transfer of functions 
from other agencies; essential maintenance and life cycle replacement 
of security and information technology infrastructures as well as 
maintenance related to our aging radio system. The following represents 
a more detailed look at the United States Capitol Police fiscal year 
2008 request.
    Personnel.--The personnel portion of the request, $237.1 million, 
supports the current authorized FTE level of 1,671 sworn and 414 
civilians as well as mandatory cost increases for COLAs, promotions, 
within-grade increases, annualization of fiscal year 2007 positions, 
health benefit and retirement costs and an additional 10 FTEs for 
Library of Congress (LOC) attrition, and 30 civilian FTEs. The new LOC 
officers would bring the fiscal year 2008 sworn FTE level to 1,681, 
while the civilian FTE level would increase to 444 for a total 
Department FTE level of 2,125.
    Included in the personnel budget is a request for overtime. 
Staffing levels are driven by security needs and are augmented with 
overtime to meet critical security requirements. The requested overtime 
of approximately $23 million is made up of approximately 460,000 hours. 
There are three main contributors to fiscal year 2008 estimated 
overtime increases over fiscal year 2006/fiscal year 2007.
  --Increased pace/workload of the Congress;
  --Support for the Democratic and Republican National Conventions; and
  --Additional workload to maintain security equipment.
    Non-Personnel.--The fiscal year 2008 request for non-personnel 
items is $62 million to support Capitol Police responsibilities for law 
enforcement, Capitol complex physical security, dignitary protection, 
intelligence analysis, crowd control, information technology, hazardous 
material/devices and other specialized response as well as logistical 
and administrative support.
    There are several factors affecting the rate of increase in the 
fiscal year 2008 Budget Request. First, in fiscal year 2006, the United 
States Capitol Police received authority for reprogramming of 
approximately $4.6 million into the General Expenses appropriation to 
fund fiscal year 2007 operating expenses. This made the total available 
amount for fiscal year 2007 General Expenses approximately $43.1 
million, which was the approximate spending for fiscal year 2006 
operations. In fiscal year 2008, the USCP seeks permanent funding for 
these forward funded items as well as additional resources to support 
the Democratic and Republican conventions, the biennial promotions 
process, the maintenance of security and other systems previously 
purchased with annual and no-year funds and to make critical 
maintenance investments in IT infrastructure. The major increases for 
the non-personnel request for the United States Capitol Police 
includes:
  --$8,163,600 is for Information Systems.--Information systems 
        increases are related to contractor support for the radio 
        system previously transferred from the Senate as well as costs 
        for command center maintenance, communications support 
        activities, licensing and support of new systems, life cycle 
        replacement and repair of computer equipment and peripherals.
  --$4,193,620 is for Security Services.--Security services' increases 
        relate to the maintenance contract and other items that were 
        forward funded, and life cycle replacement items.
  --$4,641,500 is for Protective Services.--Protective services' 
        increases are primarily related to convention support for the 
        Democratic National Convention (DNC) and Republican National 
        Convention (RNC). The DNC and RNC are scheduled for August 2008 
        and September 2008 respectively.
  --$2,218,500 is for Human Resources.--The human resources increases 
        include an increase for the National Finance Center computer 
        programming for workers' compensation and time and attendance 
        upgrades, the sworn promotion process contract (occurs every 
        two years), funding for the tuition reimbursement program, as 
        well as the addition of a system module for sworn manpower 
        scheduling that is expected to improve the efficiency of 
        scheduling the 1,671 sworn manpower assets that are currently 
        managed through a manual process.
  --$1,358,500 is for Logistics.--Increases for logistical operations 
        consist of uniform refreshment, outfitting the Practical 
        Applications Center at Cheltenham, MD, and vehicle repairs, 
        service and maintenance.
  --$1,385,500 is for Planning and Homeland Security.--Increases to 
        Planning and Homeland Security consist of the security control 
        operator's contract, which was forward funded.
  --$585,400 is for Financial Management.--Increases to financial 
        management are attributed to increased costs for the financial 
        management system, continuation of the help desk, and 
        contractor support for accounts payable.
  --$177,680 is for Training Services.--Increases to training services 
        include costs related to role players for training exercises at 
        the Practical Applications Center in Cheltenham, MD and 
        training for instructors requiring certification.
  --$771,700 represents increases to other areas of the department that 
        primarily support newly requested personnel, increases 
        requested by the Office of Inspector General, as well as minor 
        increases to training, contractor services, and supplies.
    The U.S. Capitol is still faced with numerous threats, including a 
vehicle-borne explosive attack, terrorist-controlled aircraft attack, 
armed attacks on the Capitol Complex, suicide bombers or positioned 
explosive attacks, chemical, biological and/or radiological attacks, 
and attacks on Members and staff as well as ordinary crime. To 
accomplish this mission, the Department will continue to work 
diligently to enhance its intelligence capabilities and provide a 
professional 21st Century workforce capable of performing a myriad of 
security and law enforcement duties, supported by state-of-the-art 
technology to prevent and detect potential threats and effectively 
respond to and control incidents. With the help of Congress and the 
Capitol Police Board, the Department will continue developing 
professional administrative capabilities based on sound business and 
best practices, while raising the caliber and capability of its sworn 
and civilian personnel.
    The United States Capitol Police must maintain the ability to be 
prepared for any situation. The attainment of that goal depends, in 
part, on having the right strength and the numbers of well-trained and 
prepared people, organized into an effective and flexible blend of 
capabilities and skills. The Department continues to prepare and train 
officers by holding Department-wide intelligence briefings when 
significant or critical information is gathered; disseminating 
intelligence and tactical information in daily roll-calls, and 
conducting field and table-top exercises in efforts to equip officers 
with the necessary tools to do their jobs. Additionally, the 
Department's officials routinely participate in a wide-range of table-
top exercises with top experts from Federal, state and local law 
enforcement.
    As Chief of the Capitol Police, I take great pride in the 
accomplishments of the men and women of the Department. We at the 
United States Capitol Police look forward to working collaboratively 
with the Congress to continue to safeguard the Congress, staff, and 
visitors to the Capitol Complex during these challenging times.
    I thank you for the opportunity to appear here today and am ready 
to address any questions you may have today.

            <greek-l>SAA deg.SECURITY ON THE CAPITOL CAMPUS

    Senator Landrieu. Thank you very much. I do have some 
questions and I would like to begin. We'll do probably 5-minute 
rounds and just see how the time goes.
    Mr. Gainer, I have spoken with you about this issue several 
times and I want to address this issue in my first question. 
Too many Members have expressed to me a concern about turning 
the Capitol into an armed encampment and while we want to be 
very careful and understand the need to step up security, we 
understand the breaches that have occurred and why it is 
important to make it secure.
    We also want to balance the need for security with the 
openness that we need to do our work effectively and 
efficiently throughout the day as well as keep the spirit of 
the Capitol, which is very important, a spirit of openness, 
trust, and friendliness actually. So it is a very difficult 
balance. When people go into maybe a courthouse or they go into 
another Federal building, I don't think they expect openness 
and friendliness. But they do expect openness when they come 
here to the Capitol, that they own. This is their Capitol, it's 
a symbol of their democracy. There is a lot about this building 
that's very different than any other Federal building that we 
protect and secure. So achieving that balance here is very 
important to me. Can you explain how you're trying to reach 
that balance, if that is an objective of yours? Do you share 
that or do you have questions or disagreements about that?
    Mr. Gainer. I certainly don't have any disagreements. Both 
Chief Morse and I are united in our belief as is the Police 
Board, about the necessity to keep the Capitol open and very 
viable. Over the 4 years I had the chance to lead the Capitol 
Police, I think the men and women went out of their way to be 
both welcoming and helpful even as they stood ready to ward off 
someone who might attack.
    In both of our opening statements, we concentrate on the 
antiterrorism approach, but there will be some 12 to 15 million 
visitors to Capitol Hill, as well as the 30,000 employees for 
which everything is really pretty seamless as they come 
through.
    I think with the proper mix of technology and making that 
technology nearly invisible to everybody; with having men and 
women of the Capitol Police understand their roles; and with 
the Senate Sergeant at Arms staff, whether it is the doorkeeper 
or the appointment desk or the people cleaning the floors, 
greet visitors and make them feel comfortable, we can achieve 
that balance of security and openness. But we are not going to 
be able to take away, for instance, the heavily armed offices 
on the Senate side of the east front.
    The opening of the CVC, which as I said is actually more 
work because there are more doors to be manned, will increase 
the flow of people and make it seamless as we go in. But we do 
need to be vigilant.

        <greek-l>SAA deg.U.S. SECRET SERVICE SECURITY ASSESSMENT

    Senator Landrieu. Okay. The U.S. Secret Service recently 
completed a security assessment of the Capitol complex and made 
recommendations regarding the security of the complex. Can you 
describe the scope of this assessment? Did it include the 
entire complex or the Capitol Building only? How are you 
collaborating with the Capitol Police to address the 
recommendations made? What is the timeframe for addressing 
these recommendations? I'm assuming that some of this review 
was classified, but what is not classified, if you could share 
with us, I'd be appreciative.
    Mr. Gainer. From a macro view, let me say that the survey 
that was requested by the Police Board, at the direction of the 
committees, really covered the Capitol Square complex more than 
it did the office buildings. If we just put that one aside for 
a moment, there have been ongoing and other studies of the 
other buildings and we haven't cast those aside. As to this 
particular Secret Service study, which is a classified 
document, the Police Board has directed the Department and each 
member of the Police Board, the House Sergeant at Arms, myself, 
the Architect of the Capitol and Chief Morse, to put together a 
working group to review that security survey and categorize its 
findings into action items that can be done today, mid-term, 
and then longer term.
    Looking at it from a people point of view, a technology 
point of view, and a cost point of view, at the direction of 
Chief Morse, as that study was conducted some issues were 
identified that could be fixed immediately and some have been 
implemented. There were about 200 recommendations and we're 
working collaboratively with the Architect of the Capitol and 
the members of the Police Board to implement them.
    I brought on board retired Chief Ramsey from the 
Metropolitan Police Department, a 37-year veteran of law 
enforcement--he's the chairman of the International Association 
of Chiefs of Police, Homeland Security and he has studied and 
consulted in Northern Ireland, England, and Israel. So I think 
with Chief Ramsey and along with the members from Phil's team 
and the other members of the Board, we're in good stead to 
analyze the recommendation and implement as we can.
    Senator Landrieu. Okay. I'm going to review some of those 
recommendations and, of course, the Senators have clearance to 
do so. But we want to be sensitive that the Secret Service's 
primary mission is to guard the life of the President and to 
keep the White House safe. The White House is not the People's 
House, it's the President's house. But the Capitol is the 
People's House and the Secret Service has to understand while 
we're very happy to have their recommendations, and we will 
absolutely take them seriously, it is not the same thing 
guarding the White House as guarding the Capitol.
    Mr. Gainer. Yes ma'am.

           <greek-l>SAA deg.RISK AND VULNERABILITY ASSESSMENT

    Senator Landrieu. I understand you have efforts underway to 
assess the risk and vulnerabilities, including the Senate's 
State Office Preparedness Program. To what extent are the 
results of these assessments shared with the Capitol Police who 
might also benefit from the results of these assessments?
    Mr. Gainer. The work that portion of the office does is 
very much done in coordination and cooperation with the Police 
Department. Several of Chief Morse's people are actually 
involved and do some of the onsite work. So it is 
collaborative. When we are looking at the physical security, we 
also discuss continuity of their own operations and continuity 
of the Government from their perspective. We do work closely 
together with the police. We try to make it as seamless as 
possible. We consult with some of the experts on Chief Morse's 
team because of their expertise on physical security. So we are 
linked and will continue to be so.

       <greek-l>SAA deg.TELECOMMUNICATIONS MODERNIZATION PROGRAM

    Senator Landrieu. This subcommittee has provided over $20 
million in funding for telecommunications modernization. While 
I agree these upgrades were needed, I'm curious to know what 
the program entails and where we are with this particular 
program. It's a considerable amount of money. Why is it 
necessary? Where are we? What are our goals and objectives?
    Mr. Gainer. The telephone modernization program was one of 
the things I asked about during my first couple of days as 
Sergeant at Arms. I had just come from a corporation, L3 
Communications, where we had voice over Internet protocol and I 
saw the magic of that system, which is used in most major 
corporations across the United States to link computer work, 
telephone calls and scheduling and meetings.
    I understand we're about 10 percent into the design phase 
of that program and over the next 12 months the design will be 
completed. The contract was left to the vendor to do that. The 
upgrade program will affect our telephone switch, the blue 
button phones that the Members use, and the audio-
teleconferencing group alert, and voicemail systems. It really 
will bring the Senate community into the overused phrase--``the 
21st century.''
    I know that our CIO is concerned about introducing it, and 
making sure that the training for the community is available. 
Again, with my limited experience in the corporate world, I 
think people will be bedazzled and wonder why we didn't do it 
sooner.

      <greek-l>SAA deg.IMPACT OF THE CAPITOL VISITOR CENTER DELAY

    Senator Landrieu. Thank you. The subcommittee has spent a 
lot of time over the years performing oversight on the Capitol 
Visitor Center construction project. It now appears that the 
opening date has been delayed again to the spring or early 
summer. Will this further delay in opening have any impact on 
the operations of your office?
    Mr. Gainer. Indirectly, it may be a bit more costly because 
the movement of our studios into the CVC has been contracted 
out and I understand we have to re-evaluate our moving plans 
because of the delays. We are adjusting for that. The delays 
are actually having a domino effect on the movement of some of 
our offices to the CVC. We're trying to be efficient in Postal 
Square, and some of the offices ultimately will be moved from 
there and to the CVC. It is something we are on top of. It is 
not inexpensive. The delay might cost an additional $1.5 
million or $2 million to adapt our plans to the new time line. 
But we're aware of the delay and we're working on it.
    Senator Landrieu. Okay and Chief, I will ask you one 
question and then shift to Senator Allard and then we will go 
to a second round if we need to.

       <greek-l>CPB deg.GOVERNMENT ACCOUNTABILITY OFFICE REPORT 
                            RECOMMENDATIONS

    In response to the GAO report on your efforts to improve 
management, and I know this is a focus of yours, please update 
us in a little bit more detail than you did in your opening 
statement about the status of your efforts to implement some of 
GAO's specific recommendations and what your specific timeframe 
is for addressing all of the outstanding recommendations that 
this report has indicated?
    Chief Morse. Thank you, Madam Chair. First, I also have the 
same concerns as you do in the information that was contained 
in the GAO report. What we are doing is very aggressively 
working to extract the things we need to work on and prioritize 
them. What has helped us do that is the inspector general as 
well as the CAO's office are working very hard to remedy that 
situation.
    We have put in place an internal controls process, which is 
helping us manage and meet the performance measures that we 
need to accomplish that goal. We are assessing each process 
that we do in bringing forward best business practices, 
repeatable, and validated processes, so that we don't continue 
to go down this path.
    The timetable that we plan to sort of connect the dots and 
bring all this together is really dependent on how well we 
complete the things we're doing in the Office of Financial 
Management.
    Asset inventory--we have a human capital plan. We have a 
manpower study so we are incorporating all of those things into 
an action plan that Mr. Stamilio, our CAO, has put together.
    Connecting the dots--and we hope to be able to do this, a 
great deal of the most important issues by the end of this 
fiscal year. So as we meet today, we are meeting with GAO 
across the street. We have established a relationship with 
them. We have put our people together in a very cooperative 
effort to resolve the issues and they have been extremely 
helpful.
    The final thing is, there is accountability and I have put 
in place, along with the Assistant Chief and our CAO, 
accountability at all levels. And accountability also includes 
perhaps even personnel changes. So we are very aggressively 
working on this. We understand the concerns and we understand 
the importance of getting our management in order.
    Senator Landrieu. Thank you. Senator Allard.

              <greek-l>CPB deg.DEPARTMENTAL ACCOUNTABILITY

    Senator Allard. Madam Chair, I'm going to follow up with 
Chief Morse since we are on that subject. I really think for 
management by objectives to work, every police officer has to 
buy into that and I think every division inspector that you 
have, has to buy into it and has to work with each sponsor. I 
think both the Chair and I would like to see us be able to do a 
lot for the Police Department but in order to get our 
colleagues to understand, we have got to have this 
accountability and assurance that things are managed well. It 
is easier then for them to approve some sizeable increases.
    I'm not denying we don't have some problems there and I 
think you've got a horrendous job ahead of you because other 
people before you have not been that successful in pulling 
things together. So I think you really have to get everybody to 
buy into it.

        <greek-l>SAA deg.SENATE SERGEANT AT ARMS STAFFING LEVEL

    I'd like to ask a few questions to you, Mr. Gainer. You've 
identified in your own remarks the increase in employees that 
you've requested of 19 and the Chairwoman has mentioned it. It 
is a sizeable increase. I understand that there are issues that 
are driving this--security issues, the CVC, technology.
    When do you see this annual staff increase plateauing and 
when can we begin to say okay, we're where we should be. We've 
taken care of our security needs and everything. Do you have 
any idea when we might reach this plateau?
    Mr. Gainer. Senator, I think we're close but strangely 
enough, at least for an old sociologist street guy like myself, 
technology seems to keep driving the need for more people. I 
think there is a thought sometimes that when you introduce 
technology, you can remove the person, but when we keep 
increasing the technology, we are adding complexity and there 
will be a need for more people to maintain and support that 
technology.
    When I went over this budget upon arrival here, I sat down 
with my staff and asked a very similar question and no one said 
that this was it and I can't tell you that it is. I think as we 
get the recording studio up and running or printing and 
graphics and our network engineers implement the voice over IP 
protocol, it will be close.
    Technology will require additional people. Having said 
that, I also ask if we improve technology and do away with the 
human element--does that mean we can attrite those people out 
or lose those positions? And what we are trying to do where 
increased technology requires more staff, is to train existing 
staff and bring them up to speed. So I don't see an end in 
sight. I hope it will moderate in the future.
    Senator Allard. Well, thank you and I recognize the 
challenges you face as far as technology. At some point here, 
SAA should begin to level off.
    Mr. Gainer. I think that is a good point. I think we will 
be getting close to leveling off.

            <greek-l>SAA deg.SECURITY IN THE CAPITOL COMPLEX

    Senator Allard. Very good. I would also follow up on Madam 
Chairwoman's comments on security, the degree of security we 
have around here. I think most Members of Congress are fairly 
comfortable with a lot of the security that you have to have.
    The one thing that really raises their ire on my side of 
the aisle and I think on her side of the aisle too, is if 
anybody mentions a fence around the Capitol. That has been 
mentioned before and I've had to deal with it in my conferences 
and I'm sure it has been brought up in her conference too and 
that just brings everyone up off their chair. I know there is a 
fence around the White House, but it's not something that would 
be acceptable here so we have to look at other ways in order to 
secure the Capitol.

     <greek-l>SAA deg.SERGEANT AT ARMS COMPREHENSIVE STRATEGIC PLAN

    Last year, your predecessor, Bill Pickle, testified that 
the Sergeant at Arms was working on developing a comprehensive 
strategic plan. Can you describe how your office uses 
performance measures to ensure it is meeting the needs of its 
clients in a cost-effective and service orientated manner?
    Mr. Gainer. Yes sir, I can. In fact, we left at your desk 
place, our strategic plan that was developed under Bill 
Pickle's guidance and by many of the people sitting behind me. 
And I will note, if I may, on page 11 you'll see an example of 
how we've taken performance and accountability very seriously 
and then tied in an example of our performance metrics.
    So we have the main strategic points, which are then broken 
down into the different divisions, and down to section levels 
where those performance levels and metrics of success are 
indicated. For instance, in the human resources section, 100 
percent of employee performance evaluations will be completed 
on time. In technology, the help desk and computer customer 
satisfaction will be a minimum of 95 percent, or accurately 
sorting and delivering mail from the Postal Service on the day 
it clears testing will be 100 percent.
    This is but an example of how we are implementing our 
straightforward strategic plan to turn our vision and mission 
into concrete performance goals with realistic measurement 
standards and tools. We do take this seriously.

    <greek-l>SAA deg.ROLE OF FORMER METROPOLITAN POLICE CHIEF RAMSEY

    Senator Allard. Well, thank you. I think that is a step in 
the right direction and I urge you to continue those efforts. 
Also, I understand that you've hired former D.C. Chief Ramsey. 
Would you share with me what he will be doing, again without 
compromising security, give us an overview of what he will be 
doing.
    Mr. Gainer. Yes, Senator and Madam Chair. One of the major 
duties he is performing is a review of the Secret Service study 
that we mentioned earlier. Chief Ramsey, in his capacity of 
working for me and, I, in my capacity as the Board Chair, are 
the coordinators of the Board's effort to take that plan and 
see what is viable, what would work here, what needs to be 
implemented, has already been implemented, or can be 
implemented in 30 days, 90 days, or 120 days and how it may 
affect the budget.
    His major contribution will be to concentrate on that 
security plan, but also he's already engaged with the Capitol 
Police and others to review a number of the other studies that 
have been undertaken.

          <greek-l>SAA deg.PRIORITIES OF THE INSPECTOR GENERAL

    Senator Allard. Thank you. Do you have the inspector 
general with you today?
    Mr. Gainer. We do have him, Carl Hoecker.
    Senator Allard. I would like to ask him a question, if I 
may.
    Mr. Hoecker, you've been on board now since July. The 
inspector generals are the eyes and ears of the Members of 
Congress.
    Mr. Hoecker. Yes, sir.
    Senator Allard. So the reason we put inspector generals in 
the various agencies is so that we know what is going on as far 
as management issues, and fraud, waste and abuse. I'd like to 
hear from you as to your priorities and what you see as the 
biggest challenges facing the United States Capitol Police?
    Mr. Hoecker. If I can, I would just kind of read from the 
notes here that kind of, in case this happened then I think it 
will answer your question, sir.
    As you've said, I've been on since July. In these 9 months, 
the OIG has done the following major items. We hired staff, 
established administrative systems and processes to manage the 
OIG, developed a strategic plan that is linked to the 
Department's strategic objectives, we have an annual work plan, 
which is on track and that annual work plan is where we focus 
on our priorities, sir.
    In October we developed the first semiannual report to 
Congress and we've identified management challenges for the 
Chief, which the Chief has factored into his priorities for the 
Department.
    We have issued three full reports and we have four ongoing 
projects right now. The management challenges, the first of the 
top three, financial management, human capital, and security. 
I've had discussions with the Chief on a weekly basis in terms 
of how best I can positively help the organization more up 
front than consultative type arrangements working on business 
processes improvements as I'm walking through the organization 
in that type of an arena, sir.

            <greek-l>SAA deg.SEMIANNUAL CONGRESSIONAL REPORT

    Senator Allard. It is my understanding there was not as 
much substance as we would like in your semiannual report. I 
would urge you to give us more detail of what you are finding 
and what your recommendations are. That is real important, 
particularly as we are focusing more on financial 
accountability within the Capitol Police.
    Mr. Hoecker. Yes, sir.

           <greek-l>CPB deg.CHIEF MORSE'S DEPARTMENTAL VISION

    Senator Allard. Chief Morse, again I want to congratulate 
you on your position. Can you describe your vision and plans 
for the agency and tell us whether you intend to make any 
significant changes to how the agency operates?
    Chief Morse. Thank you, Senator. My vision for the Police 
Department is to build on the very strong foundation that we 
have in place from my predecessors. We're working toward being 
a premiere law enforcement agency and in order for us to do 
that, initially, we're trying to--or my vision is and you 
talked about inclusiveness earlier and we have put this vision 
out from the top down and that is to instill the core values of 
the Police Department--to be unflinching, sincere, courteous, 
and principled.
    With that, we marry that up with the best business 
practices and repeatable processes, internal controls and we're 
linking that with our strategic plan and our business plans to 
ensure that we're doing the things necessary to take care of 
our people and to make the best security for the complex 
itself.
    We're going to be concentrating our efforts this year on 
connecting those dots and working with the inspector general 
and our CAO. We hope to meet those major challenges that we've 
identified in the GAO report as well as the ones that we're 
identifying.
    What is most important is the inclusiveness of everyone in 
the organization. One of the things I did initially was to 
establish an executive management team, a senior management 
team and first line supervisors' and officers' management team. 
Everything that we are doing, everything that we are 
evaluating, each one of the studies that we are conducting is 
inclusive of everyone from the top down. I believe that meets 
your challenge that everyone be on the same page.
    With that, we're also improving our relationships not only 
with the community and stakeholders, but also with Members of 
Congress. I meet routinely and I've met with you and have had 
very good discussions. I meet with Mr. Gainer and Mr. Livingood 
routinely and we also have an effort to reach out to our 
community with our Community Outreach Program.
    So we're being very inclusive of everyone and we're being 
professional in that we're establishing business processes for 
everything that we do, we're measuring our success, we're 
holding people accountable and we're ensuring that our 
stakeholders are well informed of what we're doing all the way.

                <greek-l>CPB deg.NEW CIVILIAN POSITIONS

    Senator Allard. The additional 30 civilian staff you have 
requested include four for the Office of Financial Management. 
Is this enough to stabilize this office and address completely 
the GAO recommendations and complete a full financial audit?
    Chief Morse. There was a study that was conducted on 
manpower within the Office of Financial Management and 
realizing some of the fiscal restraints we were being measured 
in our requests for four. I believe the actual number was eight 
that the process brought about, but we're working with four. 
But the way I feel about it is we need to get in there and make 
these corrections that need to be made in order to get a better 
assessment of where we are, so we want it to be very measured 
in asking for people for that area.
    Senator Allard. So four is going to get you started, but at 
some point in time you may have to have an additional four. Is 
what you're stating?
    Chief Morse. Well, there certainly could be a possibility 
that we could ask for more people. I would hope that we would 
be able to instill the internal controls that we need, make the 
changes and put the accountability there so that we get the 
most effective and efficient use of the people that we have.

 <greek-l>CPB deg.CIVILIAN POSITIONS IN OFFICE OF FINANCIAL MANAGEMENT

    Senator Allard. How many people do we have in that office 
now?
    Chief Morse. The specific number--27.
    Senator Allard. In the Office of Financial Management you 
have 27?
    Chief Morse. Yes, sir.
    Senator Allard. So these four that come in--what will they 
be doing?
    Chief Morse. Let me just take a quick look and I can give 
you the breakdown. The request is for two in accounting and two 
in budget.
    Senator Allard. Is that going to be enough in that area for 
you to meet the GAO recommendations?
    Chief Morse. For the budget and accounting portion, yes. 
The additional four are in other areas of financial management 
but we saw these as the priorities to help us with the 
challenges that we currently have.

         <greek-l>CPB deg.MANAGING VISITORS TO THE U.S. CAPITOL

    Senator Landrieu. Let me follow up with just a couple of 
thoughts here. Getting back to the notion of making this 
building work for everybody that uses it, from Members to 
staff. I know lobbyists have a bad name but they actually do 
good work here by bringing issues to Members and representing 
our constituents. They are in and out of this building all the 
time.
    There are tour groups that come regularly and then there 
are the occasional tour group, the groups like Close-Up that 
every year bring thousands of young people because we see them 
in our offices. Before I was a Senator, I actually came up as a 
Close-Up student. So I look forward to meeting the Close-Up 
groups all the time. Then there are any number of other 
organizations.
    Just as an observer, as I'm moving around the Capitol 
complex, I notice particularly in the spring, the March/April, 
May, and June, the very long lines of people trying to get into 
the building. Are we making any plans or do we have any ideas 
about how we could sort in a better way, the visitors? Not to 
stratify them but to allow the people that are working staff 
professionals, to move a little more quickly. Obviously the 
students and the tourists who are not on direct assignment can 
move a little differently. Have we ever thought about that? Or 
is it just a matter of manpower? Mr. Gainer, do you want to 
take that, or Chief Morse?
    Mr. Gainer. Go ahead and start.
    Chief Morse. Well, I think with the CVC coming on board, 
there is a lot of effort and signage and people hired to give 
direction and move people. It is a centralized point of 
screening for us, which helps security but it's also a much 
easier access point than we find here in some of the buildings.
    We have very tight access points and spaces, which I think 
contribute to a lot of the slow down in processing. Certainly 
officers work very hard at processing people into the buildings 
and the technology we have is the best in the world. So I think 
there is probably more effort in signage and direction and 
perhaps even some changes in the locations that we bring people 
in.

                <greek-l>SAA deg.VISITOR STRATIFICATION

    Senator Landrieu. Well, I just want to press this issue and 
I'll do this here and continue to work with you all on it. Have 
we developed a difference between a casual visitor and a 
business visitor? Yes or no?
    Mr. Gainer. Well, there have been discussions about 
stratification. Over the years, we've all discussed the fact 
that, on some days, it seems strange that we would give as much 
scrutiny to a person who has been employed here for 25 years as 
someone who might visit for 1 day. There were discussions about 
whether there would be a frequent visitor procedure, similar to 
that the FAA and TSA are using. But even as to staff, when you 
start thinking that staff can be treated one way and visitors 
another, we have a circumstance, not more than 1 week ago, 
where we had a gun being brought in by a staff member, 
inadvertent as it may have been. So it just makes everyone 
pause as to how different procedures for staff and visitors 
could work.
    Senator Landrieu. I agree and I'm not actually suggesting 
that because I don't agree that there should be different 
levels of security. But I'm suggesting that there might be 
different lines with similar security. Identical security 
required, but waiting in line for a casual visit for 45 minutes 
is not a problem for a Close-Up student. It is a major problem 
for a constituent that has a scheduled meeting with a Senator 
or a House Member, led by a mayor of whatever town, large or 
small or a meeting. People are having difficulty getting to 
their meetings. Now, not to say that students should be second 
class--please, don't anyone interpret what I'm saying and I am 
also not saying that there should be different levels of 
security. I think there should be very serious security.
    But as this visitor center opens, I'm going to work with 
Senator Allard and our other members to see if there is a way 
that we can make the work of the people more efficient. For 
everybody that has to wait in line 45 minutes, there is 
somebody else at the other end sitting and waiting for them. 
Schedules are getting mixed up all through the Capitol.

                   <greek-l>SAACPB deg.TUNNEL ACCESS

    The other question is, I understand that you used to be 
able to walk from under the House to the Senate and vice versa 
and that access has been closed off. Is that correct, the 
tunnel has been closed off?
    Chief Morse. That is correct. You cannot move from the 
House side to the Senate or vice versa.
    Mr. Gainer. Unless you have an appointment. If there is an 
appointment, there is a process, that if you are on one side 
and have an appointment on the other side, for the appointment 
desk, to verify that appointment and then let you pass through.
    Senator Landrieu. Okay, so if you do have an appointment, 
you can pass through the tunnel underneath the House and the 
Senate. Because again, I'm just sensitive to the constituents 
that huff and puff and pant into my office and they constantly 
say, ``Senator, I wish we could have been here but we were in 
line.'' Or, ``Senator, I wish we could have been here but we 
had to go a circuitous route to get to you.'' I just want to be 
very sensitive to them and of course, the people we serve.
    Let me just see if there are other questions and I'll turn 
it back to Senator Allard.

    <greek-l>SAACPB deg.COORDINATING WITH SURROUNDING LOCAL POLICE 
                              DEPARTMENTS

    Before I was the Chair of this subcommittee, I chaired the 
D.C. Subcommittee and also was Chair of the Emerging Threats 
Subcommittee on Armed Services and we did a lot of work before 
and after 9/11 to make sure that the Capitol complex and our 
security was coordinated with the D.C. Police, with the 
Maryland law enforcement and Virginia law enforcement in the 
event that there is a serious situation as did occur on 9/11. 
Evacuating hundreds of thousands of people from this core out 
takes a lot of cooperation in terms of the Metro, in terms of 
which way the highways are moving, et cetera. Could you all 
both just give me a brief update, about the ongoing efforts to 
be cooperative with the D.C. Police and the Maryland and 
Virginia police operations? Mr. Gainer, maybe we could start 
with you and then I'll talk with the Chief.
    Mr. Gainer. Thank you, Madam Chair. We certainly did learn 
our lessons after these incidents. While I was the Chief, one 
of the many things that was done was station a Metropolitan 
Police officer in the command center, in addition to the ring 
down phones and the constant communications. But that was the 
perspective 1 year ago, so Phil can tell us where we are today.
    Chief Morse. We're also--the Chiefs of Police in this area 
meet routinely once a month and also we have a telephone 
conferencing that we do, which has developed over time. We have 
those conferences when there is a threat that each one of us 
needs to know about. So there is a lot of coordination with the 
local law enforcement.
    One of the things, as you bring to our attention, is not 
only in the municipal area but also Maryland and Virginia. Our 
radio system, as far as communication is concerned--in an 
incident where we would have to evacuate the city or Capitol 
Hill, in a critical incident where we need the support of other 
law enforcement agencies, our radio system does not allow us 
the interoperability with them.
    Many of the State, local, and Federal law enforcement 
agencies have interoperable radio systems so one of my 
priorities is to modernize our radio system so that we can meet 
that expectation, especially in a critical incident, where we 
can coordinate our efforts.
    Senator Landrieu. Well, let me really strongly encourage 
you, having survived through Hurricanes Katrina and Rita and 
the total collapse of the communications system that existed 
during those natural disasters. Then, of course, we all went 
through the 9/11 experience here--that that is one of the 
absolute fundamental critical tools necessary to manage people 
fleeing in an orderly way that doesn't cause panic and more 
death and injury, et cetera.
    So I really want to encourage you all and I can say that 
Senator Allard and I will work with you every step of the way 
to try to press this interoperability. There are some extra 
monies being appropriated, as you know, in the other budgets. I 
know that there are serious needs around the country but I 
think we could successfully argue that starting at the Capitol 
for interoperability would be the highest priority for the 
Nation and for this region, to become as interoperable as 
possible as soon as possible. So those are the questions that I 
have. I'll turn it over to Senator Allard.

                 <greek-l>CPB deg.STAFFING AND OVERTIME

    Senator Allard. Thank you, Madam Chair. There are two other 
issue areas I want to cover, one on staffing and overtime and 
the other issue has to do with the Library of Congress. We'd 
like to get that resolved as quickly as possible.
    On staffing and overtime, I have been through the Capitol 
at various odd hours, on the weekend, sometimes in the middle 
of the night, at around 10 o'clock to 1 o'clock in the morning, 
I've been through the Capitol early in the morning on weekdays 
and sometimes late at night. I've been pretty pleased with the 
level of security.
    At one point in time, particularly right after 9/11, I 
think perhaps we had too many people standing around after 
hours but I understood the urgency of the situation at that 
time. So I think everything has generally operated pretty 
efficiently from what I can tell. I know that there are some 
entrances that we used to keep open almost all the time. We've 
closed those down.
    As a Member of Congress, I haven't found it particularly 
inconvenient. I think you've used good judgment in that, as 
long as we can figure out which gate to come in, we're okay. I 
look in the budget and I see overtime would increase 15 percent 
over last year's level and I'm trying to understand what's 
happening here that we have to increase overtime so much? What 
is driving that?
    Chief Morse. Well, the fiscal year 2008 overtime estimates 
were based on the last 2 fiscal years and what we actually 
spent. But with that comes some additions in 2008 that we just 
started experiencing here in 2007, are demonstrations. We have 
a convention in 2008 that will drive some overtime but what we 
are doing to ensure that we're getting the best bang for buck 
is we've educated our managers and we've made it a performance 
measure that they meet expectations that the Assistant Chief 
has set for them as far as internal controls and managing their 
overtime.
    The second part of that is the manpower study. We have to 
ensure that we use our people in the most efficient and 
effective manner and with this manpower study, they are looking 
at every single process and everything that we do as far as 
manpower is concerned. So we hope to be able to reduce that and 
find a balance here in the near future.
    But for 2008, our concerns are for the number of 
demonstrations, the increased workload of Congress and the 
conventions that are upcoming in 2008.
    Senator Allard. Is the Capitol Visitor Center driving that 
need for additional staff or have you already compensated for 
that?
    Chief Morse. We've already compensated for that in our 
initial estimates but as operations change, designs change, 
brings more people to do the job and if you don't get the 
people, then it drives overtime.
    Senator Allard. I'm not entirely satisfied with your 
response, particularly in light of the fact that we've already 
compensated for the CVC. Maybe we can sit down and go over 
that, have a meeting and see what you're looking at.
    Chief Morse. Sure.

           <greek-l>CPB deg.LIBRARY OF CONGRESS POLICE MERGER

    Senator Allard. On the Library of Congress, Dr. Billington 
has expressed concerns that the Library is not getting their 
vacancies filled. There are some 22 vacancies over there, 
apparently. We've been pushing to merge the Library of Congress 
security with the Capitol Police so that everybody is operating 
with the same standards and the same level of protection. Dr. 
Billington has expressed some concern about those vacancies. 
What's going on there?
    Chief Morse. Well, in regards to personnel, we met with the 
CAO of the Library approximately 2 weeks ago to come to a 
number because there have been many numbers out there and 17 
was the number.
    Senator Allard. So there are 17 vacancies?
    Chief Morse. That's correct. We have a recruit class, which 
is in field training right now and will complete that April 22 
and April 23, we will be sending 10 officers to the Library of 
Congress. That number was derived by looking at security 
campus-wide because we have not only a responsibility at the 
Library of Congress, we have a responsibility campus-wide. We 
have to ensure that load leveling was equal there and that we 
weren't sacrificing any security or manpower here.
    Senator Allard. Particularly with that tunnel that we're 
putting in there.
    Chief Morse. Yes. So there are some issues that have to be 
resolved. We're certainly trying to execute the will of 
Congress here. We've identified issues and we have put our 
recommendations into a decision paper for the Capitol Police 
Board to help us facilitate.
    Mr. Gainer. May I add, just recently, the Police Department 
did give the Board recommendations and the onus is on the 
Police Board now to take some action. We'll move on it very 
quickly. We have a series of things that we think needs to be 
done in order to expedite the closure of this long-term issue.
    Senator Allard. The Congress has spoken on this.
    Mr. Gainer. Yes, sir.
    Senator Allard. We want to have a unified security force 
and I think the sooner we can get this resolved, the better. 
I'd like to get it off our plate and I'm sure you'd like to get 
it off your plate.
    Mr. Gainer. Yes.
    Senator Allard. Now, do you see any major roadblocks in 
getting this finalized?
    Chief Morse. The Capitol Police support the merger in that 
we want to execute the will of Congress. So there will be 
challenges here. We've identified issues that need to be 
resolved. I don't think that they can't be resolved with people 
sitting down and discussing them but I think that they are 
critical and they need to be resolved to the satisfaction of 
Congress and certainly any liabilities to the Police 
Department, et cetera, have to be examined very closely.
    Senator Landrieu. If you don't mind, I may ask Senator 
Allard if he would, to facilitate that meeting. I intend to 
push on that legislation, to merge the Capitol Police with the 
Library of Congress Police. It was done last year but I don't 
think it passed completely through the process. So I think the 
Members of Congress feel like this is what we should do but we 
need to go ahead and try to bring that to closure this year and 
work out the details.

 <greek-l>SAA deg.UNITED STATES CAPITOL POLICE SALARY BUDGET INCREASES

    I have one more question and then I'm finished. I don't 
know if Senator Allard has anything else but I asked the staff 
to put in graphic form, the increase in the salaries of the 
Capitol Police and you can see, it's fairly dramatic when you 
look at it here. In 1998, the salary level looks to me on this 
graph to be about $70 million. Now we're up to $220 million in 
a relatively short period of time, from 1998 to 2007.
    Now, 9/11 happened here and the attack on the Capitol and 
we've had other incidents that are driving this. There has been 
an increase of the need for security in all of Washington, DC, 
so I'm sure that's been a factor in driving up salaries, et 
cetera.
    But Mr. Gainer, would you comment on your perspective of 
this increase and then Chief Morse, about how this is fairly 
significant? What are we starting our officers or what is our 
current salary range for them? And why or how would you justify 
this increase? I realize you all weren't in charge in all these 
years but as you can see, this salary for officers is from $70 
million to $220 million in just a few years.
    Mr. Gainer. If I may, I would like to address that as the 
one who was in charge over these past 5 years. To the extent 
that Chief Morse and his Deputy inherited a Department that is 
not perfect yet, I take responsibility. We tried to lay the 
foundation but the cracks in that foundation happened under my 
watch and I think Chief Morse and his Deputy will be better 
Chiefs, and I applaud them.
    But the ultimate accountability is mine. The numbers grew 
under my watch, with the work of the Congress because of the 
expanding mission requirement. The individual salaries have 
been driven because competition is unbelievably tough in this 
area between these multiple jurisdictions, to attract these 
individuals. So we have faired better than almost any police 
agency to hire highly qualified people. So that goes to the 
size of their salary, and, I think during the 4 years that I 
was there, we added nearly 400 officers for the different 
missions. It is mission driven. When we get back to that 
question, how do we secure it and keep it open and make it 
convenient for everybody, it is personnel driven.

<greek-l>SAA deg.COMPARISON OF UNITED STATES CAPITOL POLICE SALARIES TO 
                          LOCAL JURISDICTIONS

    Senator Landrieu. Well, could you just submit for the 
record and I don't know, Chief, if it would be better for you 
or for Mr. Gainer, to submit the regional salary levels. I'd 
just like to know. I think this subcommittee would like to 
know, what the State police in Virginia are making? What are 
the State police in Maryland making? What the local police 
officers here that you're competing with are making so we can 
review. I'm sure your Board does that but I personally would be 
interested in that information if you'd submit it to the 
subcommittee.
    Mr. Gainer. Yes, ma'am.
    [The information follows:]
  Comparison of Starting Salaries Between USCP and Local Jurisdictions
    The Department continues to be a model employer and a competitive 
leader in the law enforcement employment market when it comes to 
starting salaries for new recruit officers as well as pay at most 
levels. During the past year, the Office of Human Resources has worked 
with other Federal, state and local government entities in several 
compensation symposiums for market pay analysis. During these 
semiannual meetings, human resources personnel compare job titles and 
duties, entry-level and journey-level pay averages, and share 
information on recruiting trends and separation statistics. Many of 
these local entities are required from their governing authorities/
boards to obtain data, to the extent possible, from USCP when 
determining their pay recommendations. The entities that the Department 
routinely works with are Fairfax County, Loudoun County, Prince 
George's County, Metropolitan Police Department of Washington DC, 
Montgomery County, and others within the Washington DC Metropolitan 
area. The Office of Personnel Management lists the USCP in its 2004 
study of law enforcement officer (LEO) pay and benefits as having the 
highest starting salary of all Federal law enforcement entities. It is 
important to note that 2 Federal organizations, the Library of Congress 
and the U.S. Supreme Court are required in statute to follow USCP pay 
determinations and as such pay their law enforcement positions 
equivalently.
    In 2006, the USCP matched its entry level officer positions with 
those of other local law enforcement jurisdictions as positions that 
patrol assigned areas, enforce security and protection, assess threat 
environments, investigate a variety of criminal offenses involving 
crimes against property, participate in investigations of crimes 
against persons, etc. Positions at USCP require a high school degree or 
equivalent and completion of police recruit training. The data 
highlighted in the chart is the result of the Department's 
participation in local market survey analysis as administered by 
Fairfax County for 2006.

      SURVEY OF ENTRY LEVEL COMPENSATION FOR LOCAL LAW ENFORCEMENT IN THE WASHINGTON, DC METROPOLITAN AREA
----------------------------------------------------------------------------------------------------------------
                                                                                                         No. in
     Police Organization           Position Match 2006        Min        Mid        Max      Average     Survey
                                                                                              Actual      Pool
----------------------------------------------------------------------------------------------------------------
Alexandria...................  Police Officer I..........       43.0       57.1       71.1       45.1         89
Arlington....................  Police Officer I..........       44.6       59.2       73.8       46.8         58
Capitol Police...............  Private-Priv w/Training-         48.4       67.8       87.1       51.0         99
                                PFC.
District of Columbia.........  Police Recruit............       46.4       57.5       68.5  .........  .........
Loudoun......................  Deputy I (Field/Civil            40.3       52.4       64.5       47.7         54
                                Process/Community
                                Policing).
Montgomery...................  Police Officer I..........       41.6       55.7       69.7       44.5        115
Prince George's..............  Police Officer............       44.1       52.6       61.1       46.0        442
Prince William...............  Police Officer I..........       39.3       51.1       62.9       41.4         80
Fairfax County...............  O-17-2....................       44.4       58.4       72.4       52.1        253
----------------------------------------------------------------------------------------------------------------

    USCP competes in various labor markets with state and local 
governments for individuals with law enforcement skills. As a result of 
the September 2001 terrorist attacks, the Department and its 
stakeholders were most concerned about its ability to recruit and 
retain high-quality personnel for its LEO positions. Central to those 
concerns was the level of pay the Department was compensating its 
officers as compared to those of other Federal LEO positions, as well 
as state and local government positions. The Department was provided 
with authority and funding to increase the base pay structure of all 
law enforcement positions sufficient to recruit a significant number of 
new officers, as well as retain more seasoned officers to ensure 
institutional knowledge and experience needed to address Congressional 
concerns for an enhanced security and protection environment. The 
decision to increase the USCP pay structure placed USCP on average 4 
percent above the market in which it competes.
    An important factor to consider in comparing the compensation of 
USCP law enforcement personnel with state and local entities is the 
extent to which other compensation factors into total compensation. For 
example, Montgomery County, as others, compensates new officers for 
Assignment Pay Differentials such as Hazardous Materials, Language Pay, 
etc. While USCP received authority and has implemented its Specialty 
Pay Program, it is typically not for new recruit officers.
    In addition, USCP law enforcement positions that earn compensation 
for overtime work do so without the earnings being contributed to their 
retirement or 401K savings programs. Depending on authorities for other 
Federal, state and local government organizations, individuals working 
overtime can receive credit for retirement and 401K benefits. One 
significant difference in the payment of premium pay (non base pay) for 
USCP personnel as compared to state and local government is the 
limitation on the accumulation of differentials. USCP personnel are 
capped on the total amount of premium pay differentials earned on a bi-
weekly basis. While the USCP has the highest biweekly limitation on 
premium pay for its non-exempt sworn workforce compared to Federal 
organizations, state and local governments typically do not limit the 
accumulation of differential pay, just the limitation on aggregate pay.
    Much work has been accomplished in reviewing compensation in the 
Federal and state and local government law enforcement community. Most 
recently, in August 2005, the Congressional Budget Office published its 
report, ``Comparing the Pay of Federal and Nonfederal Law Enforcement 
Officers,'' which describes the competitive environment for recruiting 
and retaining law enforcement officers. USCP has used this report to 
remain pay competitive in terms of looking at the total compensation 
package. Statistically, the critical period for USCP to achieve a 
return on recruiting and training investment for new recruit officers 
is after the first 3 years. The progression of pay during the first 3-5 
years is critical to the retention of a deployable workforce. Upon 
promotion from Private, Private with Training and Private First Class 
(typically after 30 months), individuals are limited in seeking other 
employment as their salary in the grade is significantly higher than 
most Federal and state and local governments and to leave USCP service 
would typically result in a decrease in pay and law enforcement service 
credit. Service under USCP as a law enforcement officer is not 
creditable service under other Federal LEO retirement systems. In order 
for an LEO to leave USCP for other Federal service, he/she would have 
to start over their retirement service credit.
    USCP recognizes that other law enforcement entities deploy 
attractive recruitment strategies designed to capture high quality and 
Federally trained (at the Federal Law Enforcement Training Center) 
individuals. The Department has not experienced a significant increase 
in attrition such that it would require the department to offer 
recruitment bonuses. While USCP has had several individuals leave USCP 
service for other Federal, state and local government employment; their 
responses on exit surveys indicate that compensation was not a 
significant factor in their decision to leave the Department, but 
rather individuals indicated their decisions to leave were for personal 
and/or professional reasons.
    Although USCP starting salary and benefits are competitive with 
local agencies, the potential for ``moonlighting'' (outside security 
officer employment) and other benefits offered by local law enforcement 
agencies might also factor into the equation and equalize the 
difference in compensation. Educational benefits and recruiting/
retention bonuses offered by local, state and some Federal law 
enforcement agencies, may also prove to be a better draw for LEOs than 
the initial higher salary rate. Also, the USCP may not be as 
competitive with uniformed services in other federal law enforcement 
agencies. The Department competes strongly with the Transportation 
Security Administration and U.S. Secret Service under the Department of 
Homeland Security that offer a career ladder for higher paying 
investigative and LEO positions. In some circumstances, these agencies 
are able to offer opportunities for advancement and relocation. This 
career potential may outweigh the higher beginning salary for recruits 
who are planning their careers more long term.
    Another factor to consider in measuring salary competitiveness in 
the Federal arena is that many Federal criminal investigators and other 
LEOs regularly receive a 25 percent supplement for overtime work--
either administratively uncontrollable overtime (AUO) pay or law 
enforcement availability pay. While this supplement is a stable 
addition to salary, it is appropriately not included in salary 
comparisons, which compare non-overtime salary rates. Providing a 
virtually guaranteed 25 percent supplement gives the Federal Government 
a competitive advantage over USCP who does not guarantee such an 
overtime supplement.
    USCP believes most job seekers give great weight to the total 
regular pay they would receive in a job, since it is that total pay 
that determines their standard of living. While the value of AUO pay 
and availability pay may not be as great as the overtime rates paid by 
non-Federal employers on an hourly basis, those supplements are highly 
valued as stable additions to salary. Furthermore, since the AUO pay 
and availability pay received by non-USCP LEOs is creditable as basic 
pay in determining retirement and certain other benefits, the value of 
these payments is even greater. For example, an availability pay 
recipient will receive a defined benefit pension that is 25 percent 
higher than another employee at the same salary level. Also, Thrift 
Savings Plan holdings will be proportionally larger as an availability 
pay recipient is entitled to a larger Government match than another 
employee at the same salary level.
    When establishing recruiting and compensation strategies for the 
Department, USCP strives to remain competitive given the unique 
security and protection environment our employees serve. It is 
important that our recruiting and pay systems reflect the significant 
mission and objectives that are fundamental to the principles of the 
Department.

    Senator Landrieu. Senator Allard?
    Senator Allard. Well, just one additional comment in that 
regard. I've been told that we're the highest paid police force 
in the country. I'd like to look at those figures, in 
comparison to other police forces.
    Mr. Gainer. Yes, sir. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. Any additional questions from Members 
will be submitted to you for response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
              Questions Submitted by Senator Wayne Allard
                             sworn staffing
    Question. USCP's Manpower Management Task Force conducted an 
internal manpower study. The goal of that study was to develop a 
staffing plan for efficiently managing and allocating resources based 
on threat. This study was completed a couple of months ago.
    How is USCP using the results that study?
    To what extent is the contractor using the results of the internal 
manpower study?
    What recommendations were made in the study regarding allocating 
resources based on the threat?
    Does USCP plan to implement the recommendations from this study? If 
not, what is USCP's reason(s) for not implementing them?
    USCP hired a contractor (Enlightened Leadership Solutions) to 
conduct a manpower study of USCP's sworn staff. How will USCP ensure 
that it will receive useful results from this study, and how will this 
study enable USCP to develop and implement the congressionally mandated 
strategic workforce plan?
    Answer. A high level review of the task force report has been 
accomplished by the USCP and appropriate recommendations provided to 
ELS for consideration in the overall manpower study. Other 
recommendations have been implemented based on our threat assessment 
and operational needs. The Department is working, with close support 
from ELS, to ensure that the broader recommendations of the task force 
report are considered. Senior management receives regular updates from 
ELS and provides course corrections as necessary to ensure useful 
results are obtained from the study. ELS will deliver a staffing 
formula for sworn officers based on our current and proposed concept of 
operations, which is based on the threat matrix. In effect, the USCP 
implements a force development process that utilizes the threat 
assessment to define the needs of the Concept of Operations in order to 
make resource decisions. The ELS study will also help to provide a 
methodology for the USCP to make future manpower requirement decisions 
and lend credible foundation for its manpower levels. This study 
addresses the guidance we have received in our close working 
relationship with GAO. This process will also lead to the eventual 
development of the strategic workforce plan, as mandated by Congress. 
This process will also lead to the development of future training 
plans, technology investment plans and other operational and support 
decisions.
                          financial management
    Question. Will USCP be able to prepare a fiscal year 2006 balance 
sheet with complete and accurate asset and inventory balances that will 
pass an audit?
    Answer. For fiscal year 2006, USCP will be generating a SBR, and 
for the first time, a draft Balance Sheet utilizing Generally Accepted 
Accounting Principles applicable to federal entities. USCP will 
generate a full set of financial statements for fiscal year 2007, with 
the completion of the inventory process.
    The USCP had planned to prepare a full-set of draft financial 
statements at the conclusion of fiscal year 2006; however the 
completion of the USCP inventory, which was required to validate asset 
balances, was delayed to April 2007. The USCP has prepared a draft 
Balance Sheet for 2006, but does not expect that the independent 
auditor will be able to validate all asset balances and would not 
expect a ``clean'' opinion on the Balance Sheet for fiscal year 2006.
    Question. When was the physical inventory count originally 
scheduled to be completed? How far behind schedule is this effort? What 
is the current estimated completion date? Will the inventory count be 
completed in time for the data to be included in the financial 
statements for fiscal year 2006? If not, why?
    Answer. In the statement of work, the physical inventory count, to 
include the actual count of assets owned by USCP and the valuation of 
these assets, had a projected completion date by March 31, 2007. Since 
that time, the contractor requested a thirty-day extension at no 
additional cost to ensure that they have adequate time to provide 
accurate data.
    Currently, this effort is on schedule (including the thirty-day 
extension) and baring any unforeseen circumstances, will be completed 
by April 30, 2007. Once the contractor has presented all data, there 
are additional steps needed to complete the reconciliation. These steps 
include the review and acceptance, by the independent auditors, of the 
valuation of the USCP assets, researching and identifying the 
documentation that supports the valuation of each asset and final 
reconciliation with the financial statements presented by the Office of 
Financial Management. The current estimated completion date for the 
physical inventory count, to include the valuation of all assets done 
by the contractor, is estimated to be completed on April 30, 2007. This 
does not include the review and acceptance of the data by the 
independent auditors.
    The inventory count will not be completed in time to be included in 
the fiscal year 2006 financial statements. At the conclusion of the 
count, USCP estimates approximately three million assets and 
consumables that will be identified as a result of the count. Once that 
information has been reviewed and approved, the formal validation and 
documentation of the inventory will be conducted. This work will not be 
completed in time for the fiscal year 2006 audit.
    Question. What issues has USCP encountered as a result of efforts 
to complete a first-time agencywide inventory effort? Was the agency 
prepared to take on such a monumental task at the same time while 
implementing other agency wide initiatives (internal control program, 
implementation of new asset management system, etc.)
    Answer. We have discovered through the inventory process that USCP 
has a wide array of assets distributed throughout multiple locations. 
Locating and identifying ownership of these assets has been a much 
bigger challenge than originally anticipated.
    The process was unexpectedly slowed by having to coordinate with 
the inventory contractor, the independent auditors and USCP property 
custodians within each division to ensure that all assets were being 
properly identified and captured.
    Many of these assets are constantly in use. Although legacy systems 
still remain to keep track of assets until collected data is uploaded 
into the Maximo database, there still remains a challenge. 
Specifically, that the movement of assets could possibly be overlooked; 
thus, compromising the effort of the count. Until the final transition, 
this will continue to be followed closely to mitigate issues.
    Completion of the physical inventory is an integral step in 
producing a Department balance sheet, as recommended by Congress and 
GAO. Completion of a balance sheet is a priority for the USCP and is 
part of the Department's fiscal year 2007 business plan. In addition, 
Senate Report 109-267 directed the USCP to prepare a plan to move to a 
full-scope financial audit for fiscal year 2007. Although the language 
was not included in the final fiscal year 2007 appropriation for the 
USCP, the Department took the direction very seriously. Considering the 
time required to complete such an inventory, it was prudent to begin 
procuring contract support for this task in fiscal year 2006. The 
contract was awarded on September 30, 2006. The inventory project began 
on Monday, October 30, 2006, and proceeded forward as scheduled. As of 
Friday, March 16, 2007, the inventory project has completed 75 percent 
of USCP sites, with all data loaded into the asset management system.
    Once the contractor has presented all data, there are additional 
steps needed to complete the reconciliation. These steps include the 
review and acceptance, by the independent auditors, of the valuation of 
the USCP assets, researching and identifying documentation that 
supports the valuation of each asset and final reconciliation with the 
information maintained by the Office of Financial Management.
    This project represents a cross-cutting working coordination 
between Property and Asset Management Division, the Office of 
Logistics, the Office of Financial Management, the Office of 
Information Systems, the Office of the Inspector General, and the 
auditing firm of Cotton and Company. We project that, without any 
unforeseen issues in the future, this project will be completed to the 
fulfillment of the Senate direction.
    Question. What are your plans to assess the effectiveness and 
validity of Momentum's processing within the unique environment at 
USCP? For instance, whether the electronic controls in place are 
performing as intended and ensuring the operating effectiveness of the 
USCP system and internal control environment?
    Answer. The external auditors have not yet completed their 
assessment of Momentum automated controls to provide assurance the 
system is working efficiently and effectively. This assurance is 
expected with the completion of the financial statement audit that is 
currently on-going.
    Per the GAO report, the auditors acknowledged that the controls 
might be better with the implementation of Momentum.
    The USCP has also performed several Momentum reviews as part of its 
internal control Program. These reviews provide assurance that the 
system is working as designed and that proper segregation of duties and 
compensating controls exist. GAO did not review these internal reviews.
    The USCP will continue to work with GAO and the auditors to ensure 
Momentum operates as efficiently as possible.
    USCP will continue to make Momentum controls a top priority as the 
Department moves forward with its Internal Control Program.
    Question. We understand that you recently conducted a user 
satisfaction survey (customer survey). What are some of the actual 
concerns highlighted by Momentum users? Going forward, how do you plan 
to address those concerns?
    Answer. The USCP implemented the Momentum financial management 
system in a 12-month period, with few technical implementation issues.
    However, with any significant change in business processes, change 
management and effective communications with users of the system are 
critical.
    Prior to the implementation of Momentum, the USCP operated under a 
paper-intensive workflow process that required no system input from 
most of USCP's administrative staff.
    Momentum introduced cutting-edge technology that required users, 
who had never interfaced with a financial management system to enter 
data, scan documents and provide approval paths for transactions, as 
well as, verify funds availability within an automated system. This 
proved to be the biggest challenge to the system implementation.
    In order to address these issues, the USCP made a significant 
investment in training to ensure all users had/have the skill sets 
required to operate this new technology. We offered a cadre of 21 
courses to all users of the system covering the basics of data entry 
and approval processes prior to implementation, refresher courses after 
implementation as well as segments on procurement policy and processes, 
a 2 day course on appropriations law, and a 2 day course on internal 
controls to ensure that staff had the necessary tools to process 
transactions appropriately in the system and within the confines of our 
appropriation and applicable law.
    Momentum provides customer access to real-time enhanced reporting 
and access to data (including real-time budget updates) for users at 
all levels of the organization via online queries, reporting and 
accessibility to data.
    Momentum supports such internal control principles as segregation 
of duties and delegation of authority. USCP has strengthened internal 
controls with the use of automated workflow and on-line approvals. This 
best business practice has dramatically improved controls, has enabled 
better management and tracking of our procurement processes and allowed 
for better requisition tracking and has significantly reduced the 
paper-intensive processes of the past while improving efficiency.
    USCP has now been operating successfully with Momentum for over 17 
months. This is the same software utilized at over 80 federal agencies, 
including several legislative branch agencies.
    Inherent with any commercial off-the-shelf package, software issues 
arise. USCP prioritizes and tracks open issues with the software owner 
to ensure issues are fixed timely.
    Recent surveys of Momentum users completed by USCP indicate that 
the vast majority of system users indicate that they understand and are 
able to complete their financial management responsibilities with the 
Momentum system.
    Question. USCP developed a 2-year plan to implement a first-ever 
agencywide internal control program. Is USCP on target with its phased-
approach? What are some of the expected and unexpected issues that USCP 
has encountered?
    Answer. The Department is on target. According to GAO, USCP has 
taken some strong first steps. These steps include providing training 
to a significant number of leaders and managers, developing a Control 
Environment Assessment, developing a plan/schedule for conducting 
assessments, engaging an Internal Control Working Group and Review 
Board in an on-going evaluation of how to improve the process--linking 
it to other management improvement efforts, and integrating the work 
into the Business Planning System. This year, we will be spreading the 
internal controls program throughout the Department, and one of the 
most important ways we are facilitating that is by incorporating 
internal controls analysis into the work of the Manpower Study Project. 
In addition, the USCP participates in the Legislative Branch Financial 
Managers Council internal controls group to learn and share internal 
control methodologies with other Legislative Branch agencies.
    Following GAO's lead, we used an organizational development 
approach to implement an internal controls program. This approach 
(using team leadership, integrating this program with an ongoing 
management improvement program) helped us overcome the expected issues 
related to building ownership, commitment, and changing the 
organizational culture to see internal controls as a tool for 
application, daily.
    Accomplishing such a major change in business process without the 
funding normally attached for maximizing return on investment was an 
unexpected issue. The risk for sub-optimizing such a key investment 
will be greater in the out-years and so we will ensure that the ELS 
Manpower Study accurately captures the degree of time and expertise 
required to sustain the progress in decreasing vulnerabilities.

                          SUBCOMMITTEE RECESS

    Senator Landrieu. If there are no further questions, this 
subcommittee will stand in recess until April 13 when we'll 
meet to take testimony on the fiscal year 2008 budget request 
for the Secretary of the Senate and the Library of Congress.
    [Whereupon, at 11:22 a.m., Friday, March 30, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]


















         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2008

                              ----------                              


                         THURSDAY, MAY 3, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:05 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu and Allard.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF HON. NANCY ERICKSON, SECRETARY OF THE 
            SENATE
ACCOMPANIED BY:
        SHEILA DWYER, ASSISTANT SECRETARY OF THE SENATE
        CHRIS DOBY, FINANCIAL CLERK

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Good morning. The subcommittee will come 
to order.
    This morning we meet to take testimony on the fiscal year 
2008 budget request for the Secretary of the Senate and the 
Library of Congress (LOC). Nancy Erickson is with us this 
morning, and the Librarian of Congress, Dr. Billington.
    This is our fourth and final hearing of the 2008 budget 
process. I am joined this morning by my ranking member, Senator 
Allard, and I understand that Senator Alexander may join us 
this morning.
    We have two separate panels today. First, the Secretary of 
the Senate, and I understand she may be joined by Sheila Dwyer, 
the Assistant Secretary and the Financial Clerk of the Senate, 
Chris Doby.
    Mr. Doby, while we're on the subject of your shop and the 
Disbursing Office, I asked my office manager if she could give 
me a list of some of the people from the Disbursing Office 
who've been helpful. She gave me a list too long to read this 
morning, so I'm going to just submit it for the record and 
thank you very much for the help of your wonderful staff. We 
really appreciate it.
    [The information follows:]

    Chris Doby, Financial Clerk, Tim O'Keefe, Margaret Fibel, 
Neil Elliott, Gerry Thrasher, Melissa Stewart, Paul Jochum, 
LaKisha Haggerty, Ivan Shnider, Bob Millett, Kim Cone, 
Ileanexis Deese, Ted Ruckner, Sean Malloy, Debbie Shnider, Gene 
Barton, Linda Sothern, Martin Tanabe, Donna Nance, Rachel 
Morris, Monica Billups, Cathy Strodel, Lauren Bliss, Dianna 
Gilkerson, and Cynthia Handwork.

    Senator Landrieu. I also want to thank all of your other 
employees. Nancy, I think this is the first time you've 
testified before this subcommittee as the Secretary. We're 
pleased to have you this morning. We'll look forward to hearing 
the details of your budget, which totals $25.5 million. This is 
an increase of $2.5 million, or 11 percent above the current 
year. So, we hope that you're prepared to justify the request 
that you have submitted to us, because while it's not 
exorbitant, it is higher than inflation and we look forward to 
hearing from you about that.
    I'd like to turn now to Senator Allard for his opening 
remarks.

                   STATEMENT OF SENATOR WAYNE ALLARD

    Senator Allard. Thank you, Madam Chairman. I'd like to put 
my full statement in the record and proceed to the testimony 
from the witnesses.
    I'd like to personally welcome Secretary of the Senate, 
Nancy Erickson, thank you for being here, and also, Dr. 
Billington.
    I will have a few questions on the Government Performance 
and Results Act (GPRA) as a result of the inspector general 
study on performance-based budgeting at the Library, and maybe 
another question or two on the Library.
    Madam Chairman, that's all I have. Just put my full 
statement in the record if you would please.
    Senator Landrieu. Without objection.
    [The statement follows:]

               Prepared Statement of Senator Wayne Allard

    Thank you, Madam Chairman. Welcome Secretary of the Senate 
Nancy Erickson, Assistant Secretary Sheila Dwyer, Senate 
Financial Clerk Chris Doby, and their very able team.
    Also, good morning to Librarian of Congress Dr. James 
Billington and Chief Operating Office Jo Ann Jenkins. 
Congratulations, Ms. Jenkins, on your appointment as the 
Library's ``number 2,'' a well-earned appointment. I also note 
the presence of the Library's top team and welcome them all 
today.
    Madam Chairman, I have a number of concerns about the 
Library's request, when we get to the second panel. In 
particular, while some improvements have been made by the 
Library to come into compliance with the spirit and intent of 
the Government Performance and Results Act, the Library's 
Inspector General has found resistance within the Library to 
improvements in their budget process.
    We absolutely must ensure that the Library has a solid 
performance-based budget. According to the IG's report, 
``Performance-based budgeting enables policy makers to 
determine if programs are contributing to their stated goals, 
coordinating efforts with related initiatives elsewhere, 
targeting those most in need of agency services, achieving 
desired outcomes, and experiencing cost-beneficial results. The 
success of performance-based budgeting can be measured by the 
quality of the decision-making process, the transparency of 
decision-making information, and the meaningfulness of the 
information to key stakeholders.''
    Madam Chairman, I will focus some of my questions on this 
issue when we turn to questions.

    Senator Landrieu. Please proceed.
    Ms. Erickson. Thank you, Chairman Landrieu and Senator 
Allard, for this opportunity to testify today before your 
subcommittee on behalf of the Office of the Secretary and its 
employees. I ask that my full statement, including our 
department reports, be submitted for the record.
    With me today is Sheila Dwyer, the Assistant Secretary, and 
Chris Doby, our Financial Clerk, who I know has worked closely 
with your subcommittee staff over the years. I'm also joined 
today by many of our department heads.
    Before turning to my formal remarks, I want to take a 
moment to publicly thank my predecessor, Emily Reynolds, and 
her Assistant Secretary, Mary Suit Jones, for their assistance 
during my transition. Their graciousness has been a testament 
to the strength of the traditions in the Office of the 
Secretary.

                             BUDGET REQUEST

    Our budget request for fiscal year 2008 is $25.5 million, 
of which $23.5 million is salary costs, and $2 million is 
operating costs. This increase from fiscal year 2007 of $2.446 
million is comprised totally of cost-of-living and merit 
increases, so that we can continue to attract and retain the 
caliber of people the Senate deserves for its operations. 
Notably, our request also factors in necessary funding for the 
implementation and maintenance of the electronic supporting 
systems in the Office of Public Records.
    If enacted this year, Senate bill 1, the Ethics Reform 
bill, and Senate bill 223, a bill that would require electronic 
filing of Federal Election Campaign documents, will 
significantly increase the volume of reports filed with the 
Office of the Secretary.
    Prior to taking the oath of office on January 4, many 
people shared with me their high regard for the staff who work 
for the Office of the Secretary. Their unsolicited comments 
were a real tribute to the men and women who work in our 26 
departments. After serving 4 months as Secretary of the Senate, 
I can attest to the wealth of institutional knowledge and their 
pride in serving the Senate every day. It is indeed a privilege 
to work with this talented group of people.
    Since 1789, the Office of the Secretary has traditionally 
provided support for the Senate in three areas: legislative, 
administrative, and financial. And, today I'd like to share 
some of our staff's accomplishments in each area.

                         LEGISLATIVE DEPARTMENT

    The state of our Legislative Department, the people who 
support the Chamber's legislative functions, is strong. Our 
legislative positions are fully staffed with a healthy mix of 
experienced veterans and newer staff, each of whom have a good 
amount of experience. Our legislative offices operate with an 
emphasis on teaching, passing on institutional knowledge, and a 
real concern for succession planning. Today, we employ much 
more crosstraining than in the past. We work closely with our 
partners in the Sergeant at Arms Office to practice our 
continuity of operations planning to ensure that we can support 
the Chamber under any circumstance.
    Our legislative staff work with the Sergeant at Arms on 
ATS, to improve the online amendment tracking system. Now, 
Senate staff have access to not only offered amendments, but 
also submitted amendments. The feedback from the Senate 
community has been extremely positive.

                            PARLIAMENTARIAN

    I'm pleased to report today that the Office of the 
Parliamentarian intends to complete, by the end of this 
Congress, a supplement to the Senate precedents. This will be 
an enormous undertaking, but will be a valuable resource for 
Members and their legislative staff.

                                CURATOR

    With regard to administrative responsibility, the Senate 
Curator's staff recently organized the Senate Commission on 
Art's unveiling ceremony in the old Senate Chamber for Senator 
Dole's leadership portrait, which was attended by many of 
Senator Dole's former colleagues. We also celebrated the 
completion of the mural commemorating the Connecticut 
Compromise in an unveiling ceremony in the Senate reception 
room, where we were honored by Senator Byrd's keynote remarks. 
The Senate Commission on Art anticipates an unveiling ceremony 
later this fall for Senator Daschle's leadership portrait.
    Educating the public about the Senate's arts and historic 
furnishings collection is a priority. This past year, the 
Curator's staff, working with our Senate webmaster, worked 
together to launch several interactive exhibits on Senate.gov.

                            SENATE HISTORIAN

    With respect to publications, our Senate historian authored 
a wonderful book entitled, ``200 Notable Days,'' which 
highlights 200 colorful short stories about significant events 
in the Senate's 218-year history. Just in time for new Member 
orientation, the Senate Historical Office, with the assistance 
of our Printing and Documents Department, published a ``New 
Member's Guide to Traditions of the United States Senate''.
    During my first visit in January to the Senate Library, I 
had the pleasure of meeting a staff member who, single-
handedly, completed a 13-year project cataloging all of the 
Senate's hearings dating back to 1889, an impressive 
accomplishment, which provides legislative staff with online 
access to the library's collection of over 36,000 Senate 
hearings.
    Senator Landrieu. Is that employee here in the room?
    Could you stand up please? And we'll give you a round of 
applause.
    Ms. Erickson. In addition to managing a collection that 
dates back from the Continental Congress, the library staff has 
witnessed a 90-percent increase in information inquiries. The 
library is significantly expanding the use of web technology to 
meet the Senate's growing demand for accurate and timely 
information. As the Senate's purveyor of information, our 
Senate website, Senate.gov, received 70 million visits last 
year, 20 million more than the previous year.

                            STATIONERY ROOM

    Unlike the first Secretary of the Senate, Samuel Otis, we 
do not provide quill pens anymore, but the Keeper of the 
Stationery sells pre-flown flags. Last year's pilot program was 
a success, and the program is now available to all Senate 
offices. It allows Senate offices to fulfill constituent 
requests for flags that have flown over the Capitol in a time-
sensitive manner.
    We also appreciate the funding your subcommittee provided 
us to complete the point-of-sale project in our Stationery 
Room. The project modernized our 20-year-old computer system. 
And, I'm pleased to report today that it was completed under 
budget and ahead of schedule. We hope the system will allow us 
to offer e-commerce options in Senate offices.

                           DISBURSING OFFICE

    With respect to our financial duties, the Senate Disbursing 
Office processes payroll for the nearly 6,500 people on the 
Senate payroll every 2 weeks. In addition, it administers 
health insurance, life insurance, and retirement programs for 
Members and their staff. The office processed 158,000 vouchers 
last year. The Disbursing Office also provided transition 
assistance to staff who chose retirement or whose employment 
was affected by the November elections.
    Finally, our web-based financial management information 
system, known as FMIS, was upgraded to allow offices to better 
track cash and travel advances to make it easier for staff to 
prepare travel expense reports. We will continue our effort to 
improve FMIS, including the goal of implementing a paperless 
voucher system.

                           PREPARED STATEMENT

    I look forward to working with you and your staff in the 
coming year and I appreciate your support for the Office of the 
Secretary. I'd be happy to answer any questions you may have.
    [The statement follows:]
                  Prepared Statement of Nancy Erickson
    Madam Chairwoman, Senator Allard, and Members of the Subcommittee, 
thank you for your invitation to present testimony in support of the 
budget request of the Office of the Secretary of the Senate for fiscal 
year 2008.
    It is a pleasure to have this opportunity to draw attention to the 
accomplishments of the dedicated and outstanding employees of the 
Office of the Secretary. The annual reports which follow provide 
detailed information about the work of the 26 departments of the 
office, their recent achievements, and their plans for the upcoming 
fiscal year.
    My statement includes: Presenting the fiscal year 2008 budget 
request; implementing mandated systems, financial management 
information system (FMIS) and legislative information system (LIS); 
continuity of operations planning; and maintaining and improving 
current and historic legislative, financial and administrative 
services.
             presenting the fiscal year 2008 budget request
    I am requesting a total fiscal year 2008 budget of $25,500,000. The 
request includes $23,500,000 in salary costs and $2,000,000 for the 
operating budget of the Office of the Secretary. The salary budget 
represents an increase of $2,446,000 over the fiscal year 2007 
Continuing Resolution funds, which were held at fiscal year 2006 
levels. The increase is a result of the costs associated with annual 
salaries and merit increases in fiscal year 2007 not previously funded 
($1,112,000), the costs associated with the annual Cost of Living 
Adjustment for fiscal year 2008 ($650,000), and funding for merit 
increases and other staffing ($684,000). The operating budget 
represents an increase of $20,000 from fiscal year 2007.
    The net effect of my total budget request for 2008 is an increase 
of $2,466,000. Our request is consistent with the amounts requested and 
received in recent years through the Legislative Branch Appropriations 
process, aside from last fiscal year when funding as a result of the 
Continuing Resolution was held to the previous year's level. This 
request will enable us to continue to attract and retain talented and 
dedicated individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Items                                 fiscal year      estimates      Difference
                                                                   2007, Public     fiscal year
                                                                     Law 110-5         2008
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $630,000        $550,000        -$80,000
    Administrative services.....................................      $1,290,000      $1,390,000       +$100,000
    Legislative services........................................         $60,000         $60,000  ..............
                                                                 -----------------------------------------------
      Total operating budget....................................      $1,980,000      $2,000,000        +$20,000
----------------------------------------------------------------------------------------------------------------

                     implementing mandated systems
    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 Senate offices. Consistent with our five year 
strategic plan, the Disbursing Office continues to modernize processes 
and applications to meet the continued demand by Senate offices for 
efficiency, accountability and ease of use. Our goals are to move to an 
integrated, paperless voucher system, improve the Web FMIS system, and 
make payroll and accounting system improvements.
    During fiscal year 2006 and the first half of fiscal year 2007, 
specific progress made on the FMIS project included:
  --Web FMIS was upgraded twice, once in January 2006 and again in 
        December 2006. This system is used by office managers and 
        committee clerks to create vouchers and manage office funds, by 
        the Disbursing Office to review vouchers and by the Senate 
        Committee on Rules and Administration to sanction vouchers. 
        These two releases provided both technical and functional 
        changes. Most significant of these is the integration of the 
        travel advance and cash advance tracking functionality of the 
        standalone Funds Advance Tracking System (FATS). As a result of 
        this change, an office manager knows before coming to the 
        Disbursing Office front counter whether a travel advance can be 
        issued. The system changes support the underlying rules 
        associated with travel advances that were issued by the Senate 
        Committee on Rules and Administration in December 2006. As a 
        result of the integration of the advance functions into Web 
        FMIS, the standalone FATS system was shut down during the first 
        week of March.
  --The Senate Automated Vendor Inquiry (SAVI) System was upgraded in 
        December 2006. It is used by Senate staff to create expense 
        summary reports (ESRs) online and to check the status of 
        reimbursements. It is integrated with Web FMIS so that vouchers 
        are created in Web FMIS from ``imported'' ESRs without re-
        typing the expense and itinerary data shown on the ESR. SAVI 
        release 4.0 addressed requests from SAVI users to reduce the 
        number of pages for an average travel ESR from 3 to 2 by 
        collapsing any sections in which there are no expenses.
  --ADPICS was upgraded twice, once in March 2006 and again in October 
        2006. Used primarily by the Sergeant at Arms (SAA) finance 
        staff, it is a mainframe system that provides integrated 
        procurement, receiving and voucher preparation functions that 
        are not included in Web FMIS. In response to requests from the 
        SAA finance staff, functional and ``ease-of-use'' changes to 
        ADPICS were made to approximately 40 ADPICS and FAMIS screens. 
        These included adding fields on specific screens, modifying 
        calculations, modifying query results, and facilitating 
        ``round-trip'' linking from one screen to another and then back 
        to the original.
  --The computing infrastructure for FMIS is provided by the SAA. Each 
        year the SAA staff upgrades the infrastructure hardware and 
        software. Two major upgrades were accomplished during the last 
        year. The first, upgrading the FMIS database software, DB2 from 
        version 7 to version 8, was done in three ``steps'', the last 
        of which was completed in August 2006. The second, installing a 
        new mainframe, first at the Alternate Computer Facility (ACF) 
        and then at the Primary Computing Facility in the Postal Square 
        Building (PCF), was completed in December 2006. For each 
        activity, the Disbursing Office staff tested the changes in the 
        FMIS testing environment and then validated the changes in the 
        production environment.
  --Disaster operation services for FMIS are provided at the ACF. In 
        October 2006, the SAA conducted a day-long disaster recovery 
        test of the Senate's computing facilities, including FMIS 
        functions. The test involved switching the Senate's network 
        from accessing systems at the PCF, to the ACF, our backup 
        location, and powering down the PCF. The Disbursing Office 
        staff successfully tested all critical online components of 
        FMIS, including Payroll, ADPICS, FAMIS, SAVI, Web FMIS, and 
        Checkwriter. Two components were not tested: printing documents 
        from ADPICS for SAA finance, which required hardware that was 
        not yet at the ACF; and running the overnight batch processes.
    During the remainder of fiscal year 2007 the following FMIS 
activities are anticipated:
  --Implementing additional system and reporting enhancements for the 
        SAA.
  --Implementing a new release of Web FMIS that:
    --Integrates additional functionality from the FATS system to track 
            election moratorium periods that informs an office manager 
            when a voucher includes travel related expenses that are 
            not allowable during the 60 days prior to an election;
    --Enhances the pages used by the Senate Committee on Rules and 
            Administration Audit staff to review and sanction vouchers 
            to use newer technology and make functional changes to 
            support imaging and electronic signature functions;
    --Enhances the Office Budget page to simplify creation of a budget; 
            and
    --Allows ``importing'' of data from the Bank of America credit card 
            program in order to simplify voucher creation.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, and imaging of 
        supporting documentation, and beginning acquisition.
  --Implementing online distribution of payroll system reports.
  --Implementing e-mail notification to vendors of payments made via 
        direct deposit.
  --Upgrading the Hyperion Financial Management (HFM) system, the 
        software to be used for creating financial statements should 
        the Senate decide to issue such statements.
  --Testing and verifying an upgrade of the mainframe operating system 
        to Z/OS version 1.7
  --Participating in the yearly disaster recovery test.
    During fiscal year 2008 the following FMIS activities are 
anticipated:
  --Eliminating the Social Security number (SSN) as the key field in 
        the payroll system and all Senate systems receiving data from 
        the payroll system (e.g., FMIS employee vendor numbers).
  --Converting all data in FMIS using employee vendor number based on 
        SSN to new employee vendor number.
  --Conducting a pilot of the technology for paperless payment. This 
        assumes identification of satisfactory hardware and software 
        for electronic signatures and imaging of supporting 
        documentation, and resolution of related policy and process 
        issues.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.
                         capitol visitor center
    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address issues 
that might impact the status of the project or the operation of 
Congress in general.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the CVC will bring 
substantial improvements in enhanced security and visitor amenities, 
and its educational benefits for our visitors will be tremendous.
      continuity of operations and emergency preparedness planning
Background
    The Office of the Secretary maintains a COOP program to ensure that 
the Senate can fulfill its Constitutional obligations under any 
circumstances. Plans are in place to support Senate floor operations 
both on and off Capitol Hill, and to permit each department within the 
Office of the Secretary to perform its essential functions during and 
after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, the Office has successfully implemented COOP plans 
during the anthrax and ricin incidents, and has conducted more than 
thirty drills and exercises to test and refine our plans. In 
conjunction with the SAA, USCP, and the Offices of the Attending 
Physician (OAP) and the AOC, the Office of the Secretary has 
established and exercised Emergency Operations Centers, Briefing 
Centers, the Leadership Coordination Center and Alternate Senate 
Chambers, both on and off Capitol Hill.
    In addition, the office has identified equipment, supplies and 
other items critical to the conduct of essential functions, and has 
assembled ``fly-away kits'' for the Senate Chamber, and for each 
Department of the Office of the Secretary. Multiple copies of each fly-
away kit have been produced; some are stored in offices, and back-up 
kits are stored nearby but off the main campus, as well as at other 
sites outside the District of Columbia. This approach will enable the 
Office of the Secretary to resume essential operations in 12 to 24 
hours, even if the staff cannot retrieve anything from their offices.
    Today, the Office of the Secretary is prepared to do the following 
in the event of emergency:
  --support Senate floor operations in an Alternate Senate Chamber 
        within 12 hours on campus, and within 24 to 72 hours off 
        campus, depending upon location;
  --support an emergency legislative session at a Briefing Center, if 
        required;
  --support Briefing Center Operations at any of three designated 
        locations within one hour;
  --activate an Emergency Operations Center at Postal Square or another 
        near-campus site within one hour; and
  --activate an Emergency Operations Center at another site within the 
        National Capital Region within three hours.
Activities in the Past Year
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following:
  --Updated plans for use of the Leadership Coordination Center, to 
        support Leadership response to an incident, and the Office of 
        the Secretary's Emergency Operations Center.
  --Worked with the Sergeant at Arms on development of a joint program 
        to facilitate writing, maintaining and implementing COOP plans.
  --Worked with the SAA, the OAP, and the AOC on contingency plans for 
        a pandemic influenza outbreak.
  --Conducted and participated in 10 emergency preparedness drills and 
        exercises.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our emergency preparedness programs are 
designed to ensure that the Senate can carry out its Constitutional 
functions under any circumstances. These programs are critical to our 
mission and are a permanent, integral part of our operations.
                          legislative offices
    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to carry out their 
daily chamber activities and the constitutional responsibilities of the 
Senate. The department consists of eight offices--the Bill Clerk, 
Captioning Services, Daily Digest, Enrolling Clerk, Executive Clerk, 
Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates, which are supervised by the Secretary through the Director of 
Legislative Services. The Parliamentarian's office is also part of the 
Legislative Department of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors in the Office of 
the Secretary of the Senate is 18 years. The experience of these senior 
professional staff is a great asset for the Senate. In order to ensure 
well-rounded expertise, the legislative team cross-trains extensively 
among their specialties.
                             1. bill clerk
    The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved, so the Bill Clerk's office is generally 
regarded as the most timely and most accurate source of legislative 
information.
Legislative Activity
    The Bill Clerk's office processed into the database more than 1,500 
additional legislative items and 50 additional roll call votes than the 
previous session. Of most significant note, the number of Senate 
Resolutions submitted increased dramatically to reach 634, the highest 
number submitted in any one Congress.
    For comparative purposes, below is a summary of the second sessions 
of the 108th and 109th Congresses, followed by a cumulative summary of 
final numbers from each Congress:

----------------------------------------------------------------------------------------------------------------
                                                              108th         109th
                                                            Congress,     Congress,       108th         109th
                                                           2nd Session   2nd Session    Congress      Congress
----------------------------------------------------------------------------------------------------------------
Senate Bills............................................         1,032         1,953         3,035         4,122
Senate Joint Resolutions................................            16            14            42            41
Senate Concurrent Resolutions...........................            66            48           152           123
Senate Resolutions......................................           204           287           487           634
Amendments Submitted....................................         1,857         2,544         4,088         5,239
House Bills.............................................           322           325           604           611
House Joint Resolutions.................................            12             8            32            19
House Concurrent Resolutions............................            87            77           165           165
Measures Reported.......................................           317           233           659           519
Written Reports.........................................           208           157           428           369
                                                         -------------------------------------------------------
      Total Legislation.................................         4,121         5,646         9,692        11,842
Roll Call Votes.........................................           216           279           675           645
----------------------------------------------------------------------------------------------------------------

Assistance with the Government Printing Office
    The Bill Clerk's office maintains a good working relationship with 
the Government Printing Office (GPO) and seeks to provide the best 
service possible to meet the needs of the Senate. GPO continues to 
respond in a timely manner to the Secretary's request, through the Bill 
Clerk's office, for the printing of bills and reports, including the 
expedited printing of priority matters for the Senate chamber. To date, 
at the request of the Secretary through the Bill Clerk, GPO expedited 
the printing of over 100 measures for consideration by the Senate 
during the 109th Congress.
                    2. office of captioning services
    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices via the Senate Intranet.
    Accuracy continues to be the top priority of the office. Overall 
caption quality is monitored through daily Translation Data Reports, 
monitoring of captions in realtime, and review of caption files on the 
Senate Intranet. Dedication to this process has produced an overall 
average office accuracy rate above 99 percent this past year, the 13th 
year in a row the office has achieved this feat.
    Continuity of Operations Planning (COOP) and preparation throughout 
2006 also was a priority to ensure that staff are prepared and 
confident about the ability to relocate and successfully caption from a 
remote location in the event of an emergency.
    The office continues to prepare and plan for its relocation to the 
Senate expansion space in the Capitol Visitor Center (CVC), where it 
will be housed with the Senate Recording Studio.
                         3. senate daily digest
    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest.
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference.
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's Web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which appears in the Extensions of Remarks section of 
        the Congressional Record.
  --To enter into LIS all official actions taken by Senate committees 
        on legislation, nominations, and treaties.
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law.
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes. (See Chart--Resume of Congressional Activity)
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.
Committee Activity
    Senate committees held 916 meetings during the second session of 
the 109th Congress, 153 more than were held during the second session 
of the 108th Congress.
    All hearings and business meetings (including joint meetings and 
conferences) are scheduled through the Office of the Senate Daily 
Digest, published in the Congressional Record and entered in LIS. 
Meeting outcomes are also published by the Daily Digest in the 
Congressional Record each day.
Chamber Activity
    The Senate was in session 138 days, for a total of 1,027 hours and 
48 minutes, and conducted one live quorum call and 279 roll call votes. 
(See 20-Year Comparison of Senate Legislative Activity)
Computer Activities
    The Digest continues the practice of sending a disc containing the 
complete publication along with a duplicate hard copy to GPO at the end 
of the day. GPO receives the Digest copy by electronic transfer, which 
promotes the timeliness of publishing the Congressional Record. The 
office continues to feel comfortable with this procedure, both to allow 
the Digest Editor to physically view what is being transmitted to GPO, 
and to allow GPO staff to have a comparable final product to cross 
reference.
    The Digest office will soon implement a new procedure for preparing 
copy. Information System staff has worked closely with the Daily Digest 
staff to develop a Daily Digest Authoring System. The system will 
streamline the process for creating, editing, and managing files for 
the publication of the Daily Digest, and the publishing of the 
Congressional Record. Also, Digest staff continue to work closely with 
computer staff to refine the LIS/DMS system, including further refining 
the Senate Committee Scheduling application.
Government Printing Office
    The Daily Digest continues to work with GPO on issues related to 
the printing of the Digest and is pleased to report that editing 
corrections, especially the insertion of page reference numbers, and 
transcript errors are infrequent. Discussions with GPO continue 
regarding the inclusion of online corrections.
Office Summation
    The Daily Digest consults on a daily basis with the Senate 
Parliamentarians, the Official Reporters of Debates, and the 
Legislative, Executive, Journal, and Bill Clerks, as well as the staffs 
of the policy committees and other committee staffs, and is grateful 
for the continued support from these offices.

                          DATA ON LEGISLATIVE ACTIVITY--SECOND SESSION, 109TH CONGRESS
----------------------------------------------------------------------------------------------------------------
                                                                      Senate           House           Total
----------------------------------------------------------------------------------------------------------------
Days in Session.................................................             138             101  ..............
Time in Session.................................................   1,027 hrs 48"    850 hrs, 19"  ..............
Congressional Record:
    Pages of proceedings........................................          S11849           H9202  ..............
    Extension of remarks........................................  ..............           E2187  ..............
Public bills enacted into law...................................              73             175             248
Private bills enacted into law..................................               1  ..............               1
Bills in conference.............................................               1               4               5
Measures passed, total..........................................             635             710           1,345
    Senate bills................................................             142              87  ..............
    House bills.................................................             211             319  ..............
    Senate joint resolutions....................................               2               2  ..............
    House joint resolutions.....................................               8               8  ..............
    Senate concurrent resolutions...............................              20               8  ..............
    House concurrent resolutions................................              41              77  ..............
    Simple resolutions..........................................             211             209  ..............
Measures reported, total \1\....................................             231             345             576
    Senate bills................................................             160              10  ..............
    House bills.................................................              57             223  ..............
    Senate joint resolutions....................................               3  ..............  ..............
    House joint resolutions.....................................  ..............               1  ..............
    Senate concurrent resolutions...............................               4  ..............  ..............
    House concurrent resolutions................................  ..............               9  ..............
    Simple resolutions..........................................               7             102  ..............
Special reports.................................................               9              12  ..............
Conference reports..............................................               1               9  ..............
Measures pending on calendar....................................             303             159  ..............
Measures introduced, total......................................           2,302           2,451           4,753
    Bills.......................................................           1,953           1,785  ..............
    Joint resolutions...........................................              14              27  ..............
    Concurrent resolutions......................................              48             174  ..............
    Simple resolutions..........................................             287             465  ..............
Quorum calls....................................................               1               2  ..............
Yea-and-nay votes...............................................             279             287  ..............
Recorded votes..................................................  ..............             252  ..............
Bills vetoed....................................................  ..............               1  ..............
Vetoes overridden...............................................  ..............  ..............  ..............
----------------------------------------------------------------------------------------------------------------
\1\ These figures include all measures reported, even if there was no accompanying report. A total of 155
  reports have been filed in the Senate, a total of 366 reports have been filed in the House.


                           NOMINATIONS--RESUME
[Disposition of Executive Nominations (109-2) From: 01/03/2006 to 12/31/
                                  2006]
------------------------------------------------------------------------

------------------------------------------------------------------------
Civilian Nominations, totaling 618 (including 148
 nominations carried over from the First Session),
 disposed of as follows:
    Confirmed.....................................                   415
    Withdrawn.....................................                    21
    Returned to White House.......................                   182
Other Civilian Nominations, totaling 3266
 (including 780 nominations carried over from the
 First Session), disposed of as follows:
    Confirmed.....................................                 3,263
    Withdrawn.....................................                     1
    Returned to White House.......................                     2
Air Force Nominations, totaling 7830 (including
 100 nominations carried over from the First
 Session), disposed of as follows:
    Confirmed.....................................                 7,829
    Returned to White House.......................                     1
Army Nominations, totaling 9785 (including 608
 nominations carried over from the First Session),
 disposed of as follows:
    Confirmed.....................................                 9,772
    Returned to White House.......................                    13
Navy Nominations, totaling 7036 (including 21
 nominations carried over from the First Session),
 disposed of as follows:
    Confirmed.....................................                 7,035
    Returned to White House.......................                     1
Marine Corps Nominations, totaling 1293 (including
 2 nominations carried over from the First
 Session), disposed of as follows:
    Confirmed.....................................                 1,289
    Returned to White House.......................                     4
Summary:
    Total Nominations carried over from the First                  1,659
     Session......................................
    Total Nominations Received this Session.......                28,169
    Total Confirmed...............................                29,603
    Total Unconfirmed.............................  ....................
    Total Withdrawn...............................                    22
    Total Returned to the White House.............                   203
------------------------------------------------------------------------


                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1987          1988          1989          1990          1991          1992          1993          1994          1995          1996
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/6          1/25           1/3          1/23           1/3           1/3           1/5          1/25           1/4           1/3
Senate Adjourned....................................         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01        1/3/96          10/4
Days in Session.....................................           170           137           136           138           158           129           153           138           211           132
Hours in Session....................................      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"      1,83910"      1,03645"
Average Hours per Day...............................           7.1           8.2           7.4           9.1           7.6           8.5           8.3           9.0           8.7           7.8
Total Measures Passed...............................           616           814           605           716           626           651           473           465           346           476
Roll Call Votes.....................................           420           379           312           326           280           270           395           329           613           306
Quorum Calls........................................            36            26            11             3             3             5             2             6             3             2
Public Laws.........................................           240           473           240           244           243           347           210           255            88           245
Treaties Ratified...................................             3            15             9            15            15            32            20             8            10            28
Nominations Confirmed...............................        46,404        42,317        45,585        42,493        45,369        30,619        38,676        37,446        40,535        33,176
Average Voting Attendance...........................         94.03         91.58          98.0         97.47         97.16          95.4          97.6         97.02         98.07         98.22
Sessions Convened Before 12 Noon....................           131           120            95           116           126           112           128           120           184           113
Sessions Convened at 12 Noon........................            12            12            14             4             9  ............             6             9             2            15
Sessions Convened after 12 Noon.....................            25             5            27            17            23            10            15            17            12             7
Sessions Continued after 6 p.m......................            97            37            88           100           102            91           100           100           158            88
Sessions Continued after 12 Midnight................             6             7             9            13             6             4             9             7             3             1
Saturday Sessions...................................             3  ............             1             3             2             2             2             3             5             1
Sunday Sessions.....................................             1  ............  ............             2  ............  ............  ............  ............             3  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1997          1998          1999          2000          2001          2002          2003          2004          2005          2006
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3          1/27           1/6          1/24           1/3          1/23           1/7          1/20           1/4           1/3
Senate Adjourned....................................         11/13         10/21         11/19         12/15         12/20         11/20          12/9          12/8         12/22          12/9
Days in Session.....................................           153           143           162           141           173           149           167           133           159           138
Hours in Session....................................      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"      1,22226"      1,02748"
Average Hours per Day...............................           7.1           7.7           7.3           7.2           7.1           7.0           8.7           7.7           7.7           7.4
Total Measures Passed...............................           386           506           549           696           425           523           590           663           624           635
Roll Call Votes.....................................           298           314           374           298           380           253           459           216           366           279
Quorum Calls........................................             6             4             7             6             3             2             3             1             3             1
Public Laws.........................................           153           241           170           410           136           241           198           300           169           248
Treaties Ratified...................................            15            53            13            39             3            17            11            15             6            14
Nominations Confirmed...............................        25,576        20,302        22,468        22,512        25,091        23,633        21,580        24,420        25,942        29,603
Average Voting Attendance...........................         98.68         97.47         98.02         96.99         98.29         96.36         96.07         95.54         97.41         97.13
Sessions Convened Before 12 Noon....................           115           109           118           107           140           119           133           104           121           110
Sessions Convened at 12 Noon........................            12            31            17            25            10            12             4             9             1             4
Sessions Convened after 12 Noon.....................             7             2            19            24            21            23            23            21            36            24
Sessions Continued after 6 p.m......................            96            93           113            94           108           103           134           129           120           129
Sessions Continued after 12 Midnight................  ............  ............  ............  ............             2             3             8             2             3             3
Saturday Sessions...................................             1             1             3             1             3  ............             1             2             2             2
Sunday Sessions.....................................             1  ............  ............             1  ............  ............             1             1             2  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

                           4. enrolling clerk
    The Enrolling Clerk prepares, proofreads, corrects, and prints all 
Senate-passed legislation prior to its transmittal to the House of 
Representatives, the National Archives, the Secretary of State, the 
United States Claims Court, and the White House.
    During 2006, 99 enrolled bills (transmitted to the President), 2 
enrolled joint resolutions (transmitted to the President) and 9 
concurrent resolutions (transmitted to Archives) were prepared, 
proofread, corrected, and printed on parchment for official enrollment. 
In addition, the office processed a total of 571 additional pieces of 
legislation that were passed or agreed to by the Senate.
    Throughout 2006 the enrolling clerks met with personnel of the LIS 
Project Office to integrate and test the LEXA application for 
processing bills for printing. The LEXA training manual was updated in 
early February 2006; and, as of January 2007, the enrolling clerks are 
now incorporating the new legislative drafting tool. Senate Enrolling 
will embark in this new challenge to continue to help incorporate these 
changes into the process to further its primary mission of providing 
the most timely and accurate product for the Senate.
                           5. executive clerk
    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Journal of the Executive 
Proceedings of the Senate at the end of each session of Congress. The 
Executive Clerk also prepared the Executive Calendar daily as well as 
all nominations and treaty resolutions for transmittal to the 
President. Additionally, the Executive Clerk's office processes all 
executive communications, presidential messages and petitions and 
memorials.
Nominations
    During the second session of the 109th Congress, there were 1,049 
nomination messages sent to the Senate by the President, transmitting 
28,169 nominations to positions requiring Senate confirmation and 22 
messages withdrawing nominations sent to the Senate during the second 
session of the 109th Congress. Of the total nominations transmitted, 
370 were for civilian positions other than lists in the Foreign 
Service, Coast Guard, NOAA, and Public Health Service. In addition, 
there were 2,486 nominees in the ``civilian list'' categories named 
above. Military nominations received this session totaled 25,213 
(7,730--Air Force; 9,177--Army; 7,015--Navy and 1,291--Marine Corps). 
The Senate confirmed 29,603 nominations this session. Pursuant to the 
provisions of paragraph six of Senate Rule XXXI, 203 nominations were 
returned to the President during the second session of the 109th 
Congress.
Treaties
    There were 14 treaties transmitted to the Senate by the President 
during the second session of the 109th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 109-9 through 109-22). The 
Senate gave its advice and consent to 14 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.
Executive Reports and Roll Call Votes
    There were 11 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
109th Congress (Executive Report 109-9 through 109-19). The Senate 
conducted 29 roll call votes in executive session, all on or in 
relation to nominations and treaties.
Executive Communications
    For the second session of the 109th Congress, 4,186 executive 
communications, 192 petitions and memorials and 23 Presidential 
messages were received and processed.
LIS Update
    The Executive Clerk consulted with the computer staff during the 
year to improve the LIS processing of nominations, treaties, executive 
communications, presidential messages and petitions and memorials.
                            6. journal clerk
    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year, and 
in 2006, the Journal Clerk completed the production of the 1,090 page 
2005 edition.
    The Journal staff take 90-minute turns at the rostrum in the Senate 
chamber, noting by hand for inclusion in the Minute Book (i) all orders 
(entered into by the Senate through unanimous consent agreements), (ii) 
legislative messages received from the President of the United States, 
(iii) messages from the House of Representatives, (iv) legislative 
actions as taken by the Senate (including motions made by Senators, 
points of order raised, and roll call votes taken), (v) amendments 
submitted and proposed for consideration, (vi) bills and joint 
resolutions introduced, and (vii) concurrent and Senate resolutions as 
submitted. These notes of the proceedings are then compiled in 
electronic form for eventual publication at the end of each calendar 
year of the Senate Journal.
    The LIS Senate Journal Authoring System continues to be updated as 
needed to further assist in the efficiency of production. The 2006 
Senate Journal is expected to be sent to GPO for printing at the end of 
April.
                          7. legislative clerk
    The Legislative Clerk sits at the Secretary's desk in the Senate 
Chamber and reads aloud bills, amendments, the Senate Journal, 
Presidential messages, and other such materials when so directed by the 
Presiding Officer of the Senate. The Legislative Clerk calls the roll 
of members to establish the presence of a quorum and to record and 
tally all yea and nay votes. The office prepares the Senate Calendar of 
Business, published each day that the Senate is in session, and 
prepares additional publications relating to Senate class membership 
and committee and subcommittee assignments. The Legislative Clerk 
maintains the official copy of all measures pending before the Senate 
and must incorporate into those measures any amendments that are agreed 
to. This office retains custody of official messages received from the 
House of Representatives and conference reports awaiting action by the 
Senate. The office is responsible for verifying the accuracy of 
information entered into LIS by the various offices of the Secretary.
Summary of Activity
    The second session of the 109th Congress completed its legislative 
business and adjourned on December 9, 2006. During 2006, the Senate was 
in session 138 days and conducted 279 roll call votes. There were 231 
measures reported from committees and 635 total measures passed. In 
addition, there were 2,545 amendments processed.
Cross-Training
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training continues to be strongly emphasized among the 
Secretary's legislative staff. To ensure additional staff are trained 
to perform the basic floor responsibilities of the Legislative Clerk, 
as well as the various other floor-related responsibilities of the 
Secretary, approximately 50 percent of the legislative staff are 
currently involved or have recently been involved in cross-training.
Amendment Tracking System Feedback
    The Senate's Web-based application that allows users to access 
images of Senate amendments proposed to legislation is called the 
Amendment Tracking System (ATS). Developed in 1997 to provide the 
Senate with online access to amendments, ATS provides legislative staff 
with scanned images of the amendments, and descriptive information 
about them, including their purpose, sponsor, cosponsors, submitted 
date, proposed date, and status.
    In September of 2005, the scope of information available on ATS was 
expanded to include submitted amendments, those amendments that have 
been submitted but have not been proposed on the Senate floor. Staff 
members now have the option to view all, just submitted, or just 
proposed amendments. ATS also expanded the size of amendment images 
from 25 to 50 pages, so users are now able to see up to 50 pages of a 
submitted or proposed amendment.
    After utilizing the expanded version of the ATS for a full year, 
reaction from the Senate community continues to be extremely positive.
                    8. official reporters of debates
    The Official Reporters of Debates prepare and edit a substantially 
verbatim report of the proceedings of the Senate for publication in the 
Congressional Record, and serve as liaison for all Senate personnel on 
matters relating to the content of the Record. The transcript of 
proceedings, submitted statements and legislation are transmitted in 
hard copy and electronically throughout the day to GPO.
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors. The office provides formatting guidelines to 
Senate offices which has facilitated an accurate and timely printing of 
each day's Congressional Record.
                           9. parliamentarian
    The Parliamentarian's Office continues to perform its essential 
institutional responsibilities to act as a neutral arbiter among all 
parties with an interest in the legislative process. These 
responsibilities include advising the Chair, Senators and their staff, 
as well as committee staff, House members and their staffs, 
administration officials, the media and members of the general public, 
on all matters requiring an interpretation of the Standing Rules of the 
Senate, the precedents of the Senate, unanimous consent agreements, as 
well as provisions of public law affecting the proceedings of the 
Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs in coordinating all of the business 
on the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. In this respect, the Parliamentarians 
reviewed more than 1,000 amendments during 2006 to determine if they 
met various procedural requirements (such as germaneness). The 
Parliamentarians also reviewed thousands of pages of conference reports 
to determine what provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2006, the Parliamentarian and his assistants referred 
2,245 measures and 4,403 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. The office continues to address the 
jurisdictional questions posed by the creation of the new Department of 
Homeland Security, by the adoption of S. Res. 445 reorganizing 
intelligence and homeland security jurisdiction of the Senate's 
committees, and by the enactment of the Intelligence Reform and 
Terrorism Prevention Act of 2004. The Parliamentarians have made dozens 
of decisions about the committee referrals of nominations for new 
positions created in this department, nominations for positions which 
existed before this department was created but whose responsibilities 
have changed, and hundreds of legislative proposals concerning the 
department's responsibilities.
    Additionally, in the last six years, rules relating to legislation 
on appropriations bills, and the scope of conference reports on all 
bills were reinstated. As a result, the Parliamentarians have been 
asked to review hundreds of Senate amendments and now have the 
responsibility of potentially reviewing every provision of every 
conference report considered by both Houses of Congress.
    In 2006, as in all election years, the Parliamentarians received 
all of the certificates of election of Senators elected or reelected to 
the Senate, and reviewed them for sufficiency and accuracy, returning 
those that were defective and reviewing their replacements.
                financial operations: disbursing office
                     disbursing office organization
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed offices 
of the United States Senate, and to Members and employees of the 
Senate. To accomplish this mission, the Senate Disbursing Office 
manages the collection of information from the distributed accounting 
locations within the Senate to formulate and consolidate the agency 
level budget, disburse the payroll, pay the Senate's bills, prepare 
auditable financial statements, and provide appropriate counseling and 
advice. The Senate Disbursing office collects information from Members 
and employees that is necessary to maintain and administer the 
retirement, health insurance, life insurance, and other central human 
resource programs and provides responsive, personal attention to 
Members and employees on an unbiased and confidential basis. The Senate 
Disbursing Office also manages the distribution of central financial 
and human resource information to the individual Member offices, 
committees, administrative and leadership offices in the Senate while 
maintaining the confidentiality of information for Members and Senate 
employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured to enhance its ability to provide quality 
work, maintain a high level of customer service, promote good internal 
controls, efficiency and teamwork, and provide for the appropriate 
levels of supervision and management. The long-term financial needs of 
the Senate are best served by an organization staffed with highly 
trained professionals who possess a high degree of institutional 
knowledge, sound judgment, and interpersonal skills that reflect the 
unique nature of the United States Senate.
               deputy for benefits and financial services
    The principal responsibility of this position is to provide 
expertise and oversight on federal retirement, benefits, payroll, and 
financial services processes. Coordination of the interaction between 
the Financial Services (Front Office), Employee Benefits, and Payroll 
Sections is also a major responsibility of the position, in addition to 
the planning and project management of new computer systems and 
programs. The Deputy for Benefits and Financial Services ensures that 
job processes are efficient and up to date, modifies computer support 
systems, as necessary, implements regulatory and legislated changes, 
and designs and produces up-to-date forms for use in all three 
sections.
    After year-end processing of payroll for the calendar year 2005, 
minor enhancements to the cost of living allowance (COLA) process were 
smoothly completed. W-2's were issued promptly and made immediately 
available on the Document Imaging System (DIS). During the year, other 
minor changes were made to the Human Resources Management System (HRMS) 
to promote greater efficiency.
    DIS, which contains electronic images of employee personnel 
folders, documents, records, W-2 statements, as well as other pay and 
service history records, has proven to be a valuable resource for the 
Disbursing Office. As DIS began nearing its storage capacity, research 
was conducted and projections were made on future uses and capacity 
requirements. New SQL servers were requisitioned and installed. In 
addition to transferring data from old to new, including replication 
for the Alternate Computing Facility (ACF), testing of the new server 
has begun, and it is expected to be fully operational later this month. 
This upgrade will allow us the ability to expand the scope of our 
document imaging and to bring it into full compliance with COOP 
guidelines.
    The Senate Service Facility (SSF) was completed in February. 
Revolving vertical file cabinets were installed in the Disbursing 
Office's enclosed, secure and environmentally controlled area. In 
addition, a dedicated, secure ``cage'' was provided for organized and 
elevated box storage. Access was granted and security codes were 
authorized to those in need of access. All Disbursing Office files and 
employee personnel folders in the offsite warehouses were transported 
to the SSF. Employee personnel folders were then transferred from the 
70 outdated file cabinets into the state-of-the-art revolving vertical 
cabinets. This required a great deal of planning and organization to 
integrate the personnel folders from many groupings into one 
alphabetical run for ease of access and organization. During the 
summer, 18,000 of the older employee personnel folders maintained on-
site in the Disbursing Office were purged. These folders were 
transported to the SSF and interfiled with those folders already 
located there. This alleviated overcrowding of the Disbursing Office 
files and has made the older folders readily accessible.
    As a result of legislation passed in 2004, the new pre-tax Federal 
Employees Dental and Vision Insurance Program (FEDVIP) was implemented 
in 2006. In preparation for implementation, disbursing staff attended 
agency-wide meetings and seminars. The Office of Personnel Management 
(OPM) provides guidance for this program which is administered by a 
third-party administrator. Programming specifications were determined 
for compliance with the program's parameters and its regulations, and 
provided to the SAA Computer Center for development. The Disbursing 
Office provided testing and trouble-shooting for the new programming. 
Preparations for the first annual FEDVIP Open Season (OS) were made, 
including training, education and distribution of materials. The 
initial FEDVIP OS coincided with the Federal Employees Health Benefits 
(FEHB) and Flexible Spending Accounts (FSA) OS, and enrollments were 
effective 12-31-2006. This new program will be monitored with 
programming and procedures modified as needed.
    Updates and revision of many Disbursing Office forms were 
completed, and many were made available electronically through Webster. 
The Disbursing Office also worked with the SAA Computer Center to 
provide internal electronic storage and retrieval of reports and to 
eliminate the need for paper production and distribution of those 
reports.
    In addition, the Disbursing Office administers the retirement and 
benefits programs for the Senate Employees' Child Care Center (SECCC). 
In 2006 electronic imaging and storage of employee folders and 
documents for SECCC staff was completed as well as the creation of 
electronic retirement records.
    At the request of the Senate Committee Rules and Administration, 
the Disbursing Office worked to edit and update relevant portions of 
the Senate Handbook. In addition, Senator-elect information and 
guidance was also reviewed and updated for the orientation handbook.
          front office--administrative and financial services
    The Front Office is the main service area of all general Senate 
business and financial activity. The Front office maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
office provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Office is the first line of service provided to 
Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit. Staff is also provided verbal and written detailed 
information regarding pay and benefits. Authorization is certified to 
new and state employees for issuance of Senate identification cards. 
Advances are issued to Senate staff authorized for official Senate 
travel. Cash and check advances are entered and reconciled in the Funds 
Advance Tracking System (FATS). Repayment of travel advances is 
executed after processing of certified expenses is complete. Travelers 
checks are available on a non-profit basis to assist the traveler. 
Numerous inquiries are handled daily, ranging from pay, benefits, 
taxes, voucher processing, reporting, laws, and Senate regulations, and 
must always be answered accurately and fully to provide the highest 
degree of customer service. Cash and checks received from Senate 
entities as part of their daily business are handled through the Front 
office and become part of the Senate's accountability of federally 
appropriated funds and are then processed through the Senate's general 
ledger system.
General Activities
    Processed approximately 2,300 cash advances, totaling approximately 
$1.1 million and initialized 800 check/direct deposit advances, 
totaling approximately $620,000.
    Received and processed more than 25,000 checks, totaling over 
$2,500,000.
    Administered Oath and Personnel Affidavits to more than 2,700 new 
Senate staff and advised them of their benefits.
    Maintained brochures for 12 Federal health carriers and distributed 
approximately 4,000 brochures to new and existing staff during the 
annual FEHB OS.
    Provided 20 training sessions to new administrative managers.
    In December, the advance functionality module of Web FMIS was 
implemented to replace the legacy FATS system for issuance and 
repayment of travel advances. This implementation required the ongoing 
dual run of both systems until testing was successfully completed in 
March of this year.
    The Front office continues its daily reconciliation of operations 
and strengthened internal office controls. New locks for cash drawers 
were ordered and scheduled for installation. This will allow for better 
central control of the cash accountability. Training and guidance to 
new administrative managers and business contacts continued, as did the 
incorporation of updates of the scanning and imaging project into daily 
operations. A major emphasis was placed on assisting employees in 
maximizing their Thrift Savings Plan (TSP) contributions and making 
them aware of the TSP catch-up program. The Front office continued to 
provide the Senate community with prompt, courteous, and informative 
advice regarding Disbursing Office operations.
                            payroll section
    The Payroll Section maintains the Human Resources Management System 
(HRMS) and is responsible for processing, verifying, and warehousing 
all payroll information submitted to the Disbursing Office by Senators, 
Chairmen and other appointing officials for their staffs, including 
appointments of employees, salary changes, title changes, transfers and 
terminations. It is also responsible for input of all enrollments and 
elections submitted by Members and employees that affect their pay 
(e.g. retirement and benefits elections, tax withholding, TSP 
participation, allotments from pay, address changes, direct deposit 
elections, levies and garnishments) and for the issuance of accurate 
salary payments to Members and employees. The Payroll Section jointly 
maintains the Automated Clearing House (ACH) FedLine facilities with 
the Accounts Payable Section for the normal transmittal of payroll 
deposits to the Federal Reserve. Payroll Expenditure, Projection and 
Allowance reports are distributed to all Senate offices. Issuance of 
the proper withholding and agency contributions reports to the 
Accounting Department is handled by Payroll as is transmission of the 
proper TSP information to the National Finance Center. In addition, the 
Payroll Section maintains earnings records for distribution to the 
Social Security Administration and employees' taxable earnings records 
for W-2 statements. The Payroll Section is also responsible for the 
payroll expenditure data portion of the Report of the Secretary of the 
Senate. The Payroll Section calculates, reconciles and bills the SECCC 
(Child Care Center) for their staff Employee Contributions and forwards 
payment of those contributions to the Accounting Section. The Payroll 
Section provides guidance and counseling to staff and administrative 
managers on issues of pay, salaries, allowances and projections.
General Activities
    The Payroll Section processed a January 1, 2006 cost of living 
increase of 3.44 percent. The Payroll Section maintained the normal 
schedule of processing TSP election forms. Employees took full 
advantage of the increase of TSP deductions making the most of the new 
$15,000 maximum. For those employees over 50, the TSP catch-up program 
provided an opportunity to make additional contributions in excess of 
the standard limitations.
    Payroll Allowance, Expenditure and Projection reports are provided 
to all Senate offices on a monthly basis. A desire to provide these 
reports in an electronic format was identified. Brainstorming sessions 
were held within the Disbursing Office to determine possible paths for 
this project. Initial contacts between the Disbursing Office, SAA 
Computer Center and the appropriate contractor were made and early 
stage meetings have been held to identify requirements, possible 
strategies and means to provide the electronic reports. The goal is to 
make these reports available electronically in 2007.
    The Payroll Section provides administration of the Student Loan 
Repayment Program (SLRP). In response to the high volume of calls and 
e-mails, an exclusive SLP e-mail account has been established. This 
tool will speed responses to inquiries from offices and employees. In 
addition, meetings were held with office administrators to provide 
clarification about and to ensure compliance with Public Law 107-68 
that governs the Senate SLP.
    In November the Payroll Section gained access to the U.S. Treasury 
Pacer System, which allows us to resolve SLP lender issues and employee 
inquiries in an accurate and efficient manner by presenting physical 
evidence of payments negotiated. Disbursing continues to review 
internal processes and controls, seeking ways to improve efficiency and 
performance. In 2006, the office developed a database to provide better 
tracking and reporting for the SLP activities.
    In September the Payroll Section began to receive TSP reports, 
receipts, loans and error lists via TSP's Web-based secure system. This 
enabled us to handle all of these functions in a timely manner. 
Previously TSP correspondence was sent by mail and was subject to mail 
delays and loss.
    The Payroll Section was involved in the preparations and 
programming specifications for implementation of FEDVIPS. Flexible 
Spending Accounts, and Long Term Care Insurance processing continues. 
The office continues to refine and improve processes in working with 
third party administrators.
    The 2006 elections presented the Payroll Section with the need to 
prepare for the opening and closing of ten personal offices in addition 
to leadership changes. Disbursing Office staff looked into the 
specifics of S. Res. 478 to determine its impact on outgoing staff and 
to ensure that procedures allowed for the proper administration of the 
resolution.
    The Payroll Section again participated in disaster recovery 
testing. This year's test, conducted in October, entailed using the ACF 
processing equipment to operate the payroll/personnel system from the 
Hart Building while SAA programmers ran trial payrolls from dial up 
sources. Part of the test was for members of SAA Production Services to 
produce the payroll output from printers located at the ACF. The 
Payroll/Personnel Systems test proved that it could be run from 
multiple locations at the same time.
                       employee benefits section
    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. EBS staff is also expected to have a working knowledge of 
FSAs, the Long Term Care Insurance (LTCI) Program and FEDVIPS. In 
addition, the sectional work includes research and verification of all 
prior federal service and prior Senate service for new and returning 
appointees. EBS provides this information for payroll input and when 
Official Personnel Folders and Transcripts of Service from other 
federal agencies are received, verifies the accuracy of the information 
provided and reconciles as necessary. Senate Transcripts of Service, 
including all official retirement and benefits documentation, are 
provided to other federal agencies when Senate Members and staff are 
hired elsewhere in the government. EBS is responsible for the 
administration and tracking of employees placed in Leave Without Pay 
(LWOP) to perform military service and the occasional civilian 
appointment to an international organization. EBS also handles most of 
the stationery and forms inventory ordering and maintenance for the 
Disbursing Office. EBS processes employment verifications for loans, 
the Bar Exam, the Federal Bureau of Investigation (FBI), OPM, and 
Department of Defense (DOD), among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment, as are the employee fees associated 
with FSAs. Designations of Beneficiary for Federal Employees' Group 
Life Insurance (FEGLI), Civil Service Retirement System (CSRS), Federal 
Employees Retirement System (FERS), and unpaid compensation are filed 
and checked by EBS.
General Activities
    EBS assisted with the transition of Senator Corzine and his staff 
as he resigned his Senate seat to become Governor of New Jersey, as 
well as the transition of Senator Menendez and his staff to the Senate 
from his seat in the House. EBS also provided counseling to all 
outgoing Senators, and provided their outgoing staff with office talks 
and individual counseling. Additionally, EBS provided counseling to 
committee and leadership staff affected by leadership changes.
    EBS conducted agency-wide seminars on CSRS and FERS and hosted a 
seminar with the D.C. Department of Employment Services in December for 
all potentially outgoing staff. This seminar was very helpful to staff 
in providing pointers and references in applying for new employment.
    EBS staff attended interagency meetings on the development and 
understanding of the new FEDVIP program and the Benefeds Portal that 
will combine third-party administration of FSA, LTCI and the new FEDVIP 
programs. EBS also attended government-wide TSP meetings to keep 
abreast of new regulations and procedures.
    Approximately 500 employees changed plans during the annual FEHB 
OS. These changes were processed and reported to carriers very quickly. 
This year we were again able to offer Senate employees access to the 
online ``Checkbook Guide to Health Plans'' to research and compare FEHB 
plans. This tool will remain available to staff throughout the year. 
Once again, the Disbursing Office hosted a FEHB OS Health Fair, with 
over 1,200 employees attending. Senate enrollment in the new Dental and 
Vision Insurance plans was over 1,600.
    There has been significant coordination with the SAA Computer 
Center to effect computer enhancements and provide additional automated 
forms to the EBS database. This has provided greater efficiency and 
increased accuracy of information. In addition, EBS created several 
``fillable forms'' for use by EBS staff.
    EBS is in the process of building a sectional electronic 
``library'' of scanned documents on our shared directory. This library 
of samples, documentation, rulings and other benefits will help to 
teach new personnel to ensure consistent EBS output. The library will 
also be a valuable COOP resource.
                 disbursing office financial management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities, to process and 
pay expense vouchers within reasonable time frames, to work toward 
producing an auditable consolidated financial statement for the Senate 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
Disbursing Office Financial Management is segmented into three 
functional departments: Accounting, Accounts Payable, and Budget. The 
Accounts Payable Department is subdivided into three sections: Audit, 
Disbursement and Vendor/SAVI. The Deputy coordinates the activities of 
the three functional departments, establishes central financial 
policies and procedures, acts as the primary liaison to the HR 
Administrator, and carries out the directives of the Financial Clerk 
and the Secretary of the Senate.
                         accounting department
    During fiscal year 2006, the Accounting Department approved in 
excess of 53,000 expense reimbursement vouchers, processed 1,300 
deposits for items ranging from receipts received by the Senate 
operations, such as the Senate's revolving funds, to cancelled 
subscription refunds from Member offices. General ledger maintenance 
also prompted the entry of thousands of adjustment entries that include 
the entry of all appropriation and allowance funding limitation 
transactions, all accounting cycle closing entries, and all non-voucher 
reimbursement transactions such as payroll adjustments, COLA budget 
uploads, stop payment requests, travel advances and repayments, and 
limited payability reimbursements. The department began scanning all 
documentation for journal vouchers, deposits, accounting memos, and 
letters of certification to facilitate both storage concerns and COOP 
backup.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement Db2 version 8 Compatibility and New Features 
modes, and an upgrade to the mainframe operating system to Z/OS. During 
January 2006, the Accounting Department with contract support completed 
the 2005 year-end process to close and reset revenue, expense, and 
budgetary general ledger accounts to zero. The new CD log was developed 
and extensive regression testing was required. The log is now fully 
functional. Document purge and rollover were turned over to the IT 
group as the department geared up for 2006 fiscal year-end closing 
activities.
    The Department of the Treasury's monthly financial reporting 
requirements include a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, reported to the 
Department of the Treasury on a monthly basis is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts, a 
summary all activity of all monies disbursed by the Secretary of the 
Senate through the Financial Clerk of the Senate. All activity by 
appropriation account is reconciled with the Department of the Treasury 
on a monthly and annual basis. The annual reconciliation of the 
Treasury Combined Statement is also used in the reporting to the Office 
of Management and Budget (OMB) as part of the submission of the annual 
operating budget of the Senate.
    This year, the Accounting Department transmitted all federal tax 
payments for federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security, and Medicare to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the TSP.
    There are also internal reporting requirements such as the monthly 
ledger statements for all Member offices and all other offices with 
payroll and non-payroll expenditures. These ledger statements detail 
all of the financial activity for the appropriate accounting period 
with regard to official expenditures in detail and summary form. It is 
the responsibility of the Accounting Department to review and verify 
the accuracy of the statements before Senate-wide distribution.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, continues to work closely with the SAA Finance 
Department in completing the corrective actions that were identified 
during our Pro-forma financial statements auditability assessment. 
Based on the results of this exercise, 23 corrective actions were 
suggested including an action plan and proposed schedule to have them 
corrected. Some of the actions were rather simple to implement while 
others will take significantly longer. Of the 23 corrective actions 
noted, 18 have been completed and 5 are still in process.
    Accounting also has a budget division whose primary responsibility 
is compiling the annual operating budget of the United States Senate 
for presentation to the Committee on Appropriations. The Budget 
division is responsible for the preparation, issuance and distribution 
of the budget justification worksheets (BJW). In fiscal year 2006, the 
budget justification worksheets were mailed to the Senate accounting 
locations and processed in December. The budget baseline estimates for 
fiscal year 2007 were reported to OMB by mid-January, via the upgraded 
MAX database.
    During January, the Senate Budget Analyst is responsible for the 
preparation of 1099's and the prompt submission of forms to the IRS 
before the end of the month.
                            accounts payable

             Vendor/Senate Automated Vendor Inquiry Section

    The Vendor/Senate Automated Vendor Inquiry (SAVI) Section maintains 
the accuracy and integrity of the Senate's central vendor (payee) file 
for the prompt completion of new vendor file requests and service 
requests related to the Disbursing office's Web-based payment tracking 
system known as SAVI. This section also assists the IT Department 
performing periodic testing and monitoring the performance of the SAVI 
system.
    Currently, more than 14,400 vendor records are stored in the vendor 
file. Daily requests for new vendor addresses or updates to existing 
vendor information are processed within 24 hours of being received. In 
2004, the A/P Department began paying vendors electronically via the 
ACH. Besides updating mailing addresses, the Vendor/SAVI section 
facilitates the use of ACH by switching the method of payment requested 
by the vendor from check to direct deposit. Whenever a new remittance 
address is added to the vendor file, a standard letter is mailed to 
vendors requesting tax and banking information. If a vendor responds to 
our letter and indicates they would like to receive ACH payments in the 
future, the method of payment is changed. Currently, more than 1,800 
vendors and over half of the home state office landlords are being paid 
via ACH.
    SAVI is the Disbursing office's Web-based payment tracking system. 
Senate employees can electronically create, save, and file expense 
reimbursement forms, track their progress, and get detailed information 
on payments. The most common service requests are requests for system 
user ids, system passwords and to activate deactivated accounts. 
Employees may also request an alternative expense payment method. An 
employee can choose to have their payroll set up for direct deposit or 
paper check, but can have their expenses reimbursed by a method 
different from their salary payment method.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group resolving returned ACH payments. ACH payments are returned 
periodically for a variety of reasons, including incorrect account 
numbers, incorrect ABA routing numbers, and, in rare instances, a 
nonparticipating financial institution.
    The Vendor/SAVI section electronically scans and stores all 
supporting documentation of existing vendor records and new vendor file 
requests. Currently electronic records for over 9,000 vendors have been 
verified against paper records and the paper files certified for 
destruction. In the near future, this section will assist the IT 
Department in testing an automatic e-mail notification system which 
will alert vendors when an EFT payment has been made and will provide 
pertinent payment information.
    During 2006, the Vendor/SAVI section processed over 2,400 vendor 
file requests, completed nearly 1,800 SAVI service requests, mailed 
over 1,100 vendor information letters, and converted over 500 vendors 
to direct deposit.
    The SAVI web-based system was upgraded in 2006 to version 4.0, and 
the section participated in testing of new features and functionality.

                        Disbursements Department

    The department received and processed over 158,000 expense claims. 
The department also wrote more than 34,000 expense checks and 
approximately 57,500 direct deposit reimbursements were transmitted via 
ACH. The department has experienced a slight increase of roughly 5.7 
percent in the number of checks written and a slight increase of 2 
percent in the number of ACH payments. The department's goal is to 
reduce the number of checks and increase the number of ACH payments 
sent out. The department suffered no performance loss, ensuring that 
all vendors and employees continued to receive timely and accurate 
payments. ACH and check printing capabilities were established at the 
ACF. The ACF is stocked so COOP initiatives can be carried out. A new 
version of Checkwriter was installed as part of the release of Web FMIS 
version 11.
    After vouchers are paid, they are sorted and filed by document 
number. Vouchers are grouped in 6-month ``clusters'' to accommodate 
their retrieval for the semi-annual Report of the Secretary of the 
Senate. Currently, files are maintained for the current period and two 
prior periods in-house as space is limited. Previously, older documents 
were stored in the department's warehouse, but were successfully 
transferred to the SSF in February 2006.
    A major function of the department is to prepare adjustment 
documents. Adjustments are varied and include the following: 
preparation of foreign travel advances and vouchers, reimbursements for 
expenses incurred by Senate leadership, re-issuance of items held as 
accounts receivable collections, re-issuance of payments for which non-
receipt is claimed, and various supplemental adjustments received from 
the Payroll Department. Such adjustments are usually disbursed by 
check, but an increasing number are now handled electronically through 
the ACH. Paper payroll check registers were replaced by an electronic 
version using Reveal software. A spreadsheet was also created to track 
cases of non-receipt of salary checks, including stop payment requests 
and reissuance.
    During 2006, while small in number, some ACH returns occurred. All 
rejected items are logged into an ACH Reports folder. They are 
classified as either Payroll or Accounts Payable, and the actual daily 
reports are also scanned into the folder. Once logged in, the payroll 
items are forwarded to the Payroll Department, and the non-payroll 
items are forwarded to Vendor/SAVI for appropriate corrective action.
    The Accounts Payable Disbursements Department prepares mailing 
labels for the distribution of the monthly ledgers to the 140 
accounting locations throughout the Senate. Although the ledgers are 
sorted and sent out by Accounting, the Disbursements Group maintains 
the file of how and where the statements are to be delivered. The main 
objective of this process is to have each office receive their ledger 
statements for the month just ended by the 10th of the following month.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement Supervisor and the Accounts Payable Manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
online stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides online access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via e-mail. During 2006, over 500 requests were 
received for check copies.
    The Disbursements Department continues the use of laser checks. The 
tractor-fed check writer system has been dismantled and a new, improved 
system was developed and implemented. The folder/inserter was purchased 
and has been installed. New hardware and further Checkwriter upgrades 
were implemented in 2006. The result was a user friendly system which 
has the additional benefits of greater security and a higher degree of 
accuracy.

                            Audit Department

    The Accounts Payable Audit Section is responsible for auditing 
vouchers and answering questions regarding voucher preparation and the 
permissibility of expenses and advances. This section provides advice 
and recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains new 
administrative managers and chief clerks about Senate financial 
practices and the Senate's Financial Management Information System, and 
assists in the production of the Report of the Secretary of the Senate.
    A major function of the section is monitoring the Fund Advances for 
travel and petty cash. FATS was used to ensure that advances were 
charged correctly, vouchers repaying such advances were entered, and 
balances were adjusted for reuse of the advance funds. An ``aging'' 
process was also performed to ensure that travel advances are repaid in 
the time specified by the travel advance regulations. Travel advances 
may be repaid via regular voucher processing, or may be canceled if the 
corresponding travel is not taken and the funds are returned.
    Late in 2006, a new advance module was placed into service for 
issuing and tracking advances. The module is part of Web FMIS version 
11 and is the first of a two-phase project. The first phase has been 
completed and accommodates issuance, tracking, and repayment of 
advances. The second phase will accommodate entry and editing of 
election dates and Senator-elect vouchers. There is no conceptual 
difference in the way advances are issued and repaid, only the 
methodology involved in using FATS versus Web. FATS will ultimately be 
replaced once phase two of Web FMIS advances is implemented.
    Concurrently, the Accounts Payable Manager, Deputy for Financial 
Management, and the IT Department participated in discussions with the 
Senate Committee on Rules and Administration which led to a major 
revision to the Senate Travel Regulations. Among the many changes was a 
standardization of the number of travel advances any one individual may 
have outstanding at any given time. Prior to this, different entities 
had different limits and some had no limits at all. A maximum of two 
per individual was established. The advance revisions were included in 
the latest version of Web FMIS.
    The Accounts Payable Audit Section processed in excess of 158,000 
expense vouchers in fiscal year 2006, as well as 45,000 uploaded items. 
In addition, the section sanctioned in excess of 56,000 vouchers under 
authority delegated by the Senate Committee on Rules and 
Administration. The voucher processing consisted of providing 
interpretation of Senate rules, regulations and statutes and applying 
the same to expense claims, monitoring of contracts, and direct 
involvement with the Senate's central vendor file. On average, vouchers 
greater than $100 that do not have any issues or questions are 
received, audited, sanctioned electronically by the Senate Committee on 
Rules and Administration using Web FMIS and paid within 10 business 
days.
    Uploaded items are of two varieties, certified expenses and vendor 
payments. Certified expenses have been around since the 1980's and 
included items such as stationery, telecommunications, postage, and 
equipment. Currently, the certifications include mass transit, mass 
mail, franked mail, excess copy charges, Photographic Studio, and 
Recording Studio charges. Expenses incurred by the various Senate 
offices are certified to the Disbursing Office on a monthly basis. The 
expenses are detailed on a spreadsheet which is also electronically 
uploaded. The physical voucher is audited and appropriate revisions are 
made. Concentrated effort is put forth to ensure certified items appear 
as paid in the same month they are incurred.
    Vendor uploads are fairly new, and are used to pay vendors for the 
Stationery Room, Senate Gift Shop, state office rentals, and refunds of 
security deposits for the Page School. The methodology is roughly the 
same as for certifications, but the payments rendered are for the 
individual vendors. Although these items are generally processed and 
paid quickly, the state office rents are generally paid a few days 
prior to the month of the rental in keeping with a general policy of 
paying rent in advance.
    The Disbursing Office has sanctioning authority for vouchers of 
$100 or less. These vouchers comprise approximately 60 percent of all 
vouchers processed. The responsibility for sanctioning rests with the 
Certifying Accounts Payable Specialists and are received, audited, and 
paid within 5 business days of receipt. As in the previous year, 
Disbursing continued to pass two post-payment audits performed by the 
Senate Committee on Rules and Administration.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. Currently, there are three Certifying Accounts 
Payable Specialists who handle the bulk of the sanctioning 
responsibilities within the group. This, coupled with the reduced flow 
of vouchers to the Senate Committee on Rules and Administration, has 
allowed us to continue with their inclusion in the online sanctioning 
process.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section trained 10 new Administrative Managers and 
Chief Clerks and conducted three informational sessions for Senate 
staff through seminars sponsored by the Congressional Research Service 
(CRS). The Accounts Payable group also routinely assists the IT 
department and other groups as necessary in the testing and 
implementation of the new hardware, software, and system applications. 
Web FMIS version 10 was in use for most of the year with the 
electronic, importable expense summary report (ESR). The section 
participated in testing for the release of Web FMIS version 11 late in 
the year.
    The cancellation process for advances was upgraded and streamlined 
in 2006. This was necessary to ensure repayment of advances 
systematically for canceled or postponed travel in accordance with 
Senate Travel Regulations, as well as to provide functionality 
consistent with the release of the advance module in Web FMIS version 
11. The new process eliminates the need to create zero dollar vouchers, 
allows the Disbursing Office to completely handle the cancellations in 
FAMIS, and allows administrative managers to simply void their advance 
documents.
                disbursing office information technology

                Financial Management Information System

    The Disbursing Office Information Technology (IT) Department 
provides both functional and technical assistance for all Senate 
financial management activities. Activities revolve around support of 
the Senate's Financial Information System (FMIS) which is used by 140 
Senate accounting locations (i.e., 100 Senator's offices, 20 
committees, 20 leadership and support offices, the Office of the 
Secretary of the Senate, the Office of the Sergeant at Arms, the Senate 
Committee on Rules and Administration Audit section, and the Disbursing 
office). Responsibilities include:
  --Supporting current systems;
  --Testing infrastructure changes;
  --Managing and testing new system development;
  --Planning;
  --Managing the FMIS project, including contract management;
  --Administering the Disbursing Office's Local Area Network (LAN); and
  --Coordinating the Disbursing Office's Disaster Recovery activities.
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2006 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Systems staff, and contracts with 
BearingPoint.
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software, database software, and telecommunications; 
technical assistance for these components, including migration 
management, and database administration; and regular batch processing. 
BearingPoint, under contract with the SAA, is responsible for 
operational support, and under contract with the Secretary, for 
application development. The Disbursing office is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work cooperatively.
    Highlights of the year include:
  --Implementation of two releases of Web FMIS, including integration 
        of the travel advance functionality of the FATS;
  --Implementation of a release of SAVI that reduced the number of 
        pages of a standard Travel Expense Summary Report from 3 to 2;
  --Implementation of a release of Checkwriter;
  --Implementation of two sets of changes to ADPICS and FAMIS;
  --Testing of a major upgrade to the underlying database, from DB2v7 
        to DB2v8;
  --Testing of a new mainframe computer;
  --Support of the Senate Committee on Rules and Administration's post 
        payment audit of a statistically valid sample of vouchers of 
        $100 or less;
  --Installing new PCs throughout the Disbursing Office;
  --Coordinating and participating in the FMIS portion of a disaster 
        recovery exercise for the Alternate Computing Facility; and
  --Conducting monthly classes and seminars on Web FMIS.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that begins on the following page.

                       Supporting Current Systems

    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Disbursements and 
Front Office Sections, and the Senate Committee on Rules and 
Administration Audit staff. The activities associated with this 
responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of questions; and meet with chiefs of staff, 
        administrative managers, chief clerks, and directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for database access optimization;
  --Security--maintaining user rights for all ADPICS, FAMIS, and Web 
        FMIS users;
  --System administration--design, test and make entries to tables that 
        are intrinsic to the system;
  --Support of accounting activities--perform functional testing of the 
        cyclic accounting system activities such as rollover, the 
        process by which tables for the new fiscal year are created, 
        and archiving and purging for the current year tables data for 
        lapsed fiscal years;
  --Support the Senate Committee on Rules and Administration post 
        payment voucher audit process; and
  --Training--provide functional training to all Senate FMIS users.
    Under the supervision of the IT Group, the contractor created tools 
to determine the sample size, to enable selecting the sample from the 
universe of vouchers of $100 and less, and to determine the acceptable 
number of discrepancies given the sample size and the desired 
confidence interval. Both audits conducted in 2006 resulted in a 
favorable finding of zero discrepancies. The audit conducted in April 
2006 for the six-month period ending March 31, 2006, covered 26,162 
vouchers and the audit conducted in October 2006 for the six-month 
period ending September 30, 2006, covered 27,994 vouchers.

                                                                         SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
             Subsystem                             Functionality                                Source                                 Primary Users                       Implementation
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)..................  General ledger..........................  Off-the-shelf federal system............  Disbursing Office.......................  October 1998
                                     Vendor file
                                     Administrative functions
                                     Security functions
ADPICS (Mainframe).................  Preparation of requisition, purchase      Off-the-shelf federal system............  Sergeant at Arms........................  October 1998
                                      order, voucher from purchase order, and                                            Disbursing Office
                                      direct voucher documents.                                                          Secretary of the Senate
                                     Electronic document review functions
                                     Administrative functions
Checkwriter (Client-server)........  Prints checks and check registers as      Off-the-shelf state government system     Disbursing Office.......................  October 1998
                                      well as ACH (Automated Clearing House)    purchased from and adapted to Senate's
                                      direct deposit transmission payments.     requirements.
Web FMIS (Intranet)................  Preparation of voucher, travel advance,   Custom software developed by contractor.  All Senators' offices...................  October 1999--Client Server
                                      voucher from advance documents, credit                                             All Committee offices                     August 2004--Intranet
                                      documents and simple commitment and                                                All leadership & support offices
                                      obligation documents.                                                              Secretary of the Senate
                                     Entry of detailed budget                                                            Sergeant at Arms
                                     Reporting functions (described below)                                               Disbursing Office
                                     Electronic document submission and
                                      review functions.
                                     Administrative functions
FATS (PC-based)....................  Tracks travel advances and petty cash     Developed by SAA Technology Services....  Disbursing Office.......................  Spring 1983
                                      advances (available to Committees only).
                                     Tracks election cycle information
                                     We are in the process of integrating
                                      FATS functionality into Web FMIS. The
                                      December 2006 Web FMIS release
                                      integrated the travel advance and petty
                                      cash advance functionality of FATS.
Post Payment Voucher Audit (PC-      Selects a random sample of vouchers for   Excel spreadsheet developed.............  Senate Committee on Rules and             Spring 2003
 based).                              the Senate Committee on Rules and                                                   Administration And Disbursing Office.
                                      Administration to use in conducting a
                                      post payment audit. Sanctioning of
                                      these documents was delegated to the
                                      Financial Clerk.
SAVI (Intranet)....................  As currently implemented, provides self-  Off the shelf system purchased..........  Senate employees........................  Pilot--Spring 2002
                                      service access (via the Senate's                                                                                             Senate-wide--July 2002
                                      intranet) to payment information for
                                      employees receiving reimbursements.
                                     Administrative functions
Online ESR (Intranet)..............  A component of SAVI through which Senate  Custom software developed by contractor.  Senate employees........................  April 2003
                                      employees can create online Travel/Non-
                                      Travel Expense Summary Reports and
                                      submit them electronically to their
                                      Administrative Manager/Chief Clerk for
                                      processing.
Secretary's Report (Mainframe        Produces the Report of the Secretary of   Custom software developed by contractor.  Disbursing Office.......................  Spring 1999
 extracts, crystal reports, and       the Senate.
 client-server ``tool box'').
Ledger Statements (Mainframe         Produces monthly reports from FAMIS that  Developed by SAA Technology Serv-  ices.  Disbursing Office.......................  Winter 1999
 database extracts, and crystal       are sent to all Senate ``accounting                                                Senate Accounting Locations
 reports).                            locations''.
Web FMIS Reports (mainframe          Produces a large number of reports from   Custom software developed by contractor.  Senate Accounting Locations.............  October 1999--Client Server
 database extracts, crystal           Web FMIS, FAMIS and ADPICS data at                                                                                           April 2005--Intranet
 reports, and Intranet).              summary and detailed levels. Data is
                                      updated as an overnight process and can
                                      be updated through an online process by
                                      accounting locations.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

                     Testing Infrastructure Changes

    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew. During 2005 the SAA implemented two major upgrades 
to the FMIS infrastructure--upgrading the database software, DB2, from 
version 7 to version 8, and installing a new mainframe computer.
    For each upgrade, the Disbursing office tests all FMIS subsystems 
in a testing environment and verifies all FMIS subsystems in the 
production environment after the implementation. The change is 
implemented and production validation is done by the IT section.
    The DB2 upgrade required three such testing and validation periods 
during the spring and summer of 2006 for operating system changes that 
were pre-requisites of the DB2 upgrade, DB2 v8 in ``compatibility 
mode'' and DB2v8 in new features mode. The new mainframe computer 
required one validation activity. The SAA installed a new mainframe at 
the ACF and later at the Primary Computing Facility in the Postal 
Square Building (PCF).

              Managing and Testing New System Development

    During 2006, the FMIS team supervised development, performed 
extensive integration system testing, and implemented changes to FMIS 
subsystems. For each, implementation and production verification was 
done over a weekend in order to minimize system down time to users. 
Upgrades to the following systems were done during 2006: Web FMIS; SAVI 
and Online ESR; Checkwriter; and ADPICS and FAMIS (for the SAA Finance 
staff).
    The items selected for development and implementation are based on 
user requests, suggestions from the SAA technical staff, the 
contractor, and the Disbursing office IT section. The office meets 
regularly with users. During May and June the office met weekly with 
the Web FMIS users group in order to review the new page designs and 
functionality that were implemented in December 2006. Additionally, the 
office met with the ADPICS/FAMIS users group on a monthly basis.

                                Web FMIS

    Over the last three years the office has revamped Web FMIS, 
creating a ``zero-client'' application that can be accessed via an 
intranet browser, an important milestone in providing critical systems 
in a disaster situation. This began in August 2004 with the 
implementation of Web FMIS r9.0 for pilot offices. By the end of April 
2005, all Web FMIS users were using the intranet version of Web FMIS. A 
total of five upgrades to Web FMIS were implemented in 2005. During 
2006, the office implemented two releases:
  --Web FMIS r10.3.--Implemented in January 2006, updated the 
        technology for and provided more functionality on the Inbox 
        pages and the travel reimbursement mileage rate maintenance 
        page. Additional functionality was added to the Documents/
        Create page and the Budget page, and bugs were fixed.
  --Web FMIS r 11.--Implemented in December 2006, included a rewritten 
        Document Create page that eliminated pop-ups so that the system 
        is not impacted by pop-up blockers; made technical changes to 
        support future functionality such as attaching scanned invoices 
        and creating vouchers via importing data from vendors; and 
        provided more payment information. Additionally, the travel 
        advance and cash advance tracking functionality of the 
        standalone FATS system were integrated into Web FMIS. The 
        system edits performed when a travel advance document is 
        submitted electronically indicate whether the office has 
        sufficient funds for the travel advance, based on the total of 
        all outstanding advances allowed for that office and whether 
        the traveler can be given another advance, based on the total 
        number of outstanding advances allowed for that individual. The 
        system supports the underlying rules associated with travel 
        advances that were issued by the Senate Committee on Rules and 
        Administration in December 2006.
    During 2006, the office continued to work with the contractor to 
define the requirements for additional functionality required for the 
Web FMIS releases planned for 2007:
  --Web FMIS r12.--Planned for Summer 2007, will add the ability to 
        ``import'' invoice data from an outside vendor in order to 
        create a voucher with minimal retyping. (This process is 
        similar to the ``import'' process by which data from an online 
        ESR, created via SAVI, is used to create a travel voucher).
  --Web FMIS r13.--Planned for Winter 2007, will be a pilot of 
        paperless voucher processing, which requires adding electronic 
        signature and documentation imaging functionality.
    Senate Automated Vendor Inquiry and Online ESR.--SAVI enables 
Senate staff to check the status of reimbursements, whether via check 
or direct deposit referencing an online ESR. The Online ESR function 
enables Senate staff to create expense summary reports, both travel and 
non-travel. These documents can be imported into Web FMIS, reducing the 
data entry tasks for voucher preparation. The SAVI system was upgraded 
once in 2006. Release 4.0, implemented in December 2006, reduced the 
number of pages of an average Travel ESR from 3 to 2. The reformatted 
Travel ESR collapses any sections in which there are no expenses and 
has a condensed signature block.
    Checkwriter.--The Disbursing office makes payments via direct 
deposit and check using the Checkwriter software. Release 6.0, 
implemented in December 2006, contains a rewritten security component.
    ADPICS and FAMIS.--The Sergeant at Arms finance staff are the 
primary users of ADPICS. ADPICS is a mainframe system that provides 
integrated procurement, receiving and voucher preparation functions 
that are not included in Web FMIS. The SAA finance staff requested a 
number of changes that would support more efficient use of ADPICS. 
These changes were implemented in the following two releases during 
2006:
  --March 2006.--Changes were made to twenty-five ADPICS and FAMIS 
        screens. The most important of these affected the master vendor 
        table and enables storing the vendor's DUNS and TINS numbers at 
        the vendor suffix level. This allows the Disbursing Office to 
        continue to use the same vendor number when a company changes 
        names. This helps the SAA finance staff query data by vendor 
        number. Other changes ranged from adding fields on specific 
        screens, modifying the titles of function keys that provide 
        direct links to other screens so that they show the screen 
        number instead of a short screen name, modification of query 
        results, modification of calculations, and providing the 
        ability to link directly from FAMIS to ADPICS; and
  --October 2006.--Changes were made to twelve ADPICS screens. Many of 
        these changes facilitated ``round-trip'' linking from one 
        screen to another and then back to the original. Others enabled 
        seeing more records on a list by specifying a starting point or 
        expanding the number of pages displayed.
Planning
    The Disbursing Office IT group performs two main planning 
activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.
Schedule Coordination
    In 2006, this group continued to hold two types of meetings among 
the Disbursing office, SAA and the contractor to coordinate schedules 
and activities. These are:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings); and
  --Technical meeting--a weekly meeting among the Disbursing Office 
        staff (IT and functional), SAA Technical Services staff, and 
        the contractor to discuss the active projects, including 
        scheduling activities and resolving issues.
Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives formed the base for the Secretary of the 
Senate's request in 2002 for $5 million in multi-year funds for further 
work on the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location should an emergency 
        occur;
  --Web FMIS.--Respond to requests from the Senate's Accounting 
        Locations for additional functionality in Web FMIS;
  --Payroll System.--Respond to requests from the Senate's Accounting 
        Locations for online real time access to payroll data;
  --Accounting Subsystem Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.
Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 and includes developing the task 
orders with contractors overseeing their work and reviewing invoices. 
In 2006, three new task orders were executed: Web FMIS FATS 
enhancement; Imaging and signature design and electronic invoicing 
enhancement continuation; and Service year 2007 extended operational 
support.
    In addition, work continued under two task orders executed in prior 
years: Web FMIS r10; SAA finance system and reporting enhancements; and 
Service year 2006 extended operational support (which covers activities 
from September 2005 to August 2006).
Administering the Disbursing Office's Local Area Network (LAN)
    The Disbursing office administers its own Local Area Network (LAN), 
which is separate from the LAN for the rest of the Secretary's Office. 
Our LAN Administrator's activities included: Office-wide LAN 
Maintenance and Upgrade; and Projects for the Payroll and Benefits 
Section.
            Office-wide LAN maintenance and upgrade
    The Disbursing Office maintained the existing workstations with 
appropriate upgrades including: Installing new PCs for the staff; 
Installing new servers for the Disbursing office LAN; and Implementing 
the Web-based version of FedLine, the software through which direct 
deposit payments are sent to the Federal Reserve.
            Projects for Payroll and Employee Benefits Sections
    The Disbursing Office continued to support the Payroll/Benefits 
Imaging system, developed by SAA staff, which captures and indexes 
payroll documents turned in at the front counter electronically. This 
is a critical system for Payroll and Employee Benefits sections.
Coordinating the Disbursing Office(s Disaster Recovery Activities
    In the fall, the Sergeant at Arms technical staff conducted a 
disaster recovery test of the Senate's computing facilities, including 
FMIS functions. The test involved switching the Senate's network from 
accessing systems at the PCF to the ACF and powering down the PCF. The 
SAA's primary purpose was to test the technical process of switching to 
the ACF, although due to work constraints, only a limited amount of 
time was available for functional testing. In essence, FMIS systems and 
data would be ``failed-over'' to the ACF, made available for testing 
for the functional testing window, and then the systems would be 
``failed back'' to the PCF, but that the data would not be ``failed 
back''. Thus, any changes made while testing at the ACF would not be 
reflected in production data.
    The Disbursing Office staff set minimal goals of accessing all 
critical FMIS subsystems. While the Disbursing Office IT staff 
coordinated activities, the actual testing was done by Disbursing 
Office functional and technical staff, the contractor, and SAA 
technical staff. Disbursing IT staff and the contractor tested ADPICS/
FAMIS, Web FMIS, SAVI, and Checkwriter. Disbursing payroll staff and 
SAA technical staff tested the payroll system.
    Within the limited scope of the test, the Disbursing Office 
successfully tested all the critical components of FMIS, with the 
exception of (a) printing requisition, purchase order and voucher 
documents from ADPICS for SAA finance (b) critical batch processes 
which were not tested (e.g. taking a a single document from data entry 
in Web FMIS through payment in FAMIS). The Disbursing Office has 
requested that the SAA conduct disaster recovery tests twice a year and 
that additional system components be available to test at each 
successive test.
Disbursing Office COOP Activities
    The Disbursing Office has had a Continuation of Operations Plan 
(COOP) since 2001. This document addresses issues beyond the scope of 
disaster recovery. Normal maintenance is performed on this document to 
ensure that it remains up-to-date and viable. In addition to the 
success of disaster recovery testing in December, Disbursing has also 
completed the setup and pre-positioning of essential equipment and 
supplies.
                         administrative offices
                    1. conservation and preservation
    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This includes: deacidification of 
paper and prints, phased conservation for books and documents, 
collection surveys, exhibits, and matting and framing for the Senate 
leadership.
    Over the past year, the Office of Conservation and Preservation has 
embossed 335 books and matted and framed 551 items for Senate 
leadership, as well as matting and framing six items for the 55th 
Inaugural ceremonies. For more than 25 years, the office has bound a 
copy of Washington's Farewell Address for the annual ceremony. Last 
year, the office rebound in leather and added 96 new pages to the 
Farewell Address sign-in book for Senators who read the address and 
fabricated a new box to house the book. In 2006, a volume was bound and 
read by Senator Ken Salazar.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the office continued to conduct an annual treatment of books identified 
by the survey as needed conservation or repair. In 2006 conservation 
treatments were completed for 99 volumes of a 7,000 volume collection 
of House Hearings. Specifically, treatment involved recasing each 
volume as required, using alkaline end sheets, replacing acidic tab 
sheets with alkaline paper, cleaning the cloth cases, and replacing 
black spine title labels of each volume as necessary. The Office of 
Conservation and Preservation will continue preservation of the 
remaining 3,750 volumes.
    The office assisted the Senate Library with 608 books sent to the 
Library Binding section of the Government Printing Office (GPO) for 
binding. Additionally, the Office of Conservation and Preservation 
worked with the Senate Library to create four exhibits located in the 
Senate Russell building basement corridor. This office also completed 
the restoration of 55 volumes of House hearings for the Senate Library 
that had water and mold damage. These books were rebound with new end 
sheets and new covers using the old spines when possible.
    The Office of Conservation and Preservation continues to assist 
Senate offices with conservation and preservation of documents, books, 
and various other items. For example, the office continues to monitor 
the temperature and humidity in the Senate Library storage areas, the 
vault and warehouse for preservation and conservation purposes.
                               2. curator
    The Office of Senate Curator, on behalf of the Senate Commission on 
Art, develops and implements the museum and preservation programs for 
the United States Senate. The office collects, preserves, and 
interprets the Senate's fine and decorative arts, historic objects, and 
specific architectural features; and exercises supervisory 
responsibility for the historic chambers in the Capitol under the 
jurisdiction of the Commission. Through exhibitions, publications, and 
other programs, the office educates the public about the Senate and its 
collections.
Collections: Commissions, Acquisitions, and Management
    A painting of Senator Bob Dole for the Senate Leadership Portrait 
Collection was officially unveiled in the Old Senate Chamber on July 
25, 2006 and a mural depicting the authors of the Connecticut 
Compromise was unveiled on September 12, 2006 in the Senate Reception 
Room. Other important commissioned works in progress include leadership 
portraits of Senators Robert C. Byrd, Tom Daschle, and Trent Lott; all 
three are scheduled to be completed in 2008.
    Three hundred sixty-two objects were accessioned into the Senate 
Collection, including: 126 Senate Chamber Gallery passes, dating from 
1890 to the present; tickets for various joint sessions of Congress 
held in 2006; ephemera related to nominations, new Congresses, laying 
in state ceremonies, and portrait unveilings; china used in the Senate 
Restaurant in the 1920s and 1930s; and historic prints and photographs 
of the Capitol and its interior, including a circa 1890 stereoview of 
the Senate Chamber, a rare 1827 wood engraving of the west front of the 
Capitol, and an 1872 cartoon by Thomas Nast.
    The Senate Commission on Art approved the acquisition of a 
monumental, Civil War-era painting (recently discovered in New York 
State) of Henry Clay in the U.S. Senate. This painting is a rare 
depiction of the historic Old Senate Chamber. Additionally, it serves 
as a group portrait memorializing Senator Clay and twelve of his 19th 
century Senate colleagues. The painting will require extensive 
conservation.
    As part of an ongoing effort to locate and recover historic objects 
associated with the Senate, a historic Russell Building partner desk, 
built by George Cobb, was located. It was recently returned to the 
Senate from the Lyndon Baines Johnson Library and Museum.
    Forty-four new foreign gifts were reported to the Select Committee 
on Ethics and transferred to the Curator's Office. They were catalogued 
and are maintained by the office in accordance with the Foreign Gifts 
and Decorations Act. Appropriate disposition of 27 foreign gifts was 
completed following established procedures.
    Preparations continued for new curatorial storage spaces in the CVC 
and the SSF. The office worked with the SAA staff to select a vendor to 
provide specialized preservation storage equipment for the two Curator 
storage rooms in the CVC. Installation of the equipment is planned for 
late 2007. Preparations are nearing completion for the storage room in 
the SSF, with specialized climate control and security. Objects will be 
moved into the space in the spring of 2007.
    Along with the expansion of curatorial storage spaces, improved 
monitoring plans were developed to track the environmental conditions 
in these spaces. Consistency in temperature and relative humidity will 
be monitored through a single electronic system that collects data from 
all collection storage areas, as well as some of the historic spaces in 
the Capitol where collections are on display. After careful review by a 
committee representing the Curator's Office, Senate Security, 
Secretary's Information Systems, and Senate IT, a system was selected 
earlier this year and installation should take place this spring. 
Temporary monitors were installed in the new SSF Curator room and have 
greatly aided in evaluating and adjusting the environmental systems.
    Monitoring for biological agents harmful to collections was 
addressed through the development of an Integrated Pest Management Plan 
(IPM). The office has initiated IPM monitoring in its current 
collection storage spaces.
    The Curator's office completed its project to photograph the 102 
historic Senate Chamber desks (which includes the 100 on the Senate 
floor and 2 desks currently in storage). One set of transparencies will 
be stored off-site for emergency purposes, while a second working set 
will be used for the web, image requests, and future publications. The 
project was completed ahead of schedule.
    The Curator's staff began a comprehensive and detailed survey of 
the Senate Chamber chairs. Twenty-seven chairs (seat and chair frames) 
were examined during Senate recesses to determine past occupants and to 
identify changes in Senate Cabinet Shop construction over the years. It 
is hoped that this study will enable the identification and 
preservation of important chairs that still remain in the Senate, and 
also educate Curator's staff so that timely and informed decisions can 
be made on chairs that might come up for sale or donation.
    In keeping with established procedures, all Senate Collection 
objects on display were inventoried, noting any changes in location. In 
addition, as directed by S. Res. 178 (108th Congress, 1st sess.), the 
office submitted inventories of the art and historic furnishings in the 
Senate to the Senate Committee on Rules and Administration. The 
inventories, submitted every six months, are compiled by the Curator's 
office with assistance from the SAA and the AOC Senate Superintendent.
Conservation and Restoration
    A total of 12 objects received conservation treatment in 2006, 
including 9 paintings and 3 decorative art objects.
    Several conservation projects were carried out to prepare both fine 
and decorative art objects for loan. In February 2006, a fine art 
services company was contracted to remove a monumental painting, The 
Battle of Chapultepec, by James Walker, from display at the former 
Marine Corps Historical Museum in Washington, D.C., where it had been 
on loan since 1982. The company disassembled the frame and constructed 
four crates to transport the painting and frame to the Thomas Gilcrease 
Institute of American History and Art in Tulsa, Oklahoma, where it is 
now on loan. The Gilcrease Museum provides an excellent venue for 
continued public display of the painting within the context of the 
history of the southwest region of the country.
    Two large paintings displayed in the Senate wing received 
conservation treatment in situ during the August 2006 recess: The First 
Reading of the Emancipation Proclamation by President Lincoln by 
Francis Bicknell Carpenter, and Daniel Webster by James Henry Wright. 
The AOC assisted with both projects by providing scaffolding in the 
stairwells for access to the paintings by the conservators.
    Also during the August recess, conservators installed the oil on 
canvas painting depicting the authors of the Connecticut Compromise by 
Bradley Stevens on the upper west wall of the Senate Reception Room.
    The office contracted a report for a condition assessment and 
treatment options for the Senate's historic 19th century Cornelius & 
Baker armorial chandelier, and worked with staff at the Smithsonian 
Institution to study its finishes. Also, staff conducted research into 
the electrification of gasoliers in the Capitol; all in an effort to 
provide an informed use and treatment recommendation for the chandelier 
to the Commission on Art.
    The Curator's staff participated in training sessions for the USCP 
regarding the care and protection of art in the Capitol, and continued 
to educate the housekeeping personnel on maintenance issues related to 
the fine and decorative art collections.
Historic Preservation
    The Curator's office worked with the AOC and the SAA to review, 
comment, plan, and document Senate-side construction projects that 
involve or affect historic resources. Construction and conservation 
efforts that required considerable review and assistance included: the 
Brumidi Corridor mural conservation; egress modifications; skylight 
repair of Senate grand stairwells; S-127 mural conservation; wireless 
antenna installation; Senate Chamber bench refinishing and re-
upholstering. The office continued to refine communication procedures 
with those organizations that undertake building projects, as well as 
the Senate community. As a result of this effort, schedule coordination 
between the trade shops, the Curator, and the occupants has improved, 
and the art and architectural objects in project areas are better 
protected. In addition, the office worked to increase services by 
facilitating projects for Capitol offices.
    One of the most ambitious preservation undertakings by the office 
is the restoration and rehabilitation of the Senate Reception Room. 
Anticipated to be a joint venture with the AOC, the project will 
highlight the significant elements of the room through restoration and 
interpretation. An advisory board was impaneled by the Commission on 
Art to provide counsel with this prominent project and the advisory 
board held its first meeting.
    The Curator's office continued to provide research services 
regarding architectural history, and to disseminate important 
discoveries for the benefit of the Senate. During the past year, the 
office increased knowledge and holdings pertaining to room histories, 
architectural features, and historic images. Research projects 
included: international Minton tile repair and replacement; original 
doors in the Brumidi Corridors; and compiling searchable annual reports 
from the Secretary of the Senate, the SAA, and the AOC. Another new 
initiative, with the assistance of the SAA Photographic Studio, was to 
visually document the leadership suites and committee rooms in the 
Capitol during the 109th Congress.
Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the USCP, the Old Senate Chamber was 
closed to visitors after September 11, 2001. However, during eight 
Senate recesses the historic room is open to Capitol Guide and staff-
led tours. Twenty-four requests were received from current Members of 
Congress for after-hours access to the Old Senate Chamber. Twenty-one 
requests were received by current Members of Congress for admittance to 
the Old Supreme Court Chamber after-hours.
    In order to enhance existing documentation and to provide an 
important resource for future planning, the office continued to work 
closely with the AOC and a contractor to oversee the creation of 
accurate, existing condition drawings of the Old Senate Chamber and the 
Old Supreme Court Chamber that meet the Historic American Building 
Survey standard. No such detailed drawings exist for these historic 
chambers, or any space within the Capitol, yet this is important 
historical and archival documentation. Currently, the Old Senate 
Chamber drawings are undergoing final edits and the Old Supreme Court 
Chamber is being measured.
Loans To and From the Collection
    A total of 58 historic objects and paintings are currently on loan 
to the Curator's office on behalf of Senate leadership and officials in 
the Capitol. The staff added loans of one object, returned two 
paintings at the expiration of their loan periods to their respective 
owners, and renewed loan agreements for 32 other objects.
    The Secretary's china was distributed and returned four times in 
2006. It was used for events such as a dinner for the retiring Senators 
of the 109th Congress, and a luncheon and dinner for new Senators. The 
official Senate china was inventoried and used at 24 receptions for 
distinguished guests.
Publications and Exhibitions
    The Curator's office published the United States Senate Catalogue 
of Graphic Art. This 500-page book features the Senate's collection of 
more than 900 historic engravings and lithographs and includes 2 full-
length essays and almost 40 short essays discussing selected prints. 
The volume is the first comprehensive publication of the Senate's 
historic print collection, which represents a 30-year effort to 
document graphically the 19th and early 20th century history of the 
Senate, the Capitol, and American political history. The diverse 
illustrations range for inauguration ceremonies and impeachment trials 
to senatorial portraits and political cartoons. Represented in the 
Senate's graphic art collection are some of the most notable artists 
who worked in the printmaking medium: Augustus Kollner, Rembrandt Peal, 
Alexander Hay Ritchie, Thomas Nast, and Joseph Keppler. The Senate 
Curator and Associate Senate Historian co-authored the publication, a 
companion volume to the United States Senate Catalogue of Fine Art, 
published in 2003. The Curator's staff worked closely with the 
Government Printing Office (GPO) on the design and printing of the 
publication.
    The office completed and posted three major interactive exhibits on 
the Senate Web site: Isaac Bassett: A Senate Memoir; The Senate Chamber 
Desks; and Take the Puck Challenge! All three exhibits were developed 
in conjunction with the Secretary's Webmaster and a contractor. Isaac 
Bassett features selections from the historic Isaac Bassett manuscript 
collection, and is illustrated by images from the Senate's collection 
of art and historical objects. It uses Bassett's own words to 
illustrate life in the 19th century Senate as only the doorkeeper could 
have described it. His unique position as a trusted, long-time employee 
of the Senate and close confidant of many Senators make the stories he 
included in his memoir both engaging and enlightening. The Web site 
features actual images of Bassett's handwritten notes and an 
interactive time line.
    The Senate Chamber Desks Web site chronicles the history of these 
historic furnishings. Viewers are able to see where their Senators sit, 
learn specific information about each desk (including biographical 
information on Senators who occupied each desk, and conservation and 
restoration records), and read stories related to the history of the 
desks.
    Take the Puck Challenge! features quizzes, games, and puzzles to 
introduce viewers to the political cartoons of the 19th century 
satirical magazine Puck. It is part of a larger Web site that features 
all of the Senate's Puck cartoons.
    Another interactive Web exhibit, Advise and Consent: The Drawings 
of Lily Spandorf, recently went live. Advise and Consent explores the 
work of Lily Spandorf, an artist sent to sketch the filming of the Otto 
Preminger movie of the same name, filmed in and around the Capitol in 
1962. Ms. Spandorf's sketches are now owned by the Senate.
    As part of an ongoing program to provide more information about the 
Capitol and its spaces, the office developed a brochure for S-238, the 
Strom Thurmond Room, and posted several brochures on the Senate Web 
site, including: The U.S. Senate Leadership Portrait Collection; The 
U.S. Senate Foreign Relations Committee; and The Vice Presidential Bust 
Collection. The office also added to the Senate Web site's fine art 
pages by publishing the biographical and subject information from the 
United States Senate Catalogue of Fine Art for 160 works of art.
    In May 2006, at the request of the Senate Committee on Rules and 
Administration, six historic photographs of the Capitol were enlarged, 
framed, and installed in the basement of the Senate Russell Building in 
order to enhance the space. The Office of Senate Curator also continued 
to be a significant contributor to Unum, the Secretary of the Senate's 
newsletter.
    The office continued to develop an oral history program related to 
the Senate's art and historical collections. Several artists were 
interviewed related to their work on recently commissioned portraits. 
It is anticipated that a Web site on the first phase of this 
educational project will be posted this year.
Policies and Procedures
    The Senate Curatorial Advisory Board met in February, 2006. The 
board reviewed the Battle of Chapultepec loan; the Connecticut 
Compromise mural; the Senator Bob Dole portrait; the Cornelius and 
Baker historic chandelier; as well as new acquisitions. The historic 
structures report for the Senate east vestibule, adjacent stairwell, 
and Small Senate Rotunda was presented, and the restoration of these 
historic spaces was discussed. The board continued to provide 
invaluable assistance to the Senate on curatorial and preservation 
matters throughout the year. Composed of respected scholars and 
curators, this 12-member board was established to provide expert advice 
to the Commission on Art regarding the Senate's art and historic 
collections and preservation program, and to assist in the acquisition 
and review of new objects for the collection.
    In 2006 the Senate passed legislation (S. Res. 629) establishing a 
procedure for affixing and removing permanent and semi-permanent 
artwork in the Senate wing of the Capitol and in the Senate Office 
Buildings. The new regulations require the Commission on Art to review 
any such proposals to add such permanent or semi-permanent art, and the 
Senate to give its formal approval before any such proposals may be 
adopted.
    Building on the historic mirror survey completed in 2005, the 
office developed a management policy and procedures for the collection, 
as well as care and maintenance plans. This program will ensure that 
the Senate's impressive collection of nearly 100 ornate mirrors in the 
Capitol receives the treatment necessary to preserve them for future 
generations.
Collaborations, Educational Programs, and Events
    The much anticipated nine-hour documentary on the Capitol and 
Congress developed by C-SPAN aired in July. Providing a detailed 
history of the building and institution, the Curator's office and the 
Historical Office worked closely with C-SPAN over a two-year period on 
various aspects of the historical content, filming, and interviews.
    The office continued to assist CVC staff on several initiatives for 
the new Visitor Center. These include the interactive programs for the 
exhibition area and the development of a plan for artwork in the CVC.
    The Senate Curator and staff gave lectures on the Senate's art and 
historical collections to various historical groups and art museums.
Office Administration
    The SSF was completed in late 2005. The office worked for several 
years with the SAA staff to develop plans for space within the 
warehouse. While the museum-quality space will be finalized this 
spring, other storage space assigned to the Curator was occupied in 
January, 2006. The office transferred several historic furnishings and 
other Senate-related objects, exhibit and art shipping materials, and 
publications to the completed storage area. As part of that task, 
material was re-inventoried, and new tracking numbers were assigned.
    With the assistance of the Office of Education and Training, the 
staff continued work on developing a three-year strategic plan for the 
Office of Senate Curator. This will be an important document for the 
office as it moves forward with its many conservation, preservation, 
and education initiatives.
Automation
    The office continued to work on developing an organization plan and 
procedures for all types of files and media collected and maintained by 
the Curator's office. Paper and electronic files have increased 
substantially in the last ten years and maintaining systematic 
organization of these various documents is imperative. The results will 
greatly improve response time to information requests, search 
capabilities for researchers, and the safety of significant reference 
materials.
Objectives for 2007
    Preparations to move Senate collections into the new curatorial 
storage spaces will be a major initiative in 2007. Once outstanding 
issues related to control of the environment are addressed at the SSF, 
the office will move more than 75 historic objects, including 
furniture, rugs, paintings, and a chandelier, to the museum-quality 
space. In association with the AOC and SAA, the office will also 
develop a Disaster Recovery Plan for this storage space, to mitigate 
the potential affect of disasters upon collection objects.
    The office will oversee installation of collection storage 
equipment for the two storage spaces in the CVC in the fall of 2007. 
Museum-quality storage equipment has been ordered to house collection 
objects in these new spaces, in accordance with a recently completed 
Collection Storage Plan. Objects in need of archival re-housing will be 
identified and prioritized as part of the preparations for a collection 
move that will take place in 2008.
    Proposals for an environmental monitoring system that will 
encompass all collection storage spaces will be assessed and reviewed 
by the Senate Curator's office with the assistance of other Senate 
offices. It is intended that environmental monitors will be purchased 
and installed in phases starting later this spring.
    Conservation and preservation continue to be a priority. Projects 
in 2007 will include conservation treatment to restore the historic 
frame and painting, Henry Clay in the U.S. Senate, by Phineas Staunton. 
Other conservation projects include: the monumental painting, The 
Battle of Lake Erie, by William Henry Powell, displayed in the east 
grand stairway of the Senate wing; the portrait of John Adams by 
Eliphalet Frazer Andrews; and the frame for the painting, Sergeants 
Jasper and Newton Rescuing American Prisoners from the British, by John 
Blake White.
    The office will continue its efforts to locate and recover 
significant historic Senate pieces. It will also embark on developing a 
plan to highlight the Russell Building furniture in preparation for the 
100th anniversary of these historic pieces in 2009.
    The microfiche of the Senate collection files will be sent off-site 
to the National Archives for contingency in case of a disaster, along 
with transparencies documenting several historic photographic albums, 
the Senate desks, and the more than 900 historic prints in the Senate 
collection.
    In 2007 the Office of Senate Curator will complete a reorganization 
of the Senate art Web site to provide easier, more intuitive access to 
the Senate's art, historical collections, and online exhibits and 
publications. This task will be undertaken in coordination with the 
Secretary's Webmaster and Senate Library staff, and will be an 
important first step in creating and organizing the Senate's Web 
content according to standardized metadata.
    Also related to the Web site, the office will work with the 
Historical office and staff of the Senate Page School to develop a Web 
exhibit for high school students on the history and art of the Senate. 
The conservation process for the newly acquired Henry Clay painting 
will be documented for use on the Senate art Web site as part of the 
office's education initiatives. Additionally, staff will update The 
Senate Chamber Desks Web site to reflect the 110th Congress, and will 
add additional historical facts about the desks.
    The office will review its public education programs with an eye 
toward leveraging office assets to greater effectiveness, and 
developing a long-range strategic plan for the program. Several 
publications will be reprinted, and the office will continue to enlarge 
its offering of brochures on historic rooms by producing one on the 
Democratic leader's suite in the Capitol.
    The Office of Senate Curator will continue to administer the 
current commissioned leadership portraits of Senators Byrd, Daschle, 
and Lott, and advance efforts to commission leadership portraits of 
Senators Frist and Stevens.
    Historic preservation activities will increase as the office takes 
a more active role in the Capitol's building projects and maintenance. 
The office will work to promote its preservation services for Senate 
offices, including providing architectural histories and facilitating 
projects. The office will also implement a preservation inspection 
program for the Senate side of the Capitol in order to ensure the 
immediate repair and continued protection of the Senate's architectural 
resources. Finally, with the AOC, adopting a preservation policy and 
appointing an historic preservation officer, the Curator's role in 
building project review will expand and become more formalized. The 
office will work with the AOC's historic preservation officer to define 
a review process and to ensure the highest preservation standards are 
applied to all Capitol projects.
    Responding to the critical conservation priorities identified for 
the Senate's historic mirror collection, the Curator's office will 
develop and contract a multi-phased conservation project. This work 
will include full conservation of at least three mirrors and on-site 
consolidation of two mirrors, and will establish procedures and 
standards for a mirror conservation program. Similarly, the office will 
embark on a comprehensive maintenance program for all Senate 
collections under the purview of the Office of Senate Curator. Such a 
program will help safeguard the objects for future generations.
    Additionally, the Senate Curatorial Advisory Board and Senate 
Reception Room Advisory Board will meet, review, and report on 
projects. The Senate Curator's COOP will be re-evaluated, tabletop 
exercises conducted, and the COOP document updated.
               3. joint office of education and training
    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff in 
Washington D.C. and the states. There are three branches within the 
office. The Technical Training branch is responsible for providing 
technical training support for approved software packages and equipment 
used in either Washington, D.C. or the state offices. This branch 
provides instructor-led classes; one-on-one coaching sessions; 
specialized vendor provided training; computer-based training; and 
informal training and support services. The Professional Training 
branch provides courses for all Senate staff in areas including: 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health and wellness issues. This branch also coordinates 
an annual Health Fair for all Senate employees and plans three blood 
drives every year.
Training Classes
    The Joint Office of Education and Training offered 658 classes in 
2006, drawing 6,007 participants. This office's registration desk 
handled over 32,000 e-mail and phone requests for training and 
documentation.
    Of the above total, in the Technical Training area 273 classes were 
held with a total attendance of 1,226 students. An additional 410 staff 
received coaching in 160 sessions on various software packages and 
other computer related issues. In the Professional Development area 385 
classes were held with a total attendance of 4,781 students.
    The Office of Education and Training is available to work with 
teams on issues related to team performance, communication, or conflict 
resolution. During 2006, over 55 requests for special training and team 
building were met.
    In the Health Promotion area, 2,628 staff participated in Health 
Promotion activities throughout the year. These activities included: 
lung function and kidney screenings, blood drives, the Health and 
Fitness Day and seminars on health related topics.
State Training
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2006, 
two sessions of this program were attended by 63 state staff. This 
office also conducted the State Directors Forum, which was attended by 
25 state administrative managers and directors. In addition, this 
office has implemented the ``Virtual Classroom'' which is an internet-
based training library of 3,000+ courses. To date, 392 state office and 
D.C. staff have accessed a total of 903 different lessons using this 
training option. Furthermore, the Professional Training branch offered 
22 Video Teleconferencing classes, which were attended by 323 state 
staff.
                    4. chief counsel for employment
    The Office of the Senate Chief Counsel for Employment (SCCE) is a 
non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (GERA), which allowed Senate employees to file claims of employment 
discrimination against Senate offices. With the enactment of the 
Congressional Accountability Act of 1995 (CAA), Senate offices became 
subject to the requirements, responsibilities and obligations of 11 
employment laws. The SCCE is charged with the legal defense of Senate 
offices in employment law cases at both the administrative and court 
levels. Also, on a day-to-day basis, the SCCE provides legal advice to 
Senate offices about their obligations under employment laws. 
Accordingly, each of the 180 offices of the Senate is an individual 
client of the SCCE, and each office maintains an attorney-client 
relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation;
  --Mediations to Resolve Lawsuits;
  --Court-Ordered Alternative Dispute Resolutions;
  --Union Drives, Negotiations, and Unfair Labor Practice Charges;
  --Occupational Safety and Health Act (OSHA)/Americans With Disability 
        Act (ADA) Compliance;
  --Layoffs and Office Closings In Compliance With the Law;
  --Management Training Regarding Legal Responsibilities; and
  --Preventive Legal Advice.
Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE defends each of the 180 employing offices of the Senate in 
all court actions, hearings, proceedings, investigations, and 
negotiations relating to labor and employment laws. The SCCE handles 
cases filed in the District of Columbia and cases filed in any of the 
50 states.
OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices by 
assisting them with complying with the applicable OSHA and ADA 
regulations; representing them during Office of Compliance inspections; 
advising State offices on the preparation of the Office of Compliance's 
Home State OSHA/ADA Inspection Questionnaires; assisting offices in the 
preparation of Emergency Action Plans; and advising and representing 
Senate offices when a complaint of an OSHA violation has been filed 
with the Office of Compliance or when a citation has been issued.
    In 2006, the SCCE inspected 184 Senate offices to ensure compliance 
with the ADA and OSHA.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws, thereby reducing 
their liability.
    In 2006, the SCCE gave 71 legal seminars to Senate offices. Among 
the topics covered were:
  --The Congressional Accountability Act of 1995: Management's Rights 
        and Obligations;
  --Employment Laws You Must Know When Managing a Senate Office;
  --Avoiding Legal Landmines in Your Office;
  --Understanding Sexual Harassment in the Workplace;
  --A Manager's Guide to Preventing and Addressing Sexual Harassment in 
        the Workplace;
  --Keys to Hiring: Reference Checks, Background Checks, and Testing 
        for Illegal Drug Use;
  --Hiring the Right Employee: Advertising and Interviewing;
  --Your Office's Obligation to Give Military Leave;
  --Administering the Student Loan Repayment Program;
  --The Basic Pilot Program for Employment Eligibility Confirmation;
  --Diversity Awareness: The Legal Perspective;
  --Americans with Disabilities Act of 1990;
  --Legal Pitfalls in Evaluating, Disciplining and Terminating 
        Employees;
  --A Manager's Guide to Complying with the Family and Medical Leave 
        Act (FMLA).
    In addition, at the request of several Member offices, the SCCE 
developed and gave two new seminars: (1) How to Interview Academy 
Candidates: Appropriate and Inappropriate Questions, and (2) How to 
Interview Applicants for the Page Program: Appropriate and 
Inappropriate Questions.
Preventive Legal Advice
    The SCCE meets with Members, chiefs of staff, administrative 
directors, administrative managers, staff directors, chief clerks and 
counsels at their request to provide legal advice. The purposes are to 
ensure compliance with the law, prevent litigation and minimize 
liability in the event of litigation. For example, on a daily basis, 
the SCCE advises Senate offices on matters such as disciplining or 
terminating employees in compliance with the law, handling and 
investigating sexual harassment complaints, accommodating the disabled, 
determining wage law requirements, meeting FMLA requirements, and 
management's rights and obligations under union laws and OSHA.
Administrative/Miscellaneous Matters
    The SCCE provides legal assistance to employing offices to ensure 
that their employee handbooks and office policies, supervisors' 
manuals, job descriptions, interviewing guidelines, and performance 
evaluation forms comply with the law.
Union Drives, Negotiations and Unfair Labor Practice Charges
    In 2006, the SCCE handled one union drive and assisted in 
negotiations with another union.
                          5. senate gift shop
    The U.S. Senate Gift Shop was established under the administrative 
direction and supervision of the Secretary of the Senate in October, 
1992, (United States Code, Title 2, Chapter 4). Since its 
establishment, the Senate Gift Shop has continued to provide service 
and products that maintain the integrity of the Senate while increasing 
the public's awareness of its history. The Gift Shop serves Senators, 
their spouses, staffs, constituents, and the many visitors to the U.S. 
Capitol complex.
    The products available include a wide range of fine gift items, 
collectables, and souvenirs created exclusively for the U.S. Senate. 
The services available include special ordering of personalized 
products and hard-to-find items, custom framing including red-lines and 
shadow boxes, gold embossing on leather, etching on glass and crystal, 
engraving on a variety of materials, and shipping.
    Additionally, the Gift Shop produces and distributes educational 
materials to tourists and constituents visiting the Capitol and Senate 
Office Buildings.
Facilities
    In addition to the three physical locations, the Gift Shop has 
developed an online presence on Webster. The site currently offers a 
limited selection of products that can be purchased by phone, e-mail, 
or by printing and faxing the order form provided online. Long-term 
plans are to further develop the Web site to include a greater 
selection of merchandise, eventually adding an e-commerce component to 
facilitate online transactions. Along with offering over-the-counter, 
walk-in sales and limited intranet services, the Gift Shop 
Administrative Office provides mail order service via the phone or fax, 
and special order and catalogue sales.
    The Gift Shop also maintains two warehouse facilities. While the 
bulk of the Gift Shop's stock is held in the SSF, a portion of the Gift 
Shop's overstock is maintained in the Hart Building. This space also 
accommodates the Gift Shop's receiving, shipping and engraving 
sections.
    Operational procedures for the SSF include having most, if not all, 
Gift Shop product delivered, received, and stored at this location 
until the need for transfer to the Hart, Dirksen, and/or Capitol 
Building locations. Although the overall management of the SSF is 
through the SAA, the Director of the Gift Shop has responsibility for 
the operation and oversight of the interior spaces assigned for Gift 
Shop use. Storing inventory in this centralized, climate-controlled 
facility provides protection for the Gift Shop's valuable inventory in 
terms of physical security as well as improved shelf life for 
perishable and non-perishable items alike.
Sales Activity
    Sales recorded for fiscal year 2006 were $1,619,739.94. Cost of 
goods sold during this same period were $1,101,734.48, accounting for a 
gross sales profit of $518,005.46.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of inventory purchased for 
resale. As of October 1, 2006, the balance in the revolving fund was 
$2,105,118.02. The inventory purchased for resale was valued at 
$2,551,847.08.
Accomplishments in Fiscal Year 2006
            Official Congressional Holiday Ornaments
    The year 2006 marked the beginning of the Gift Shop's fourth 
consecutive four-year ornament series. Each ornament in the 2006-2009 
series of unique collectables will be an image celebrating the day-to-
day activities taking place on the Capitol grounds. The four images are 
based on original oil paintings commissioned by the Gift Shop.
    Sales of the 2006 holiday ornament exceeded 30,000 ornaments, of 
which more than 7,000 were personalized with engravings designed, 
proofed, and etched by Gift Shop staff.
            Constantino Brumidi Product
    There were several new products developed this past year depicting 
Brumidi's art in the Capitol. These include two different sets of 
placemats, one of game birds and the other of song birds, and coasters 
depicting Brumidi floral designs. Three glass vases of different sizes 
and shapes were created. Each contain distinctly different bird images 
deeply etched into the glass, and each can be personalized. A gift set 
of gourmet candy and high quality paper cocktail napkins was created. 
The napkins feature four different images of Constantino Brumidi's 
``Birds of the Capitol'' which are located in the Capitol's Senate side 
corridors.
            Christopher Radko ornament
    The Gift Shop designed and created a new and exclusive Holiday 
Ornament with the Christopher Radko Company depicting a full three 
dimensional likeness of the Capitol building. The ornament shows the 
Capitol as it might look in early evening after a light snow has 
covered the building and its surrounding landscape features.
Projects and New Initiatives for 2007
            History of the Capitol
    The Gift Shop will purchase for resale the book History of the 
Capitol, (H. Doc. 108-240) by Glenn Brown. GPO expects to release 
History of the Capitol later this year, and the Gift Shop plans to 
purchase a large quantity to ensure availability to its customers for 
an extended period of time. The book will be sold in both Gift Shop 
locations and on the intranet Web site. The book will also be available 
via phone and mail order.
            Congressional Plates
    The Official Congressional Plates for the 108th, 109th, and 110th 
Congresses continue to be sold. The 111th plate, the final of the 
series, has been approved for production.
            Pickard China
    The Gift Shop is working with the Pickard Corporation to recreate a 
round porcelain box originally developed by Tiffany and Company more 
than twelve years ago and subsequently discontinued by Tiffany. The 
round box contains a series of four images on its perimeter depicting 
the early meeting places of Congress. The lid depicts a more recent 
image of the Capitol similar to how it appears today. With Tiffany's 
permission, the original designs and colors will be replicated on a 
white porcelain box.
            Intranet/Webster
    The Gift Shop anticipates a very exciting yet busy and challenging 
year for the Gift Shop as it continues to develops its presence on 
Webster. Primary considerations include Web site policy, design, and 
layout, content and additional products to be featured. It is the Gift 
Shop's intention to eventually incorporate links to the offices of the 
Historical Office, Curator, and Senate Library so that visitors to the 
Web site will have ready access to additional educational information.
                          6. historical office
    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public. The office advises Senators, officers, and 
committees on cost-effective disposition of their non-current office 
files and assists researchers in identifying Senate-related source 
materials. The office keeps extensive biographical, bibliographical, 
photographic, and archival information on the 1,895 former and current 
Senators. It edits for publication historically significant transcripts 
and minutes of selected Senate committees and party organizations, and 
conducts oral history interviews with key Senate staff. The photo 
historian maintains a collection of approximately 40,000 still pictures 
that includes photographs and illustrations of Senate committees and 
most former Senators. The office develops and maintains all historical 
material on the Senate Web site.
Editorial Projects
            200 Notable Days: Senate Stories, 1787-2002
    GPO issued 200 Notable Days: Senate Stories, 1787-2002 in October 
2006. This 225-page clothbound volume presents 200 brief stories, which 
provide a colorful and textured outline of the Senate's historical 
development through more than two centuries. Historian David McCullough 
pronounced the work to be ``deftly and engagingly done'' and noted that 
as the author clearly enjoyed himself ``in this wonderful chronicle, so 
consequently does the reader.''
            The New Members' Guide to Traditions of the United States 
                    Senate
    In support of the November 2006 new members' orientation program, 
the Historical Office prepared a 32-page booklet designed to serve as a 
guide to the Senate's distinguishing customs and rituals. Following a 
``cradle-to-grave'' theme, the document begins with ``orientation 
programs'' and ``oath taking,'' and concludes with ``end-of-session 
valedictories'' and ``funerals and memorial services.'' Among the 29 
topics included are ``Maiden Speeches,'' ``Seersucker Thursday,'' ``the 
Candy Desk,'' ``the Golden Gavel Award,'' and ``Washington's Farewell 
Address.'' Copies are available through the Senate Office of Printing 
and Document Services.
            Administrative History of the Senate
    Throughout 2006, the assistant historian continued the research and 
writing for this historical account of the Senate's administrative 
evolution. This study traces the development of the Offices of the 
Secretary of the Senate and Sergeant at Arms, considers 19th and 20th 
century reform efforts that resulted in the reorganization and 
professionalization of Senate staff, and looks at how the Senate's 
administrative structure has grown and diversified. Specifically, 
during the past year the assistant historian completed drafts of the 
first (1789-1814) and third (1836-1861) chapters, as well as portions 
of chapters two (1814-1836) and four (1861-1877).
            ``The Idea of the Senate''
    For more than two centuries, Senators, journalists, scholars, and 
other first-hand observers have attempted to describe the uniqueness of 
the Senate, emphasizing the body's fundamental strengths, as well as 
areas for possible reform. From James Madison in 1787 to Lyndon Johnson 
biographer Robert Caro in 2002, sharp-eyed analysts have left memorable 
accounts that can help modern Senators better understand the Senate in 
its historical context. Pulitzer Prize-winning journalist Allen Drury's 
1943 comment about the Senate of his day--``There is a vast area of 
casual ignorance concerning this lively and appealing body''--retains a 
ring of truth for modern times. The ``Idea of the Senate'' project, 
completed during this year, identifies 30 major statements by 
knowledgeable observers. Each of the brief chapters includes an 
extended quotation and an essay that places the quotation in historical 
context. This work will be published during 2007.
            Rules of the United States Senate, Since 1789
    In 1980, Senate Parliamentarian Emeritus Floyd M. Riddick, at the 
direction of the Senate Committee on Rules and Administration, prepared 
a publication containing the eight codes of rules that the Senate 
adopted between 1789 and 1979. In the 1990s, the Senate Historical 
Office, in consultation with Dr. Riddick, developed a project to 
incorporate an important feature not contained in the 1980 publication. 
Beyond simply listing the eight codes of rules, our goal is to show 
how--and why--the Senate's current rules have evolved from earlier 
versions. This work, to be completed during 2007, will contain eight 
narrative chapters outlining key debates and reasons for significant 
changes. Appendices will include the original text of all standing 
rules and all changes adopted between each codification.
            Biographical Directory of the U.S. Congress, 1774-2007
    Since 1989, the assistant historian has added many new biographical 
sketches, expanded bibliography entries, and revised and updated most 
of the online database's nearly 2,000 Senate and vice-presidential 
entries. An updated print edition, covering the years 1774-2005, was 
published early in 2006. The assistant historian continues to oversee 
all editing and updating of existing information for the online version 
of the Biographical Directory (http://bioguide.congress.gov) to allow 
for expanded search capabilities, maintain accuracy, and incorporate 
new information and scholarship.
Oral History Program
    The Historical Office conducts a series of oral history interviews, 
which provide personal recollections of various Senate careers. This 
year, roundtable interviews were conducted with veteran Capitol 
telephone operators, Joan Sartori, Ellen Kramer, Martha Fletcher, and 
Barbara Loughery. Interviews were also completed with John D. Lane, who 
served in the early 1950s as administrative assistant to Senator Brien 
McMahon (D-CT). Several other interviews with Senate staff are in 
progress. The complete transcripts of 22 interviews have also been 
posted on the Senate's Web site.
Member Services
            Members' Records Management and Disposition Assistance
    The Senate archivist assisted Members' offices with planning for 
the preservation of their permanently valuable records, emphasizing the 
importance of managing electronic records and transferring valuable 
records to a home-state repository. In addition, the office provided 
special assistance to offices closing at the end of the 109th Congress. 
This included identifying appropriate repositories for those members 
who had not already selected one, working with staff to ensure 
appropriate selection and preservation of historical documentation 
including electronic records, and advising members on access 
restrictions.
    The archivist revised and published the Records Management Handbook 
for United States Senators and Their Archival Repositories and the 
Checklist for Closing a Senator's Office. The archivist continued to 
work with staff from all repositories receiving senatorial collections 
to ensure adequacy of documentation and the transfer of appropriate 
records with adequate finding aids. The archivist provided briefing 
materials to transition offices and met with staff. The archivist 
conducted a seminar on records management for Senate offices and 
participated in the Senate Services Fair sponsored by the Office of 
Education and Training. The archivist organized a day-long meeting in 
conjunction with the Society of American Archivists' annual meeting for 
Congressional Papers Roundtable members that covered selection, 
arrangement, and description of congressional papers; new web-based 
sources for political historical research; and contemporary Senate 
electronic record-keeping systems and related preservation issues.
            Committee Records Management and Disposition Assistance
    The Senate archivist provided each committee with staff briefings, 
record surveys, guidance on preservation of information in electronic 
systems, and instructions for the transfer of permanently valuable 
records to the National Archives' Center for Legislative Archives. The 
office oversaw the transfer to the Archives of 350 accessions of Senate 
records. The archivist revised and published the U.S. Senate Records: 
Guidelines for Committee Staff. The archivist and assistant archivist 
responded to approximately 400 requests for loans of records back to 
committees. The archival assistant continued to provide processing aid 
to committees and administrative offices in need of basic help with 
noncurrent files. The archival assistant produced committee archiving 
reports in Access database format covering records' transfers for the 
past Congress. The archivist will use these reports in 2007 to provide 
committees with suggestions to promote timely transfers.
Photographic Collections
    The photo historian supported publication of 200 Notable Days: 
Senate Stories, 1787-2002 by obtaining uniquely engaging illustrations 
from her collections and from photo archives throughout the nation. The 
office continued to provide timely photographic reference service, 
while cataloging, digitizing, rehousing, and expanding the office's 
40,000-item image collection. The photo historian also maintained the 
Office's COOP and vital electronic records. As a contribution to the 
office's educational outreach efforts, the photo historian added to the 
online photographic exhibits for the Senate Web site a feature entitled 
The Senate Through the Ages.
Educational Outreach
            ``Senate Historical Minutes''
    The Senate historian continued a 10-year series of ``Senate 
Historical Minutes,'' begun in 1997 at the request of the Senate 
Democratic Leader. In 2006, the historian prepared and delivered a 
``Senate Historical Minute'' at 17 Senate Democratic Conference weekly 
meetings. These 400-word Minutes were designed to enlighten members 
about significant events and personalities associated with the Senate's 
institutional development. More than 200 Minutes are available as a 
feature on the Senate Web site. An illustrated compilation was recently 
published as 200 Notable Days: Senate Stories, 1787-2002.
            Public Inquiries
    Much of the Historical Office's correspondence with the general 
public takes place through the Senate's Web site, which has become an 
indispensable source for information about the institution. Historical 
Office staff maintain and frequently update the Web site with timely 
reference and historical information. In 2006, the office responded to 
an estimated 1,500 inquiries from the general public, the press, 
students, family genealogists, congressional staffers, and academics, 
through the public e-mail address provided on the Senate Web site. The 
diverse nature of their questions reflects varying levels of interest 
in Senate operations, institutional history, and former members. In 
coordination with the Senate Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, Senate committees, women Senators, Senate floor leadership, and 
the U.S. Constitution. Office staff also participated in seminars and 
briefings for specially scheduled groups.
            C-SPAN Documentary on the Capitol
    Over the past two years, the Historical Office, in conjunction with 
the Office of the Curator, assisted C-SPAN with source material and on-
camera interviews for its nine-hour television documentary ``The 
Capitol''. C-SPAN launched this series in late May and repeated it 
throughout the year.
            Advisory Committee on the Records of Congress
    This 11-member permanent committee, established in 1990 by Public 
Law 101-509, meets twice a year to advise the Senate, the House of 
Representatives, and the Archivist of the United States on the 
management and preservation of the records of Congress. Its Senate-
related membership includes appointees of the majority and minority 
leaders; the Secretary of the Senate, who served as committee vice 
chair during the 109th Congress; and the Senate historian. The 
Historical office provided support services for the Committee's June 
and December meetings.
            Capitol Visitor Center Exhibition Content Committee
    Staff historians completed their assignments in drafting text for 
displays in the 17,000-square-foot exhibition gallery of the CVC. 
During 2006, the office continued to assist Donna Lawrence Productions 
and Cortina Productions with background material for visitor 
orientation films and interactive visual displays.
                           7. human resources
    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The office focuses on 
developing and implementing human resources policies, procedures, and 
programs for the Office of the Secretary of the Senate that not only 
fulfill the legal requirements of the workplace but which complement 
the organization's strategic goals and values.
    This includes recruiting and staffing; providing guidance and 
advice to managers and staff; training; performance management; job 
analysis; compensation planning, design, and administration; leave 
administration; records management; maintaining the employee handbooks 
and manuals; internal grievance procedures; employee relations and 
services; and organizational planning and development.
    The Human Resources office administers the following programs for 
the Secretary's employees: the Public Transportation Subsidy program, 
Student Loan Repayment Program, parking allocations, and the Summer 
Intern Program that offers college students the opportunity to gain 
valuable skills and experience in a variety of Senate support offices.
Recruitment and Retention of Staff
    Human Resources has the ongoing task of advertising new vacancies 
or positions, screening applicants, interviewing candidates and 
assisting with all phases of the hiring process. Human Resources is now 
coordinating with the SAA Human Resources Department to post all SAA 
and Secretary vacancies on the Senate intranet so that the larger 
Senate community may access the posting from their own offices. 
Additionally, an ``Employment'' link on Webster will be fully activated 
in the next few months, highlighting SAA, Secretary and Employment 
Bulletin vacancies and application processes.
Outreach
    Comprehensive resource manuals for the Senate's Elder Care Fair 
have been created and are being distributed throughout the Senate and 
have been requested by specific offices, committees, and/or 
departments. It was originally intended that the Elder Care Fair would 
be beneficial to Senate staff every two years, starting with the first 
one in 2005. Since the groundwork has been laid, the fair can be held 
more frequently, and hosting the event will rotate among the human 
resource offices of the Secretary, the SAA, the AOC, and the House. The 
next fair will be held later this year.
Training
    In conjunction with the SCCE, Human Resources continues to develop 
and provide training for department heads and staff. Training topics 
include Sexual Harassment, Interviewing Skills, Conducting Background 
Checks, and Providing Feedback to Employees and Goal Setting.
Interns and Fellows
    Human Resources manages the Secretary's internship program and the 
coordination of the Heinz Fellowship program. From advertising, 
conducting needs analyses, communicating, screening, placing and 
following up with all interns, HR keeps a close connection with these 
program participants in an effort to make the internship most 
beneficial to them and the organization.
Combined Federal Campaign
    Human Resources has taken an active role in the Combined Federal 
Campaign (CFC) for the Senate community at-large. The office serves as 
co-director of the program for the Senate, participating in kick off 
meetings, identifying key workers in each office, and disseminating and 
collecting necessary information and paperwork.
                         8. information systems
    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also interface closely with 
the application and network development groups within the SAA, GPO, and 
outside vendors on technical issues and joint projects. The department 
provides computer-related support for all local area network (LAN) 
servers within the Office of the Secretary. Information Systems staff 
provide direct application support for all software installed on 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.
Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Secretary's office. 
Emphasis is placed on the creation and transfer of electronic 
legislative files to outside departments and agencies, meeting 
Disbursing Office financial responsibilities to the member offices, and 
office mandated and statutory obligations.
Staffing and Functionality
    Information Systems staff functionality was expanded by moving the 
IT structure from a local LAN support structure to an enterprise IT 
support process. Improved diagnostic practices were adopted to expand 
support across all departments. Several departments, namely Disbursing, 
Chief Counsel for Employment, Office of Public Records, Page School, 
Senate Security, Stationery and Gift Shop previously employed dedicated 
information technology (IT) staff resident within the offices. 
Information Systems personnel continue to provide multi-tiered 
escalated hardware and software support for these offices.
    For information security reasons, departments have implemented 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of interdepartmental 
networking. Information System staff actively participate in all new 
project design and implementation within the Secretary of the Senate 
operations.
Fiscal Year 2006 Summary of Improvements to the Secretary's Local Area 
        Networks
    Adopted improved network monitoring standards and implemented 
active e-mail spam controls for the Secretary of the Senate staff.
    Established an automated server to schedule and deploy software 
updates on all staff workstations during non-business hours of 
operation.
    Replaced 237 staff workstations (95 percent) and upgraded software 
applications across all departments.
    Installed Video Teleconferencing (VTC) hardware and incorporated 
VTC as an alternative COOP communications tool.
    Upgraded and replaced all handheld mobile devices (Blackberry) for 
essential staff.
    Provided network support for the Webster Hall and Alternate Chamber 
COOP Exercise.
    Finalized implementation of new point of sale and accounting system 
for the Stationery Room.
    Completed Senate Wireless network access verification testing for 
staff access in Hart, Russell, and Dirksen locations.
    Completed office staff occupancy, network access, and provided 
environmental tools at the SSF.
Active Directory and Message Infrastructure Project (ADMA)
    All SecurID and Passfaces users have remote Web portal to Senate 
Web services.
    Access to Web-based services is available from all public and 
private internet locations
    Staff members can now retrieve Web mail from any home or state 
office workstation.
    Leveraged technologies included continuation of Groove 
Collaboration Project, and integrated Voice Over IP (VoIP) solution 
during COOP events.
    Clearly, the implementation of ADMA for the Secretary involved 
numerous resources on the part of both the SAA and the Secretary's 
offices. The importance of this single project provides the ``base'' 
for all future IT related projects in the coming years.
Legislative Operation Upgrades
    Upgraded Daily Digest LIS software application.
    Installed and updated a third off-site legislative COOP laptop kit.
                     9. interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
25th year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences include the following: 
NATO Parliamentary Assembly, Mexico-United States Interparliamentary 
Group, Canada-United States Interparliamentary Group, British-American 
Interparliamentary Group, United States-Russia Interparliamentary 
Group, and United States-China Interparliamentary Group.
    In May, the 46th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in South Carolina. Arrangements for 
this successful event were handled by the IPS staff.
    All foreign travel authorized by the Majority and Minority Leaders 
is arranged by the IPS staff. In addition to delegation trips, IPS 
provided assistance to individual Senators and staff traveling 
overseas. Senators and staff authorized by committees for foreign 
travel call upon this office for assistance with passports, visas, 
travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tem, IPS staff assist staff 
members of Senators and committees in completing the required reports.
    Interparliamentary Services maintains regular contact with the 
Department of State and foreign embassy officials. Official foreign 
visitors are frequently received in this office and assistance is given 
to individuals as well as to groups by the IPS staff. The staff 
continues to work closely with other offices of the Secretary of the 
Senate and the SAA in arranging programs for foreign visitors. In 
addition, IPS is frequently consulted by individual Senators' offices 
on a broad range of protocol questions. Occasional questions come from 
state officials or the general public regarding Congressional protocol.
    On behalf of the Majority and Minority Leaders, the staff arranges 
receptions in the Senate for Heads of State, Heads of Government, Heads 
of Parliaments, and parliamentary delegations. Required records of 
expenditures on behalf of foreign visitors under authority of Public 
Law 100-71 are maintained in the Office of Interparliamentary Services.
    Planning is underway for the 46th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group and the British American Parliamentary Group 
meetings which will be held in the United States in 2007. Advance work, 
including site inspection, will be undertaken for the Canada-U.S. 
Interparliamentary Group to be held in the United States in 2008. 
Preparations are also underway for the spring and fall sessions of the 
NATO Parliamentary Assembly.
                              10. library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; an extensive book collection on American 
politics, history, and biography; and a wide array of online systems. 
The library also authors content for three Web sites--LIS.gov, 
Senate.gov, and Webster.
Notable Achievements
    Information inquiries increased 90 percent.
    LIS training provided to 343 Senate staff.
    Acquired digital databases containing 313,730 congressional 
documents.
    Published first bibliography on Senate.gov using XML.
    Committee hearing (from 1889) cataloging project completed.
    Treaty and executive report (from 1857) cataloging project 
completed.
    Shelved 26,000 volumes at the Senate Support Facility.
    Acquired catalog and Web servers to support library system upgrade.
    Environmental control systems installed to safeguard document 
collections.
Information Services
    The foundations of Senate Library services are authoritative 
legislative record keeping, prompt resolution of traditional requests, 
and customized research instruction. The library is significantly 
expanding the use of Web technology to meet the Senate's ever-
increasing demand for current, accurate, and relevant information. The 
Library's efforts include establishing workflow and publication 
policies, and leading the Senate.gov Content Team toward improving site 
structure and meta data standards. The library's commitment to improve 
services resulted in a 90 percent inquiry increase, the third 
consecutive year of double-digit increases.

                                         INFORMATION SERVICES INQUIRIES
----------------------------------------------------------------------------------------------------------------
                                                                                                       Increase
                                                                                                      from Prior
                              Year                               Traditional      Web        Total       Year
                                                                                                       (percent)
----------------------------------------------------------------------------------------------------------------
2006...........................................................       31,032   1,596,772   1,627,804          90
2005...........................................................       33,080     823,076     856,156          35
2004...........................................................       33,750     602,236     635,986          61
2003...........................................................       46,234     348,198     394,432     ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Baseline.

            Legislative Record Keeping
    The library guarantees daily accuracy of more than 100 Senate 
business-related lists on three Web sites--Senate.gov, LIS.gov, and 
Webster. Legislative records published by the Library are in high 
demand because of their usability and quick access. Almost 1.6 million 
visitors to Library-produced Web resources underscore the need for 
these materials. The three most popular legislative publications--Hot 
Bills List, Appropriations Legislation, and Action on Cloture--garnered 
456,151 Web visitors in 2006.

                              HOT BILLS, APPROPRIATIONS, AND CLOTURE WEB INQUIRIES
----------------------------------------------------------------------------------------------------------------
                           Publication                            Senate.gov      LIS       Webster      Total
----------------------------------------------------------------------------------------------------------------
Hot Bills (Active Legislation)..................................     372,857      17,096       8,796     398,749
Appropriations Legislation (fiscal year 1987-present)...........      43,795       6,293       3,545      53,633
Cloture Motion Activity (1985-present)..........................       1,299       1,256       1,214       3,769
                                                                 -----------------------------------------------
    Total Web Inquiries.........................................  ..........  ..........  ..........     456,151
----------------------------------------------------------------------------------------------------------------

    Since accepting responsibility to author Senate.gov content in 
2002, library staff have dedicated themselves to mastering Web 
technology best practices. Efforts have resulted in the conversion of 
many existing print and Web publications into XML format. This 
versatile format is a universal standard for efficiently storing and 
retrieving data. The great advantage of XML is that both print and Web 
products can be easily generated from a single data source.
            Senator Biography Database
    Several offices under the Secretary of the Senate share publishing 
responsibility for up-to-the-day information on Senate.gov. When new 
Senate records are set, such as for the longest-serving Senator or when 
a Senator has cast more than 10,000 votes, those accomplishments are 
immediately published on the site. To support these requirements, the 
library conducted a review of software products to construct a 
biographical database.
    As part of this effort, the library has created a prototype 
database designed to eliminate redundant data entry, improve workflow, 
and reduce the potential for error. Key elements about the 1,895 
individuals who have served as Senators since 1789--member name, state, 
party, and dates of service, for example--can be stored and managed in 
the database. These standardized elements are retrievable as needed.
            Committee Hearings
    The library's retrospective Senate hearing project was completed on 
December 28--an achievement that took 13 years of effort. This 
significant accomplishment provides Senate staff with bibliographic 
access to the library's collection of 36,300 hearings dating from 1889. 
The library collection is regarded as the most complete in existence, 
surpassing those of the Library of Congress and National Archives.
    A second hearing project involves creating catalog records for 
Senate hearings announced in the Congressional Record Daily Digest. 
This project bridges the three- to six-month period between the hearing 
announcement and the official publication of the hearing. For the first 
time, Senate staff have a reliable source--the library catalog--to 
locate hearing information for all hearings, including unpublished 
hearings. Since the project began in May 2005, 1,098 unpublished 
hearing records have been created.
            Floor Schedule
    The library is responsible for posting the Floor Schedule on 
Senate.gov after each Senate meeting adjourns. The schedule provides 
convene and adjourn times, program highlights, and links to roll call 
votes and daily calendars. Floor Schedule production was improved this 
year by establishing an XML template that standardizes the format.
            Digital Congressional Document Collection
    The library acquired two congressional document databases and the 
full-text searchable collections provide Senate-wide access to 313,730 
reports and documents. The databases contain the U.S. Congressional 
Serial Set, Senate Journal, House Journal, Senate Executive Journal, 
and American State Papers. An added benefit of these databases is that 
customized research collections can be created by Senate staff from 
their desktop. For example, one customized collection groups early 
editions of the Secretary of the Senate Report (1823-1903).

                        DIGITAL COLLECTION USAGE
------------------------------------------------------------------------
                       Title (coverage)                         Searches
------------------------------------------------------------------------
American State Papers (1789-1838)............................        588
Congressional Research Service Reports (1916-present)........        400
Senate and House Committee Prints (1830-present).............        400
U.S. Congressional Serial Set (1817-1906)....................      1,729
                                                              ----------
    Total Digital Collection Searches........................      3,117
------------------------------------------------------------------------

            Treaty Documents and Executive Reports
    More than 1,565 treaties and 1,016 executive reports, from 1857 to 
the present, were cataloged during a 5-year project. This project 
provides bibliographic access to the entire Senate executive document 
collection through the library's catalog. The international scholarly 
community will also benefit from these unique bibliographic records 
because in many instances the only known copies are in the Senate 
collection.
            Traditional Information Requests
    Traditional requests--by telephone, e-mail, or in-person--are fewer 
than Web-based inquiries; however they dominate daily library activity. 
Often working under strict deadlines, the eight-person team personally 
responds to a monthly average of 2,586 staff inquiries. Each request is 
handled in a timely, confidential, and nonpartisan manner. Research 
requests vary widely, including legislative, legal, economic, and 
historical topics. The knowledge gained from this frontline experience 
provides the basis from which the librarians create Web products.

                 INFORMATION SERVICE SUPPORT ACTIVITIES
------------------------------------------------------------------------
                           Category                              Total
------------------------------------------------------------------------
Document Deliveries..........................................      3,290
Circulation:
    Item Loans...............................................      2,941
    New Accounts.............................................        333
                                                              ----------
      Total Accounts.........................................      2,745
                                                              ==========
Microform Center:
    Titles Used..............................................        245
    Pages Printed............................................      4,479
Photocopies..................................................    101,297
------------------------------------------------------------------------

            Customized Research Instruction and Professional Outreach
    The library conducted 46 LIS Savvy classes for 343 staff. This 
important responsibility utilizes the library's expertise in 
legislative procedure and database research. During this second year of 
the library's LIS training program, additional classes for advanced 
search techniques are in development. The library is also collaborating 
with the Office of Education and Training to design a self-paced, 
online LIS course.
    During 2006, 175 staff attended Services of the Senate Library 
seminars, the Senate Services Fair, Senate Page School tours, state 
staff orientations, and the annual National Library Week reception and 
book talk. Visitors from graduate schools, professional organizations, 
and federal libraries totaled 188.
Technical Services
            Acquisitions
    As a participant in GPO's Federal Depository Library Program 
(FDLP), the library receives selected categories of legislative, 
executive, and judicial branch publications. The library received 
10,655 government publications in 2006, 9,907 of those through the 
FDLP. In response to the trend of issuing government documents in 
electronic format, 20,400 links were added to the library catalog. The 
links provide Senate staff desktop access to the full-text of each 
document.

                              ACQUISITIONS
------------------------------------------------------------------------
                           Category                              Total
------------------------------------------------------------------------
Congressional Documents......................................      7,322
Executive Branch Publications................................      3,333
Books........................................................        889
                                                              ----------
    Total Acquisitions.......................................     11,544
------------------------------------------------------------------------

    A major project is the ongoing title-by-title evaluation of 
executive branch publications. During the project's sixth year, 1,219 
items were withdrawn from the collection, 642 of which were donated to 
requesting federal libraries. The project's final phase will improve 
organization and access by integrating the retained documents into the 
book collection. Toward this end, 602 documents were reclassified and 
merged into the larger primary collection.
    The library significantly expanded its microform periodical 
coverage through the acquisition of surplus materials from Washington-
area libraries. New titles include: Los Angeles Times, 1978-2005; New 
England Journal of Medicine, 1984-1998; The New York Times, 1926-1961; 
The Progressive, 1984-2004; and USA Today, 1993-2005.
            Catalog
    The library's productive cataloging staff draws on years of 
experience to produce and maintain a catalog of more than 177,940 
bibliographic items. During 2006, 13,303 items were added to the 
catalog, including 8,132 new titles--a 57 percent increase over 2005--
and 6,154 items were withdrawn. A total of 32,592 maintenance 
transactions contributed to the catalog's content, currency, and record 
integrity.
    Senate staff searched the library catalog on 4,742 occasions (+21 
percent), viewing 6,514 catalog pages (+12 percent). The catalog is 
updated nightly to ensure that Senate staff will retrieve accurate and 
current information on library holdings. Visual appeal and utility were 
enhanced with the addition of 280 book jacket images for new titles.
    A related, ongoing project involves cataloging the Senate 
Historical Office's 3,000-volume book collection. Records for 820 
titles were added to the library catalog, bringing the total number of 
Historical Office titles to 1,426. They will be able to efficiently 
identify and locate volumes in their collection through the library 
catalog.
            Name Authorities Cooperative Program (NACO)
    NACO, an international cataloging authority located at the Library 
of Congress, manages personal name and subject control for the library 
community. As one of 457 participants, the library contributed 616 
personal names and congressional terms. That exceptional number 
underscores the very special nature of the Senate's collections and 
skills of the library's catalogers.
            Library System Servers
    The library acquired three servers that will provide a platform for 
the fiscal year 2007 catalog upgrade. New capabilities will shorten 
data transfer time and increase catalog availability, enhance record 
processing, and provide for dynamic delivery of catalog content to the 
Web.
Collection Maintenance
            Senate Support Facility
    The library's off-site collection includes legislative publications 
dating from the early 1800s. These 26,000 volumes are an archive of the 
Senate's primary source documents. In early 2006 the collection was 
transferred to the new SSF; organization and shelving were completed by 
August.
            Environmental Controls
    Air handling and water detection systems were installed in the 
Russell Building book stacks. These environmental controls improve 
storage conditions for the Senate's historic collections. With the new 
equipment, the site meets strict archival standards for both 
temperature and humidity levels. Newly installed detection devices will 
alert staff to any water-related issues.
    Sensors to remotely monitor environmental conditions were installed 
in the library's book stacks within the SSF. If relative humidity and 
temperature levels exceed preset thresholds, staff will receive an e-
mail alert. These improvements mark the first time in the library's 
history that all collections are housed in controlled environments.
            Preservation and Binding
    A collection survey to examine the physical condition of the 
38,815-volume book collection was completed in August 2006. The survey 
concluded that the collection is in excellent condition. However, 580 
volumes (1.5 percent) will require minor repair and 32 volumes will be 
evaluated for major repair or replacement.
    Library collections include every printed legislative document 
since the First Congress. In order to ensure that this collection 
remains comprehensive, materials are prepared for binding at GPO. 
During the year, 608 volumes containing hearings, committee prints, 
bills and resolutions, Congressional Records, and other materials were 
bound.
Administrative
            Budget
    Budget savings in 2006 totaled $1,575; and, after a decade of 
budget monitoring, savings total $75,813.86. This continual review of 
purchases eliminates materials not meeting the Senate's current 
information needs. This oversight is also critical in offsetting cost 
increases for core materials and for acquiring new materials. The goal 
is to provide the highest level using the latest technologies and best 
resources in the most cost-effective manner.
            Continuity of Operations Plan (COOP)
    Several Library initiatives this year will further enable the 
Office of the Secretary to provide information services to the Senate 
from off-site. Projects include housing core documents at the SSF and 
training staff to remotely access the Senate network from a Senate-
issued laptop. Additionally, the library established a Digital 
Congressional Research Collection containing fully searchable 
congressional documents dating from the First Congress. These databases 
can be remotely accessed, and support immediate digital delivery of 
information.
            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum, the Secretary's quarterly newsletter has been produced by 
Senate Library staff since October 1997. It serves as an historical 
record of accomplishments, events, and personnel in the Offices of the 
Secretary of the Senate. The newsletter is distributed throughout the 
Senate, and to former staff and Senators.
    The four 2006 issues highlighted several significant events 
including three major publications issued through Secretary's office, 
200 Notable Days: Senate Stories, 1787-2002, United States Senate 
Graphic Arts Catalog, and Biographical Directory of the United States 
Senate, 1789-2005.
Major Library Goals for 2007
    Redesign the library's Webster site.
    Create a Web-based Senate index for Senate.gov and the library's 
Webster site.
    Acquire software for a senator's biographical database.
    Develop online LIS training resources for Senate staff.
    Upgrade the integrated library system.
    Install new OCLC cataloging software.
    Survey U.S. Congressional Serial Set volumes in the Senate Support 
Facility.
    Survey book, House hearing, and microform collections in the 
Russell Building.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2006--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         42         87        142         24        293         18         46        375        985
February.............................................         25         27        165        112        241         25         63        113        746
March................................................         20         65        269        386        307         21        134        226      1,408
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         87        179        576        522        841         64        243        714      3,139
                                                      ==================================================================================================
April................................................         21         55        208        270        311         17         62        239      1,162
May..................................................         25         86        184  .........        310         20         86        334      1,020
June.................................................         13         87        161         43        220         23         56         72        662
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         59        228        553        313        841         60        204        645      2,844
                                                      ==================================================================================================
July.................................................         20        119        174         42        276         19         52        173        855
August...............................................         27         75         67        171        272         14         54        196        849
September............................................         41         70         61  .........        273         15         68        212        699
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................         88        264        302        213        821         48        174        581      2,403
                                                      ==================================================================================================
October..............................................         38         92        300         13        352         14         58        705      1,534
November.............................................         60         52        214         41        262         16         36        195        816
December.............................................         15         74        117        169        233         19         33        163        808
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................        113        218        631        223        847         49        127      1,063      3,158
                                                      --------------------------------------------------------------------------------------------------
      2006 Total.....................................        347        889      2,062      1,271      3,350        221        748      3,003     11,544
      2005 Total.....................................        346        880      2,337      1,251      2,926        252        884      3,458     11,988
                                                      ==================================================================================================
Percent Change.......................................       0.29       1.02     -11.77       1.60      14.49     -12.30     -15.38     -13.16      -3.70
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2006--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                        Bibliographic Records Cataloged
                                                          S.    ------------------------------------------------------------------------------
                                                       Hearing                    Government Documents           Congressional Publications      Total
                                                       Numbers             -------------------------------------------------------------------  Records
                                                       Added to    Books                                                              Docs./   Cataloged
                                                         LIS                  Paper      Fiche    Electronic   Hearings    Prints     Pubs./
                                                                                                                                     Reports
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.............................................         20         70         10          1          16        349         10        117        573
February............................................         26         50          1          2           9        312          5        100        479
March...............................................         32        249          4         15          49        561         14        284      1,176
                                                     ---------------------------------------------------------------------------------------------------
      1st Quarter...................................         78        369         15         18          74      1,222         29        501      2,228
                                                     ===================================================================================================
April...............................................         30         38         11          4          21        418          1         83        576
May.................................................         19        246          5         51           5        461         36          5        809
June................................................          7        116          3          1  ..........        391          7         46        564
                                                     ---------------------------------------------------------------------------------------------------
      2nd Quarter...................................         56        400         19         56          26      1,270         44        134      1,949
                                                     ===================================================================================================
July................................................         45        168          4  .........          12        618          5         11        818
August..............................................         53        116          3          1          11        333          5  .........        469
September...........................................          8        225         14          6          24        558          7         21        855
                                                     ---------------------------------------------------------------------------------------------------
      3rd Quarter...................................        106        509         21          7          47      1,509         17         32      2,142
                                                     ===================================================================================================
October.............................................         33         59  .........  .........  ..........        485          4         18        566
November............................................         21         92         10  .........          11        578          1          5        697
December............................................         24         70          5         15          13        442          3          2        550
                                                     ---------------------------------------------------------------------------------------------------
      4th Quarter...................................         78        221         15         15          24      1,505          8         25      1,813
                                                     ---------------------------------------------------------------------------------------------------
      2006 Total....................................        318      1,499         70         96         171      5,506         98        692      8,132
      2005 Total....................................      1,088        500         85         57         131      3,379         39        988      5,179
                                                     ===================================================================================================
Percent Change......................................     -70.77     199.80     -17.65      68.42       30.53      62.95     151.28     -29.96      57.02
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2006--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                     Volumes  Materials  Facsimiles   Center Pages      Pages
                                                     Loaned   Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January...........................................       240        354        100           184         7,079
February..........................................       223        312         79           224        13,615
March.............................................       195        409        109            67         9,304
                                                   -------------------------------------------------------------
      1st Quarter.................................       658      1,075        288           475        29,998
                                                   =============================================================
April.............................................       247        256         70           471        11,194
May...............................................       279        319         71           436        12,232
June..............................................       313        340        100           778        12,804
                                                   -------------------------------------------------------------
      2nd Quarter.................................       839        915        241         1,685        36,230
                                                   =============================================================
July..............................................       249        211         69         1,312         6,315
August............................................       185        203         65           162         6,488
September.........................................       398        283         71           190         9,178
                                                   -------------------------------------------------------------
      3rd Quarter.................................       832        697        205         1,664        21,981
                                                   =============================================================
October...........................................       235        203         76           320         6,213
November..........................................       260        208         34           268         3,014
December..........................................       117        192         34            67         3,861
                                                   -------------------------------------------------------------
      4th Quarter.................................       612        603        144           655        13,088
                                                   -------------------------------------------------------------
      2006 Total..................................     2,941      3,290        878         4,479       101,297
      2005 Total..................................     2,752      4,015      1,001         4,406       113,335
                                                   =============================================================
Percent Change....................................      6.87     -18.06     -12.29          1.66        -10.62
----------------------------------------------------------------------------------------------------------------

                         11. senate page school
    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.
Summary of Accomplishments
    Continue to work toward accreditation by the Middle States 
Commission on Secondary Schools. The process will be ongoing until 
December 31, 2008.
    Conducted closing ceremonies for two page classes on June 9, 2006, 
and January 26, 2007, the last day of school for each semester.
    Completed orientation and course scheduling for the Spring 2006 and 
Fall 2006 pages. Needs of incoming students determined the semester 
schedules.
    Provided extended educational experiences including twenty-three 
field trips, six guest speakers, writing and speaking contests, musical 
instruments and vocal opportunities, and foreign language study with 
the aid of tutors of five languages. Summer pages participated in eight 
field trips to educational sites and listened to two guest speakers as 
an extension of the page experience. National tests were administered 
for qualification in scholarship programs.
    Collected items for gift packages and then assembled and shipped to 
military personnel in Afghanistan and Iraq as part of the community 
service project embraced by pages and staff since 2002. Pages included 
letters of support to the troops. Several recipients of gift packages 
wrote letters to Pages expressing appreciation.
    Purchased updated materials and equipment. These included eighteen 
new workstations for students and staff. Math, science, and U.S. 
history texts were purchased as well as academic support software. The 
science lab was modified, updated, and safety compliant storage units 
for chemicals were purchased.
    Reviewed and updated the evacuation plan and COOP. Pages and staff 
continue to practice evacuating to primary and secondary sites.
    Participated in escape hood training (pages and staff). Staff was 
recertified in CPR/AED procedures.
    Trained tutors and substitute teachers in evacuation procedures.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, Latin, Japanese, Chinese, and Russian.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --Staff development options include attendance at seminars conducted 
        by Education and Training and subject matter and/or educational 
        issue conferences conducted by national organizations.
  --The community service project will continue.
  --Preparation for the accreditation visit will be made and all 
        necessary reports completed.
                   12. printing and document services
    The Office of Printing and Document Services (OPDS) serves as the 
liaison to GPO for the Senate's official printing, ensuring that all 
Senate printing is in compliance with Title 44, U.S. Code as it relates 
to Senate documents, hearings, committee prints and other official 
publications. The office assists the Senate by coordinating, 
scheduling, delivering and preparing Senate legislation, hearings, 
documents, committee prints and miscellaneous publications for 
printing, and provides printed copies of all legislation and public 
laws to the Senate and the public. In addition, the office assigns 
publication numbers to all hearings, committee prints, documents and 
other publications; orders all blank paper, envelopes and letterhead 
for the Senate; and prepares page counts of all Senate hearings in 
order to compensate commercial reporting companies for the preparation 
of hearings.
            Printing Services
    During fiscal year 2006, the OPDS prepared 4,320 requisitions 
authorizing GPO to print and bind the Senate's work, exclusive of 
legislation and the Congressional Record. Since the requisitioning done 
by the OPDS is central to the Senate's printing, the office is uniquely 
suited to perform invoice and bid reviewing responsibilities for Senate 
printing. As a result of this office's cost accounting duties, OPDS is 
able to review and assure accurate GPO invoicing as well as play an 
active role in helping to provide the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling, job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices such as 
the Curator, Historian, Disbursing Office, Legislative Clerk, Senate 
Library as well as the U.S. Botanic Garden, USCP and the AOC. These 
tasks include providing guidance for design, paper selection, print 
specifications, monitoring print quality and distribution. Last year's 
major printing projects included the Report of the Secretary of the 
Senate; and numerous publications prepared by the Senate Historian's 
office including 200 Notable Days in Senate History, and the New Member 
Guide to Traditions of the U.S. Senate. Current major projects for the 
office include A Botanic Garden for the Nation, the Annual Report of 
the Architect of the Capitol, and A History of the U.S. Senate Budget 
Committee.
            Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. The OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate. The OPDS 
utilizes a program developed in conjunction with the SAA Computer 
Division that provides more billing accuracy and greater information 
gathering capacity; and adheres to the guidelines established by the 
Senate Committee on Rules and Administration for commercial reporting 
companies to bill the Senate for transcription services. During 2006, 
OPDS provided commercial reporting companies and corresponding Senate 
committees a total of 934 billing verifications of Senate hearings and 
business meetings. Over 66,000 transcribed pages were processed at a 
total billing cost of over $433,000.
    The office continued processing all file transfers between 
committees and reporting companies electronically, ensuring efficiency 
and accuracy. Department staff continues training to apply today's 
expanding digital technology to improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                       2004            2005            2006       Percent change
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             787             949             934         -01.6
Average per Committee...........................            41.4            49.9            49.2         -01.6
Total Transcribed Pages.........................          56,262          66,597          66,158          -0.007
Average Pages/Committee.........................           2,961           3,505           3,482          -0.007
Transcribed Pages Cost..........................        $366,904        $426,815        $433,742          +1.016
Average Cost/Committee..........................         $19,311         $22,463         $22,829          +1.016
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within the OPDS is staffed by 
experienced GPO detailees that provide Senate committees and the 
Secretary of the Senate's Office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease, or eliminate, additional 
overtime costs associated with the preparation of hearings.
Document Services
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and GPO. This section 
ensures that the most current version of all material is available, and 
that sufficient quantities are available to meet projected demands. The 
Congressional Record, a printed record of Senate and House floor 
proceedings, Extension of Remarks, Daily Digest and miscellaneous 
pages, is one of the many printed documents provided by the office on a 
daily basis. In addition to the Congressional Record, the office 
processed and distributed 14,902 distinct legislative items during the 
109th Congress, including Senate and House bills, resolutions, 
committee and conference reports, executive documents, and public laws.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2004            2005            2006
----------------------------------------------------------------------------------------------------------------
Total Pages Printed.............................................          26,885          34,787          24,881
    For the Senate..............................................          12,642          16,393          12,362
    For the House...............................................          14,243          18,394          12,519
Total Copies Printed & Distributed..............................         882,314       1,049,463         780,302
    To the Senate...............................................         227,192         295,366         210,084
    To the House................................................         331,165         397,327         326,648
    To the Executive Branch and the Public......................         323,957         356,770         243,570
Total Production Costs..........................................     $17,543,644     $16,014,706     $13,115,660
    Senate Costs................................................      $7,961,741      $6,640,823      $5,006,708
    House Costs.................................................      $9,026,893      $8,933,244      $7,784,653
    Other Costs.................................................        $555,010        $440,639        $324,299
----------------------------------------------------------------------------------------------------------------

    Accessing legislative documents through the Web has become 
increasingly popular. Before Senate legislation can be posted online, 
it must be received in the Senate through the OPDS. Improved database 
reports allow the office to report receipt of all legislative bills and 
resolutions received in the Senate which can then be made available 
online and accessed by other Web sites, such as LIS and Thomas, used by 
Congressional staff and the public.
            Customer Service
    The primary responsibility of the OPDS is to provide services to 
the Senate. However, the office also has a responsibility to the 
general public, the press, and other government agencies. Requests for 
legislative material are received at the walk-in counter, through the 
mail, by fax, and electronically. During 2006, online ordering of 
legislative documents increased 20 percent over the previous year. The 
Legislative Hot List Link, where Members and staff can confirm arrival 
of printed copies of the most sought after legislative documents 
continued to be popular. The site is updated several times daily each 
time new documents arrive from GPO to the Document Room. In addition, 
the office handled thousands of phone calls pertaining to the Senate's 
official printing, document requests and legislative questions. 
Recorded messages, fax, and e-mail operate around the clock and are 
processed as they are received, as are mail requests. The office 
stresses prompt, courteous customer service while providing accurate 
answers to Senate and public requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                           Congress/    Public      FAX      On-line    Counter
                           Year                             session      mail     request    request    request
----------------------------------------------------------------------------------------------------------------
2003.....................................................    108/1st      1,469      2,596        735     53,040
2004.....................................................    108/2nd      1,137      2,229        564     36,780
2005.....................................................    109/1st      1,369      2,326      1,464     40,105
2006.....................................................    109/2nd      1,048      1,633      1,751     26,640
----------------------------------------------------------------------------------------------------------------

            On-Demand Publication
    The office produces additional copies of legislation as needed by 
producing additional copies in the DocuTech Service Center, staffed by 
experienced GPO detailees, that provide Member offices and Senate 
committees with on-demand printing and binding of bills and reports. 
On-demand publication allows the department to cut the quantities of 
documents printed directly from GPO and reduces waste. The DocuTech is 
networked with GPO, allowing print files to be sent back and forth 
electronically. This allows the OPDS to print necessary legislation for 
the Senate floor, and other offices, in the event of a GPO COOP 
situation. During 2006, the DocuTech Center produced 683 tasks for a 
total of 752,174 printed pages; this represents a 29 percent increase 
in the number of jobs over the previous year.
            Accomplishments & Future Goals
    OPDS developed new database reports on serial set publications for 
the Senate Library and inventory tracking of materials housed in the 
SSF were developed. Electronic proofing procedures, implemented in 
early 2006, were very well received by Senate offices. Proofs of over 
three hundred new and revised print jobs were routed electronically for 
customer approval improving turn around time and efficiency.
    The office's goals include working with GPO on their Future Digital 
and Microcomp Replacement Systems to improve efficiency and help answer 
the evolving needs of the Senate, as well as developing online ordering 
of stationery products for Senate offices. The Office of Printing and 
Document Services continues to seek new ways to use technology to 
assist Members and staff with added services and improved access to 
information.
                      13. office of public records
    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October, 2005, through September, 2006, the 
Public Records office staff assisted more than 2,400 individuals 
seeking information from reports filed with the office. This figure 
does not include assistance provided by telephone, nor help given to 
lobbyists attempting to comply with the provisions of the Lobbying 
Disclosure Act of 1995 (LDA). A total of 140,000 photocopies were sold 
in the period. In addition, the office works closely with the Federal 
Election Commission, the Senate Select Committee on Ethics and the 
Clerk of the U.S. House of Representatives concerning the filing 
requirements of the aforementioned Acts and Senate rules.
Fiscal Year 2006 Accomplishments
    The office modified its lobbying e-filing program to allow Adobe 
electronic forms generated by the Clerk of the House to be filed with 
the Secretary.
Plans for Fiscal Year 2006
    The Public Records office intends to upgrade its lobbying e-filing 
program to conform with the change to IBM forms made by the Clerk of 
the House so that both systems are complementary.
Automation Activities
    During fiscal year 2006, the Senate Office of Public Records 
developed the capacity to be able to accept Clerk-generated electronic 
LDA forms. The office also upgraded its automation of the public 
financial disclosure system.
Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports. 
Filings totaled 4,364 documents containing 298,639 pages.
Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2006, 6,554 registrants represented 21,468 
clients and employed 35,844 individuals who met the statutory 
definition of ``lobbyist.'' The total number of individual lobbyists 
disclosed on 2006 registrations and reports was 13,595. The total 
number of lobbying registrations and reports processed was 46,835.
Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 15, 
2006. The reports were available to the public and press by Wednesday, 
June 14th. Copies were provided to the Select Committee on Ethics and 
appropriate State officials. A total of 3,029 reports and amendments 
was filed containing 19,419 pages. There were 424 requests to review or 
receive copies of the documents.
Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received 803 reports during 
fiscal year 2006.
Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 623.
                          14. senate security
    The Office of Senate Security (OSS) was established under the 
Secretary of the Senate by Senate Resolution 243 (100th Congress, 1st 
Session). The office is responsible for the administration of 
classified information programs in Senate offices and committees. In 
addition, OSS serves as the Senate's liaison to the Executive Branch in 
matters relating to the security of classified information in the 
Senate. This report covers the period from January 1, 2006 through 
December 31, 2006.
Personnel Security
    Five hundred sixty-two Senate employees held one or more security 
clearances at the end of 2006. This number does not include clearances 
for employees of the Architect of the Capitol nor does it include 
clearances for Congressional Fellows assigned to Senate offices. OSS 
also processes these clearances.
    OSS processed 2,273 personnel security actions, a 3.7 percent 
decrease from 2005. One hundred-seven investigations for new security 
clearances were initiated last year, and 39 security clearances were 
transferred from other agencies. Senate regulations, as well as some 
Executive Branch regulations, require that individuals granted Top 
Secret security clearances be reinvestigated at least every five years. 
Staff holding Secret security clearances are reinvestigated every ten 
years. During the past 12 months, reinvestigations were initiated on 81 
Senate employees. OSS processed 152 routine terminations of security 
clearances during the reporting period and transmitted 364 outgoing 
visit requests. The remainder of the personnel security actions 
consisted of updating access authorizations and compartments.
    Overall, the average time required to process a Senate employee for 
a security clearance has decreased from 332 days to 309 days. The 
average time for investigations has decreased by 7.4 percent relative 
to 2005. This is the first decrease since 2002 when the average time 
was 167 days. The increase for 2002 to 2003 was 66.7 percent, 2003 to 
2004 was 25.6 percent, and 2004 to 2005 was 27.7 percent. The overall 
increase from 2002 to 2006 was 85 percent. The average time for an 
initial investigation conducted and adjudicated by DOD is 277 days from 
the date that OSS requests the investigation until the letter from DOD 
granting the clearance is received in Senate Security. The average time 
for DOD initial investigations decreased 9.2 percent. The periodic re-
investigation process averages 335 days, a decrease of 13 percent 
relative to 2005. The average time for an initial investigation 
conducted by the FBI and adjudicated by DOD is 289 days while the 
periodic re-investigation process averages 387 days. The FBI 
investigation with DOD adjudication times represents an increase of 
12.9 percent and a decrease of 13.4 percent respectively.
    One hundred ninety-nine records checks were conducted at the 
request of the FBI and Customs and Immigration. One record check was 
performed on behalf of Customs and Immigration. The remaining checks 
were performed for the FBI. This represents a 16.7 percent decrease in 
records checks completed by OSS.
Security Awareness
    OSS conducted or hosted 63 security briefings for Senate staff. 
Topics included: information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 5 
percent increase from 2005.
Document Control
    OSS received or generated 2,488 classified documents consisting of 
76,409 pages during calendar year 2006. This is a 10.9 percent decrease 
in the number of documents received or generated in 2005. Additionally, 
48,276 pages from 2,233 classified documents no longer required for the 
conduct of official Senate business were destroyed. This represents a 
45.3 percent decrease in destruction from 2005. OSS transferred 906 
documents consisting of 23,742 pages to Senate offices or external 
agencies, up 29.4 percent from 2005. These figures do not include 
classified documents received directly by the Appropriations Committee, 
Armed Services Committee, Foreign Relations Committee, and Select 
Committee on Intelligence, in accordance with agreements between OSS 
and those Committees. Overall, Senate Security completed 5,627 document 
transactions and handled over 148,427 pages of classified material in 
2006, a decrease of 25.7 percent.
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of storage areas throughout the Capitol and Senate 
office buildings, thereby affording greater security for classified 
material.
Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,173 occasions 
by a total of 7,854 people during 2006. Use of OSS conference 
facilities increased 27.6 percent over 2005 levels. Eight hundred 
thirty-six meetings, briefings, or hearings were conducted in OSS' 
three conference rooms. Of those, seven were ``All Senators'' briefings 
and five were hearings. OSS also provided to Senators and staff secure 
telephones, secure computers, secure facsimile machine, and secure 
areas for reading and production of classified material on 337 
occasions in 2006.
Projects and Accomplishments
    The Office of Senate Security hosted the first annual Technical 
Exposition for the Office of the Director of National Intelligence in 
April 2006. Classified and unclassified exhibits representing the 
technical and scientific accomplishments of the U.S. Intelligence 
Community were shown to members of the U.S. Senate and the U.S. House 
of Representatives, as well as cleared staff from throughout the 
Legislative Branch. OSS personnel provided assistance with security, 
site preparation, and escorting during the three months leading up to 
the Expo. The office and DNI are planning another Expo in April 2007.
    The Office of Senate Security is preparing to move to the Capitol 
Visitors Center expansion space when it is ready for occupancy. OSS has 
been coordinating with internal offices and other U.S. Government 
agencies to ensure the space will be appropriate for the storage, 
processing and discussion of classified material. OSS is developing 
plans and procedures for use of the new space and for moving the 
Senate's classified holdings to the new space in a secure and efficient 
manner.
                          15. stationery room
    The mission of the Keeper of the Stationery is to:
  --Sell stationery items for use by Senate offices and other 
        authorized legislative organizations.
  --Select a variety of stationery items to meet the needs of the 
        Senate environment on a day-to-day basis and maintain a 
        sufficient inventory of these items.
  --Purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules.
  --Maintain individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate.
  --Render monthly expense statements.
  --Ensure receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process.
  --Make payments to all vendors of record for supplies and services in 
        a timely manner and certify receipt of all supplies and 
        services.
  --Provide delivery of all purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2006            2005
                                            Statistics      Statistics
------------------------------------------------------------------------
Gross Sales.............................      $4,945,381      $5,247,163
Sales Transactions......................          45,471          60,247
Purchase Orders Issued..................           6,795           8,611
Vouchers Processed......................           8,313           9,206
Office Deliveries.......................           6,085              NA
Number of Items Delivered...............         156,172              NA
Number of Items Sold....................         608,104              NA
                                         ===============================
Mass Transit Media Sold.................          86,483          75,607
    $20.00..............................          72,388          64,527
    $10.00..............................           4,510           3,923
    $5.00...............................           9,585           7,157
                                         ===============================
Full Time Employees (FTE)...............              13              13
------------------------------------------------------------------------

Fiscal Year 2006 Highlights and Projects
            Flag Purchase Modernization Project
    During fiscal year 2005, with the assistance of the Office of the 
AOC and the SAA, the Stationery Room began to offer Member offices the 
option of purchasing flags which had been flown over the Capitol, but 
were not date or occasion specific. Approximately thirty-seven percent 
of all flag requests by constituents were only to obtain a flag flown 
over the Capitol. If flags could be flown in advance, significant wait 
times could be reduced. In addition, the SAA's Printing, Graphics and 
Direct Mail Division created artwork for a generic customizable flag 
certificate, along with a CD template that could be used in the 
customization process should a Member office choose. All flags which 
have been pre-flown come with a Certificate of Authenticity signed by 
the Architect, certifying each flag has been flown over the United 
States Capitol. Over the course of fiscal year 2006, interested Member 
offices were incorporated into the pre-flown Flag program. Eighty-six 
Member offices participate in the program. This program has been well 
received by the Senate community, with positive feedback from all 
levels.
            Senate Support Facility
    Fiscal year 2006 saw the migration and consolidation of the 
Stationery Room's multiple storage locations into one central site. 
With the transfer of materials from the old facilities in February 2006 
to the new SSF, product chain of custody is now maintained. The 
Stationery Room is looking at ways to use the facility to its maximum 
advantage and envision this as a major distribution outlet for all 
products by building a stock replenishment process and improving upon 
distributed services.
            Product Review Committee
    During fiscal year 2006, the Stationery Room developed a means to 
garner a better understanding of the needs of the Senate community. The 
Stationery Room created a Product Review Committee representing Member 
and committee offices to provide opinion, assessment, evaluation and 
feedback on products needed by the end users. While the committee is 
just underway, it has become an invaluable communication tool.
            Computer Modernization
    The Stationery Room completed acceptance testing on its new 
Microsoft Retail Point of Sale base applications along with the Great 
Plains/Business Dynamics accounting system in August 2006. This project 
was completed on time and under budget. The initial phase of the 
applications being completed, the Stationery Room staff will look to 
enhance the base system and take advantage of the various reporting 
capabilities. Part of the additional enhancements will include the 
feasibility of providing an e-commerce solution to the Senate community 
for order processing and fulfillment.
            Store Merchandising and Relocation Project
    During the last quarter of fiscal year 2006, the Stationery Room 
staff initiated a project for the sales area of the store. After 
completing a space utilization review of the store facilities, the 
Stationery Room concluded that it needed to reduce shelf quantities on 
some products, while increasing quantities on others. Shelving was re-
aligned to properly display products in a more convenient customer-
oriented manner with like product groupings given high priority.
                           16. web technology
    The Office of Web Technology is responsible for Web sites that fall 
under the purview of the Secretary of the Senate, including: the Senate 
Web site, www.senate.gov (except individual Senator and Committee 
pages); the Secretary's Web site on Webster; an intranet site currently 
used for file-sharing by Secretary staff only; and a LegBranch Web 
server housing Web sites and project materials which can be accessed by 
staff at other Legislative Branch agencies.
The Senate Web site--http://www. Senate.gov

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The United States Senate Web site celebrated its eleven year 
anniversary in 2006, as the first U.S. Senate home page on the World 
Wide Web was announced October 20, 1995 on the Senate floor. From the 
Senate homepage members of the public could easily find the homepages 
for their own Senators. As the Web grew, so did the content and mission 
of Senate.gov. The pages of information became catalogs and databases, 
but the mission to provide the public with accurate and timely 
information remained constant. There were more than 70 million visitors 
to the Senate Web site in 2006--twenty million more than in 2005.
    The Senate Web site content is maintained by over 30 contributors 
from 7 departments of the Secretary's Office and 3 departments of the 
Sergeant at Arms. Content Team Leaders meet regularly to share ideas 
and coordinate the posting of new content.
Major Additions to the Site in 2006
    A redesigned graphical interface--Highlights of the redesign are 
the ``Find Your Senators'' and site-wide search boxes in the top right 
corner of every page. For the first time the Senate Web site has a 
site-wide search that uses the Google search features so familiar to 
our visitors. The new site received favorable reviews from U.S. News 
and Word Report.
    A new interactive exhibit on Isaac Bassett--Isaac Bassett served 
the Senate from his appointment as a page in 1831 until his death in 
1895, when he was assistant doorkeeper. Bassett witnessed some of the 
most turbulent and exciting times in the institution's history and he 
captured his observations in copious notes which have been donated to 
the Senate. An Isaac Bassett interactive exhibit has been created that 
allows the visitor to choose an event, via a timeline or subject 
listing, and to read a transcript of Bassett's notes about the event. 
An image of the handwritten note is also available when viewing the 
transcript.
    A new interactive exhibit on the Senate Chamber Desks--There are 
100 desks on the Senate Floor and each one has a history. The content 
relative to each desk includes a textual description, list of former 
occupants, digitized images of the desk and the carvings (Senators 
carve their names in their desks when they leave the Senate), and notes 
on the desk's condition and restoration. A Web-based interactive 
presentation has been created to display this rich information about 
the Senate desks.
    Cloture and veto tables for the Library.
    The Fine Arts Catalogue on the Web--images and text from the 
Catalogue have been published on the Senate site.
    Senator Bob Dole's portrait unveiling--the video and transcript of 
the portrait unveiling event are posted for viewing.
    Homepage feature articles published on the following topics: the 
10th anniversary of the Senate Web site and the launching of the new 
Web site design; the Congressional Biographical Directory Online; the 
launching of the Senate Chamber Desks site; We the People: Celebrating 
the American Constitution; and the publication of the United States 
Catalogue of Graphic Arts.
    A multimedia exhibit on the drawings of Lily Spandorf--During the 
1962 Washington filming of the movie ``Advise and Consent'', freelance 
artist Lily Spandorf was sent by the Washington Star to make a few pen 
and ink illustrations of the production. Ms. Spandorf created a total 
of 68 pen and ink and two gauche (watercolor) drawings, all of which 
are now in the U.S. Senate Collection. A Flash multimedia presentation 
of Spandorf's work has been created for the Web site, associating her 
drawings with movie clips from the specific scene the drawing depicts.
Planned Additions to the Site in 2007
    A reorganized Art section--with the addition of the Fine Arts and 
Graphic Arts images the Art section of the site has grown considerably 
and needs to be indexed.
    A project to better organize content on www.senate.gov. The Web 
team is reviewing items for possible reorganization of information on 
the site.
Accomplishments of the Office of Web Technology in 2006
    Upgraded Documentum CMS to 5.25 from 4.3. Encountered error which 
was determined to be a software bug by Documentum who advised upgrading 
to 5.3. Developed Statement of Work, requested proposals and contracted 
with RWD Technologies to review current upgrade status and assist with 
upgrade to version 5.3.
    Helped develop requirements for a taxonomy being built by Senate 
Librarians to organize information about Senators.
    The Web Content Assistant analyzed Google search terms each month 
and identified the need for additional Virtual Reference Desk (VRD) 
subject terms. New VRD pages were built. The VRD serves as an index to 
the site.
    Created production standards for the VRD. The standards include how 
the index will appear (in this case it is subject oriented) and what 
types of links to include.
    Established a system for assigning Google Keywords by analyzing the 
most common words people type in the search box each month, determining 
the items on the site that are most relevant to their search, and 
providing links to those items on the site.
    Designed the layout for the Spandorf exhibit. Organized all 
pictures, loaded them into CMS, and edited accompanying text.
    The Web Content Assistant audited the Senate.gov Web pages 
regularly, updating and correcting links; verifying content; and 
reviewing individual page designs throughout Senate.gov.
    The Assistant Webmaster worked with the SAA to develop and 
implement a solution for all Senate offices to use the Google search 
feature on their own Websites, based on the same techniques developed 
for Senate.gov, including allowing Senate offices to order their search 
results by date, instead of just relevance.
    Developed and implemented an XML-based solution for the Stationery 
room to export catalog data from their internal system and have it 
displayed on their Web site on Webster. Provided documentation and 
training for the office to continue to update the information 
themselves.
    Established and refined workflow and approval procedures for 
various postings including the feature article postings.
    Created documentation on how to use the CMS to post PDFs, new 
portraits, tables, feature bios, feature articles, and how to update 
current postings. Documented all the changes that need to occur to the 
site at the change of a Congress.
    The Web Content Assistant worked with the all the content providers 
to expand the style guide. This included how footnotes should appear on 
the Web as well as the standards for Senators' names and the creation 
of tables.
    The Assistant Webmaster developed increasingly complex tables that 
are shared across several Web sites (www.senate.gov, the Webster/Senate 
Library site, and www.congress.gov) to deliver the most relevant 
information to the intended audiences. The Xtags application was 
implemented on the new version of Webster to maintain previously 
developed projects.
    Teamed with CRS to organize monthly meetings of the LegBranch 
Webmasters Group. Hosted the meeting on Web 2.0. Recruited speakers 
from Democratic Policy Committee and Republican Policy Committee who 
spoke about the use of Podcasts, RSS, WML, wireless communications, and 
other Web 2.0 features by their respective constituencies.
Senate.gov Usage Statistics
    In 2006 over 6 million visitors a month accessed the Senate Web 
site. Twenty-eight percent of them entered through the main Senate home 
page while the majority came to the site via a bookmarked page or to a 
specific page from a search engine. Statistics on individual page 
activity show increases in many areas of the main Senate site.

------------------------------------------------------------------------
                                                              2005-2006
        Title of Web Page          2005 Visits/ 2006 Visits/   Percent
                                      Month        Month       Increase
------------------------------------------------------------------------
Entire Site......................    4,512,000    6,081,000           35
Senate Home Page.................    1,388,500    1,685,000           21
------------------------------------------------------------------------

    Reviewing statistics on web page usage help the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. Visitors are consistently 
drawn to the following content items, listed in order of popularity.

                                           MOST VISITED PAGES IN 2006
----------------------------------------------------------------------------------------------------------------
                                                                   2005 Visits/    2006 Visits/
                            Top Pages                                  Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Roll Call Votes.................................................          38,504          63,099             +64
Active Legislation..............................................          22,582          30,053             +33
Senate Leadership...............................................          21,371          19,278             -10
Bills & Resolutions.............................................          15,513          18,155             +17
Committee Hearings Scheduled....................................          19,019          15,901             -16
Calendars & Schedules...........................................          13,077          15,574             +19
2005 Schedule...................................................          14,477          13,033             -10
Senate Organization Chart.......................................          13,203          12,438              -6
Nominations.....................................................          14,241          11,815             -17
----------------------------------------------------------------------------------------------------------------


                                 PAGES WITH LARGEST PERCENT INCREASES IN VIEWERS
----------------------------------------------------------------------------------------------------------------
                                                                   2005 Visits/    2006 Visits/
                         2005 Top Pages                                Month           Month      Percent Change
----------------------------------------------------------------------------------------------------------------
Statistics & Lists..............................................           9,334          15,981             +71
Virtual Reference Desk..........................................           8,285          13,568             +64
Roll Call Votes.................................................          38,504          63,099             +64
State Information...............................................          11,414          15,988             +40
Active Legislation..............................................          22,582          30,053             +33
----------------------------------------------------------------------------------------------------------------

    Visitors are interested in legislative matters with Roll Call Vote 
Tallies, the Active Legislation table, and the Bill and Resolutions 
section being particularly popular.
    Based on their popularity in 2005, links to Statistics and Lists 
and the VRD were added to the home page when the site was redesigned in 
2006, further increasing their popularity by 71 percent and 64 percent 
respectively.
Webster--http://webster/secretary
    About 2,300 visitors a month access the Secretary's Web site on 
Webster, the Senate Intranet, and statistics continue to show that the 
vast majority of visitors (87 percent) go directly to the Disbursing 
office section. This section contains information on Employee Benefits 
(insurance, retirement, payroll, etc.) and provides access to the many 
forms employees need to obtain or modify these benefits. Other popular 
items include the Senate Library Web site, the Stationery Room 
Catalogue, Office of Printing and Document Services Document Order and 
Print Order Forms, and the Web page that lists all Secretary of the 
Senate services.
              legislative information system (lis) project
    The LIS is a mandated system (Section 8 of the 1997 Legislative 
Branch Appropriations Act, 2 U.S.C. 123e) that provides desktop access 
to the content and status of legislative information and supporting 
documents. The 1997 Legislative Branch Appropriations Act (2 U.S.C. 
181) also established a program for providing the widest possible 
exchange of information among legislative branch agencies. The long-
range goal of the LIS Project is to provide a ``comprehensive Senate 
Legislative Information System'' to capture, store, manage, and 
distribute Senate documents. Several components of the LIS have been 
implemented, and the project is currently focused on a Senate-wide 
implementation and transition to a standard system for the authoring 
and exchange of legislative documents that will greatly enhance the 
availability and re-use of legislative documents within the Senate and 
with other legislative branch agencies. The LIS Project office manages 
the project.
Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the LIS in January 2000, the LIS 
Project Office shifted its focus to the data standards program and 
established the LIS Augmentation Project (LISAP). The over-arching goal 
of the LISAP is to provide a Senate-wide implementation and transition 
to XML for the authoring and exchange of legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC) and the 
Office of the Enrolling Clerk. The XML authoring application is called 
LEXA, an acronym for the Legislative Editing in XML Application. LEXA 
replaces the DOS-based XyWrite software used by drafters to embed 
locator codes into legislative documents for printing. The XML codes 
inserted by LEXA provide more information about the document and can be 
used for printing, searching and displaying a document. LEXA features 
many automated functions that provide a more efficient and consistent 
document authoring process. The LIS Project Office has worked very 
closely with the SLC and the Enrolling Clerk to create an application 
that meets the needs for legislative drafting.
LISAP: 2006
    Throughout 2006 additional features and fixes were added to LEXA, 
enabling the SLC to use the application for more and more of their 
drafting requests. Ninety-five percent of introduced bills produced in 
the SLC were drafted in XML. Some of the new functionality added to 
LEXA in the last year included the following:
  --Ability to create and print several additional styles.
  --A one-click feature to reintroduce one type of document as another 
        type of document, for example, taking the language from a bill 
        and creating an amendment.
  --Ability to specify and print all document stages.
  --A feature to enter a prescribed 3- or 4-letter abbreviation into a 
        document and have it resolve to a long name or phrase.
  --Ability to create amendments to appropriations bills.
  --Ability to create motions.
    LEXA developers also worked with the Office of the Enrolling Clerk 
to add engrossing and enrolling features and to provide for the exact 
formatting and printing requirements for documents created by that 
office. Several hours of training were provided to the staff, and the 
Enrolling Clerks began working in LEXA at the beginning of the 110th 
Congress. With the addition of the documents produced by the Office of 
the Enrolling Clerk, all stages of a measure can be produced in XML.
    Support for LEXA users remains an important priority. The LIS 
Project office provides support for LEXA via the LEXA HelpLine and LEXA 
Web site. The HelpLine is provided through a single phone number that 
rings on all the phones in the office, and the Web site is located on a 
server accessible by the legislative branch. The Web site, http://
legbranch.senate.gov/lis/lexa, is used to distribute updates of the 
application to GPO and provides access to release notes, the reference 
manual, and other user aids. The 2004 Legislative Branch Appropriations 
Act directed GPO to provide support for LEXA much as the office has for 
XyWrite. GPO continues to work toward augmenting the support provided 
by the LIS Project Office. Senate staff members in the LIS Project 
Office do development and provide support for LEXA.
    GPO maintains the software module that converts a Senate XML 
document to locator for printing through Microcomp, and in 2006, the 
module was expanded to also print House XML documents. GPO is also 
nearing completion of a tool to create and print tables. This software 
will be used by both the House and Senate, providing another module 
that is common to both applications. The House and Senate software 
development groups continue to work closely with GPO and the Library of 
Congress to reach agreement on technical authoring issues and 
standards, thereby eliminating the need for additional processing when 
documents are exchanged.
    The LEXA Reference Manual was updated by the LIS office in early 
2006, and a 2007 update is underway. The manual provides screen shots 
and step-by-step instructions for all LEXA features. The Office also 
trained new SLC staff and the Enrolling Clerks on LEXA and provided 
several demonstrations on new LEXA features throughout the year.
    The LIS Project Office, the SLC, and the SAA's Systems Development 
Services group have worked together for the past several years to 
implement a document management system (DMS) in the SLC. One obstacle 
has been the need for the SLC to continue to use XyWrite for certain 
documents. XyWrite is DOS-based software that does not work well in a 
Windows or database environment. In 2006, the team identified and 
purchased DMS software that will work with both LEXA and XyWrite 
documents. The Systems Development Services group is working with the 
SLC systems integrator to implement the software, and the LIS Project 
office will assist in the integration with LEXA. The DMS will provide a 
powerful tracking, management, and delivery tool for the SLC.
LISAP: 2007
    The LIS Project office will continue to work with the House, GPO, 
and the Library of Congress on projects and issues that impact the 
legislative process and data standards for exchange. These groups are 
currently participating in two projects with GPO--one to define 
requirements for replacing the Microcomp composition software and 
another to improve the content submission and exchange processes.
    The Office of the Enrolling Clerk will use LEXA to produce 
engrossed and enrolled bills in XML. The LIS Project office will 
continue to work with the SLC and the Office of the Enrolling Clerk to 
refine and enhance LEXA so that more and more of the documents produced 
by those offices will be done in XML. Once all of the documents can be 
produced in XML using LEXA, those offices will be able to stop using 
XyWrite. Since XyWrite is not compatible with other Windows software, 
moving away from it will allow the offices to use more modern 
technologies for all functions. Other Senate offices that do drafting 
with XyWrite may begin using LEXA, including the Committee on 
Appropriations.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and re-verified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

    Senator Landrieu. Thank you very much. And, I do have a few 
questions. And, what we're going to try to do is to finish this 
portion of the hearing in about 10 or 15 minutes, and then go 
on to the Library of Congress. We may have votes called, but 
we're going to try to complete the hearing before 11 o'clock, 
if we can.

                             PRIMARY GOALS

    Let me ask you, Madam Secretary, what are your three 
primary goals in your tenure? I'm sure you've had some time now 
to think about the three things that you would like to 
accomplish as your personal goals, on what you can leave, or 
contribute during your time. Just list them for the 
subcommittee if you would.
    Ms. Erickson. First of all, I'd like to build on the strong 
leadership of my predecessor, Emily Reynolds. But three things 
that immediately come to mind, I want to continue to push more 
information to the web, as I mentioned in my statement. I'd 
like our Stationery Room to offer e-commerce options to Senate 
offices. I think that Senate office administrators could find 
that it would be beneficial to them to be able to purchase 
office supplies online from our Stationery Room.
    In addition, I'd like to revamp our Secretary's website to 
push more information onto Webster to make it easier for the 
Senate community to access and understand the services that we 
provide.
    Second of all, my predecessor spent a great deal of time 
working on continuity of operations planning. And, that's 
something that I want to build on, not only continuity of 
operations planning, but continuity of Government planning. I 
hope we never become complacent in our preparations, and that 
we will always be ready in a minute's notice to support the 
Chamber under any circumstance.
    It also relates to our Senate Disbursing Office. We 
practice at least once a year with the Sergeant at Arms from a 
remote location, making sure that we can process our payroll 
and vouchers for Senate offices. And, that's something that I'd 
really like to step up, to do more than once a year.
    And my third goal is to implement the paperless voucher 
system, another program that I think would be extremely popular 
for office administrators. My understanding is that the project 
is at a critical stage. We're working with our oversight 
committee, the Rules and Administration Committee, to work out 
issues related to electronic signatures.
    Those are my three goals.
    Senator Landrieu. Well, let me encourage you along all 
three goals that you've outlined, and particularly the second 
one. Having gone through, of course the recent and still very 
harsh experience of Hurricane Katrina, having to watch 
governments, to maintain their integrity in very desperate 
circumstances, and having had the experience of 9/11. It is a 
very, very important aspect of your work, to be able to 
maintain the functions of this Senate under any and all 
circumstances. And, I would imagine that the bulk of that work 
falls on your shoulders, the responsibility along with, of 
course, whatever, the military and the Capitol Police could 
bring to bear to that situation. So, I want to thank you.

                        SENATE EMPLOYMENT STUDY

    Let me ask just about the Senate employment study. Are you 
in the process of such a study? Our employees are working long 
hours and weekends. Have we completed our pay study, which was 
authorized by this subcommittee? Can you give us some detail 
about the outcome of that study?
    Ms. Erickson. I'd be happy to do so.
    Your subcommittee appropriated, I believe, $80,000 for the 
Office of the Secretary to complete a pay study. We 
competitively bid the project to a contractor who conducted a 
survey. It's my understanding 81 Senate offices participated in 
the payroll survey. They were asked such questions related to 
not only the rate of pay for employees and their benefits, but 
also to the organizational structure of their respective 
office.
    The results were compiled, analyzed, and a report was 
distributed to every Member office, and committee in June of 
last year. This past January, we provided a follow-up report to 
Senate offices that provided a comparison of Senate and House 
salaries. It was warmly received by the Senate community, 
particularly the offices of new Members who were in the process 
of hiring staff. And, I'd be happy to provide you with a 
written copy of the report if you'd like additional details of 
the study.
    [The information follows:]

                            SALARY COMPARISON FOR SIMILAR POSITIONS IN THE U.S. SENATE AND THE U.S. HOUSE OF REPRESENTATIVES
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                Number of                                              25th         50th         75th
                Position                        Chamber         Positions     Minimum      Average      Maximum     Percentile   Percentile   Percentile
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chief of Staff.........................  Senate..............           84     $114,000     $151,767     $160,659     $147,000     $157,150     $160,659
Chief of Staff.........................  House...............          125      $87,000     $129,736     $160,000     $116,000     $130,000     $148,500
Legislative Director...................  Senate..............           77      $85,000     $116,952     $160,659     $102,186     $120,000     $127,830
Legislative Director...................  House...............          100      $42,000      $76,490     $120,000      $67,000      $77,750      $85,000
Counsel................................  Senate..............           61      $42,000      $95,210     $155,000      $75,500      $95,000     $110,865
Counsel................................  House...............            7      $62,400      $83,771     $130,000      $65,000      $80,000      $89,000
Director of Special Projects and/or      Senate..............           51      $24,000      $52,995     $103,000      $37,324      $49,825      $65,000
 Grants.
Grants and Projects Coordinator........  House...............           18      $22,000      $48,949      $67,000      $37,250      $54,500      $60,837
Legislative Assistant..................  Senate..............          406      $34,000      $66,789     $150,000      $52,000      $65,000      $77,580
Legislative Aide.......................  House...............          164      $28,000      $43,433      $76,500      $36,000      $41,000      $50,000
Legislative Correspondent..............  Senate..............          348      $20,000      $32,802      $75,000      $29,000      $32,000      $36,000
Legislative Correspondent..............  House...............           71      $25,000      $31,807      $43,000      $29,000      $31,000      $34,000
Communications Director................  Senate..............           69      $52,000      $95,050     $160,659      $82,752      $94,620     $104,500
Press Secretary/Communications Director  House...............           87      $32,000      $58,756     $125,000      $45,000      $55,000      $68,250
 \1\.
Press Secretary........................  Senate..............           80      $40,000      $66,027     $110,784      $54,000      $63,000      $76,169
Press Secretary/Communications Director  House...............           87      $32,000      $58,756     $125,000      $45,000      $55,000      $68,250
 \1\.
Executive Assistant....................  Senate..............           58      $29,000      $68,060     $121,000      $50,259      $68,750      $81,625
Executive Assistant....................  House...............           30      $15,000      $51,257     $107,000      $39,000      $48,750      $63,875
Scheduler (Washington, D.C.)...........  Senate..............           74      $28,500      $63,634     $128,000      $50,000      $59,698      $75,000
Scheduler (Washington, D.C.)...........  House...............           46      $24,000      $48,394      $99,000      $37,875      $46,350      $55,625
Systems Administrator..................  Senate..............           77      $24,000      $60,955     $105,000      $50,000      $60,000      $75,420
Systems Administrator..................  House...............           11      $20,000      $39,898      $62,000      $31,000      $40,000      $45,500
Administrative Director/Office Manager.  Senate..............           68      $31,500      $78,266     $149,700      $67,006      $78,000      $89,500
Office Manager.........................  House...............           39      $21,000      $52,922     $107,200      $36,000      $50,000      $64,000
Receptionist/Staff Assistant \2\.......  Senate..............          325      $10,712      $29,664      $72,000      $25,860      $28,000      $31,027
Staff Assistant (Washington, D.C.).....  House...............           86      $18,000      $29,872      $71,000      $25,000      $28,000      $30,000
Staff Assistant (District).............  House...............           77      $16,006      $30,883      $79,966      $25,000      $28,500      $33,000
Constituent Services Representative/     Senate..............          398      $21,000      $38,631      $84,821      $31,000      $36,204      $44,092
 Caseworker.
Constituent Services Representative/     House...............          231      $13,500      $40,814     $115,000      $31,000      $40,000      $46,500
 Caseworker.
State Director.........................  Senate..............           75      $60,000     $104,748     $160,659      $90,000     $103,500     $116,248
District Director......................  House...............           72      $39,200      $78,526     $150,000      $63,000      $77,841      $91,000
Field Representative...................  Senate..............          340      $19,000      $50,742     $104,000      $41,000      $49,100      $60,000
Field Representative...................  House...............          100      $25,000      $46,508      $75,000      $37,125      $45,000      $55,000
State Scheduler........................  Senate..............           48      $28,500      $49,886      $89,000      $38,000      $46,500      $61,217
District Scheduler.....................  House...............           34      $28,000      $46,366      $80,000      $33,000      $43,500      $61,065
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ The House study did not distinguish between Communications Director and Press Secretary. House data for these positions reflect the combined Press
  Secretary/Communications Director position.
\2\ The Senate study did not distinguish between Staff Assistants in Washington, D.C. and State offices, while the House study did make this
  distinction.
81 offices participated in the Senate study and 141 offices participated in the House study.

Sources:
2006 U.S. Senate Employment, Compensation, Hiring and Benefits Study, Office of the Secretary of the Senate (June 28, 2006).
2006 House Compensation Study: Guide for the 110th Congress, Chief Administrative Office, U.S. House of Representatives (November 13, 2006).

    The 2006 U.S. Senate Employment, Compensation, Hiring and 
Benefits Study--June 28, 2006 is available on the web at: 
http://webster.senate.gov/library/catalogs/PDF/
senate_compensation_report_FINAL_7-26-06.pdf

    Senator Landrieu. Okay, I would. And we won't go into the 
details now, but I'm going to review it to see what we can do 
to make sure that our workforce remains competitive.

                   STUDENT LOAN REIMBURSEMENT PROGRAM

    And, one other question, then I'll turn it over, the 
student loan reimbursement program is something that's just 
recently come to my attention. I understand that there's a 
program that works in a way that allows staffers--I'm not sure 
if it's just for Members' offices, or for anyone in the 
Senate--to see a reduction in student loans to help some of the 
young, I would imagine, younger employees coming in. Can you 
give me an update about that program and if it's based on need? 
Or is it distributed equally to the States based on population, 
or just request?
    Ms. Erickson. It's a program run through our Senate 
Disbursing Office, and I believe the funding is based on 2 
percent of the administrative and clerical portion of the 
Member's account, 2 percent of the account of all others. I'd 
be happy to have Chris Doby follow-up with you on details of 
that. It's my understanding that 96 percent of our 140 Senate 
accounting locations, which includes Senate offices, 
committees, Secretary of the Senate, and Sergeant at Arms 
offices participate in the program. We have approximately 1,100 
employees that are participating in the program. In 
conversations that I've had with Senate office administrators, 
they tell me that it's been an important tool for not only 
attracting staff, but also retaining staff in their offices.
    Senator Landrieu. Thank you.
    Senator Allard.
    Senator Allard. Again, Nancy, I'd like to congratulate you 
on your position.
    Coming to the office, what do you view, at this point, your 
greatest challenges to be?
    Ms. Erickson. I would say maintaining a high level of 
customer service. And, I would say, speaking from someone who 
worked in a Senate office for 16 years and 2 years in a 
Sergeant at Arms office, I think it's easy to take for granted 
the services that Secretary of the Senate, and for that matter, 
the Sergeant at Arms provides. And the staff, for the most 
part, works quietly behind the scenes, but their work is 
critical, for, in----
    Senator Allard. Is there any particular area you can think 
of that we need to work on?
    Ms. Erickson. Not an area, I don't see any glaring 
problems, Senator. I think our biggest challenge is just 
maintaining and meeting the high demands that the Senate 
community should justifiably expect from us.
    Senator Allard. I think technology changes would be the 
challenge.
    Ms. Erickson. Right. And continuing to move information, as 
I said, that's one of my priorities, to move more and more 
information to the web.

                                WEBSTER

    Senator Allard. Now, Webster, that's the intranet. Is that 
completely blocked off from the Internet or do people outside 
the Senate have access to Webster?
    Ms. Erickson. Yes, Webster is an internal site.
    Senator Allard. So it's completely walled off?
    Ms. Erickson. Right.
    Senator Allard. Okay.

                            MERIT INCREASES

    You mentioned in your testimony, you wanted some funding 
for merit increases. How do you go about determining whether 
somebody qualifies for a merit increase? Do you have a set 
protocol that you use?
    Ms. Erickson. We do. Our human resource director oversees 
that merit program and works closely with our department 
directors. There are rigorous goals that people have to meet in 
order to be eligible for a merit increase. But, it's something 
that we like to have to reward people who, in our opinion, have 
gone above and beyond what is expected of them to help the 
Senate community.
    Senator Allard. Are you having to use merit increases to 
get qualified people into the job? Do you see what I'm saying? 
The standard base pay may not be quite enough----
    Ms. Erickson. Right.
    Senator Allard [continuing]. So they say, ``Well, you're 
here 6 months, we'll be able to provide some substantial merit-
based ----''
    Ms. Erickson. Exactly. Well, it is an important recruiting 
tool, and an incentive for people that know that that may be 
available if they exceed expectations. So, it has been an 
important tool to not only attract, but to retain talented 
staff who have many options--particularly, Senator, people in 
the technology field which is very competitive in the private 
sector, and so that's been an important tool for us to keep 
quality people.
    Senator Allard. When you use the merit system, do you use 
more than just longevity as the standard?
    Ms. Erickson. Correct, exactly.
    Senator Allard. Okay, and how often are you having to use 
the merit pay? Do most employees qualify, or 10 percent, or 20 
percent?
    Ms. Erickson. I don't have that data with me, Senator. I'd 
be happy to provide that to you in writing.
    Senator Allard. I think that would be of interest.
    Ms. Erickson. I'd be happy to do that.
    Senator Allard. Okay, very good.
    [The information follows:]
                              United States Senate,
                                   Office of the Secretary,
                                      Washington, DC, May 23, 2007.
The Honorable Wayne Allard,
Ranking Member, Appropriations Subcommittee on the Legislative Branch, 
        United States Senate, Washington, D.C. 20510.
    Dear Senator Allard: Thank you for the courtesies you extended to 
me during my testimony before your Subcommittee earlier this month. I 
appreciated the opportunity to discuss the work of the Secretary's 
office and our plans for the upcoming year. You had requested 
additional information regarding the merit program employed by the 
Office of the Secretary, and I hope the information provided below 
adequately addresses any questions you may have.
    In September 1997, the office developed and implemented an Employee 
Feedback and Development Plan (EFDP), which is a formal merit review 
program. Each staff member is provided annually with specific 
performance objectives on which their performance will be evaluated 
throughout the year. Staff members are evaluated on factors such as 
quality of work, initiative, resourcefulness, dependability, 
reliability, and communication skills. In addition, managers are 
evaluated on their leadership skills, decision making, and ability to 
plan, schedule and budget the needs of their departments. To facilitate 
communication between managers and their staff, managers are encouraged 
to meet with each staff member quarterly to discuss progress, specific 
projects and any issues that may impede the employee's progress 
throughout the year.
    Our Human Resources Office administers the program and works 
closely with me and my executive staff to determine our annual merit 
budget, which usually ranges from three to five percent of our overall 
salary budget. All staff are evaluated in September each year with the 
potential for a performance-based merit increase awarded in October. 
Increases range from zero to the maximum percent the Secretary 
approves, and they are based on the employee's performance as 
documented in the EFDP by the employee's manager.
    As is the case with other employee-centered programs offered by the 
Office and the Secretary the goal of the EFDP is to develop, motivate 
and retain the highest caliber professional staff to serve the needs of 
the Senate.
    I will be happy to provide you with any other information you may 
need about this merit review program.
                                            Nancy Erickson,
                                           Secretary of the Senate.

                             CROSSTRAINING

    Senator Allard. I was pleased to see you worked on 
crosstraining. I think that's efficient--somebody's absent, 
have somebody else step in and carry on their responsibilities. 
So, I want to compliment you on focusing on crosstraining.
    Ms. Erickson. I appreciate that.
    Senator Allard. You obviously want to have your experts in 
various areas, but if for some reason or other they can't make 
it to work, you have people who can fill in.
    Ms. Erickson. Exactly. And, you'll notice that at the 
rostrum in the Senate Chamber, the faces change periodically 
for that very purpose, to make sure that people understand, can 
step in and do someone else's duty.
    Senator Allard. Very good.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you. That finalizes the questions 
that I have. I just want to state for the record that I'd like 
to focus some of my attention, Madam Secretary, on the quality 
of the Capitol tours, and talk with you about that, and about 
the access to Senate recordings through web-based technologies. 
And, I want to continue to pursue that. To make sure that our 
pay and payroll are adequately supporting a first-class 
professional staff for the Senate. Your plans in terms of 
disaster preparedness and emergency preparedness are extremely, 
extremely important.
    And, then as we open this new Capitol Visitor Center, as I 
said before, despite all the problems that we've had which have 
been well publicized, it really is an extraordinary space, that 
I think is going to be a great gift to the American people.
    And, we want to make sure that the statues and artwork 
reflect the true contributions of all Americans, even those who 
contributed a great deal in the early part of our country, 
women and minority Americans that weren't, by virtue of their 
sex or gender, even able to run for an office here. But, they 
nonetheless, contributed greatly to the work of this Capitol 
and what this Capitol represents. So, I'm looking forward to 
working with you and others.
    And, if that is--Senator Allard, do you have anything else?
    Senator Allard. I don't.
    Senator Landrieu. Okay. Thank you very much.
    Ms. Erickson. Thank you very much.
                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY JO ANN JENKINS, CHIEF OPERATING OFFICER

                 STATEMENT OF SENATOR MARY L. LANDRIEU

    Senator Landrieu. Dr. Billington, if you will come forward.
    Thank you Dr. Billington, and welcome. We are very pleased 
to have you here this morning and recognize your 20th year as 
the Librarian of Congress. Your budget request is $652 million, 
which is an increase, roughly, of about $100 million, or 19 
percent, above the current year. Your request includes $45 
million for the construction of a new logistics facility at 
Fort Meade. Of course you know, the Architect of the Capitol 
(AOC) did not include this among his many priorities, so we 
want to hear some testimony from you about why you believe this 
is a high priority.
    There are several other large items in your request, such 
as $21 million to restore funding for the National Digital 
Information Infrastructure Preservation Program and $19 million 
for the first of four installments of the Digital Talking Book 
Program, which I know has support from members of the visually 
impaired community throughout the country. This is a very 
important, significant investment in the future of audio book 
programs. We want to make sure we use our resources wisely, and 
take advantage of the absolute best technology available.
    As I've said in previous hearings, and it bears repeating 
today, I think the subcommittee is going to really struggle 
with reaching some of these requests. And, I don't want to 
mislead you in any way, however, we do want to give you an 
opportunity, obviously, to state your best case and to ask you 
questions about it. And, please don't interpret that these 
comments in any way indicate that this Chair doesn't support 
the great work that you do. But we have budget constraints that 
we're under and we just need to really focus on some of these 
extra requests.
    Senator Allard.
    Senator Allard. I don't have any comment. I'd like to hear 
Dr. Billington's testimony.
    Senator Landrieu. Thank you.
    Dr. Billington.

                   OPENING STATEMENT OF THE LIBRARIAN

    Dr. Billington. We have a fuller submission for the record, 
but I appreciate the opportunity to present briefly the Library 
of Congress' 2008 budget request, and to thank the Congress for 
creating and sustaining the largest and most wide-ranging 
collection of knowledge in human history, a great record of 
American creativity and a distinct world leadership role for 
education on the Internet.
    The Library's request includes four critical priorities. 
The first--and the largest part of our increase, nearly one-
half--is simply to sustain current services by funding 
mandatory pay raises and unavoidable price level increases.
    We're currently doing a very great deal more work than 15 
years ago, before we began superimposing the digital on the 
analog universe, but with 640 fewer full-time employees. If 
mandated pay raises are not fully funded, we will almost 
certainly have to cut back on some services.

                     LOGISTICS CENTER AT FORT MEADE

    Because of the life, safety, and environmental conditions 
of our present Landover center, we are forced, once again, to 
request funding for a logistics center at Fort Meade--but at a 
reduced level, that is $12.2 million less than was submitted 
through the Architect of the Capitol's budget last year.

                         DIGITAL TALKING BOOKS

    There's a special importance to the next two priorities, 
which are key elements in the digital transformation of the 
Library. After 10 years of planning and research, we must 
launch, this year, our 4-year initiative to modernize access to 
reading for the blind and physically handicapped.
    Blind people read, on average, 35 books a year--many more 
than sighted people. They depend heavily on the Library of 
Congress' unique collection, particularly of talking books, 
which is equivalent in size to a mid-sized public library. And 
it is made available free of charge through local libraries all 
over America. But it needs long-discussed, new digital players 
that can replace cassette-type players which are nearing 
obsolescence, and also a new mechanism for distribution--flash 
memory cartridges.

                              ACQUISITIONS

    Finally, there is an urgent need to shore up the first and 
most basic need of any library, which is acquisitions. This is 
particularly true for the National Library, which is--in many 
ways--the strategic information reserve of the United States. 
It's a treasure chest of material not preserved anywhere else, 
at a time when more and more of our economic competitiveness, 
our basic security, and our civic health depend on accurate 
information.
    We need a $2 million increase in our basic book budget, 
which has been steadily eroded in purchasing power.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                               RESCISSION

    We must have the minimal funds needed to sustain our 
congressionally mandated role of leading a national program by 
forming a network of private and public partners to set 
national standards for preserving the exploding world of 
material available only in highly perishable digital form, and 
begin sorting out and preserving what's most important.
    Congress was farsighted in the year 2000, appropriating 
$100 million in no-year funding to create the National Digital 
Information Infrastructure and Preservation Program, known as 
NDIIPP, and requiring that $75 million of the Federal 
appropriation be matched by partners. The NDIIPP Program is the 
most sweeping strategic change that this Library has undertaken 
in its entire 207-year history. For the first time ever, we are 
transforming the way we collect and preserve content, and 
sharing stewardship responsibility and cost with trusted 
partners. Without significant restoration of the funds that 
were rescinded this year, we will be unable to continue to 
build the network at a time when networks are the way of 
working for the future. If we let this initiative end now, we 
will not be able to resurrect it later.
    Forty-seven million dollars--nearly one-half of the 
original $100 million appropriation--was rescinded, and an 
additional $37 million was lost in matching funds promised from 
more than 50 network partners. Faced with the prospect of the 
$84 million overall loss for this program, we have carefully 
scrubbed our request for restoration down to the bare essential 
of $21.5 million.
    The loss of the NDIIPP funds would have long-term 
consequences for the Library's ability to preserve materials of 
importance for our economy and security, as well as the record 
of our culture, which is increasingly recorded now, only in 
digital form.
    We need this program to serve the growing information needs 
of the Congress, and to keep us from drifting toward a slippery 
slope, in which the Library would become just a museum of the 
book on Capitol Hill, rather than the backbone of a dynamic 
network for preserving and making useful for our Nation, new 
digital as well as traditional analog material.

                         WORKING WITH PARTNERS

    Louisiana has been a major focus of NDIIPP partners who 
have worked with archivists and librarians across the country 
to identify hundreds of websites documenting aspects of the 
Katrina tragedy. These websites, as preserved, will give us all 
information needed to better understand this tragedy, and to 
improve our country's response to future natural disasters.
    In emergencies such as Katrina, we provided information to 
Congress and salvage training in the affected region. This very 
week, when we heard that the Georgetown branch of the D.C. 
Public Library was ablaze, our preservation staff responded 
immediately, helping locate freezers in which to store books 
until they can be treated, providing guidance on next steps to 
save the collections.

                          PREPARED STATEMENTS

    We deeply appreciate, Madam Chairman, the support that 
Congress has given the Library over the years--for preserving 
and making accessible our massive written and printed 
collections, as well as our unequaled audiovisual collections, 
which are now acquiring their permanent preservation center 
with the capacity to store 25 years' more accumulation at 
nearby Culpeper, Virginia, thanks to funding from the Packard 
Humanities Institute, the largest private donation, by far, 
ever made to the Library of Congress. We need to do the same 
for digital material together with our private and public 
network of partners.
    I'm prepared to answer your questions.
    Senator Landrieu. Thank you, Dr. Billington.
    [The statements follow:]
               Prepared Statement of James H. Billington
    Madam Chairwoman, Senator Allard, and other members of the 
Subcommittee: I appreciate the opportunity to appear before you today 
to discuss the past accomplishments and future goals of the Library of 
Congress in the context of our fiscal year 2008 budget request. I ask 
for your continued support to ensure that the Library maintains its 
prestigious place as the world's largest repository of human knowledge 
and the main research arm of the United States Congress.
    With all the distinction that this institution has achieved in the 
print world, it now faces the unprecedented challenge of sustaining its 
leadership amidst the revolutionary changes of the digital world. 
Information-seekers have many ways of finding what they need, but they 
are often overwhelmed or misled by the profusion of unfiltered and 
sometimes inaccurate information on the Internet. The Library of 
Congress is redefining its role in this new environment.
    The budget request we have submitted to you includes the following 
basic assumptions:
  --There is no change in the Library's historic mission of acquiring, 
        preserving, and making its materials accessible and useful to 
        the Congress and the nation. But the amount of information and 
        the explosion in the number of creators are driving the 
        greatest revolution in the generation and communication of 
        knowledge since the advent of the printing press. The Library 
        must seamlessly blend new digital materials into the 
        traditional artifactual collections so that knowledge and 
        information can be objectively and comprehensively provided by 
        a fully integrated library.
  --The Library of Congress must continue to build comprehensive, 
        world-wide collections in all formats so that Members of 
        Congress, scholars, school students, and the American people 
        will have access to valid, high-quality information for their 
        work, their research, and their civic participation.
  --The Library must actively seek new and innovative ways to 
        recognize, highlight, and celebrate the knowledge and 
        creativity that the Congress has charged us to preserve for 
        more than 200 years.
  --A comprehensive institutional workforce transformation will be 
        required for staff to continue providing the highest levels of 
        service to the Congress and to the public. The Library has 
        developed an agency-wide framework for program assessment of 
        every division and support office. Congressional support has 
        already enabled us to reengineer copyright functions and to 
        create a state of the art National Audiovisual Conservation 
        Center. We are developing new roles for key staff to become 
        objective ``knowledge navigators'' who can make knowledge 
        useful from both the artifactual and the digital world.
                      the library and its programs
    The Library of Congress is the world's largest repository of human 
knowledge and the main research arm of the United States Congress. It 
directly serves not only the Congress, but the entire nation with the 
most important commodity of our time: information. The Library's 
diverse programs sustain its responsibility to foster a free and 
informed society by building, preserving, and providing resources for 
human creativity, wisdom and achievement. Through these programs, the 
Library strives to place its resources at the fingertips of our elected 
representatives, the American people, and the world for their mutual 
prosperity, enlightenment, and inspiration.
    The Library of Congress collections are made up of approximately 
135 million artifactual items in more than 470 languages including: 32 
million books (among them more than 5,000 printed before the year 
1500); 14 million photographs and other visual items; 5.3 million maps; 
2.8 million audio materials; 981,000 films, television, and video 
items; 5.5 million pieces of music; 59.5 million manuscripts; and 
hundreds of thousands of scientific and government documents.
    Under the Library's four major appropriations, the Library funds 
the following major services:
Library of Congress, S&E
    Acquisitions.--The Library staff adds more than 13,000 items to the 
collections every day. The Library collects not only regularly 
published materials, but also reports that have limited distribution, 
international ephemera that illuminate other cultures and socio-
political movements, and special collections that have been carefully 
assessed and selected by our curators. The collections, and the 
information they contain provide important support for the many 
services the Library provides to the Congress and the nation.
    Cataloging.--The Library produces bibliographic records and related 
products and develops policy and standards for libraries and 
bibliographic utilities in all fifty states, the District of Columbia, 
and territories--cataloging more than 345,000 books and serials in 
fiscal year 2006--services that save America's libraries millions of 
dollars annually (the money it would cost them if they had to catalog 
the books and other materials themselves).
    Research and Reference.--The Library responds to, at no cost to 
users, nearly one million information requests a year from across the 
nation, including more than 500,000 in-person requests in the 20 
reading rooms open to the public in Washington, D.C. In addition, the 
Library responds to some 56,000 interlibrary loan requests from across 
the nation and more than 25,000 requests for book loans from the 
Congress each year.
    Online Access Services.--The Library is at the forefront of 
providing comprehensive online digital access services, the conversion 
of analog materials into digital form, Web archiving, the provision of 
the Library's web based digital library services, and education 
outreach services that encourage use of the Library's online primary 
sources. The Library's online presence during 2006 resulted in 5 
billion hits. There are now more than 22 million digital items 
represented on the Library's web sites, including materials digitized 
from the collections and exhibitions, program activities, and 
interpretive information. Over half of these digital items reside in 
the Library's virtual historical collections, American Memory. The 
Library's web site offers electronic versions of many resources of 
historical research and educational value that no other institution 
provides. In addition, the Library already has captured a total of 56 
terabytes of content from the Web, and this volume continues to grow 
significantly. This total represents more than 1 billion documents 
downloaded from the Web, the equivalent of digital text information 
from more than 55 million books (1 megabyte per book of text only).
    American Creativity.--The Library manages the largest, most varied, 
and most important archival collection of American creativity--
including motion pictures, sound recordings, maps, prints, photographs, 
manuscripts, music, and folklore covering a wide range of ethnic and 
geographic communities. The Library provides reference assistance to 
researchers and the general public, conducts field research, and 
promotes the preservation of American culture throughout the United 
States.
    Preservation.--The Library develops and manages a program to 
preserve the diverse materials and formats in the Library's 
collections. The program provides a full range of prospective and 
retrospective preservation treatment for hundreds of thousands of items 
a year, conducts research into new technologies, emphasizes prevention 
techniques including proper environmental storage and training for 
emergency situations, conserves and preserves materials, and reformats 
materials to more stable media. The Library plays a key role in 
developing national and international standards that support the work 
of federal, state, and local agencies in preserving the nation's 
cultural heritage.
    Reading Promotion and Outreach.--The Library promotes books, 
reading, and literacy through the Library's Center for the Book, its 
affiliated centers in fifty states and the District of Columbia, and 
nearly one hundred national organizational partners. The Library 
encourages knowledge and use of its collections through other outreach 
programs (cable TV, lectures, publications, conferences and symposia, 
exhibitions, poetry readings--all primarily supported by private 
funding) and through the Library's virtual presence on the Web. The 
Library also gives some 90,000 surplus books annually to qualified 
libraries and nonprofit educational institutions through its nationwide 
donation program.
    Digital Initiatives.--The Library oversees and coordinates cross-
institutional digital initiatives, including the National Digital 
Information Infrastructure and Preservation Program (NDIIPP). The 
vision of NDIIPP is to ensure access over time to a rich body of 
digital content through the establishment of a national network of 
committed partners, collaborating in a digital preservation 
architecture with defined roles and responsibilities.
    Law Library.--The Law Library program provides direct research 
service to the Congress in international and comparative law. It serves 
as the National Law Library. In addition to Members and Committee 
staffs of the Congress and the Congressional Research Service, the Law 
Library provides officers of the legislative branch, Justices of the 
Supreme Court and other judges, members of the Departments of State and 
Justice, and other federal agencies with bibliographic and 
informational services, background papers, comparative legal studies, 
legal interpretations, and translations. In support of this mission, 
the Law Library has amassed the largest collection of authoritative 
legal sources in the world, including more than 2.5 million volumes as 
well as almost 134,000 digital items. As its congressional priorities 
permit, the Law Library makes its collections and services available to 
a diverse community of users--the foreign diplomatic corps, 
international organizations, members of the bench and bar, educational 
institutions, non-governmental libraries, legal service organizations, 
and the general public--directly serving more than 100,000 users 
annually and offering information to the global public through its 
online services, including its Global Legal Information Network (GLIN).
Copyright Office, S&E
    The Copyright Office (CO) administers the U.S. copyright laws, 
provides copyright policy analysis to the Congress and executive branch 
agencies, actively promotes international protections for intellectual 
property created by U.S. citizens, and provides public information and 
education on copyright. In fiscal year 2006, the CO registered almost 
521,000 claims to copyright, accompanied by more than 825,000 deposit 
copies of work; transferred more than 1.1 million registered and non-
registered works to the Library, valued at more than $41.2 million; 
recorded 13,016 documents containing more than 350,000 titles; logged 
more than 31 million external electronic transactions to its web site; 
responded to nearly 339,000 in-person, telephone, and email requests 
for information; and collected $227 million in royalty fees and 
distributed more than $191 million in royalties to copyright owners. 
Registration fees and authorized reductions from royalty receipts fund 
almost half of the CO. Copies of works received through the copyright 
system form the core of the Library's immense Americana collections, 
which provide the primary record of American creativity.
    The Copyright Royalty Board (CRB), which is comprised of three 
Copyright Royalty Judges and their staff, administers the copyright 
statutory license and determines the rates and terms for the purpose of 
(a) distributing hundreds of millions of dollars in royalties that are 
collected under various compulsory license provisions of the copyright 
law, and (b) adjusting the royalty rates of these licensing provisions. 
The CO currently provides administrative support to the CRJs in budget 
preparation and human resource management.
Congressional Research Service, S&E
    The Congressional Research Service (CRS) assists all Members and 
committees of the Congress with its deliberations and legislative 
decisions by providing objective, authoritative, non-partisan, and 
confidential research and analysis. As a shared resource, serving the 
Congress exclusively, CRS experts work alongside the Congress 
throughout all stages of the legislative process and provide integrated 
and interdisciplinary analyses and insights in all areas of legislative 
activity. These services are provided by confidential individual policy 
consultations and memoranda; analytical reports; seminars; and a secure 
CRS web site available to the Congress. In 2006, CRS delivered more 
than 933,000 research responses and services.
Books for the Blind and Physically Handicapped, S&E
    The National Library for the Blind and Physically Handicapped (NLS/
BPH), manages a free national reading program for more than 794,000 
blind and physically handicapped people--circulating, at no cost to 
users, approximately 25 million items in fiscal year 2006. A 
cooperating network of 131 regional and sub-regional (local) libraries 
distribute the machines and library materials provided by the Library 
of Congress. The U.S. Postal Service receives an appropriation to 
support postage-free mail for magazines, books, and machines which are 
sent directly to readers. Reading materials (books and magazines) and 
playback machines are sent to a total readership of 794,000 comprising 
more than 500,000 audio and braille readers registered individually, in 
addition to more than 200,000 eligible individuals located in 32,000 
institutions.
             the library's fiscal year 2008 budget request
    As the Library's budget was submitted prior to the enactment of the 
fiscal year 2007 full-year continuing resolution, the fiscal year 2008 
request is based on the total fiscal year 2006 operating level. As a 
result, the fiscal year 2008 budget request is unique in that it 
includes (1) adjustments for fiscal year 2007 and fiscal year 2008 
mandatory pay and price level increases, (2) the resubmission of most 
fiscal year 2007 program increases, and (3) several new fiscal year 
2008 program increases. This request covers two years of costs needed 
to keep the Library on schedule with its programs.
    In fiscal year 2008, the Library requests a total budget of 
$703.339 million ($661.616 million in net appropriations and $41.723 
million in authority to use receipts), which is an increase of $99.716 
million above the fiscal year 2007 (2006) level. The total includes 
$43.9 million for the construction of the Library of Congress Fort 
Meade Logistics Center, proposed for transfer to the Architect of the 
Capitol. Funding also includes $45.947 million in mandatory pay and 
price level increases and $28.118 million in program increases 
(excluding the $43.9 million for the Logistics Center), offset by 
$18.249 million in non-recurring costs.
    The requested funding supports 4,244 full-time equivalents (FTEs), 
a net decrease of 58 FTEs below the current authorized level of 4,302.
    Fiscal year 2008 funding is allocated as follows:
  --Library of Congress, S&E ($467.452 million/2,888 FTEs), which 
        includes:
    --National Library ($324.294 million/2,259 FTEs);
        --National Library--Basic
        --Purchase of Library Materials (GENPAC)
        --Office of Strategic Initiatives
        --Cataloging Distribution Service
  --Law Library ($13.394 million/101 FTEs)
  --Management Support Services ($129.764 million/528 FTEs)
  --Copyright Office, S&E ($51.562 million/523 FTEs)
  --Congressional Research Service, S&E ($108.702 million/705 FTEs)
  --Books for the Blind and Physically Handicapped, S&E ($75.623 
        million/128 FTEs)
                    the library's funding priorities
Mandatory Pay and Price Level increases
    The Library is requesting an additional $45.947 million to maintain 
current services. This is the amount needed to support the 
annualization of the fiscal year 2006 pay raise, the fiscal year 2007 
pay raise and annualization in fiscal year 2008, the fiscal year 2008 
pay raise, within-grade increases, and unavoidable inflation and vendor 
price increases for the period fiscal year 2007-2008. These funds are 
needed simply to sustain current business operations and to prevent a 
reduction in staff that would severely affect the Library's ability to 
manage its programs in support of its mission and strategic objectives.
Unfunded Mandates
    The Library is requesting $2.005 million for one unfunded mandate: 
the Department of State (DOS) Capital Security Cost-Sharing Program.
    In fiscal year 2005, the DOS, mandated by the executive branch, 
began its 14-year program to finance the construction of approximately 
150 embassy compounds, requiring increasing contributions from all 
agencies with an overseas presence, including the Library. The 
Library's yearly assessment was $1.2 million in fiscal year 2005 and 
$2.4 million in fiscal year 2006-2007. The proposed increase for fiscal 
year 2008 is $2.005 million. If funding is not provided for the next 
phase of the program, the Library will have insufficient resources to 
operate its overseas offices. This would result in the curtailment--and 
in some cases, termination--of international acquisitions programs in 
areas that are of increasing importance to the nation (Brazil, Egypt, 
Kenya, India, Pakistan, and Indonesia).
Major Ongoing Projects
    The Library is requesting a net total of $1.771 million for three 
ongoing major projects that are either in their last year of 
development or on a time-sensitive schedule that must be maintained if 
the entire project is to succeed.
  --Acquisitions (GENPAC/Electronic Materials).--Advances in technology 
        have opened opportunities for the Library to acquire materials 
        from parts of the world about which, until recently, there had 
        been little access to primary sources. National interest, 
        especially with respect to security and trade, dictates that we 
        acquire emerging electronic publications and other difficult-
        to-find resources that document other cultures and nations. The 
        GENPAC appropriation, which funds the purchase of all-important 
        current collections materials, declined precipitously in its 
        purchasing power during the 1990s. Consistent with our previous 
        budget request for a multi-year, $4.2 million base increase to 
        the GENPAC budget, the Library is requesting the next 
        incremental adjustment of $2 million, which will bring the 
        total base adjustment up to $3.3 million. Funding is needed to 
        help keep pace with the greatly increased cost of serial and 
        electronic materials, that risks eroding the comprehensiveness 
        and value of the Library's collections.
  --National Audio-Visual Conservation Center (NAVCC), Culpeper, VA.--A 
        five-year plan for the completion of NAVCC was included in the 
        Library's fiscal year 2004 budget. Fiscal year 2008 represents 
        the fifth year in the Library's five-year cost model, which is 
        adjusted annually to align with shifts in the construction 
        schedule of the Packard Humanities Institute and the Library's 
        occupancy schedule. In 2007, construction will be completed; 
        the entire property transferred to the government; staff 
        relocations will begin; and digital preservation equipment and 
        systems will be purchased and integrated into the conservation 
        facility. Funding is needed in fiscal year 2008 to continue 
        purchasing equipment for the facility as well as for operations 
        support. The fiscal year 2008 total funding of $13.617 million 
        reflects a net decrease of $1.429 million and 5 FTEs from the 
        base.
  --Global Legal Information Network (GLIN).--The Law Library's GLIN is 
        a multinational, cooperative legal database with members of the 
        network representing countries in Africa, Asia, Europe, and the 
        Americas. In fiscal year 2003, the Congress provided the 
        Library with a five-year appropriation to implement the 
        technical upgrade, to digitize and incorporate retrospective 
        legal material, and to engage in targeted recruitment to expand 
        the diversity and number of nations contributing legal 
        materials to the GLIN database. All goals have been met. To 
        maintain this world-class legal information resource, the 
        Library requests that $1.2 million be added to the Law Library 
        base in fiscal year 2008. Funding is required to continue 
        operating GLIN and cover ongoing costs associated with software 
        licensing and upgrades, system hosting, technology refreshment, 
        content expansion, and membership recruitment.
    In addition, the Library's fiscal year 2008 budget did not include 
a request for the National Digital Information Infrastructure and 
Preservation Program (NDIIPP), as the budget was submitted prior to the 
rescission of $47 million as part of the fiscal year 2007 continuing 
resolution. The Library is seeking $21.5 million to partially restore 
funding for NDIIPP. The fiscal year 2007 rescission of $47 million 
endangers another $37 million in matching funds already committed by 
pending partners.
New Projects
    The Library is requesting $24.342 million for several new critical 
initiatives as follows:
  --Digital Talking Book Program.--A four-year, $76.4 million 
        initiative is needed to implement a revolutionary change from 
        analog to digital technology that has been projected and 
        planned since 1990. In brief, the change consists of replacing 
        cassette tape players with Digital Talking Book (DTB) players 
        and introducing a new medium (flash cartridges) for 
        distributing the DTBs. This request is critical, as the 
        technology currently used will be obsolete in a few years' 
        time. This change is also being demanded by the users of the 
        service. The new technology has been proposed after wide and 
        deep consultation with users and technology experts. In fiscal 
        year 2008, the Library is requesting $19.1 million, to remain 
        available in the NLS base until fiscal year 2011--the last year 
        of the implementation schedule. Funding is requested in both 
        annual ($14.454 million) and no-year funds ($4.646 million) in 
        fiscal year 2008, with the mix changing each succeeding fiscal 
        year, as appropriate.
  --Copyright Records Preservation.--A six-year, $6 million initiative 
        is needed to image digitally 70 million pages of pre-1978 
        public records that are deteriorating, jeopardizing the 
        mandatory preservation of, and access to, these unique records 
        of American creativity. In fiscal year 2008, the Library is 
        requesting the first $1 million--in offsetting collections 
        authority, which will permit the scanning of 10 million page 
        images.
  --Abraham Lincoln Bicentennial Exhibition.--The Library's Abraham 
        Lincoln Bicentennial Exhibition in 2009 will be a centerpiece 
        of the nationwide celebration to mark the bicentennial of 
        Lincoln's birth. The Library will draw on its unparalleled 
        Lincoln materials to focus on Lincoln's rise to national 
        prominence and the thinking and writing that underlie his 
        career. A total of $1.442 million will be needed for this 
        project in fiscal year 2008, and with multi-year (3-year) 
        authority. Fiscal year 2008 funding will support the design and 
        implementation of the exhibition and travel needed to visit 
        other venues and/or other institutions that will be lending 
        materials to the Library exhibition.
  --Escape Hoods.--A one-time cost of $1.189 million is needed to 
        purchase NIOSH-approved escape hoods for approximately 6,200 
        non-Library staff (researchers, contractors, and other visitors 
        to the Library) and 110 cabinets to store the hoods throughout 
        the Library. Procuring and providing escape hoods for 
        contractors and visitors is consistent with the policy set by 
        the USCP for the Capitol Hill complex.
  --Custodial Services.--A total of $517,000 in contract funds is 
        requested for custodial services support and includes funding 
        for six contract custodial quality control inspectors and 
        increased costs related to new space at Fort Meade (Modules 2-
        4). The Library's facilities on Capitol Hill comprises four 
        million square feet, with no independent inspectors monitoring 
        its custodial contract (industry standards reflect at least one 
        inspector per 500,000 square feet of facility). Based on 
        industry standards, the Library would require a total of eight 
        inspectors, though the Library is only requesting six. Library 
        space at Fort Meade will increase by 83,000 square feet between 
        fiscal year 2006-2008, increasing the base cost of the 
        custodial service contract.
  --Legislative Branch-Wide Payroll Formulation Software System.--The 
        Library is requesting a total of $500,000 to support a 
        legislative branch-wide pilot program to procure and implement 
        a payroll budget formulation software system that will allow a 
        name-by-name calculation of payroll costs using a standard 
        calculation methodology for all legislative branch agencies. 
        This request is the result of congressional guidance to the 
        Legislative Branch Financial Managers Council (LBFMC) to 
        develop a standard methodology for formulating payroll costs 
        within and across the legislative branch agencies. Since the 
        Library has one of the largest staffs in the legislative 
        branch, the LBFMC, with congressional approval, selected the 
        Library to pilot the system, with funding for all legislative 
        branch agencies to be requested in subsequent years--after 
        testing and implementation are finalized at the Library. 
        Consistent with guidance, the software and subsequent 
        formulation of payroll costs will be managed by each agency's 
        central budget office to ensure consistency within each agency.
  --Library-Wide Contracts Management Support.--Currently, the Office 
        of Contracts has a total working capacity of 22 FTEs (comprised 
        of in-house staff and contractors). Based on a GSA workload 
        analysis model that was applied to the Library's fiscal year 
        2005 contract actions, a total of 26 FTEs is needed to support 
        the Library's contract workload. Since 2001, the volume and 
        complexity of the Library's contracting workload have increased 
        significantly. The average annual dollar value of contract 
        actions administered per contract specialist increased from 
        $2.9 million in fiscal year 2001 to more than $13.8 million in 
        fiscal year 2005. That trend is expected to become more 
        pronounced in fiscal year 2007 and beyond. Funding of $318,000 
        is requested to support the salaries and benefits of an 
        additional three FTEs in the Office of Contracts for a total 
        working capacity of 25 FTEs. The three additional FTEs will be 
        absorbed within the Library's FTE base.
  --Workforce Transformation Project.--Renewal and development of the 
        Library's workforce are essential to retrain staff with the 
        necessary skills for the digital age, and to capture for the 
        future the vast knowledge of large numbers of experienced staff 
        who are near retirement. In fiscal year 2008, the Library will 
        begin a program to enhance digital competencies, leadership 
        skills, career development, recruitment, and other workforce 
        counseling and services. These activities are particularly 
        important for sustaining the Library's commitment to a diverse 
        workforce. Funding of $276,000 is requested to support these 
        initiatives.
Other Program Changes or Requests
    Library of Congress Fort Meade Logistics Center.--The Library is 
requesting $43.9 million, to be transferred to the Architect of the 
Capitol, for the construction of the Library of Congress Fort Meade 
Logistics Center. Current deplorable life safety and environmental 
conditions at the Landover Center are unacceptable and present 
extremely high risk to staff and collections. The proposed Logistics 
Center is a 162,000 square foot environmentally controlled facility 
supporting the day-to-day mission critical operating requirements of 
the Library. The new facility will consolidate storage and inventory 
and supply from multiple leased facilities and Library buildings on 
Capitol Hill and will also benefit from the synergy and centralized 
security of the Fort Meade master plan. Alternatives have been 
extensively evaluated, and all are more costly than the proposed 
construction--which will result in immediate savings of approximately 
$3 million per year after consolidation at Fort Meade.
    Digital Collections and Educational Curricula Program--In 2005, 
Congress created and passed the Library of Congress Digital Collections 
and Educational Curricula Act. Beginning in fiscal year 2006, the Act 
moved the administrative and programmatic ownership of the Adventure of 
the American Mind program (AAM) from the Educational and Research 
Consortium to the Library. Of the $6.016 million requested in fiscal 
year 2008 (fiscal year 2006-2007 enacted level adjusted for mandatory 
pay and price level increases), $2.006 million will fund administrative 
support costs, with the balance of $4.010 million supporting grant 
awards. In addition, the Library will begin developing standards-based, 
field-tested curricula, using a train-the-trainer model to create a 
network of partners from all parts of the country.
  architect of the capitol--library of congress buildings and grounds
    The Architect of the Capitol (AOC) is responsible for the 
structural and mechanical care and maintenance of the Library's 
buildings and grounds. In coordination with the Library, the AOC is 
requesting a fiscal year 2008 budget of $42.788 million to support life 
safety, deferred maintenance, and upgrades to the Library's buildings 
on Capitol Hill. The deferment of maintenance and upgrades require 
projects to be completed concurrently, often at higher costs. 
Deferments and delays have also created longer lists of projects. The 
cost increase is compounded by inflationary pressures and by the 
steadily growing risks in health, safety, and security to the Library's 
staff and collections. The cost of maintenance and upgrades will 
increase exponentially if the Library cannot stop, or at least slow 
down, the rate of deterioration of its buildings.
                proposed changes to legislative language
    The Library has proposed language to improve employment options 
elsewhere in the Federal Government for Library staff. The first 
provision confers competitive status to Library employees who have 
successfully completed their probationary period at the Library--the 
basic eligibility to be non-competitively selected to fill vacancies in 
the competitive service of the Federal Government. This will enable 
Library staff to apply for positions in the executive branch on an 
equal footing with ``career'' executive branch employees. A related 
provision would enhance the employability of Library employees 
displaced because of a Reduction-in-Force (RIF) or failure to accept a 
transfer to an alternative work location. This provision would give 
separated staff selection priority for competitive service positions, 
comparable to that enjoyed by separated employees from other federal 
agencies.
    The Library also proposes new appropriation language to address the 
requirement specified in the Cooperative Acquisitions Program Revolving 
Fund legislation (CAP), Public Law 105-55, that the revolving fund 
receive its own audit by March 31 following the end of each fiscal 
year. The Library requests that the March 31 audit requirement be 
rescinded and that the CAP be subject to the same audit requirement as 
the Library's other revolving funds.
                               conclusion
    We are deeply grateful for what Congress has already created and 
admirably sustained. New investments will enable us to continue 
providing the Congress with comprehensive nonpartisan research, and the 
nation with the wonderful learning resources that digital technology is 
delivering to schools, libraries and homes. Appropriations for today's 
Library will be investments in tomorrow's minds, in our future 
creativity, and in America's global leadership well into the 
information age.
    Thank you, Madam Chairwoman.
                                 ______
                                 
                      Open World Leadership Center
    Madam Chairwoman, Mr. Allard, and other Members of the 
Subcommittee, I appreciate the opportunity to submit testimony on the 
Open World Leadership Center's budget request for fiscal year 2008. The 
Center, whose board of trustees I chair, conducts the only exchange 
program in the U.S. legislative branch and has hosted 11,794 leaders 
from Russia, Ukraine, Georgia, Moldova, and other post-Soviet states to 
date. All of us at Open World are very grateful for the continued 
support in the legislative branch and for congressional participation 
in the program and on our governing board. We look forward to working 
with you on the future of Open World.
    Open World has a U.S. hosting network of hundreds of local 
nongovernmental and governmental organizations and more than six 
thousand volunteer host families, enabling us to continue to bring 
large numbers of emerging young post-Soviet leaders to the United 
States. Program participants come to discuss topical issues of mutual 
interest and benefit, such as ways of containing the avian flu, 
developing environmentally responsible public policy, and improving 
educational curricula in primary and secondary schools. They meet with 
Americans who share their interests and are often eager to partner with 
them on collaborative projects.
    The following statement by U.S. District Judge Stephen P. Friot of 
Oklahoma, who hosted five prominent Russian judges for Open World in 
2006, effectively captures the impact of this program on both U.S. 
hosts and foreign visitors: ``The opportunity to learn about the 
judicial system of the Russian Federation made hosting Open World 
delegates one of the most enriching professional experiences I have 
ever had. Russian and American judges face similar problems, and 
programs like Open World help us overcome them by providing the 
opportunity to learn with each other and from each other.''
    In 2006, after seven years of operation, Open World assessed its 
accomplishments and completed a new strategic plan under the leadership 
of former U.S. Ambassador to Russia James F. Collins, one of our 
longest-serving trustees. The plan envisions expanding the Open World 
Program to all the countries of Eurasia \1\ and the Baltic States by 
fiscal year 2011. Expansion programs are already under way in five new 
countries: Azerbaijan, Georgia, Moldova, Kyrgyzstan, and Tajikistan. 
One result of this expansion is that Open World will reach many more 
Muslims. Some 30 million Muslims live in the countries participating in 
Open World 2007, more than double the Open World 2006 figure of 14 
million.
---------------------------------------------------------------------------
    \1\ Eurasia here means Russia, Ukraine, Belarus, Moldova, Armenia, 
Georgia, Azerbaijan, Turkmenistan, Kazakhstan, Uzbekistan, Tajikistan, 
and Kyrgyzstan.
---------------------------------------------------------------------------
    The Center's budget request of $14.4 million for fiscal year 2008 
(Appendix A) reflects an increase of $0.54 million (4.0 percent) over 
fiscal year 2007 funding. This funding will enable the Center to 
continue its proven mission of hosting young leaders from Russia and 
Ukraine; conduct programs in our five new expansion countries, in 
accordance with recommendations from Members of Congress and directives 
from the Board of Trustees; and respond to any requests for small-
scale, preliminary expansion to additional countries made by the Board 
of Trustees in consultation with the Appropriations Committees.
                   program mission and strategic plan
    The Open World strategic plan, completed in 2006, adopted the 
following mission statement:

    To enhance understanding and capabilities for cooperation between 
the United States and the countries of Eurasia and the Baltic States by 
developing a network of leaders in the region who have gained 
significant, firsthand exposure to America's democratic, accountable 
government and its free-market system.

    In light of this mission, Open World will continue to bring 
emerging leaders from this region to the United States, while 
endeavoring to foster lasting ties and ongoing cooperation between Open 
World delegates and their American hosts and professional counterparts. 
The program seeks to nurture civic and political environments where 
civil society develops not only from the top down, but also from the 
ground up and the periphery in. This goal is furthered by developing a 
network of leaders who regularly communicate and collaborate with 
fellow citizens and American peers on concrete projects.
    The Open World strategic plan focuses on building and strengthening 
a network of American and foreign community leaders through both 
enhancing existing ties and forming new ones. It also stresses the 
importance of measuring progress quantitatively by numbers of 
partnerships, joint projects, and ripple effects, and by tracking how 
they grow and strengthen.
    Open World's core competency lies in identifying promising young 
leaders, matching them with capable and appropriate U.S. host 
organizations, and networking them with their American counterparts. 
Open World has developed close coordination with U.S. Embassies and 
various nominating organizations. Wherever possible, Open World tries 
to complement other U.S. government-funded programs as well as other 
initiatives in Open World countries that involve U.S. citizens.
    For example, Open World joined with the U.S.-Ukraine Foundation to 
help solidify relations between Omaha, Nebraska, and Artemivsk, 
Ukraine, which had previously been paired under a foundation program. 
In December 2006, community leaders in Omaha hosted a delegation of 
city administrators from Artemivsk, which applied to become a sister 
city of Omaha as a direct result of the visit. A delegation of Omaha 
city representatives (including university faculty and students) will 
make a return visit to Artemivsk in May 2007. Omahans have raised funds 
in the United States to help renovate an orphanage in Artemivsk this 
year; and for the first time, a group from the Omaha Ukrainian diaspora 
is visiting Artemivsk to build ties.
    West Jordan, Utah, the sister city of Votkinsk, Russia, provides 
another example of such an initiative. To help develop projects based 
on this sister-city tie, Open World made it possible for a 
competitively selected medical team from Votkinsk to visit West Jordan 
in September 2006 to learn more about U.S. emergency medical care and 
community health fairs. One month after returning to Votkinsk, the Open 
World delegates replicated a community health fair. They invited the 
mayor of West Jordan as well as a health team from Jordan Valley 
Hospital to take part in the event. More than 600 Votkinsk citizens 
attended this one-day event and learned about Utah's ties to Votkinsk. 
Sister Cities International's Utah state coordinator and veteran Open 
World host Jennifer Andelin had this to say after the trip: ``Open 
World is definitely a program that is positively impacting both Russia 
and Utah. I often refer to Open World as the `glue' that holds the 
Utah/Russia partnerships together.''
                     calendar year 2006 activities
    In 2006, Open World brought 1,142 Russians and 223 Ukrainians to 
the United States for high-level professional programs in 46 U.S. 
states and the District of Columbia. Out of these: 228 delegates 
studied rule of law; 279 delegates studied accountable governance; 216 
delegates studied women as leaders issues; and 345 delegates studied 
health, social issues, the environment, and education.
    The Open World 2006 programs for Russia and Ukraine focused on 
overarching themes like accountable governance and rule of law, as well 
as critical challenges that face both countries and America as well, 
such as AIDS prevention and emergency preparedness. For instance, a 
team of Russian avian flu experts came to meet with their counterparts 
at the Food and Drug Administration, the National Institutes of Health 
(NIH), and the Centers for Disease Control and Prevention, and spoke at 
the 2nd Bird Flu Summit in Washington, D.C. The trip initiated an 
ongoing dialogue between the NIH and Russian laboratories that will 
lead to cooperative projects as well as a formal cooperative 
partnership agreement to be signed in spring 2007. (On March 10, 2007, 
another Open World delegation of Russian infectious disease 
epidemiologists joined the State of North Carolina, the Scian 
Institute, and the National Peace Foundation in a ``Community 
Preparedness Planning Template Project'' partnership designed to help 
small and medium-sized communities in the United States and elsewhere 
develop emergency response plans to deal with pandemics.)
    In another example, four high-level government physicians from 
Russia involved in HIV/AIDS prevention, TB control, forensic medicine, 
and prison health care visited New Orleans in fall 2006 to learn about 
operations at counterpart agencies in Louisiana. The delegates toured 
and had briefings at the Orleans Parish Jail and the state penitentiary 
in St. Gabriel, took part in informative discussions with the state 
epidemiologist and the head of the state Tuberculosis Control Program, 
and visited the Jefferson Parish Forensic Center in Harvey. Staff of 
the Louisiana State University Health Science Center introduced the 
Russians to the center's medical training and research programs and 
juvenile justice program. The delegates praised the program for giving 
them the opportunity to interact with Louisiana professionals who 
``have the same positions and work . . . on the same problems'' as they 
do in Russia.
    Open World 2006 continued the rule of law program, which has 
benefited so much from the involvement of U.S. Supreme Court justices 
and many other prominent members of the American judiciary and has 
brought nearly 1,100 Russian and Ukrainian judges to the United States. 
A highlight of last year's program was an exchange for five Ukrainian 
judges hosted by U.S. District Judge David R. Herndon of East St. 
Louis, Illinois. Not only did the Ukrainians observe the workings of 
the U.S. legal system, they also discussed what they saw with key 
actors in the judicial process. Judge Herndon arranged for them to 
observe him conduct several sentencings, after which he held a Q-and-A 
session that included the counsel involved in the sentencing hearings. 
After observing a jury trial at the Madison County (Illinois) 
Courthouse, the visiting judges had a ``postmortem'' with members of 
the defense's legal team. The Ukrainians also participated in the 
quarterly administrative meeting for all Southern District of Illinois 
judges and court staff, giving them invaluable insights into judicial 
administration in the United States. And during a tour of the Federal 
Correctional Institution and Camp in Greenville, Illinois, the 
Ukrainians were able to ask questions not only of the warden but of 
inmates as well--something still not readily allowed for visitors to 
their own country.
    Open World 2006 also continued the focus on accountable local 
governance that had been added as a program theme in 2005. The Russians 
and Ukrainians who participated in these exchanges received practical 
advice from their American counterparts and onsite insights into how to 
make local government more open, responsive, and efficient. For 
example, several small-town mayors from Ukraine spent part of their 
Open World exchange visiting rural communities outside Lincoln, 
Nebraska, to see firsthand how these towns used public/private economic 
development projects to improve quality of life and retain population. 
Four Russian municipal executives hosted in Parker, Colorado, reviewed 
the town government's budget and operations with the mayor and two of 
his top staff, then sat in as the proposed 2007 budget was presented 
for first reading to the Parker Town Council. Delegates from the 
formerly closed nuclear city of Zheleznogorsk, Russia, met with the 
planning directors for their Tennessee sister communities of Alcoa, 
Maryville, and Blount County to brainstorm ways of making Zheleznogorsk 
more accessible for trade and travel. And in Springfield, Illinois, 
Ukrainian city officials interested in zoning issues met with the 
city's zoning administrator for an interactive session complete with 
maps and blueprints.
                         open world in america
    Open World delegates are hosted by a large and dedicated group of 
American citizens who live in cities, towns, and rural communities 
throughout the United States:
  --Since Open World's inception in 1999, more than 6,000 U.S. families 
        have hosted participants in 1,575-plus communities in all 50 
        states.
  --Open World's 2006 host families lived in 227 different 
        congressional districts.
    American hosts' generosity toward and enthusiasm for Open World are 
a mainstay of the program. In 2006, interested host communities' demand 
for Open World visitors was more than double Open World's actual number 
of program participants. U.S. hosting organizations were prepared to 
host more than 2,300 Russian participants, well above our funded 
hosting capacity of 1,150 Russian participants. Americans' enthusiasm 
for the Open World Program is reflected in their generous giving in 
2006 of an estimated $1.6 million worth of in-kind contributions in 
terms of free accommodations and meals.
    The blossoming relationship between Los Alamos, New Mexico, and the 
formerly closed nuclear research city of Sarov, Russia, offers other 
examples of the dedication of Open World's American hosts. In September 
2006, Open World brought four delegates from Sarov to Los Alamos. As a 
result of the trip, a videoconference site was organized using 
equipment donated to Sarov by citizens of Los Alamos. Videoconferences 
are being used both to organize a 2007 trip to Sarov by Los Alamos 
firefighters and police officers to discuss how to control wildfire (a 
major issue of concern in both communities), and to make plans for six 
children from Los Alamos to attend a summer camp outside Sarov.
    Open World delegates have impacted American communities by sharing 
ideas with their professional counterparts, university faculty and 
students, governors and state legislators, emergency response crews, 
and other American citizens in a variety of settings, including group 
discussions, Rotary Club breakfasts, and town hall meetings.
    One Rotarian, Wayne R. Oquin of Houston, Texas, had this to say 
about the impact of Open World on him as a host:

    On a personal note, I have never been one to push the international 
side of Rotary. I'm recognized as a community service Rotarian. I must 
admit that the Open World Program has changed my perspective. I was 
very apprehensive about my role as an Open World coordinator for my 
District. It really turned out to be easy, informative and extremely 
rewarding to me personally. I can honestly say that my time with this 
Open World delegation has been my most enjoyable week ever spent as a 
Rotarian.
                     results and impact of program
    Open World delegates return to their countries and apply their Open 
World experience to improve their local communities and regions. For 
example, an elementary school principal from Tver, Russia, was hosted 
in November 2004 by the Paso Robles (California) Rotary Club. Upon her 
return, she instituted a set of reforms based on what she had seen at 
the Georgia Brown Elementary School in Paso Robles. Among other 
projects, she started a board of trustees that was chaired by the 
mother of one of the students at her school. The board, in turn, worked 
with the principal to add electives to the school curricula, including 
a course on principles of democracy and election legislation. As a 
result of these reforms, the Russian Ministry of Education awarded the 
school a one million ruble prize as one of the ``Best Schools of the 
Year'' for 2006.
    In another instance, a city administrator from Ulan-Ude visited 
Louisiana and was inspired to launch a campaign in support of NGOs in 
her region. During a meeting with the Louisiana Office of Family 
Support, she was particularly impressed by the role of nongovernmental 
community organizations such as Louisiana Eastern European Adoptive 
Families. Upon her return, she teamed up with the first deputy 
chairperson of her department, another Open World alumna, to promote 
NGO development in Ulan-Ude. As a result of their teamwork, on October 
3, 2006, the City of Ulan-Ude declared 2007 ``The Year of Civic 
Initiatives'' and allocated 2.8 million rubles (approximately $106,000) 
to be distributed among 32 local NGOs to organize 100 different 
activities and programs throughout this year.
    Sometimes results take time to come to fruition. A judge from 
Barnaul, Russia, visiting Washington, D.C., in 2003 was particularly 
impressed by the use of information technology in the Superior Court of 
the District of Columbia. Upon her return, she started to take computer 
classes and, in 2005, was instrumental in instituting the use of web 
cameras and computerized court records in her region's supreme court.
    In another example, the director of a Yekaterinburg refugee aid 
organization and a Native American Open World host--who first met 
during the director's 2004 Open World visit--just partnered on a March 
14 videoconference between Native American children in Oklahoma and 
indigenous children in Ufa-Shigiri, Russia. The videoconference, which 
was co-hosted by the U.S. Consulate in Yekaterinburg, is intended to be 
the first in a series of events that will allow these children to share 
information about their lives, cultures, and aspirations for their 
communities.
                            scope of program
    In addition to the qualitative assessments described above, the 
Center also tracks quantitative performance measures to ensure that 
Open World is focusing on a geographically and professionally broad 
cross-section of emerging leaders who might not otherwise have the 
opportunity to visit the United States:
  --Delegates have come from all the political regions of Russia, 
        Ukraine, and Lithuania, and from 13 of Uzbekistan's 14 
        political regions.
  --88 percent of Russian participants live outside Moscow and St. 
        Petersburg.
  --More than 6,500 federal, regional, and local government officials 
        have participated, including 157 members of parliament.
  --The average age of Open World delegates is 38.
  --93 percent of delegates are first-time visitors to the United 
        States.
  --51 percent of delegates are women.
                   open world 2007 and plans for 2008
    In calendar year 2007 we plan to continue bringing Russian 
political, civic, and cultural leaders, as well as Ukrainian political 
and civic leaders, to the United States. In addition, through Open 
World, at least 175 leaders from Georgia, Moldova, Azerbaijan, 
Tajikistan, and Kyrgyzstan will visit the United States in 2007, 
virtually all for the first time. Chicago and Atlanta welcomed the 
first Open World Georgian delegations in early March. The Chicago 
visitors, all regional and city officials, reported that one of their 
favorite sessions was a morning spent at the village hall of suburban 
Bellwood, where they received a comprehensive overview of the town 
government, participated in lengthy Q-and-A with the mayor and other 
Bellwood officials, and toured town departments and facilities. Open 
World's first Moldovan delegations also arrived last month: one, a 
delegation of senior government and NGO officials, met with their 
counterparts in Washington, D.C., to explore ways to curb human 
trafficking. The other group, composed of one federal and three 
municipal officials, studied public finance with city administrators 
and economic experts in the Research Triangle area of North Carolina.
    Open World administrative activities in 2007 include developing 
annual plans for 2007-2011 as part of the strategic planning process, 
and finalizing all assessment tools to measure program successes. Open 
World will explore ways to recognize some of our most dedicated U.S. 
hosts, and the Board will consider additional countries for possible 
inclusion in the 2008 expansion program.
                    fiscal year 2008 budget request
    The budget request supports hosting and other programmatic 
activities at a level of approximately 1,400 participants total. Actual 
allocations of hosting to individual countries will be determined by 
the Board of Trustees in consultation with the Appropriations 
Committees. The requested funding support is also needed to cover 
anticipated fiscal year 2008 pay increases and the Department of 
State's obligatory Capital Security Cost Sharing charge for the 
Center's two Foreign National Staff attached to the U.S. Embassy in 
Moscow.
    Major categories of requested funding are:
  --Personnel Compensation and Benefits ($1.379 million)
  --Contracts ($8.075 million--awarded to U.S.-based entities) that 
        include:
    --Coordinating the delegate nomination and vetting process
    --Obtaining visas and other travel documents
    --Arranging and paying for air travel
    --Coordinating with grantees and placing delegates
    --Providing health insurance for participants
  --Grants ($4.6 million--awarded to U.S. host organizations) that 
        include the cost of providing:
    --Professional programming for delegates
    --Meals outside of those provided by home hosts
    --Local transportation
    --Professional interpretation
    --Cultural activities
    --Administrative support
                               conclusion
    The fiscal year 2008 budget request will enable the Open World 
Leadership Center to continue to make major contributions to the 
deepening understanding of democracy, civil society, and free 
enterprise in a region of vital importance to the Congress and the 
nation. This Subcommittee's interest and support have enabled this 
unique program to obtain gratifying results and a special status in the 
successor states of the USSR.
    I thank the Subcommittee for its continued support of the Open 
World Program.

          OPEN WORLD LEADERSHIP CENTER BUDGET FISCAL YEAR 2008
------------------------------------------------------------------------
                                                            Fiscal Year
                       Description                        2007 Estimated
                                                            Obligations
------------------------------------------------------------------------
11.1  Personnel Compensation............................      $1,085,000
12.1  Personnel Benefits................................         293,700
21.0  Travel............................................          97,500
22.0  Transportation....................................           2,000
23.0  Rent, Comm., Utilities............................           6,100
24.0  Printing..........................................           2,100
25.1  Other Services/Contracts..........................       8,309,500
26.0  Supplies..........................................           4,100
31.0  Equipment.........................................  ..............
41.0  Grants............................................       4,600,000
                                                         ---------------
      TOTAL, Fiscal Year 2008 Budget Request............      14,400,000
------------------------------------------------------------------------

                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service
    Madam Chairwoman and Members of the Committee: Thank you for the 
opportunity to appear before you today to present the fiscal year 2008 
budget request for the Congressional Research Service (CRS). I come to 
you with great appreciation for the support you have given us in past 
years. Having worked closely alongside Congress for more than 13 years 
now in my capacity as Director of CRS, I know full well the fiscal 
pressures under which you must operate, and that frame your 
deliberations.
                    fiscal year 2008 budget request
    The CRS fiscal year 2008 budget request is $108,702,000. This 
request covers mandatory pay increases for CRS staff, as well as price 
level increases due to inflation for the goods and services we require 
in the course of doing our work. We are not asking for any funds for 
new initiatives or program growth and are undertaking all of our 
initiatives within current funding.
    CRS is appreciative of Congress' continuing support. Even in these 
times of constrained resources we have managed to sustain our full 
services to the Congress, serving every Member and congressional 
committee. Our highest priority is to ensure that Congress has 
continued access to the nation's best thinking on policy issues, and to 
that end we devote almost 90 percent of our budget to personnel. Since 
1994 we have successfully increased the number of analysts within the 
organization from 313 to 343, and they along with our information 
professionals represent 75 percent of our total staff. At the same 
time, the overall number of CRS staff has declined by about 10 percent.
    The pressures and evolving priorities of Congress drive CRS' short- 
and long-range planning. We strive to strengthen our analytic capacity 
and the quality of our analysis. We evaluate a host of factors in an 
effort to target and improve our analyses, including: institutional 
changes within Congress; demands on Members' time; turnover of Members 
and staff; complexity and interdependencies of policy issues before the 
Congress; need for creative new solutions to policy questions; cultural 
shifts in the United States and abroad; global integration; continuing 
rapid advances in technology; and growth in information sources.
    We stand in direct service to Congress. We continually review our 
services to improve access, streamline operations, and increase our 
efficiency. We are: enhancing our website so that you have targeted 
access to the analysis you need; providing our staff with the research 
tools they need to accomplish their work; protecting the safety of our 
staff and ensuring that, if disaster strikes, CRS' services to the 
Congress will remain available; looking for economies within the 
organization and efficient ways of undertaking our mission; and 
minimizing our non-personnel costs through systematic assessments of 
each program activity and support function.
                            research agenda
    Congress turns to CRS daily. In fiscal year 2006 we provided over 
900,000 services to the Congress. These included more than 65,000 
customized products and services such as memoranda, telephone and in-
person briefings. In addition, CRS created over 800 new reports, 
bringing the total number of reports available to the Congress to over 
5,800, all available through the CRS website.
    As in previous years, in the months before the start of the 110th 
Congress, our experts from across CRS got together, assessed events 
here in the United States and around the world, and working closely 
with every congressional committee, determined the issues that would 
most likely face this Congress. The result of this and ongoing work is 
the creation and maintenance of a robust and evolving research agenda 
framed around almost 150 policy issues. We continue to work alongside 
you as you identify and clarify policy problems, explore policy 
options, monitor and assess program implementation, and conduct 
oversight.
    CRS approaches its work with a commitment to serving the Congress 
and a spirit of collaboration, resulting in research and analyses that 
are creative, interdisciplinary and insightful. As Congress conducts 
its deliberations, CRS makes every effort to provide the best thinking 
on the problems that congressional lawmakers address. To meet these 
demands, CRS staff must have access to the best research and 
information resources to provide authoritative analysis whenever and 
however Congress requires assistance. Thus the Service invests in 
education and training for staff members to stay current in their 
respective disciplines, and ensures that staff are challenged and 
informed by interactions with colleagues in other disciplines.
    All this, of course, means nothing unless our analysts also 
understand the intricacies of the legislative process and remain 
sensitive to the competing demands on time that Members of Congress 
juggle day after day. CRS' analysts are therefore educated about the 
workings of the Congress so that they have a command of Congress as an 
institution--its rules and procedures--and an understanding of 
Congress' processes in enacting legislation and in conducting 
oversight.
                              core values
    As Congress adjusts to the changes in the world and CRS realigns 
its services to meet those changes, our commitment to our core values 
does not waiver. CRS analysis is renowned for being confidential, 
objective and authoritative. These core values underscore our service 
to Congress and remain stable regardless of the changes around us.
    In today's marketplace of ideas, we strive to outpace all others. 
CRS is unique among the legislative branch agencies and like no other 
think tank, government bureau, or policy organization in the world. 
According to the guiding principles that Congress set forth when it 
established CRS in 1914, our sole purpose is to support the United 
States Congress, serving equally both chambers and both parties on all 
issues.
    I came to this subcommittee in 1996 asking for assistance in 
addressing the challenge that half of CRS staff would be eligible to 
retire by 2006. Well, the future is here and thanks to the support the 
Congress provided for our succession planning, we hired one-third of 
our staff in the past four years. They are all enthusiastic, highly 
credentialed individuals, dedicated to public service. Our more tenured 
staff work closely with these new employees to transfer their 
institutional memory and expertise in the legislative framework. I tell 
all new employees that it is an honor to work for the Congress. But it 
is also a weighty responsibility. And so honoring and applying our core 
values becomes at once a reward, a challenge, an obligation.
    CRS holds confidentiality as its first core value and highest 
priority. When working with CRS, Congress can access information, 
dispute it, ask questions about it, knowing that questions and comments 
are held in the strictest confidence. I am frequently told by Members 
of Congress that the promise of confidentiality is what keeps them 
coming back to utilize our services. Members know they can come to us 
to float an unusual idea or explore issues, and they can do so without 
question, challenge, or disclosure.
    Our second value is objectivity. Because our work is objective and 
non-partisan, we sit in a unique position. We focus all our efforts on 
getting you, the Congress, what you need, when you need it--and in a 
form that works for you. CRS works one-on-one with Members and 
committees to address specific questions as they arise. Those who 
choose to reference or distribute our work can do so with confidence, 
knowing each report we produce is objective and fair.
    As CRS provides authoritative and confidential assistance, we are 
vigilant about our ability to analyze issues without bias or unexamined 
assumptions. Our outstanding reputation for objective and nonpartisan 
analysis is hard-won by every one of our policy experts, each and every 
day.
    Finally, CRS ensures that the research and analysis it provides are 
authoritative. Rigorous research methodologies must be free of built-in 
bias. Every critical assumption must be presented, explained, and 
justified. Data anomalies must be investigated and rechecked for 
appropriateness and applicability. Primary resources are used whenever 
available, all statements of fact are double- or triple-checked, all 
sources are documented and appropriately caveated. We at CRS understand 
that our research and analysis must be authoritative and above reproach 
if it is to continue to serve as the foundation upon which Congress 
engages in debate.
    Such assurance is critical. For example, as Congress sought to 
improve preparation for and response to future catastrophes, such as a 
national flu pandemic, CRS experts assisted with appropriations 
legislation and oversight. When the House and Senate continued to 
confront the myriad issues stemming from the government's response to 
Hurricane Katrina, CRS experts analyzed flood insurance reform and the 
funding of infrastructure repairs on highways, bridges, ports, and 
airports. Analysts used mapping software to estimate the 
characteristics of individuals most likely affected by the storm. We 
examined the entire range of federal agencies' preparedness and 
response. For example, in addition to extensive examinations of such 
agencies as the Federal Emergency Management Agency and the Army Corps 
of Engineers, CRS prepared analyses on the Department of Housing and 
Urban Affairs' role in responding to past disasters. This provided 
precedents and an analytic framework for further consideration of 
disaster-related housing needs and use of Section 8 housing vouchers.
                         management initiatives
    In the coming years, CRS will continue to align research capacity 
to meet congressional needs, to improve congressional access to our 
services, and to develop tools for our research managers and staff to 
facilitate their work. This year we will launch a new authoring and 
publishing system that will reduce the time devoted to writing and 
publishing reports and memoranda, thus freeing up the time available to 
CRS analysts to undertake their research. This new tool will 
standardize the presentation format and enhance graphic capabilities.
    In a world of ever-evolving technologies and a constant need for 
information, CRS is forefront. We plan to enhance our online services--
be it podcasts, webcasts, or interactive discussions. For example, 
mapping and spatial software will allow Congress to manipulate data to 
determine the possible implications of legislative options for specific 
populations, regions, industries or economic sectors. In addition to 
providing Congress with analysis, this next step would make analytic 
tools available for Congress and staff to use. Another example is a 
legacy series that will capture the knowledge and institutional memory 
of our experts before they retire, further preserving their valuable 
analysis for the Congress and their successors.
                               conclusion
    I wish to thank the Congress for its continuing support for CRS. In 
keeping with the current fiscal realities, the CRS budget request for 
fiscal year 2008 does not seek additional funds to support program 
growth. The Service seeks your support for the mandatory pay increases 
for CRS staff and price-level increases for goods and services.
    These funds will allow CRS to continue serving the legislative 
needs of the 110th Congress.
                                 ______
                                 
  Prepared Statement of Marybeth Peters, The Register of Copyrights, 
                            Copyright Office
    Madam Chairwoman, Senator Allard, and other members of the 
Subcommittee: Thank you for the opportunity to present the Copyright 
Office's fiscal year 2008 budget request.
    The Copyright Office is completing its reengineering project which 
you have generously supported for the past seven years. In fiscal year 
2008 we are returning $10.1 million in non-recurring funding from the 
Basic Fund that was used for this project. Renewal receipts are 
decreasing by $850,000. Our mandatory and price level request is $3.4 
million, and we request a temporary $1 million increase in offsetting 
collections authority to use receipts in the no-year account to fund 
the Office's Records Preservation Project. The net effect of these 
requests is a $6.6 million decrease in the Copyright Office Basic fund. 
In addition, we request a $5.6 million decrease in permanent net 
appropriations spending authority and a corresponding permanent 
increase in offsetting collections spending authority due to the July 
1, 2006, fee increases that bring in more annual receipts. The net 
impact on the total spending authority is zero.
    The Office requests the elimination of the CARP fund since these 
program activities have been transferred to the Copyright Royalty 
Judges, an independent entity under the Librarian of Congress. We also 
request mandatories and price levels for the Licensing Division.
    I will discuss these requests in more detail, after I provide some 
brief highlights of the Office's work and an overview of our 
accomplishments in reengineering.
                    review of copyright office work
Policy and Legal Activities
    We continue to work closely with the Senate Committee on the 
Judiciary; this year the focus is on ``orphan works,'' that is 
photographs, text and other content for which a user cannot identify or 
locate the copyright owner. At the request of Senators Leahy and Hatch, 
the Office conducted a year long study of the problems and potential 
solutions. Our report, delivered in January 2006, recommended a new 
section 514 which would allow a good faith user to proceed to use such 
a work following a reasonably diligent search to locate the copyright 
owner. If the copyright owner emerged, he would receive reasonable 
compensation from the user, except in one limited situation. Although 
no bill was introduced in the Senate last year, the Senate Subcommittee 
on Intellectual Property held a hearing on April 6, 2006, on our 
recommended solution; the Associate Register for Policy and 
International Affairs, the primary drafter of the report, represented 
the Office. We expect a bill to be introduced in the Senate in the not 
to distant future, and we are hopeful that it will be enacted.
    The Copyright Office participated in numerous multilateral, 
regional, and bilateral negotiations and U.S. delegations to meetings 
of international organizations in fiscal year 2006. This included 
heading the U.S. delegation to the 14th and 15th sessions of the World 
Intellectual Property Organization's Standing Committee on Copyright 
and Related Rights, which considered the draft basic proposal for a 
treaty on the protection of broadcasting organizations.
    The Office also continued to assist the Justice Department in a 
number of important court cases related to copyright or with 
significant copyright implications, including cases on the 
copyrightability of settlement prices, the constitutionality of various 
provisions of the copyright law, refusal to register certain claims, 
and Supreme Court cases raising antitrust issues.
Registration and Recordation
    During fiscal year 2006, the Copyright Office received 594,125 
claims to copyright covering more than a million works and registered 
520,906 claims, including 20,434 registrations submitted 
electronically. We recorded 13,016 documents covering more than 350,000 
titles of works. During the year, the Office transferred 1,120,791 
copies of registered and nonregistered works valued at more than $41 
million to the Library of Congress for its collections.
Public Information and Education
    The Office logged more than 31 million external hits on key pages 
of its website during the year--a six percent increase over the 
previous year. In fiscal year 2006, the Office responded to 338,831 
requests for direct reference services, and assisted 8,886 members of 
the public in person, taking in 12,758 registration applications and 
2,463 documents for recordation. The Office answered 106,141 telephone 
inquiries, 8,380 letter requests, and 29,795 email requests for 
information from the public.
    In response to public requests, the Office searched 12,792 titles 
and prepared 832 search reports and assisted 8,886 visitors to the 
Copyright Card Catalog. The Office published twenty issues of NewsNet, 
an electronic news update about the Copyright Office and copyright-
related activities, to 6,333 subscribers.
Licensing Activities
    The Licensing Division collected nearly $227 million in royalty 
payments during fiscal year 2006 and distributed royalties totaling 
more than $191 million. The division worked on developing options for 
electronic filing for cable Statements of Account to be tested in a 
pilot e-filing program, scheduled for fiscal year 2007.
                         reengineering program
    The Copyright Office has many to thank for the support we have had 
during the past seven years for our Reengineering Program initiative. 
We especially thank the Committee for the support you have given us 
through appropriations; we thank the Architect of the Capitol for their 
dedication to completing the facilities work on time and within budget; 
and we thank the Library's infrastructure units, the labor 
organizations, and our own staff, whose support has been crucial to our 
success.
    Online service is at the heart of improvements coming to the Office 
as part of this major reengineering effort. The Copyright Office of the 
future is scheduled to arrive this year with the full implementation of 
eCO, the electronic Copyright Office, which combines the efficiency and 
cost savings of an integrated, enterprise-wide information system with 
the reach of the World Wide Web. The eCO system will improve the 
timeliness of our services, increase public access to copyright 
records, and provide better tracking of individual items in the 
workflow. At the same time, eCO will greatly enhance our ability to 
acquire digital works for the Library's collections. This is 
particularly important since we expect the number of ``born digital'' 
works submitted for deposit to trend upward indefinitely.
    The Office's implementation efforts in fiscal year 2006 continued 
to focus on the three components that support the reengineered 
processes: information technology, facilities, and organization. 
Because the three components are interconnected and the Office must 
provide uninterrupted customer service, the Office will implement all 
components at one time when it switches to new processes in 2007.
Information Technology
    At that time, the Office will release eCO Service to the public who 
can submit applications, deposits, and fees electronically through a 
portal on the Copyright Office website. This will reduce the paperwork 
and the effort involved in submitting an application and, as a further 
incentive, we are proposing to offer a reduced fee for this online 
registration. A copy of the work being registered can also be uploaded 
along with the electronic application or submitted separately in hard 
copy according to the Library's best edition regulation. In addition to 
reducing the burden for the applicant, online registration will also 
reduce the cost to the Copyright Office in the long term. For 
applicants who choose not to use the eCO Service, we will also put in 
place the capability to process paper applications.
    Enhanced online search capability for Copyright Office records will 
be implemented in 2007 for searching registrations and recordations 
created since 1978. The eCO Search feature will have the look and feel 
of the Library's bibliographic record system. The copyright record will 
clearly delineate the information provided by the applicant and the 
bibliographic information taken from the deposit copy.
    During fiscal year 2008, the Office will refine the information 
technology processes through adjustments and reconfiguration of the 
software. Despite the testing and pilot processing that has been done 
and will continue, the first year of use may be a challenging year as 
the system is exercised under full load. A help desk will be available 
to staff and the public to assist them in their use of the new system.
Organization
    On the organization front, the Copyright Office presented its 
reorganization package to the Library's Office of Human Resources 
Services on November 20, 2006. The package included the plan for the 
reorganization and 125 new position descriptions that were created to 
align job duties with our new business processes under reengineering. 
The Librarian reviewed and approved the reorganization package and 
implementation will begin almost immediately in order to have staffing 
completed in time for the move back to the Madison Building. The Office 
must bargain any impact of the reorganization with the labor 
organizations.
    Training has already begun to provide staff with skills needed in 
their new positions and will intensify in the spring of 2007. For the 
past 16 months, examiners and catalogers have been cross-trained to be 
able to perform both duties in the new registration specialist 
position. The Office hired a Training Specialist in 2006 and she 
refined the Training Plan to include methods for training 35 trainers 
who will in turn train the staff in eCO. Training in soft skills, such 
as effective communication and team building, was required of the 
entire staff involved in the reorganization.
Facilities
    The project passed two major milestones in fiscal year 2006. First, 
nearly all staff and contractors moved to swing space locations to 
permit the renovation of Copyright Office space in the Madison 
Building. Approximately 75 percent moved to temporary swing space in 
Crystal City in July 2006; others moved to swing space within the 
Capitol Hill complex; and a few remained in place until the new space 
was ready for occupancy. Second, after years of planning, the Architect 
of the Capitol began the renovation of Copyright Office space in the 
Madison Building. The Architect of the Capitol is making great progress 
and remains on schedule to complete the renovation of Copyright Office 
space in the Madison Building this year. Of particular note, the new 
Copyright Public Record Reading Room, which houses the Office's card 
catalog comprising some 30,000 individual catalog drawers in 1,234 
cabinets, opened to the public on December 11th of last year. Most 
Office staff that remained on Capitol Hill during the renovation have 
already moved into their newly renovated space, and staff currently 
working in temporary office space in Crystal City will move back to the 
Madison Building beginning June 1 and ending August 10, 2007.
                    fiscal year 2008 budget request
Reengineering
    No new funding is needed for reengineering in fiscal year 2008. 
Rather, the Office is reducing its offsetting collections authority for 
reengineering by $6.1 million and its net appropriation authority by 
$4,036,000 for a total reduction of $10.1 million since most of the 
reengineering program will be completed in fiscal year 2007 except for 
the IT system, which will be completed in fiscal year 2008 with 
adjustments and reconfiguration of the software as necessary.
Renewal Receipts
    With respect to renewal registrations, the Office is reducing its 
offsetting collections authority by $850,000 and reducing staff by five 
due to the fact that the number of renewal registrations will decrease 
significantly in fiscal year 2007 and remain at that level or lower 
from that point on.
    When renewal registration was required, the Office annually 
registered approximately 52,000 claims. Since the enactment of the 
automatic renewal provision in 1992, the number of renewal claims has 
decreased each year. In fiscal year 2006, the Office received 
approximately 8,782 renewal claims bringing in fees of approximately 
$531,305. In fiscal year 2007, we believe that amount will drop to 
about $150,000 and continue at that level or lower in fiscal year 2008 
and thereafter.
Adjustment of Fees
    The Office requests an increase in offsetting collections spending 
authority of $5.6 million that is matched by a reduction in net 
appropriation spending authority of $5.6 million due to an increase in 
its fees in July 2006. In accordance with  708 of the copyright law, 
the Office completed a cost study and, for services specifically 
enumerated in  708(a)(1)-(9) (statutory fees), submitted the cost 
study and proposed fee schedule increase to Congress on March 1, 2006. 
The major change was the increase in the basic registration fee from 
$30 to $45. Congress took no action and the Office implemented the new 
fees. The new fees are projected to bring in an additional $5.6 million 
in receipts.
    On February 21, 2007, the Office submitted a second cost study, 
entitled ``Analysis and Proposed Copyright Fee Adjustments,'' to 
Congress. The key proposal is a lower fee of $35 for electronic 
registration. The Copyright Office plans to implement the use of the 
lower fee service on or after July 1, 2007, to coincide with its 
transition to the new, reengineered processes and the initiation of eCO 
Service. The lower fee for electronic filings has been proposed for two 
reasons. First, the proposed fee adjustment for basic registration 
filings is being adopted in anticipation of lower processing costs 
which will be realized once the Office has had an opportunity to fully 
integrate the new processes. Electronic filings will be processed in 
fewer steps than paper filings and thus represent a savings to the 
Office. Moreover, a lower fee will provide applicants with a strong 
incentive to file electronically.
    The impact of electronic filing on the Office will not be known for 
at least one year. Until that time the Office will be unable to project 
any fee or staff adjustments.
Copyright Records Preservation
    The Office requests $1 million in offsetting collections authority 
to use no-year receipts to fund the digitization of 70 million pre-1978 
copyright records. The key objectives of this record digitization 
project are (1) disaster preparedness preservation of pre-1978 public 
records and (2) provision of online access to those public records. 
Copyright records are vital to the mission of the Library and the 
Copyright Office and they are important to the public and the copyright 
industries that are a significant part of the global economy. The pre-
1978 records document the ownership and copyright status of millions of 
creative works. Loss of these sole-copy public records due to a site 
disaster would trigger a complex and expensive intellectual property 
ownership dilemma.
    The first stage would cost approximately $6 million over a six year 
period and would achieve the preservation goal and very basic online 
access. The second stage would add item level indexing, enhanced 
searching and retrieval, costing between $5 million and $65 million 
depending on the extent of fields indexed.
CARP
    With respect to CARP, the Office is reducing its offsetting 
collections authority by $297,000 and terminating the CARP Fund.
                               conclusion
    Madam Chairwoman, I ask you to support the fiscal year 2008 
Copyright Office budget request for the Basic and Licensing 
Appropriations of $50.1 million for a permanent decrease in the 
Copyright appropriations of $6.6 million. Our request includes a non-
recurring funding for the Records Preservation Project.
    I thank the Congress for its past support of the Copyright Office 
requests and for your consideration of this request in this challenging 
time of transition and progress.

                LIBRARY ROLE IN DYNAMIC INFORMATION AGE

    Senator Landrieu. The vote was just called, but we have 
about 10 or 15 minutes before we have to walk over, so we'll 
address our questions, and then anything that you all want to 
submit for the record, please do. And I want to meet with you 
all personally, in some depth, about some of these issues. 
Because I want to go on record, as the Chair of this 
subcommittee that, I don't believe the Library of Congress 
should be a museum for books.
    I believe it should be a leader in a dynamic information 
age, and I want to support you in that. And I realize that 
we've had quite a few setbacks with the continuing resolution 
last year.
    But we've got to find a path, reasonable path, forward, and 
I'm committed to help you do that. I'm not exactly sure how 
we're going to do it, but I'm personally committed to help you 
figure it out.

                          BOOKS FOR THE BLIND

    I also want to say, since our time is short, that I've 
worked with the Federation of the Blind personally now for many 
years. I'm very familiar with some of their leaders that are 
here today. I realize that the machine that exists today is 
very outdated. Millions of visually impaired and handicapped 
individuals have to use this machine now, and the fact is that 
there are not many players that even use this kind of 
technology. It reminds me of what my father still uses to 
listen to music. He doesn't even have--you know, not every 
household has an iPod.
    But we need to move up, and I want to help you with that. 
Again, we want to be careful, though, in purchasing 
technologies with them changing so rapidly, that we'll be in 2 
years, stuck with something that's outdated. So, I'd like to 
ask you more questions about that at a later date.
    Senator Allard, what are some of your questions?
    Senator Allard. Thank you, Madam Chairman.

                            EVOLVING MISSION

    You know, I don't want to see us just collecting books for 
the sake of collecting books, but I think you need to keep 
original, old editions, so that you have a good database of 
information. And, I think you can use technology to make that 
available for the public.
    And I know that Dr. Billington has a huge challenge in 
prioritizing everything that's going to come into that Library, 
and how he's going to store it, and what he's making it 
available to the public electronically, and I sympathize with 
you. I know that in order to try and meet that challenge, 
you've been doing some strategic planning, and I want to 
compliment you on that effort. You've come up, I understand, 
with a new 5-year strategic plan, and you have used that to 
develop your 2008 budget, as I understand.

                           NEW STRATEGIC PLAN

    Dr. Billington. Yes, it's informed by it, but we will 
derive the 2009 budget from it. The 2008 budget has already 
been informed by the new plan, with a reduction, for instance, 
from 18 organization-centric goals of our previous plan to just 
five strategic goals that are Library-wide. So, we're getting 
the value of synergy, and we're deriving performance 
evaluations from the plan. I know that GPRA is an interest of 
yours----
    Senator Allard. Here's my question, Dr. Billington--I'd 
like to have some specific examples of items which were not 
included in the budget as a result of your strategic planning, 
can you provide us with those?
    Dr. Billington. I'm sorry, I didn't quite understand the 
question.
    Senator Allard. Well, when you set your strategic plan in 
place----
    Dr. Billington. Yes.
    Senator Allard [continuing]. Like you said, you started 
with a list of 18 goals----
    Dr. Billington. Sure.

                     BUDGET AND LIBRARY-WIDE GOALS

    Senator Allard [continuing]. And you reduced that down to 
five or so. I'd like to have an understanding of how you 
arrived at the five that you have, or however many that you 
have, but in order to get an understanding of how you arrived 
at it, my question is this--what items did you not include in 
your strategic plan?
    Senator Landrieu. And, Doctor, if you want to answer that 
you can, both of you can----
    Dr. Billington. Well, Jo Ann Jenkins, our Chief Operating 
Officer--she certainly can. If you're looking for a detailed 
answer for the record----
    Senator Allard. That's probably enough.
    Dr. Billington. All I would say, in a general way, is that 
we removed goals that were unit-specific, rather than Library-
wide. And therefore, in accordance with the five central 
strategic goals--content, customer, outreach, organization, and 
workforce--performance will be determined in accordance with 
those goals, rather than with the greater multiplicity of goals 
focused on individual organizations.
    Now, Ms. Jenkins may wish to add to something more on that, 
but we will give you a full account of exactly what was, what 
was eliminated as a result of this reduction in goals.
    Senator Allard. Okay.
    Dr. Billington. With the increase in accountability, 
together with the reduction of goals.
    Senator Allard. And I realize that's a complicated 
question, and you probably won't be able to provide us in 
full----
    Ms. Jenkins. We'll be more than happy to provide more 
detailed information for the record. We have a very extensive 
budget process, and provide recommendations to the executive 
committee. We weed out probably 80 percent of all requests 
before we come to the Appropriations Committee to request 
funds. We'll be more than happy to share.
    Senator Allard. And, like I say, I know you have a huge 
challenge, and I am very empathetic to----
    Dr. Billington. The result was reached in a process in 
which everybody--including myself and Ms. Jenkins--were active 
participants. All levels of the Library were represented.
    Senator Allard. Well, that's important.
    Dr. Billington. Yes, sir.
    Senator Allard. I want to compliment you on that effort, 
and----
    Dr. Billington. We'll get you those specifics.

                      PERFORMANCE-BASED BUDGETING

    Senator Allard. Now, the inspector general, when he did the 
report on your performance-based budgeting, he stated that 
you're off to a good start, but yet, there's still challenges 
ahead that we've got to deal with, and anybody that's worked 
with performance-based budgeting, knows that it isn't perfect 
the first time you do it. It's something that grows, and it's 
something that you learn to work with as you move forward.
    I noticed that the Financial Officer disagreed with many of 
the report's recommendations. For the record, can you provide 
me a detailed description of how the Library will implement 
those recommendations from the inspector general?
    Dr. Billington. Ms. Jenkins.
    Ms. Jenkins. The inspector general and myself and the Chief 
Financial Officer (CFO) have met on all of the recommendations 
that the inspector general reported. I believe that we have 
reached agreement on how we will implement the recommendations 
that the inspector general has put forward, from doing 
performance-based budgeting to how that falls into our annual 
performance planning. We have already automated for the Library 
the entire, what we call the AP3, annual program performance 
planning process, so it is now automated. The point that we're 
trying to reach is the new levels of documentation of dollar 
requests to which we can link specific performance indicators, 
and we're trying to work with the financial accounting system 
as to how we might track that. I think the inspector general 
and CFO and myself have reached an agreement of how we will 
reach that point that we can all live with.

 NATIONAL DIGITAL INFORMATION INFRASTRUCTURE AND PRESERVATION PROGRAM 
                    RESCISSION AND OTHER PRIORITIES

    Senator Allard. Very good. And, I appreciate your initial 
efforts on that.
    Now, one more question.
    You've asked for $21.5 million to be included in fiscal 
year 2008 for the NDIIPP, the National Digital Information 
Infrastructure and Preservation Program. With that being 
included, your total budget would increase by about 22 percent 
over the budget we're dealing with now, that's excluding that 
rescission.
    Are there lower-priority activities that you could cut from 
your budget?
    Dr. Billington. There are other things in the budget that 
we didn't mention, because we tried to focus on several key 
priorities.
    But, I think projects like the Lincoln Exhibit are 
essential. We've been cooperating with the Commission for the 
Lincoln Bicentennial, and we have the basic Lincoln collection, 
all online, so everyone can get to it. There are other elements 
of the budget, I'm prepared to respond to them, but that was 
one I would particularly mention, because, like other needs, it 
cannot really wait. More than just the Library is involved.
    Senator Allard. Well, you know, my staff may come back to 
you on that.
    Dr. Billington. Yes, we'd be happy to----
    Senator Allard. The subcommittee staff may come back, and 
try to work with you on that as we kind of filter through this 
budget, so we can give you the maximum amount we can afford, 
and get your highest priorities taken care of. And I think both 
of us are very sensitive to the challenges you face. It's an 
important institution in this country, but we want to come up 
with the best program, and so----
    Dr. Billington. We appreciate that, Senator.
    Senator Allard. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Landrieu. We thank you very much for your testimony 
this morning, and look forward to working with you on the new 
initiatives that you've outlined. And, again, I know that 
you've got a very tough job, Dr. Billington, in working with 
professional staff to expand the focus of the Library in a new 
and emerging technological age. You've got a lot of demands on 
you, but I've got confidence in your leadership and look 
forward to working with you.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:
              Questions Submitted by Senator Wayne Allard
                      performance-based budgeting
    Question. The Library's Inspector General released a report in 
October on LOC's efforts in performance-based budgeting. The IG found 
that LOC's efforts were ``a good start but much work remains.'' The IG 
found that ``the Library's overall budget base is not being 
``scrubbed.'' Given the enormous increase you are requesting, it is 
critical the Library look at its ``base'' resources and determine 
whether certain activities are not providing the outcomes we desire. 
What are your plans to go back and more carefully assess the base 
budget?
    Answer. The Library of Congress has fully embraced the call to 
implement the spirit of GPRA. We recently revised the Library's 
Strategic Plan which engaged the Library's senior leadership, including 
the Librarian, the Chief Operating Officer, the Executive Committee, 
and senior managers, as well as a cross-section of the Library's 
subject experts. This process represented an unprecedented level of 
collaboration, cooperation, consultation and communication across the 
Library. The new Strategic Plan focuses on long-term strategic results 
with five Library-wide goals, replacing the previous strategic plan, 
which had 18 organization-specific goals.
    Since completing the new draft Strategic Plan, the Library has 
implemented strategy mapping for all Library Service/Support Units to 
link the draft Strategic Plan to our organizations' annual program 
performance plans. We have also developed an automated database system 
for managing the annual program performance plan process and ensuring 
the strategy mapping links are retained in the annual plans. Finally, 
we are developing a Management Dashboard to track monthly progress in 
key Library infrastructure operations. The dashboard approach to 
managing the Library's Strategic Plan and related goals, outcomes and 
performance targets will eventually be implemented Library-wide.
    The efforts detailed above represent the many significant steps the 
Library has already taken to implement the spirit of GPRA, steps that 
will ultimately lead to implementing performance-based budgeting (PBB). 
Although the IG report indicated that ``much work still remains,'' the 
Library has provided a plan for the next steps in implementing PBB, and 
the IG has accepted the plan.
    Implementing PBB is an iterative process, one that must be built on 
a solid foundation. The Library has established that foundation in our 
new draft Strategic Plan, in our Library-wide strategy mapping efforts, 
in our automation of the annual program performance planning process, 
and in our more recent efforts to use dashboards to reinforce 
accountability to the Strategic Plan and to demonstrating results. 
Other efforts will include a current Library initiative to improve 
workforce performance management. The Workforce Performance Management 
Initiative (WPMI) will ensure that workforce planning and management 
takes the links between the Library's Strategic Plan and organizations' 
annual performance plans and extends those linkages to the annual 
performance plans of individual employees. This initiative will be 
coordinated Library-wide, ensuring that workforce performance 
management is a central element in the workforce transformation process 
for the Library.
    Another PBB next step will be the Library's effort to use the 
direction of the new Strategic Plan and the structure of the annual 
performance plans as the roadmap for formulating the fiscal year 2009 
budget request. The five strategic plan goals will provide a framework 
for analyzing, prioritizing, realigning (where necessary) and defending 
both our base budget and any new and expanded requests. The annual 
plans will provide strategies and measurable performance targets which 
will be the basis for demonstrating results.
    The budget formulation process will require each organization to 
develop resource requirements in accordance with their annual program 
performance plans and to identify base savings to offset the new and 
expanded resource needs. Budget requests will be reviewed and approved 
(or denied) by the Library's Operations Committee, under the direction 
of the Chief Operating Officer, with recommendations for approval by 
the Library's Executive Committee and the Librarian. In short, the 
Library's fiscal year 2009 and future budget requests will fully 
incorporate both the scrubbing of the base budget and the alignment of 
resource needs with the goals of the Library's Strategic Plan.
    Although we are outlining future steps for implementing the spirit 
of GPRA at the Library and a more carefully mapped-out format for 
performance-based budgeting, the Library can provide a number of 
current examples of how we have been engaged in ongoing efforts to 
``scrub'' our base budget numbers before going to Congress to request 
additional resources. With respect to the ``enormous increase'' we have 
requested in our fiscal year 2008 budget, we would argue that the 
combined big-ticket items coming together in this one fiscal year's 
(fiscal year 2008) budget request is the result of an unplanned and 
unfortunate synchronicity of competing program priorities. Funds 
requested for the Digital Talking Books request have been in planning, 
with the full knowledge of the Appropriations Committees, for almost 17 
years. The NDIIPP funding request comes as a result of the rescission 
of $47 million in no-year funding that the Library was on the verge of 
obligating. The Logistics Center request was a scrubbed resubmission of 
the Library's fiscal year 2007 budget request. No amount of internal 
base-budget scrubbing would enable the Library to simply reprogram and 
absorb these important budget requests.
    Finally, while the Library has set as its number one priority to 
maintain current services funding levels, this funding request does 
represent the results of a scrubbed budget at many levels throughout 
the Library. Some examples of our internal efforts to analyze and 
reprioritize our base budgets follow:
National Library--Basic (Library Services)
    Library Services' internal budget development process is designed 
to meet its highest priorities in an increasingly tight fiscal climate. 
Library Services divisions submit itemized requests for all budget 
needs, including contracts, travel, equipment, and new hires. Funding 
for employees currently occupying positions are considered part of the 
base.
    Through this approach, Library Services has denied an approximate 
total of $28 million in internal personal and non-personal requests for 
the past three fiscal years. They have also limited over 215 vacancy 
requests to internal postings; thus moving existing staff into 
positions where the need was greatest, rather than hiring new staff 
from outside the Library.
    As part of the fiscal year 2007 Operating Plan, Library Services 
moved $3.65 million from personnel compensation to GenPac acquisitions 
to permit the purchase of collections now available that would 
otherwise be lost to the Library and the Nation. Some of the planned 
acquisitions are electronic resources that are needed to meet 
Congressional needs, such as Jane's Information Group (definitive 
reference source on defense, geopolitics, transport and police), 
Science Direct (science, technology, and medicine full-text database), 
and Historical Newspapers (online versions of New York Times and The 
Washington Post). Secondly, special materials that are now in the hands 
of private collectors are coming available and the Library must 
purchase them now. Examples of such collections are the Tony Schwartz 
Recorded Sound Collection, a unique collection of 30 years' worth of 
off-air recordings of the sounds of New York City, everything from 
street noises to campaign films and tapes, to speeches and press 
conferences; the papers and photographs of African-American 
photographer, Gordon Parks; and the Zinmann Collection of Americana, a 
collection of rare American Colonial pamphlets.
Congressional Research Service
    CRS incurs a significant personnel cost for research analysts 
moving through our career ladder promotion plan (GS 11-GS 15) that is 
not requested in the fiscal year 2008 budget. In order to fund this 
cost, CRS eliminated lower priority pay requirements in the amount of 
$155,000.
    Rather than requesting additional funding from Congress, CRS made 
major reductions to its Workspace Transformation Project for improving 
space utilization and providing a more efficient office layout. The 
desired plan would have required more than $1.5 million in supplemental 
funding, with approximately half of that amount needed in the first two 
years.
    The manpower costs for support personnel are being reduced by 
satisfying near-term needs with individuals hired in positions that 
have NTE limits of one year or less. This provides the opportunity to 
accomplish the work while taking steps to improve efficiency and reduce 
future manpower requirements. Three individuals were hired on this 
basis in fiscal year 2007 and the money needed for their pay and 
benefits was budgeted for research analysts in fiscal year 2008.
Law Library
    Each year the Library of Congress has attempted to identify and use 
savings from all sources within the Library's S&E account to address an 
urgently needed reclassification project critical to providing public 
access to a significant portion of the Law Library's historic 
collection.
Other Library S&E
    While the Library has requested funding (including mandatory pay 
and price level increases) to maintain current services funding levels, 
the Library has repeatedly scoured its base funding in order to 
identify resources to fund high priority initiatives internally and 
without seeking additional funding from Congress. The following are 
among the many examples of such scrubbing of the Library's base budget:
  --This year the Library identified the need to perform an agency-wide 
        supervisory training program for all Library managers. This 
        program will cost the Library a total of $345,000, none of 
        which has been included in the budget request.
  --Re-equipping the preservation lab in the Madison building. 
        Equipment required to establish a preservation research and 
        testing laboratory that meets requirements for a national 
        preservation program. All upgrades of preservation lab have 
        been accomplished with base funding--$2 million.
  --Purchase of shelving and shelf equipment required to help maintain 
        the Library's collections and to help protect against potential 
        damage caused by improper housing of materials--$850,000.
  --Books for the Blind and Physically Handicapped program purchase of 
        spare parts for cassette players. Manufacturer will no longer 
        make spare parts for these players. Purchase of existing spare 
        parts will provide sufficient inventory for cassette players as 
        Library transitions from analog to digital technology--$3.28 
        million.
  --Contractual service support to automate the Library's patient 
        management system, to include digitization of medical records--
        $145,000.
  --Improve the Library's environmental and hazardous materials program 
        to meet regulations and requirements on handling and disposal 
        of hazardous waste--$80,000.
  --Purchase of Escape Hoods for Library staff--$737,000.
  --Human Resources contract for support for retirement benefit 
        counseling--$73,000.
  --Purchase of digital video recorders to replace analog recorders in 
        reading rooms. Digital video recording technology enhances 
        security of collections and efficiency of staff time--$250,000.
    Finally, as part of an effort to develop an enhanced budget 
justification, the Library commits to identifying within the fiscal 
year 2009 (and future) justifications, those specific areas of the 
budget where programs and initiatives are being reduced in order that 
other higher priority programs and initiatives may be funded.
                                 ndiipp
    Question. Dr. Billington, I understand that restoring funds to the 
National Digital Information Infrastructure and Preservation Program is 
now your highest priority. You have asked that $21.5 million be 
included in fiscal year 2008 for NDIIPP. This would bring your total 
budget to $682 million--a 22 percent increase over fiscal year 2007--
excluding the 2007 rescission. Are there lower-priority activities 
which you could cut from your budget?
    What has been accomplished to date with NDIIPP?
    What would you do with the $21.5 million you are requesting?
    Answer. The accomplishments of the national program to preserve the 
nation's digital heritage are many.
    National Digital Preservation Network.--The NDIIPP network of 
partners has grown to 67 and, with restored funding, will grow to well 
over 100 and include projects to assist the states in preserving 
critical state records. This national network, which was Congress's 
vision for NDIIPP, supports the catalytic basis for NDIIPP and ensures 
that the sum of what is achieved is greater than the individual parts. 
The Library is also working with other federal agencies such as GPO and 
NARA and with the private sector.
    Selecting, Collecting and Preserving Content.--Approximately 230 
terabytes of born-digital information has been saved by current 
partners and the Library. NDIIPP has worked with the Congressional 
Research Service and Law Library to identify content of particular 
interest to the national legislature. For example:
  --The current partners are collecting and preserving information of 
        interest to Congress such as geospatial information, social 
        science datasets, foreign news broadcasts, judicial proceedings 
        and political Web sites.
  --The Library has itself collected Web sites relating to national 
        elections, the Iraq war and Hurricane Katrina.
    Technical Architecture.--To enable this information to be securely 
saved, partners have identified models and standards that are flexible 
and reliable, yet can be used by other institutions. For example:
  --The San Diego Supercomputer Center (SDSC) is working with NDIIPP to 
        test the reliability of third-party storage of digital 
        materials. SDSC will host partners' digital content and 
        guarantee data integrity and access. This will enable the 
        NDIIPP partners to remotely access, manage, process, and 
        analyze that content.
    Digital Preservation Research.--In concert with the National 
Science Foundation, the Library has developed the first digital-
preservation research grants program. Ten university teams are:
  --Working to ensure that what is preserved today does not become 
        inaccessible in the future due to format obsolescence.
  --Exploring challenging topics, such as preserving rich oceanographic 
        data from hundreds of deep-sea submersible missions; automating 
        methods to describe digital objects and place them in secure 
        archival storage; testing how to preserve digital video when it 
        is first created; preserving complex three-dimensional digital 
        content such as engineering drawings.
    Informing the Public.--The work of NDIIPP has helped to promote a 
national conversation on the importance of preserving born digital 
content--not only for archival institutions but also for the general 
public. For example, major articles on NDIIPP and digital preservation 
have appeared in:
  --The Atlantic Monthly (September 2006)
  --The Washington Times (April 26, 2007)
  --National Public Radio's ``All Things Considered'' interviewed Laura 
        Campbell (October 2004) on NDIIPP
  --New York Times (September 2004).
    Outreach efforts have included:
  --Workshops for all 50 states and territories
  --Workshops for commercial content distributors and owners
  --Workshops for archival institutions
  --Workshops with computer scientists and technology companies to 
        address technical challenges.
    The new NDIIPP Web site, which has been refocused to appeal to a 
broader public, now offers a section on ``Preserving Your Digital 
Memories'' at http://www.digitalpreservation.gov/you/
digitalmemories.html.
    The $21.5 million would ensure the future viability of NDIIPP for 
both current and future partners, by providing funding for:
  --Current partners: to continue to select, collect and preserve 
        important born-digital content; and to continue development of 
        a technical infrastructure to provide tools and services to 
        support the network's preservation activities.
  --Future partners: States Demonstration Projects will comprise four 
        multi-state initiatives to develop digital archives of at-risk 
        digital content needed as part of a national digital 
        collection. The goal is to build digital repositories among the 
        states and share in costs by leveraging scarce resources.
                          books for the blind
    Question. GAO recently completed a review of the Library's $75 
million plan to convert its books for the blind to digital format. No 
one could disagree that the old cassette players are cumbersome and 
outdated and need to be replaced with new technology. However, GAO 
found that the Library's planning and analysis for the new digital 
talking book was insufficient. The program is already underway, with 
books being converted to the new ``flash memory'' format. Do GAO's 
findings impact your $19 million budget request?
    Is it too late to consider GAO's concerns?
    What specifically will you do to incorporate GAO's recommendations?
    Answer. The Digital Talking Books program has been carefully 
planned over the last decade. Congress has been informed throughout the 
process, and based on the plans for converting to digital technology, 
the last order has been placed for analog machines. The $19 million 
budget request will allow us to produce a sufficient number of new 
digital players to meet the first year's needs of the users who depend 
upon this service. The full $76.4 million is required to fulfill the 
total requirement and to meet the legislative mandate of NLS.
    We are carefully considering GAO's concerns. Deanna Marcum, 
Associate Librarian for Library Services, met with Linda Koontz, head 
of the GAO audit team, and Carrie Apostolou, Senate clerk, in April to 
discuss the best way to proceed in light of the GAO briefing to the 
Appropriations clerks. Ms. Koontz acknowledged that the flash 
technology selected for the program is appropriate but noted that NLS 
has not adequately analyzed commercial options and different 
distribution systems.
    The Library's chief concern is that the program is already in 
progress. The last order for analog machines has been placed, and 
without manufacturing new digital machines, we cannot provide equipment 
to everyone who needs it.
    Ms. Marcum agreed that the Library will carefully analyze the 
broader questions raised by GAO, i.e., how can the new system 
accommodate rapidly changing technology. GAO is concerned that it is 
not practical today to try to design a system that has a long life span 
and believes that the commercial sector is more likely than government 
entities to incorporate technological improvements more quickly.
    GAO was also concerned that NLS assumed the existing distribution 
system rather than considering new methods. It is the case that NLS 
assumed the continuing existence of the network of participating 
libraries having an active role in the Digital Talking Books program. 
The Library will consider other methods of distribution, but it will 
also analyze the non-financial, non-technological aspects of having 
such a network in place to serve the blind and physically handicapped 
communities.
    One of the questions that has been raised consistently is the size 
of the user population. The Library is conducting the necessary 
research to provide a definitive answer. The Library is also working 
with experts to predict the likely changes in the user population over 
the next several years.
    These analyses will be carried out as quickly as possible, but they 
must not impede the ongoing program of manufacturing new digital 
players to meet immediate and critical needs of our users. Blind and 
physically handicapped individuals have been eagerly awaiting this new 
technology, and we cannot slow progress.
                   crs documents on ``gallery watch''
    Question. CRS does not make its documents available to the public--
an issue some members have had concerns with. Yet a private 
organization--``Gallery Watch''--has been able to retrieve CRS reports 
and make them available to their subscribers. Please explain how these 
taxpayer-funded reports end up being sold through Gallery Watch and 
whether you are concerned about it.
    Answer. Availability of CRS Products to the Public.--As set forth 
in the Legislative Reorganization Acts, CRS was established as a shared 
Legislative Branch resource, serving all Members and committees with 
authoritative, objective, and non-partisan expertise across the full 
range of legislative policy issues. It does so in a confidential 
relationship--a congressional expectation that is clear not only from 
the legislative history of its creation, but also from annual statutory 
restrictions placed on publication of its work. The prohibition on 
publication of CRS products without oversight committee approval has 
appeared in the annual appropriations acts for the Legislative Branch 
for more than fifty years. This provision is intended to preserve the 
role of CRS as a confidential resource solely available to the 
Congress. The appropriations acts, supplemented by congressional 
guidance that CRS has received over the years and supported by judicial 
opinions, leaves to the Members and committees the decision whether, on 
a selective basis, to place CRS products in the public domain. Members 
have long made CRS products available to interested persons either 
directly, by inclusion in congressional publications, or more recently 
through their office or committee web sites.
    Wholesale public dissemination raises several policy, legal, and 
institutional concerns. Principle among these is the danger of placing 
CRS, a support agency, in an intermediate position between Members and 
their constituents instead of preserving the direct relationship 
between constituents and their elected representatives. This threatens 
the dialog on policy issues between Members and those they represent 
that was envisioned by the Constitution. Further, there is a 
significant risk that wide publication could over time affect the 
mission and congressional focus of the Service, resulting in products 
being written with a large public audience in mind and no longer 
focused solely on congressional needs. Wholesale dissemination would 
inevitably generate a significant number of comments, questions, and 
concerns from the public regarding content. In addition to placing a 
burden on congressional offices, responding to such correspondence 
would require CRS to shift significant resources away from direct 
service to the Congress.
    There is also a very real concern that the current judicial and 
administrative perception of CRS as adjunct congressional staff might 
be altered by congressional authorization of systematic release of CRS 
products. Such action might put at risk speech or debate protections 
critical to the maintenance of confidentiality. The Speech or Debate 
Clause of the Constitution has been interpreted to grant broad immunity 
to Members and their aides when activity occurs in the performance of 
``legislative acts.'' Widespread dissemination of products to the 
general public would likely be viewed by the courts as an exercise of 
Congress' representational or informing function for which speech or 
debate immunity would not be available. Of major concern has been the 
extent to which a policy permitting significant public dissemination of 
CRS products might render the protection that the Service currently 
enjoys under the umbrella of this constitutional protection of Members 
inapplicable to communications with CRS. Stated simply, if the Service 
were to become generally known to frequently distribute products 
directly to the general public, it might lose these constitutional 
protections regarding even its confidential work, doing irreparable 
harm to its working relationship with congressional clients.
    A frequent lament of proponents of public access to CRS work is 
that taxpayers fund CRS and therefore deserve to have access to its 
products. This is an effective ``sound bite'', but the reality is that 
Congress appropriates funds for CRS to ensure the most effective 
research and analytical support for its legislative activities. Just as 
with Member and committee office staff, Congress' confidential 
relationship with CRS is critical to that support. It is in this way 
that Congress and the American taxpayer get the most for their 
investment.
    GalleryWatch.--CRS does not know how GalleryWatch (which is in 
partnership with Penny Hill Press) obtains its reports. Over the years 
the Service has made efforts to determine whether the source of CRS 
products for outside parties is internal to the organization or 
elsewhere in the congressional community. Whenever CRS has done so (on 
one occasion at the request of an oversight committee and on another at 
its own initiative, and with the help of the Library's Office of the 
Inspector General), the Service has been assured that there was no 
evidence of improper activities by its own or other Library employees. 
CRS also has found no basis for concern that its electronic systems 
might have been compromised and that access to its products has been 
gained through intrusion into CRS or library systems that are well 
protected by firewalls. As a result of these efforts, CRS has concluded 
that it is likely, though not certain, that the source is a person or 
persons with access to the CapNet and the CRS Web Site, who thereby is 
able to download products and convey them to a third party (e.g., 
GalleryWatch). The source could therefore work in any congressional 
office or for one of the Legislative Branch sister agencies--i.e., 
anyone with access to the CRS Website.
    CRS products are not copyrighted, and are not in the public domain 
unless and until released by a Member or his/her staff. Any effort to 
curtail or punish an identified congressional source of the report's 
dissemination would likely require proof that not only were the 
products provided, but also evidence of additional factors such as 
receiving payment for the service, unlawful use of government 
equipment, use of official time, violation of ethics rules, etc.
    As to the comprehensiveness of the GalleryWatch inventory, it 
appears that they have a regular source that provides reasonably timely 
copies of our reports. There are gaps however, and some reports do not 
reflect the most recent updating. CRS continues to have concerns 
regarding this phenomenon, but it believes that even though many of its 
reports are made available in this way, it is still in the interest of 
the Congress to preserve the direct communication between Members and 
their constituents regarding their policy deliberations and positions. 
The Service also believes that it is important to preserve an 
enforceable policy of confidentiality and the role of CRS experts as 
adjunct staff.
                      crs earmark reporting policy
    Question. Recently CRS changed its policy with regard to reporting 
on earmarks. Can you explain what the policy is and why it was changed?
    Answer. On February 22, 2007, Director Mulhollan issued a new 
policy statement explaining why CRS will no longer identify earmarks 
for individual programs, activities, entities, or individuals. It also 
stated that, at the request of Congress, CRS can provide information on 
the allocation or distribution of funds for programs and activities 
where the allocation or distribution is clear from the public 
documents, such as the Appropriations Committee reports or the 
Administration's budget justifications. CRS also will continue to 
conduct research in the Legislative Information System and other 
automated systems to identify where funding is specified for particular 
entities noting limitations of this methodology.
    Recent congressional and executive actions make it unnecessary and 
impractical for CRS to attempt to identify earmarks in appropriations 
or other laws. In January 2007, the House, Senate, and Office of 
Management and Budget (OMB) took actions to define, compile, and 
disclose comprehensive information on earmarks. Specifically, the House 
agreed to a rules change (H. Res. 6, 404); the Senate passed a bill 
including rules changes, which has been sent to the House (S. 1, 103); 
and OMB issued a memorandum for the heads of departments and agencies. 
CRS determined that these developments made obsolete their research 
using definitions and methodologies different than those contained in 
the legislation and OMB memorandum. Additionally, it is not possible 
for CRS to conduct research on earmarks using the definitions set out 
by the House, Senate, and OMB. For instance, the House and Senate 
definition of earmark is (in part) that it is a provision or report 
language included primarily at the request of a Member, a criterion of 
which CRS would not have knowledge.
    When Congress has determined to use committees or other sub-
entities in enforcement of its rules, it has clearly defined their 
roles (e.g., the two ethics committees, or an impeachment investigatory 
entity). The congressional rulemaking process is enshrined in the 
Constitution; Article I, sec. 5, empowers each House to ``determine the 
rules of its proceedings.'' The courts have held that Congress is the 
arbiter of the scope and interpretation of its own rules and the 
exercise of its rulemaking authority is insulated to a large degree 
from judicial review and other outside interference. Separation of 
powers animates this balance but it also serves to underscore the 
plenary nature of congressional rules in ordering the internal 
operations of Congress, its Members and subunits. The House rule and 
the Senate proposed rule (contained in S. 1) governing earmarks, vest 
the responsibilities in the committees and subcommittees. It would not 
be appropriate for CRS--an entity of the Congress that serves as its 
adjunct staff--to embark on work that would duplicate the 
responsibilities described in the rules and, even worse, potentially 
cause confusion in an area in which the body is seeking clarity.
    There is another aspect of earmark research that was considered in 
establishing this new policy. Earmarks are being defined by both Houses 
as provisions that are requested by specific Members. The reports 
required of the requesting Member and the committees include 
identification of the Member and related financial interests in the 
project or activity of the Member and his or her family. Thus, each 
earmark is linked to the Member requesting it, and the rules place 
certain obligations on that Member which become part of the public 
record. CRS is prohibited by a long-standing direction of the Joint 
Committee on the Library from doing research concerning a Member at the 
behest of another Member. We studiously avoid being placed in a 
position of collecting information on specific Members or their 
activities, even basic reference information. While we do at times 
assist the ethics committees or special investigatory committees with 
questions of law and the applicability of rules of conduct, our work is 
carefully generalized and is prepared in a way that is not linked to 
individual Members.
                     teaching with primary sources
    Question. In 2006, permanent authorization was included in the 
legislative branch appropriations bill for the ``Teaching with Primary 
Sources'' program--formerly known as Adventure of the American Mind. 
This program has been very successful in Colorado, first at Metro State 
University and now at Northern Colorado University, teaching educators 
how to use the Library of Congress' online material in their 
curriculum. Can you describe how you plan to change the program, to 
broaden its reach to more teachers nationwide?
    Answer. The Library seeks to broaden the Teaching with Primary 
Sources (TPS) program by piloting a regional-center model to award a 
large number of small grants to new partners in neighboring states, 
encouraging geographic growth of the program. These regional centers 
will be located at Metro State University, at Illinois State 
University, at Waynesburg College in Pennsylvania, and at a location to 
be determined in the South.
    Additionally, an exportable TPS program curriculum will be 
published this fall and available for download on the TPS Web site, 
allowing all interested educational institutions to implement the 
program. An online version of the TPS course will be piloted this 
summer and available to educators nationwide this fall.
                            logistics center
    Question. The Library is requesting $43.9 million for a logistics 
facility. This project was included in last year's AOC budget request 
but did not get funded. During last year's hearing, we raised questions 
about the high cost of the proposed facility. We understand that costs 
have been reduced, but most of the reductions are due to cost 
deferrals. Does the Library have any further plans to look at the total 
cost of the proposed logistics center?
    Answer. At the request of the Senate Appropriations Clerk during 
the fiscal year 2007 budget cycle and in response to concerns expressed 
by the Library's Inspector General, the Library worked closely with the 
Architect of the Capitol to review and reduce where possible the 
Library's program and facility requirements, construction costs, and 
AOC markup costs. Reductions of $12.2 million are reflected in the 
$43.9 million fiscal year 2008 budget request. A recap of actual cost 
reductions and deferrals appears below.
    Looking for ways to further reduce the total project cost in fiscal 
year 2008, the Library and the AOC have again reviewed the construction 
cost estimate, contingencies, and markup to ensure all possible savings 
have been identified. To this end, the AOC has agreed to consider a 
construction management plan that utilizes AOC staff rather than 
outsourcing. The Library is confident the AOC can successfully execute 
the project with in-house staff, and cites recent and sustained success 
in construction of Library projects at Fort Meade, NAVCC and the 
Copyright Office renovation project on Capitol Hill as evidence 
thereof.
    Recap of actual cost reductions and deferrals captured in the 
fiscal year 2007 budget cycle:
  --LOC program reductions of $3 million include elimination of a water 
        leak detection system, elimination of COOP space fit-out, and 
        removal of furnishings, folding partitions and appliances.
  --AOC markup reductions of $2.4 million were achieved by 
        restructuring some aspects of project oversight. The U.S. Army 
        Corps of Engineers reduced their fee for construction 
        management by accepting a flat fee rather than a percentage of 
        construction cost, saving $825,474. The AOC plans to hire two 
        temporary employees for project management rather than 
        outsourcing this service, saving $1,605,563. The AOC has agreed 
        to consider all possible savings that could be realized using 
        in-house staff rather than outsourcing. As outlined above, we 
        are confident the AOC can successfully execute the project 
        using internal resources.
  --Eliminating shelving from the contract for construction reduces 
        initial cost by $6.81 million and results in cost reductions of 
        $430,000. Savings are realized by purchasing shelving in fiscal 
        year 2010 under a separate AOC contract--outside of the 
        contract for construction--resulting in cost deferral of $6.38 
        million (includes cost escalation to fiscal year 2010).
  --The $43.9 million fiscal year 2008 budget request reflects $12.2 
        million in LOC and AOC reductions, plus an amount added for 
        cost escalation resulting from delay.
                           space utilization
    Question. Three years ago, the Library's Inspector General 
recommended there be an evaluation of the space utilization in reading 
rooms. Today this evaluation still has not been completed. What 
progress has the Library made so far in addressing the recommendations 
in that IG report? What are the Library's milestones for completing 
this evaluation and making decisions on better utilizing reading room 
space?
    Answer. In March 2004, the Library of Congress' Office of the 
Inspector General issued Final Audit Report No. 2003-PA-104, Reading 
Room Space Allocations Should be Re-evaluated. To produce the report, 
the IG staff conducted a careful audit of floor space considerations in 
the Library's 23 reading rooms, 16 of which are under the jurisdiction 
of Library Services. They noted a significant decline in the numbers of 
patrons visiting the reading rooms since 1993 and as a result, 
concluded that an underutilization of floor space may have resulted 
from this decline. However, a lack of consistent and useful statistical 
data collected by the Library made it difficult to reach definitive 
conclusions and make strong recommendations as to the potential 
reallocation of reading room floor space--based on costs, benefits, and 
other considerations--to offices and collections storage.
    The Report's first general recommendation was: obtain more accurate 
and useful reading room usage data. As a result, on January 3, 2006, 
all Library Services reading rooms instituted a similar method to 
measure utilization, resulting in the accumulation of consistent data. 
All readers are requested to sign in using a daily register kept at the 
entry of all reading rooms. The register records the patron's name, the 
time and date of entry, and in many cases his/her research subject. The 
number of readers accessing the collections through the various reading 
rooms is now based strictly on the number of daily registrants; hourly 
counts are no longer made, nor are directional queries tabulated. All 
divisions report quarterly statistics related to reading room use in an 
accurate, consistent, and useful manner. Management is now in a 
position to compare statistics fairly and to make informed decisions as 
to resource allocation.
    The second general recommendation was: analyze reading room 
requirements. In the 2004 report, the auditors stated that (a) reading 
room space should be used more efficiently, and (b) Saturday hours 
should be reconsidered. Efficiency is an essential goal in our public 
service of the Library's collections--the largest repository of 
recorded knowledge in the widest variety of languages and formats in 
human history. Library Services' 16 reading rooms serve the Library's 
general, area studies, and special format collections--some 129.5 
million items (excluding the Law Library). As points of access to these 
vast and disparate collections, the reading rooms are complex 
organizations of human and material resources, not measurable only in 
terms of floor space.
    Each individual reading room--for example, the Geography and Map 
and the Local History and Genealogy rooms--not only serves research 
materials specific to a subject or a format, but also, through a 
dedicated staff of scholarly experts, provides in-depth reference 
services to patrons. Since the Library collects and makes accessible 
information resources in some 470 ancient and modern languages, the 
reference and subject specialists of the four international area 
studies divisions speak, read, and provide assistance in a wide variety 
of languages. In the African and Middle Eastern Division reading room, 
recognized as a major world resource center for information on Africa, 
the Middle East, the Caucasus, and Central Asia, multilingual staff 
members serve materials from 78 countries recorded in some 35 different 
languages. Their colleagues in the Asian Division reading room serve 
textual materials in some 100 languages.
    Moreover, a majority of the individual reading rooms are 
deliberately co-located with the collections they serve, not only to 
ensure efficiency of public service, but also to provide maximum 
security for Gold and Platinum-level collections. For example, the 
Prints and Photographs Division has custody of pictorial materials with 
a value of $2.2 billion. Its collections storage areas are highly 
secured and reference staff in the adjacent reading room is carefully 
trained in format-specific, safe handling techniques, and also in 
observing patrons to ensure items are not damaged through use or lost 
through theft. The same conditions of public service efficiency and 
collections security apply equally to the Music, Manuscript, Map, and 
Rare Book division reading rooms. The Main Reading Room in the 
Jefferson Building and the Science and Business Reading Room in the 
Adams Building do not serve secured, high value special collections. 
Instead, they are the access points for the general collections.
    In recent years, a decline in on-site readership has been 
experienced by all research libraries. In the digital age, much 
information (not all of it accurate or authentic) can be easily 
obtained via the Internet. However, only a tiny fraction of the 
Library's collections have been digitized. For example, some 11 million 
digital images of primary source documents (i.e., photographs, 
manuscript pages, maps) are available online, but only 2,000 of the 
Library's 29 million books have been scanned so that their full text 
can be read remotely. To gain full access to the nation's strategic 
reserve of recorded knowledge, readers must still come to Congress' 
library and to its various and specialized reading rooms. To make those 
available resources more widely known and attractive to the American 
people, the Library in general--and in particular the divisions of the 
Collections and Services Directorate--must increase public outreach.
    As a destination, the Library of Congress will be transformed once 
the tunnel from the Capitol Visitor Center is opened. The number of 
visitors is estimated to double to 2.8 million. New exhibits and 
educational experiences in the Jefferson Building will greatly expand 
the public's knowledge of the Library's magnificent resources. With the 
inauguration of the New Visitor Experience (NVE) in 2008, we intend to 
offer scheduled tours of the Jefferson Building reading rooms to make 
people aware of the Library's unsurpassed collections and reference 
services. This will likely have a direct impact in augmenting the 
number of readers, but we will need to verify such an increase through 
statistical analysis. The NVE will provide new ways to assess and 
optimize reading room space.
    Nonetheless, Library Services has already studied ways to make more 
efficient use of existing reading room space throughout the Library. 
However, we recognize the reprogramming of specialized spaces to new 
programmatic uses--including the installation of wireless technology to 
enable patrons to access Internet-based information resources such as 
electronic databases--will be a highly complicated and expensive task. 
Large collections will have to be shifted within a stack environment 
that is already overcrowded. But plans are now underway to enlarge the 
Performing Arts Reading Room--to date, serving Music Division 
collections--to incorporate service of the motion picture and recorded 
sound collections of the Motion Picture, Broadcasting & Recorded Sound 
Division, whose staff is presently being relocated to the Library of 
Congress' Packard Campus (NAVCC) in Culpeper, Virginia. Options to 
consolidate some separate reading rooms into the Main Reading Room are 
also being explored, as is the possibility of creating a centralized 
service point for all distributed microform collections. However, given 
the overriding need to provide efficient and secure service of the 
Library's disparate collections, and specialized and multilingual 
reference assistance, there will always be a requirement to have 
numerous reading rooms.
    One of the recommendations of the Final Audit Report was to develop 
a decision model for determining reading room, as well as office and 
collections storage, space requirements. However, Library Services 
decided to continue to use existing pragmatic decision models for 
determining such requirements. Determining the efficient use of all 
Library spaces, both on-site and off, will soon be enhanced by the 
introduction of a new, electronic planning tool--a Web-based Computer 
Assisted Facility Management (CAFM) program--now being populated with 
data and tested by Facility Design & Construction, Facility Services, 
Integrated Support Services.
    The single most important milestone for completing an evaluation of 
reading room space is the effect on the Library's programs of the NVE, 
due to open in the Jefferson Building in 2008. With the increase in 
visitors and an expanded awareness of the Library's research resources, 
we anticipate a rise in readership and need to at least maintain 
current levels of service in the reading rooms. At the same time, there 
may be an institutional demand for more existing spaces to be 
programmed for exhibits. This will necessitate re-evaluating the use of 
present reading rooms. Square footage is but one of a complex of 
resources and requirements to ensure effective service in a reading 
room. Nonetheless, it is a primary consideration for Library Services 
as we continually adjust our collections and public service in an 
environment of physical, societal and technological change.

                         CONCLUSION OF HEARINGS

    Senator Landrieu. Meeting recessed.
    [Whereupon, at 10:49 a.m., Thursday, May 3, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]















       LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Allard, Senator Wayne, U.S. Senator From Colorado:
    Opening Statement of.........................................    12
    Prepared Statements of......................................27, 130
    Questions Submitted by.....................................125, 227
    Statements of...............................................80, 130
Ayers, Stephen, Acting Architect of the Capitol, Architect of the 
  Capitol........................................................     1
    Opening Statement of.........................................     2
    Prepared Statement of........................................     6

Billington, Dr. James H., Librarian of Congress, Library of 
  Congress.......................................................   203
    Opening Statement of.........................................   203
    Prepared Statement of........................................   206

Camens, Barbara, Member, Board of Directors, Office of Compliance    52
    Prepared Statement of........................................    57
Chrisler, Tamara E., Acting Executive Director, Office of 
  Compliance.....................................................    52
    Prepared Statement of........................................    54

Doby, Chris, Financial Clerk, Office of the Secretary, U.S. 
  Senate.........................................................   129
Dwyer, Sheila, Assistant Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   129

Erickson, Hon. Nancy, Secretary of the Senate, Office of the 
  Secretary, U.S. Senate.........................................   129
    Prepared Statement of........................................   133
Eveleth, Peter A., General Counsel, Office of Compliance.........    52

Gainer, Hon. Terrance W., Senate Sergeant at Arms; Chairman, U.S. 
  Capitol Police Board, Sergeant at Arms and Doorkeeper, U.S. 
  Senate.........................................................    79
    Prepared Statement of........................................    84
    Statement of.................................................    82

Hoecker, Carl, Inspector General, Sergeant at Arms and 
  Doorkeeper, U.S. Senate........................................    79

Jenkins, Jo Ann, Chief Operating Officer, Library of Congress....   203

Landrieu, Senator Mary L., U.S. Senator From Louisiana:
    Opening Statements of........................................ 1, 28
    Questions Submitted by.......................................22, 72
    Statements of..........................................79, 129, 203

Morse, Phillip D., Chief, United States Capitol Police...........   105
    Prepared Statement of........................................   106
Mulhollan, Daniel P., Director, Congressional Research Service, 
  Library of Congress, Prepared Statement of.....................   217

Nichols, Dan, Assistant Chief, United States Capitol Police......   105

Orszag, Peter R., Director, Congressional Budget Office..........    49
    Prepared Statement of........................................    50

Peters, Marybeth, the Register of Copyrights, Copyright Office, 
  Library of Congress, Prepared Statement of.....................   220

Turri, William H., Acting Public Printer, Government Printing 
  Office.........................................................    43
    Prepared Statement of........................................    44

Walker, Hon. David M., Comptroller General of the United States, 
  Government Accountability Office...............................    27
    Prepared Statement of........................................    30
    Questions Submitted to.......................................    72
Willison, Drew, Deputy Sergeant at Arms, Sergeant at Arms and 
  Doorkeeper, U.S. Senate........................................    79
















                             SUBJECT INDEX

                              ----------                              
                                                                   Page

                        ARCHITECT OF THE CAPITOL

Additional:
    Committee Questions..........................................    22
    Funding......................................................     9
Annual Operating Budget Request..................................     3
Budget Increases and Project Delays..............................     2
Capitol:
    Complex Master Plan..........................................     4
        Follow Up................................................    19
        Review Process...........................................    12
    Improvement Prioritization...................................    19
    Police Construction Request..................................    12
    Power Plant..................................................    17
    Visitor Center:
        Governance...............................................    10
        Management Team..........................................     5
        Operations...............................................     5
        Tour.....................................................     1
Community Group Relationships....................................    18
Diverse Management...............................................    22
East Front Rotunda Level.........................................     5
Exhibition Hall..................................................     5
Fire Alarms:
    And HVAC Systems.............................................    10
    System Differentiation.......................................    10
Fort Meade Logistics:
    Center.......................................................    12
    Warehouse....................................................    20
Government Accountability Office:
    Recommendations..............................................    17
    Testimony....................................................    15
Information Technology Projects..................................    21
Legislative Branch Compliance....................................    13
Library of Congress Tunnel.......................................    11
Management Controls and Accountability...........................    21
Operation and Maintenance........................................    22
Operations Management............................................    14
Performance:
    Management...................................................     2
    Standards....................................................    18
Performance-based Budget.........................................    16
Power Plant Operations Expenses..................................    18
Project Management...............................................    16
Schedule Adjustments.............................................     4
Scheduling Delays................................................    15
Tunnel Condition Assessment......................................    15
Utility Tunnels..................................................    14
Visitor Traffic Flow.............................................    11
West Refrigeration Plant.........................................    23

                      CONGRESSIONAL BUDGET OFFICE

Healthcare.......................................................    49
    Costs........................................................    67
Operating Under the Continuing Resolution........................    69

                    GOVERNMENT ACCOUNTABILITY OFFICE

Additional Committee Questions...................................    71
Coordination of Federal, State, and Local Governments............    68
GAO:
    Fiscal Year 2008:
        Budget Request...........................................    29
        Request to Support the Congress..........................    39
    Operations Under the Continuing Resolution...................    76
    Supplemental.................................................    77
    Technology Assessment........................................    75
Hiring in a Competitive Job Market...............................    60
Human Capital Issues.............................................    72
Implementing a Technology Assessment at the Government 
  Accountability Office..........................................    61
Justification for Increased Funding in the Government 
  Accountability Office..........................................    58
Key Efforts to Support the Congress..............................    33
Linking Resources to Results.....................................    59
Market-Based Compensation at the Government Accountability Office    60
Need for Increased Funding.......................................    58
Outcomes of Our Work and the Road Ahead..........................    37
Performance, Results, and Plans..................................    35
Proposed Repeal and Modification of GAO Reporting Requirements...    62
Proposed Transfer of Comptroller General Authorities.............    63
Rebuilding Government Accountability Office Over the Next 6 Years    30
Relevance of Existing Mandates...................................    62
Staffing.........................................................    72

                       GOVERNMENT PRINTING OFFICE

Appropriations Request...........................................    44
Federal Depository Library Program...............................    67
Fiscal Year 2008 Appropriations Request..........................    46
Government Printing Office.......................................    44
    Finances.....................................................    64
Passports........................................................    65
Preparing for a Digital Future...................................    45
Production Facility..............................................    66
Results of 2006..................................................43, 45
Special Documents................................................    65

                          LIBRARY OF CONGRESS

Acquisitions.....................................................   204
Additional Committee Questions...................................   226
Architect of the Capitol--Library of Congress Buildings and 
  Grounds........................................................   212
Books for the Blind............................................223, 230
Budget and Library-wide goals....................................   224
Calendar Year 2006 Activities....................................   214
Core Values......................................................   218
CRS:
    Documents on ``Gallery Watch''...............................   231
    Earmark Reporting Policy.....................................   232
Digital Talking Books............................................   204
Evolving Mission.................................................   224
Fiscal Year 2008 Budget Request...........................216, 217, 222
Library Role in Dynamic Information Age..........................   223
Logistics Center.................................................   233
    At Fort Meade................................................   204
Management Initiatives...........................................   219
National Digital Information Infrastructure and Preservation 
  Program........................................................   229
    And Other Priorities.........................................   226
    Rescission...................................................   204
New Strategic Plan...............................................   224
Open World:
    In America...................................................   215
    Leadership Center............................................   212
    2007 and Plans for 2008......................................   216
Performance-based Budgeting....................................225, 227
Program Mission and Strategic Plan...............................   213
Proposed Changes to Legislative Language.........................   212
Reengineering Program............................................   221
Research Agenda..................................................   218
Results and Impact of Program....................................   215
Review of Copyright Office Work..................................   220
Scope of Program.................................................   216
Space Utilization................................................   234
Teaching With Primary Sources....................................   233
The Library and Its Programs.....................................   206
The Library's:
    Fiscal Year 2008 Budget Request..............................   208
    Funding Priorities...........................................   209
Working With Partners............................................   205

                          OFFICE OF COMPLIANCE

Additional Full-time Equivalent Positions........................    53
Dispute Resolution...............................................    56
Education and Outreach...........................................    55
Fire Alarm Testing in the Capitol Visitor Center.................    70
Management Support...............................................    56
Monitoring Abatement of Most Serious Hazards.....................    53
Occupational Safety and Health...................................    54
Office of Compliance:
    As Resource to Legislative Branch............................    52
    Strategic Plan Guides Budget Request.........................    52
Workload Due to Capitol Visitor Center...........................    70

                      UNITED STATES CAPITOL POLICE

Additional Committee Questions...................................   125
Chief Morse's Departmental Vision................................   115
Civilian Positions in Office of Financial Management.............   117
Comparison of Starting Salaries Between USCP and Local 
  Jurisdictions..................................................   123
Coordinating With Surrounding Local Police Departments...........   119
Departmental Accountability......................................   112
Financial Management.............................................   126
Government Accountability Office Report Recommendations..........   112
Library of Congress Police Merger................................   121
Managing Visitors to the U.S. Capitol............................   117
New Civilian Positions...........................................   116
Staffing and Overtime............................................   120
Sworn Staffing...................................................   125
Tunnel Access....................................................   118

                              U.S. SENATE

                        Office of the Secretary

Administrative Offices...........................................   161
Budget Request...................................................   131
Capitol Visitor Center...........................................   135
Continuity of Operations and Emergency Preparedness Planning.....   136
Crosstraining....................................................   201
Curator..........................................................   132
Disbursing Office................................................   133
Financial Operations: Disbursing Office..........................   146
Implementing Mandated Systems....................................   134
Legislative:
    Department...................................................   131
    Information System (LIS) Project.............................   193
    Offices......................................................   136
Merit Increases..................................................   200
Parliamentarian..................................................   132
Presenting the Fiscal Year 2008 Budget Request...................   133
Primary Goals....................................................   195
Senate:
    Employment Study.............................................   196
    Historian....................................................   132
Stationery Room..................................................   132
Student Loan Reimbursement Program...............................   199
Webster..........................................................   200

                    Sergeant at Arms and Doorkeeper

Comparison of United States Capitol Police Salaries to Local 
  Jurisdictions..................................................   122
Coordinating With Surrounding Local Police Departments...........   119
Impact of the Capitol Visitor Center Delay.......................   111
Information Technology--A Strategy for Security and Customer 
  Service........................................................    90
Introduction.....................................................    84
Operations and Support: Consistently Delivering Excellent Service    95
Priorities of the Inspector General..............................   115
Risk and Vulnerability Assessment................................   111
Role of Former Metropolitan Police Chief Ramsey..................   114
Security and Preparedness: Protecting the Senate and Planning for 
  the Unknown....................................................    85
Security:
    In the Capitol Complex.......................................   113
    On the Capitol Campus........................................   109
Semiannual Congressional Report..................................   115
Senate Sergeant at Arms Staffing Level...........................   113
Sergeant at Arms Comprehensive Strategic Plan....................   114
Telecommunications Modernization Program.........................   111
Tunnel Access....................................................   118
U.S. Secret Service Security Assessment..........................   110
United States Capitol Police Salary Budget Increases.............   122
Visitor Stratification...........................................   118

                                   - 



</pre></body></html>
